<html>
<title> - H.R. 4742, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT TO PROVIDE FLEXIBILITY FOR FISHERY MANAGERS AND STABILITY FOR FISHERMEN, AND FOR OTHER PURPOSES, ``STRENGTHENING FISHING COMMUNITIES AND INCREASING FLEXIBILITY IN FISHERIES MANAGEMENT ACT''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
  H.R. 4742, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
    MANAGEMENT ACT TO PROVIDE FLEXIBILITY FOR FISHERY MANAGERS AND 
   STABILITY FOR FISHERMEN, AND FOR OTHER PURPOSES, ``STRENGTHENING 
FISHING COMMUNITIES AND INCREASING FLEXIBILITY IN FISHERIES MANAGEMENT 
                          ACT''--PART 1 AND 2

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   Tuesday, February 4, 2014 (Part 1)

                   Friday, February 28, 2014 (Part 2)

                               __________

                           Serial No. 113-59

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

86-568 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
        
          
          
          
          
          
          
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Rauul R. Labrador, ID                Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Steve Daines, MT                     Matt Cartwright, PA
Kevin Cramer, ND                     Katherine M. Clark, MA
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 4, 2014 (Part 1)...............     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     4
        Prepared statement of....................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Deem, Jeff, Representing the Recreational Fishing Alliance...    77
        Prepared statement of Jim Donofrio, Executive Director, 
          Recreational Fishing Alliance..........................    78
    Geiger, George J., Owner and Operator, Chances Are Fishing 
      Charters...................................................    72
        Prepared statement of....................................    73
    Giacalone, Vito, Policy Director, Northeast Seafood Coalition    60
        Prepared statement of....................................    62
        Questions submitted for the record.......................    63
    Krebs, David A. Jr., President, Ariel Seafoods, Inc., 
      Representing the Gulf Seafood Institute....................    66
        Prepared statement of....................................    68
    Marks, Rick E., Robertson, Monagle & Eastaugh, PC............    51
        Prepared statement of....................................    53
    Pikitch, Ellen K., Ph.D., Professor and Executive Director, 
      Institute for Ocean Conservation Science, School of Marine 
      and Atmospheric Sciences, Stony Brook University...........    84
        Prepared statement of....................................    86
    Rauch, Samuel D. III, Deputy Assistant Administrator, 
      National Marine Fisheries Service, National Oceanic and 
      Atmospheric Administration.................................     7
        Prepared statement of....................................     9
    Robins, Richard B. Jr., Chair, Mid-Atlantic Fishery 
      Management Council.........................................    17
        Prepared statement of....................................    19
        Question submitted for the record........................    26

Additional Materials Submitted for the Record:
    Fina, Mark, Senior Policy Analyst, United States Seafood
        Prepared statement of....................................   102
        Questions submitted for the record.......................   109
    List of documents submitted for the record retained in the 
      Committee's official files.................................   117
    Regional Fishery Management Council Coordination Committee, 
      Letter submitted for the record............................   111
    Rep. Rick Larsen and Don Young, Letter submitted for the 
      record to National Marine Fisheries Service................   110
    State Fish and Wildlife Agencies, Prepared statement of......   111
    Western Pacific Fishery Management Council, Prepared 
      statement of...............................................   115



                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, February 28, 2014 (Part 2)...............   119

Statement of Witnesses:
    Grader, W.F. ``Zeke'', Jr., Executive Director, Pacific Coast 
      Federation of Fishermen's Associations.....................   143
        Prepared statement of....................................   145
    Lowman, Dorothy, Chair, Pacific Fishery Management Council...   125
        Prepared statement of....................................   126
        Questions submitted for the record.......................   130
    Pooley, Samuel, Director, NOAA Pacific Islands Fisheries 
      Science Center.............................................   119
        Prepared statement of....................................   121
        Questions submitted for the record.......................   123
    Rees, Bob, North Coast Chapter President, Association of 
      Northwest Steelheaders.....................................   133
        Prepared statement of....................................   134
        Question submitted for the record........................   136
    Shelley, Peter, Vice President, Conservation Law Foundation..   137
        Prepared statement of....................................   138

Additional Materials Submitted for the Record:
    Frady, Troy C.D., Owner/Operator, Distraction Charters, 
      Prepared statement of......................................   168
    Members of the House National Marine Sanctuary Caucus, Letter 
      submitted for the record...................................   165
    Senators Reed and Whitehouse, Representatives Langevin and 
      Cicilline, from Rhode Island, Letter submitted for the 
      record.....................................................   166
                                     



LEGISLATIVE HEARING ON H.R. 4742, TO AMEND THE MAGNUSON-STEVENS FISHERY 
  CONSERVATION AND MANAGEMENT ACT TO PROVIDE FLEXIBILITY FOR FISHERY 
     MANAGERS AND STABILITY FOR FISHERMEN, AND FOR OTHER PURPOSES, 
   ``STRENGTHENING FISHING COMMUNITIES AND INCREASING FLEXIBILITY IN 
                   FISHERIES MANAGEMENT ACT''--PART 1

                              ----------                              


                       Tuesday, February 4, 2014

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:10 a.m., in 
room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Wittman, Fleming, 
McClintock, Duncan, Southerland, Mullin, LaMalfa, McAllister, 
Byrne, DeFazio, Pallone, Napolitano, Holt, Bordallo, Costa, 
Sablan, Tsongas, Hanabusa, Horsford, Huffman, Shea-Porter, 
Garcia, and Clark.
    Also present: Representative Tierney.
    The Chairman. The committee will come to order, and the 
Chairman notes the presence of a quorum, which I thank Members 
on both sides of the aisle here.
    We are here today for a legislative hearing on the 
discussion draft titled, ``Strengthening Fishing Communities 
and Increasing Flexibility in Fisheries Management Act.'' Or, 
put another way, the reauthorization of the Magnuson-Stevens 
Act.
    I will now recognize myself for my opening statement, and 
we will get the witnesses up there.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. So I would like to welcome our witnesses for 
today's hearing on a discussion draft for the reauthorization 
of the Magnuson-Stevens Fishery Conservation and Management 
Act.
    Since 2011, eight full committee or subcommittee hearings 
relating to the reauthorization and Federal fisheries 
management have been held. This hearing will be the ninth in 
that series.
    In addition to our hearings, eight regional fishery 
management councils held a national conference specifically on 
reauthorization issues. Each of the eight Councils submitted 
recommendations to that conference, and the result of the 
conference was yet another set of recommendations. The National 
Academy of Sciences also released a report detailing additional 
recommendations on the rebuilding provisions of the Act.
    With all of the activity focused on the reauthorization, it 
certainly should not be a surprise that all of those 
recommendations were reviewed, and many of them were assembled 
into a bill. The bill is a discussion draft that was released 
and circulated in mid-December, about a month and a half ago.
    The draft is entitled the ``Strengthening Fishing 
Communities and Increasing Flexibility in Fishery Management 
Act.'' It has been released as a draft, rather than as an 
introduced bill with text locked in stone to allow for public 
discussion, review, and comment. The intent is to seek feedback 
and listen to input. I would note that many of the provisions 
in the draft also came from or were influenced by legislation 
introduced in the past Congress by Congressmen Wittman, 
Pallone, Runyan, Jones, and our former colleague from 
Massachusetts, Barney Frank.
    In the hearings we have held, there was general agreement 
that the Act is working. I have said all along that I believe 
the Act is fundamentally sound. And success does not mean the 
Act works perfectly, or should not be modified or improved. We 
have heard at almost every hearing that the balance between 
preventing overfishing and optimizing the yield from our 
fisheries has become unbalanced, and that additional 
flexibility for fisheries managers should be added.
    The revisions in the discussion draft uphold the 
underpinnings of the Act. But let me be clear about what this 
discussion draft does not do. It does not eliminate the 
requirements that Councils and the Secretary stop overfishing. 
It does not eliminate the requirement that Councils and the 
Secretary rebuild overfished fisheries. It does not eliminate 
the requirement that Councils and the Secretary develop and 
implement annual catch limits. It does not eliminate the 
requirement for accountability measures. It does not eliminate 
the requirement that management decisions should be based on 
science.
    This draft addresses the requests of fishermen, fishing 
communities, fishery management councils, and the 
recommendations of the National Academy of Sciences that the 
Act be modified to provide fishery managers with more 
flexibility. That is the key word in this discussion draft: 
flexibility.
    The draft provides the Councils with more flexibility in 
how they rebuild fisheries, and it provides Councils with 
flexibility in how the Councils set the annual catch limits. 
But it does not eliminate these requirements. This discussion 
draft maintains that requirement to stop overfishing, a 
requirement to rebuild overfished fisheries, and the 
requirement to set annual catch limits. But it provides more 
flexibility for better local decisions to achieve these goals.
    The testimony throughout these last 3 years--or, I should 
say, in testimony through the last 3 years, we have heard that 
the 2006/2007 amendments, while well intentioned, may have gone 
too far in restricting the ability of fishery managers, and the 
Councils, in particular, from making management decisions that 
include a calculation of the economic impact on coastal and 
fishery-dependent communities.
    I have noticed that some people oppose providing more 
flexibility to allow fishery managers to take the economic 
impact of fishing restrictions and environmental conditions 
into account when implementing these restrictions. That may be 
because those people are not directly affected by the sometimes 
draconian economic impacts. But the fishermen who are directly 
impacted have requested flexibility. The fishery managers who 
have to implement the restrictions have requested flexibility, 
and the National Academy of Sciences has recommended 
flexibility.
    So, I would further invite comments on the discussion draft 
with the understanding that the intent is to move forward on 
this legislation with the goal of reauthorizing the Act by the 
end of the year.
    [The prepared statement of Mr. Hastings follows:]
Prepared Statement of Hon. Doc Hastings, Chairman, Committee on Natural 
                               Resources
    I would like to welcome our witnesses for today's hearing on the 
discussion draft for the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act.
    Since 2011, eight full committee or subcommittee hearings related 
to the reauthorization and Federal fisheries management have been held. 
This hearing will be the ninth.
    In addition to our hearings, the eight regional fishery management 
councils held a national conference specifically on reauthorization 
issues. Each of the eight Councils submitted recommendations to that 
conference and the result of the conference was yet another set of 
recommendations. The National Academy of Sciences also released a 
report detailing additional recommendations on the rebuilding 
provisions of the Act.
    With all of that activity focused on the reauthorization, it 
certainly should not be a surprise that all of those recommendations 
were reviewed, and then many were assembled into a bill. That bill is 
the discussion draft that was released and circulated in mid-December. 
It is titled H.R. 4742--The ``Strengthening Fishing Communities and 
Increasing Flexibility in Fisheries Management Act''.
    It has been released as a draft rather than as an introduced bill 
with text locked in stone to allow for public discussion, review and 
comment. The intent is to seek feedback and listen to input. I would 
note that many of the provisions in the draft also came from or were 
influenced by legislation introduced in the last Congress by 
Congressmen Wittman, Pallone, Runyan, Jones, and our former colleague, 
Barney Frank.
    In the hearings we've held, there was general agreement that the 
Act is working. I have said all along that I believe the Act is 
fundamentally sound. But success does not mean the Act works perfectly 
or should not be modified or improved. We have heard at almost every 
hearing that the balance between preventing overfishing and optimizing 
the yield from our fisheries has become unbalanced and that additional 
flexibility for fisheries managers should be added.
    The revisions in the discussion draft uphold the underpinnings of 
the Act. Let me be clear about what this discussion draft does not do--
it does not eliminate the requirements that Councils and the Secretary 
stop overfishing. It does not eliminate the requirement that Councils 
and the Secretary rebuild overfished fisheries. It does not eliminate 
the requirement that Councils and the Secretary develop and implement 
annual catch limits. It does not eliminate the requirement for 
accountability measures. It does not eliminate the requirement that 
management decisions be based on science. This draft addresses the 
requests of fishermen, fishing communities, fishery management 
Councils, and the recommendations of the National Academy of Sciences 
that the Act be modified to provide fishery managers with more 
flexibility. That is the key word: flexibility.
    The draft provides the Councils with more flexibility in how they 
rebuild fisheries, and it provides Councils with flexibility in how the 
Councils set the annual catch limits. But it does not eliminate those 
requirements. This discussion draft maintains the requirement to stop 
overfishing, the requirement to rebuild overfished fisheries, and the 
requirement to set annual catch limits--but it provides more 
flexibility for better, local decisions to achieve these goals.
    In testimony through the last 3 years, we have heard that the 2006/
2007 amendments, while well intentioned, may have gone too far in 
restricting the ability of fishery managers, and the Councils in 
particular, from making management decisions that include a calculation 
of the economic impact on coastal and fishery dependent communities.
    I have noticed that some people oppose providing more flexibility 
to allow fishery managers to take the economic impact of fishing 
restrictions and environmental conditions into account when 
implementing those restrictions. That may be because those people are 
not directly affected by the sometimes draconian economic impacts. But 
the fishermen who are directly impacted have requested flexibility. The 
fishery managers who have to implement the restrictions have requested 
flexibility. And the National Academy of Sciences has recommended 
flexibility.
    I invite further comments on the discussion draft with the 
understanding that the intent is move forward on legislation with the 
goal of reauthorizing the Act by the end of this year.
    I look forward to today's testimony.

                                 ______
                                 

    The Chairman. So, I look forward to the witnesses' 
testimony, and I recognize the Ranking Member.

  STATEMENT OF THE HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I would like to 
welcome a Member from Massachusetts, Mr. Tierney, here today, 
who along with many other Members has a very direct interest in 
this.
    I have a bicoastal concern and knowledge of this industry. 
Actually, my dad ran a camp for inner-city kids on Cape Cod in 
the summertime growing up. He was a teacher. And one of our 
neighbors was a fisherman. And I have been to the Georges Banks 
on a small boat, and I kind of understand what that kind of 
life is all about. I also--I have been in Oregon now for a very 
long time, and I represent half the Oregon coast. And we have 
very robust fisheries there.
    And, it is an ongoing work in progress to balance the 
conservation needs with the economic needs. And I think the 
Pacific Council has been doing a pretty good job, but they can 
do better in a number of areas.
    I heard a lot of ``nots'' from the Chairman, and I guess 
that--well, let me back up for a minute. When we held the 
hearings in the fall, I thought that this would be an issue on 
which we could work on a bipartisan basis, with the current 
concerns that were raised. None of the witnesses said, ``Let's 
do away with the Magnuson Act and its requirements.'' And I 
just heard the Chairman give a long litany of what we are not 
doing. But, unfortunately, I read the legislation a little 
differently with a number of exceptions that are provided. And, 
in the end, even after you go through the whole list of 
exceptions on which you can delay rebuilding of a stock, you--
the Councils, at least in my interpretation, under this bill 
are given total license to ignore any and all quantitative 
science that is provided to them about stocks, and just decide 
that a stock is not overfished. It is kind of like the biblical 
passage, making fish that fill previously empty nets. It was a 
miracle in those days, and we are going to try to do it 
legislatively.
    As Gerry Studds said many years ago, ``Without fish, there 
is no fishing industry.'' So, there is a balance here that has 
to constantly be struck between devastating the communities 
dependent upon these fisheries and people whose livelihood is 
at stake, and the future of those stocks for those fishermen 
and women.
    So, I have a lot of concerns about many of the provisions 
of this draft. And there are a number of things it doesn't look 
at, which are real problems, too. Cooperative research and 
management, I think that is a big problem, we need more of 
that. Pirate fishing, no new provisions there. Refinancing, at 
least from a parochial perspective, the West Coast ground 
fishery buyout, which has been set up in a very inequitable and 
unaffordable way, we don't deal with that. Conflicts with ocean 
energy development, putting prime fishing areas at risk or off 
limits, nothing in the bill about that, and I think that is a 
big, 21st-century problem for our fishermen, in dealing with 
BOEM.
    And then, there is a particularly troubling issue that 
relates to giving the Councils the authority to OK, without any 
environmental review, large-scale, offshore fish farms full of 
GMO fish, which I think are an unbelievable threat to the 
future of, particularly, salmon. I mean we have these new, 
enhanced salmon, and they say--they have said to me, ``Don't 
worry,'' you know, ``most of them are sterile, and they won't 
get out, anyway.'' Well, let's think about a floating net pen 
fishery full of GMO salmon off the West Coast, and what 
potential havoc that could wreak with the recovery of salmon on 
which my people are paying $400 million or more a year to 
operate our hydro system differently to help recover salmon, in 
addition to a whole host of other measures. We are putting 
those things at risk with some of these thoughtless provisions 
in this bill, to basically just give the Councils total license 
to do whatever they want. That is the bottom line with this 
bill.
    If all those ``nots'' that the Chairman talked about are 
sincere, then we need to make a lot of revisions to this bill 
to deliver on the promise that it is not doing those things. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. DeFazio follows:]
Prepared Statement of Hon. Peter A. DeFazio, Ranking Member, Committee 
                          on Natural Resources
    It is unfortunate that we find ourselves here today debating 
legislation that the Democratic side of the aisle had no part in 
developing. Despite our offers to work cooperatively on issues of 
concern to our fishermen--issues like cooperative research and 
management, curtailing pirate fishing, and refinancing the west coast 
groundfish fishery's buyout--the legislation we are discussing here 
today addresses none of those concerns.
    Instead, we are considering legislation that would undo 20 years of 
fisheries reforms fought for by members like Gerry Studds from 
Massachusetts and Ted Stevens from Alaska. No fisheries dilettantes, 
these Members represented and worked closely with the fishing industry 
throughout their decades in Congress. They knew the challenges fishing 
communities faced, and they knew the economic importance of fishing to 
their districts and their constituents--in fact, this is what drove 
them to push for the passage of the Magnuson Act in 1976. Yet, they 
also knew, as Studds would often say, ``that without fish, there is no 
fishing industry.''
    They watched in the late 1980s and early 1990s--in the heyday 
following the passage of the Act--as a rapidly growing industry 
harvested many fish stocks around the country at rates far beyond what 
was scientifically advisable or economically sustainable. They saw 
short-term political and economic pressures drive Councils to allow 
overfishing and ignore rebuilding. In New England, they saw ground fish 
stocks collapse, costing the industry hundreds of millions of dollars a 
year in lost revenue.
    By 1995, it was clear things had to change. As Senator Stevens said 
in 1996, ``If the fisheries management councils have allowed a fishery 
to become overfished, we want it to be stopped immediately.''
    Sadly, this bill undermines fundamental reforms added to the law in 
1996 and 2006, most notably the requirements for Councils to end 
overfishing immediately, rebuild overfished stocks within 10 years, and 
set science-based annual catch limits.
    Under the guise of flexibility, the bill would transport us back in 
time, allowing the Councils to once again to set catch limits based on 
economic and social considerations, and eliminating timelines for 
returning stocks to healthy levels that will sustain fishing 
communities.
    Even more remarkable, this bill says if a Council decides a fishery 
is not overfished, then--poof--it is not and the rebuilding 
requirements of the law no longer apply. Making fish fill previously 
empty nets used to be the stuff of miracles--now apparently anyone can 
do it. This make-believe does not just apply to fish. A water bill we 
will debate on the House Floor tomorrow takes a similar approach, 
ignoring the fact that California is in the middle of the worst drought 
it has ever seen.
    And as they have done with drought, Committee Republicans are using 
a serious situation as an opportunity to push other polarizing 
provisions. In the case of the bill before us today, that means rolling 
back environmental laws like NEPA, the ESA, and the Antiquities Act.
    We cannot just pretend there is more water or more fish, or 
conveniently blame the law for shortages. We have to make hard choices 
about conservation that, in the case of fish, will lead to more stable 
and profitable fisheries and stronger fishing communities. As Sam Rauch 
will tell us here again today, the Act is working. Overfishing is at an 
all-time low, and fisheries landings and revenue are at or near all-
time highs. Now is not the time to forgo the progress we have made.
    In closing, Mr. Chairman, I think it is regretful we are going down 
this path and missing some of the real challenges facing the fishing 
industry today. And because we do not think this hearing provides 
sufficient opportunity for a wide range of voices to be heard, I am 
submitting my request under Rule 11 that another hearing be held where 
the minority can invite additional witnesses to discuss these very 
important issues.

                                 ______
                                 

    The Chairman. I thank the Ranking Member. And I apologize 
for Mr. Tierney, I didn't see you there. So I ask unanimous 
consent that Mr.----
    Mr. DeFazio. I forgot, Mr. Chairman----
    The Chairman. Well, see, that is my one way of getting back 
at you, by me making the unanimous consent request.
    [Laughter.]
    Mr. DeFazio. Doc, come on, please. I am--oh, I have another 
one, though, OK? Can I ask this one?
    The Chairman. Yes, go ahead.
    Mr. DeFazio. OK. I ask unanimous consent that the 
previously mentioned Mr. Tierney be allowed to sit on the dais 
for today's hearing.
    [No response.]
    The Chairman. Without objection, so ordered.
    Mr. DeFazio. OK. And then, Mr. Chairman, I--the Minority 
can invite additional witnesses to discuss a number of 
provisions in the bill.
    The Chairman. The request is noted.
    Mr. DeFazio. Thank you, Mr. Chairman.
    The Chairman. I am pleased to welcome our first panel here. 
We have Mr. Samuel Rauch III, who is Deputy Assistant 
Administrator of the National Marine Fisheries Service, part of 
the National Oceanic and Atmospheric Administration, or NOAA. 
And we have Mr. Richard B. Robins, Jr., Chair of the Mid-
Atlantic Fishery Management Council.
    I want to thank both of you for appearing today. Just to 
give you the rules here, if you have not had the opportunity to 
testify before, your full statement that we ask of you will 
appear in the record. But we would ask that you keep your oral 
remarks to within the 5 minutes.
    And the way the lights work, when the green light is going 
you are doing very well. But when the yellow light comes on, 
that means there is a minute to go. And when the red light 
comes on, that means your time is absolutely exhausted. So with 
that, if you can keep your remarks within that timeframe, we 
would appreciate that.
    And, Mr. Rauch, we will recognize you for 5 minutes.

      STATEMENT OF SAMUEL D. RAUCH III, DEPUTY ASSISTANT 
  ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE, NATIONAL 
             OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Rauch. Good morning, Mr. Chairman, Ranking Member 
DeFazio, and members of the committee. Thank you for the 
opportunity to testify before you today. My name is Samuel 
Rauch, and I am the Deputy Assistant Administrator for 
regulatory programs at NOAA's National Marine Fisheries 
Service.
    Marine fish in fisheries, such as halibut in Alaska, salmon 
in the Pacific Northwest, tropical tunas in the Western and 
Central Pacific, cod in New England, and red snapper in the 
Gulf of Mexico, are vital to the prosperity and cultural 
identity of coastal communities in the United States.
    They also play an enormous role in the U.S. economy. Our 
most recent economic statistics show that U.S. commercial 
fishermen landed 9.6 billion pounds of seafood, valued at $5.1 
billion, in 2012, the second-highest landing volume and value 
over the past decade. The seafood industry generated an 
estimated $129 billion in sales impacts, and 37 billion in 
income impacts, and supported 1.2 billion jobs in 2011. 
Recreational fishing generated an estimated $56 billion in 
sales impacts, and 18 billion in economic impacts, and 
supported 364,000 jobs in 2011.
    The success we are seeing is a product of the hard work and 
ingenuity by the industry, and a sound Federal fishery 
management system that is effectively rebuilding fisheries.
    Since its initial passage in 1976, the Magnuson-Stevens Act 
has charted a groundbreaking course for sustainable fisheries. 
Today, the law requires rebuilding plans for overfished stocks 
and annual catch limits and accountability measures to prevent 
overfishing. Ending overfishing and rebuilding depleted 
fisheries brings significant biological, economic, and social 
benefit. The Federal Fishery Management System is effectively 
ending overfishing and rebuilding overfished fisheries. And, as 
a result, U.S. fisheries are producing sustainable U.S. 
seafood.
    Under the Magnuson-Stevens Act, if a stock is determined to 
be overfished, the Council has 2 years to develop a rebuilding 
plan. By statute, the period to rebuild a stock may not exceed 
10 years, but it permits a longer time period in cases where 
the biology of the fish stocks and international agreement or 
other environmental conditions dictate otherwise. Of the 43 
active rebuilding plans with a target time to rebuild, 23 of 
them are set longer than 10 years right now.
    For example, the Pacific yelloweye rockfish has a 
rebuilding time of 71 years, and red snapper in the Gulf of 
Mexico is 32 years. The remaining 20 rebuilding plans are set 
for 10 years or less. Flexibility also exists under the Act to 
adjust rebuilding plans when a stock is failing to make 
adequate progress, or when new scientific information indicates 
changing conditions.
    To successfully rebuild, we must first end overfishing. 
Annual catch limits, or ACLs, are a powerful tool to accomplish 
this. Prior to the implementation of ACLs, a number of 
rebuilding plans experienced difficulty in ending overfishing. 
Nine of the 20 stocks currently in rebuilding had failed to end 
overfishing as of their last stock assessment. However, ACLs 
are now in place, and we anticipate the next stock assessment 
for these species to confirm that overfishing has ended. With 
the implementation of ACLs and accountability measures, we 
expect the number of stocks on our overfishing list to continue 
to decrease, and to see further declines in the number of 
overfished stocks, and see increases in the number of rebuilt 
stocks.
    Challenges still remain, however. Fishermen, fishing 
communities, and the Councils have had to make difficult 
decisions to absorb the near-term cost of conservation and 
investment in long-term economic and biological sustainability.
    Without high-quality fishery science, we cannot be 
confident the Nation is attaining optimum yield from its 
fisheries, or that we are preventing overfishing and harm to 
the ecosystems of fishing communities. That is why NMFS is 
committed to generating the best fishery science and research 
to support the goals of the Magnuson-Stevens Act. The 
importance of increasing the frequency of stock assessments, 
improving the quality of fisheries science with a better 
understanding of ecosystem factors, investing in cooperative 
research and electronic monitoring technology, and enhancing 
our engagement with fishermen cannot be stressed enough. 
Partnerships with industry and academia are a key component of 
successful fisheries management.
    We all share the common goal of healthy fisheries that can 
be sustained for generations. Without clear, science-based 
rules, fair enforcement, and a shared commitment to sustainable 
management, short-term pressures can easily undermine progress 
toward restoring the social, economic, and environmental 
benefits of a healthy fishery. As we look to the future, we 
must look for opportunities to build on the successes we are 
seeing now. We need to approach the challenges we are facing in 
our fisheries in a holistic, deliberative, and thoughtful way 
that includes input from a wide range of stakeholders who care 
deeply about these issues.
    While NOAA has not yet completed its review of the draft 
bill, we look forward to continuing to work with you on this 
complex and important issue.
    Thank you again for inviting me to testify before the 
committee today, and I am happy to answer any questions you may 
have.
    [The prepared statement of Mr. Rauch follows:]
      Prepared Statement of Samuel D. Rauch III, Deputy Assistant 
   Administrator for the National Marine Fisheries Service, National 
                 Oceanic and Atmospheric Administration
                              introduction
    Good morning, Mr. Chairman and members of the committee. Thank you 
for the opportunity to testify before you today. My name is Samuel D. 
Rauch and I am the Deputy Assistant Administrator for the National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Fisheries Service (NMFS) in the Department of Commerce. NMFS is 
dedicated to the stewardship of living marine resources through 
science-based conservation and management. Much of this work occurs 
under the Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act), which sets forth standards for conservation, 
management, and sustainable use of our Nation's fisheries resources.
    Marine fish and fisheries--such as tropical tunas in the Western 
and Central Pacific, salmon in the Pacific Northwest, halibut in 
Alaska, cod in New England and red snapper in the Gulf of Mexico--are 
vital to the prosperity and cultural identity of coastal communities in 
the United States. U.S. fisheries play an enormous role in the U.S. 
economy. Commercial fishing supports fishermen, contributes to coastal 
communities and businesses, and provides Americans with a valuable 
source of local, sustainable, and healthy food. Non-commercial and 
recreational fishing provides food for many individuals, families, and 
communities; is an important social activity; and is a critical 
economic driver of local and regional economies, as well as a major 
contributor to the national economy. Subsistence and ceremonial fishing 
provides an essential food source and has deep cultural significance 
for indigenous peoples in the Pacific Islands and Alaska and for many 
Tribes on the West Coast.
    Our most recent estimates show that the landed volume and the value 
of commercial U.S. wild-caught fisheries remained near the high levels 
posted in 2011. U.S. commercial fishermen landed 9.6 billion pounds of 
seafood valued at $5.1 billion in 2012, the second highest landings 
volume and value over the past decade.\1\ The seafood industry--
harvesters, seafood processors and dealers, seafood wholesalers and 
seafood retailers, including imports and multiplier effects--generated 
an estimated $129 billion in sales impacts and $37 billion in income 
impacts, and supported 1.2 million jobs in 2011. Jobs supported by 
commercial businesses held steady from the previous year.\2\
---------------------------------------------------------------------------
    \1\ See NOAA Annual Commercial Fisheries Landings Database, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
    \2\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
---------------------------------------------------------------------------
    At the same time, recreational catch remained stable. Recreational 
fishing generated an estimated $56 billion in sales impacts and $18 
billion in income impacts, and supported 364,000 jobs in 2011.\3\ Jobs 
generated by the recreational fishing industry represented a 12 percent 
increase over 2010.\4\
---------------------------------------------------------------------------
    \3\ Lovell, Sabrina, Scott Steinback, and James Hilger. 2013. The 
Economic Contribution of Marine Angler Expenditures in the United 
States, 2011. U.S. Dep. Commerce, NOAA Tech. Memo. NMFS-F/SPO-134, 188 
p.
    \4\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
---------------------------------------------------------------------------
    The advancement of our science and management tools has resulted in 
improved sustainability of fisheries and greater stability for 
industry. Key requirements in the 2007 reauthorization mandated the use 
of science-based annual catch limits and accountability measures to 
better prevent and end overfishing. The reauthorization provided more 
explicitly for market-based fishery management through Limited Access 
Privilege Programs, and addressed the need to improve the science used 
to inform fisheries management.
    The United States has many effective tools to apply in marine 
fisheries management. Yet, as we look to the future, we must continue 
looking for opportunities to further improve our management system. 
While significant progress has been made since the 2007 
reauthorization, progress has not come without a cost to some. 
Challenges remain. Fishermen, fishing communities, and the Councils 
have had to make difficult decisions and absorb the near-term cost of 
conservation and investment in long-term economic and biological 
sustainability.
    We all share the common goal of healthy fisheries that can be 
sustained for generations. Without clear, science-based rules, fair 
enforcement, and a shared commitment to sustainable management, short-
term pressures can easily undermine progress toward restoring the 
social, economic, and environmental benefits of a healthy fishery. 
Although challenges remain in some fisheries, the benefits for the 
resource, the industries it supports, and the economy are beginning to 
be seen as fish populations grow and catch limits increase.
    My testimony today will focus on NMFS' progress in implementing the 
Magnuson-Stevens Act's key domestic provisions, and some thoughts about 
the future and the next reauthorization. NOAA has not yet completed 
review of the draft bill but looks forward to working with Congress on 
this complex issue.
                       progress in implementation
    Working together, NMFS, the Councils, coastal States and 
territories, treaty fishing tribes, and a wide range of industry groups 
and other stakeholders have made significant progress in implementing 
key provisions of this legislation.
Ending Overfishing and Rebuilding Fisheries
    U.S. fisheries are producing sustainable U.S. seafood. The Federal 
fishery management system is effectively ending overfishing and 
rebuilding overfished fisheries. We continue to make progress toward 
long-term biological and economic sustainability and stability. Since 
its initial passage in 1976, the Magnuson-Stevens Act has charted a 
groundbreaking course for sustainable fisheries. When reauthorized in 
2007, the Act gave the eight Regional Fishery Management Councils and 
NMFS a very clear charge and some new tools to support improved science 
and management. We are now seeing the results of those tools. As of 
December 31, 2013, 91 percent of stocks for which we have assessments 
are not subject to overfishing, and 82 percent are not overfished--both 
all-time highs. The number of stocks subject to overfishing was highest 
in 2000, when 48 stocks were on the overfishing list. In 2002, 55 
stocks were overfished. Nationally, we have rebuilt 34 stocks since 
2000.\5\
---------------------------------------------------------------------------
    \5\ These statistics were compiled from the quarterly stock status 
reports at: http://www.nmfs.noaa.gov/sfa/statusoffisheries/SOSmain.htm.
---------------------------------------------------------------------------
    We expect the number of stocks on the overfishing list to continue 
to decrease as a result of management under annual catch limits. Ending 
overfishing allows stocks to increase in abundance, so we expect to see 
further declines in the number of overfished stocks and increases in 
the number of rebuilt stocks.
    Flexibility is inherent in the Magnuson-Stevens Act's rebuilding 
requirements. The Act requires that the period to rebuild a stock not 
exceed 10 years, but it permits a longer time period in certain cases 
where the biology of the fish stock, management measures under an 
international agreement in which the United States participates, or 
other environmental conditions dictate otherwise, although this period 
still must be as short as possible. Current rebuilding time periods for 
stocks with active rebuilding plans range from 4 years to more than 100 
years. Of the 43 active rebuilding plans with a target time to rebuild, 
23 of them (53 percent) are set longer than 10 years due to the biology 
of the stock (slow reproducing, long lived species) or environmental 
conditions. For example, Pacific yelloweye rockfish has a rebuilding 
timeline of 71 years. The remaining 20 rebuilding plans are set for 10 
years or less. Of the 33 stocks rebuilt since 2000, 18 stocks were 
rebuilt within 10 years. Two additional stocks in 10-year plans were 
rebuilt within 12 years.
    The Magnuson-Stevens Act provides flexibility to adjust rebuilding 
plans when a stock is failing to make adequate progress toward 
rebuilding. In these situations, the Councils can amend the rebuilding 
plan with revised conservation and management measures. The Act 
requires that the revised plan be implemented within 2 years and that 
it end overfishing (if overfishing is occurring) immediately upon 
implementation.
    Rebuilding plans are also adaptable when new scientific information 
indicates changing conditions. For example, the target time to rebuild 
Pacific ocean perch off the Pacific Coast was recently lengthened based 
on information within a new stock assessment. The assessment, conducted 
in 2011, revised our understanding of the Pacific ocean perch stock 
status and productivity and showed that, even in the absence of 
fishing, the time it would take to rebuild the stock would be longer 
than the previously established target time to rebuild. Given this 
information, NMFS worked with the Pacific Fishery Management Council in 
2012 to modify the rebuilding plan and extend the target time for stock 
rebuilding from 2017 to 2020.
    Rebuilding timelines can also be shortened based on new 
information. As one example, the original rebuilding plan for cowcod, a 
Pacific Coast groundfish, was 95 years. The rebuilding time has been 
modified based on updated scientific information, and is currently 67 
years.
    Rebuilding fisheries brings significant biological, economic, and 
social benefits, but doing so takes time, persistence, sacrifice, and 
adherence to scientific information. Of 26 rebuilt stocks for which 
information is available, half of them now produce at least 50 percent 
more revenue than they did when they were overfished. Seven stocks have 
current revenue levels that are more than 100 percent higher than the 
lowest revenue point when the stock was overfished.
    Atlantic sea scallops provide one example of rebuilding success. In 
the early 1990s, the abundance of Atlantic sea scallops was near record 
lows and the fishing mortality rate was at a record high. Fishery 
managers implemented a number of measures to allow the stock to 
recover, including an innovative area management system. The stock was 
declared rebuilt in 2001. In real terms, revenues increased sixfold as 
the fishery rebuilt, from $44 million in 1998 to $389 million in 2012, 
making New Bedford the Nation's top port by value of landings since 
2000.
    Another example of rebuilding success can be seen with Bering Sea 
snow crab. In 1999, scientists found that Bering Sea snow crab was 
overfished. In response, managers reduced harvests to a level that 
would allow the stock to rebuild, and the stock was declared rebuilt in 
2011. In the 2011-2012 fishing year, managers were able to increase the 
harvest limit by 56 percent to nearly 66 million pounds. By 2012, 
revenue from the fishery had increased to almost 400 percent of the 
2006 revenue (the low point during the rebuilding period).
Benefits of Annual Catch Limits
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act was the mandate to 
implement annual catch limits, including measures to ensure 
accountability and to end and prevent overfishing in federally managed 
fisheries by 2011 (an annual catch limit is an amount of fish that can 
be caught in a year such that overfishing does not occur; 
accountability measures are management controls to prevent annual catch 
limits from being exceeded, and to correct or mitigate overages of the 
limits if they occur). This is an important move away from a management 
system that could only be corrected by going back through the full 
Council process in order to amend Fishery Management Plans--often 
taking years to accomplish, all while overfishing continued.
    Now, when developing a fishery management plan or amendment, the 
Councils must consider, in advance, the actions that will occur if a 
fishery does not meet its performance objectives. As of December 31, 
2013, overfishing had ended for 71 percent of the 38 domestic U.S. 
stocks that were subject to overfishing in 2007 when the Magnuson-
Stevens Act was reauthorized.\6\
---------------------------------------------------------------------------
    \6\ See Fish Stock Sustainability Index. This report was the source 
for the underlying data, but the numbers presented here were compiled 
specifically for this hearing. The report is available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
Q4%202012%20FSSI%20Summary%20Changes.pdf.
---------------------------------------------------------------------------
    Ending overfishing is the first step in rebuilding. Prior to the 
implementation of annual catch limits, a number of rebuilding plans 
experienced difficulty in ending overfishing and achieving the fishing 
mortality rate called for in the plan. As a result, rebuilding was 
delayed. Conversely, stocks where overfishing has ended quickly have 
seen their stock size increase and rebuild more quickly. For example, 
Widow rockfish in the Pacific was declared overfished in 2001. Fishing 
mortality on Widow rockfish was immediately substantially reduced 
resulting in a corresponding increase in stock size. The stock was 
declared rebuilt in 2011, ahead of the rebuilding deadline.
    Most major reductions in allowable catch experienced by fishermen 
when stocks enter rebuilding plans are predominantly from the 
requirement to prevent overfishing--which is now required through 
annual catch limits for all stocks, not just those determined to be 
overfished. When unsustainably large catches have occurred due to high 
levels of overfishing on a depleted stock, large reductions in catch 
will be needed to end overfishing, and the stock must rebuild in 
abundance before catches will increase.
    Because ending overfishing is essential to rebuilding, annual catch 
limits are a powerful tool to address prior problems in achieving 
rebuilding. Nine of the 20 stocks currently in 10-year (or less) 
rebuilding plans had failed to end overfishing as of their last stock 
assessment. Annual catch limits, which are now in place as a mechanism 
to control catch to the level specified in the rebuilding plan, are 
working and we anticipate the next stock assessments for these species 
to confirm that overfishing has ended. With that result, we will begin 
to see stronger rebuilding for these stocks. In addition, preliminary 
data show that annual catch limits have been effective in limiting 
catch and preventing overfishing for the majority of stocks. Fisheries 
have successfully stayed within their annual catch limit for over 90 
percent of the stocks for which we have catch data.
Ensuring Transparency and Stakeholder Engagement
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. This structure ensures that input and 
decisions about how to manage U.S. fisheries develop through a ``bottom 
up'' process that includes fishermen, other fishery stakeholders, 
affected States, tribal governments, and the Federal Government. By 
working together with the Councils, States, tribes, and fishermen--
under the standards set in the Magnuson-Stevens Act--we have made great 
strides in ending overfishing, rebuilding stocks, and building a 
sustainable future for our fishing-dependent communities.
    The Magnuson-Stevens Act guides fisheries conservation and 
management through 10 National Standards. These standards, which have 
their roots in the original 1976 Act, provide a yardstick against which 
all fishery management plans and actions developed by the Councils are 
measured. National Standard 1 requires that conservation and management 
measures prevent overfishing while achieving, on a continuing basis, 
the optimum yield from each fishery, which is the average amount of 
harvest that will provide the greatest overall ecological, economic, 
and social benefits to the Nation, particularly by providing seafood 
and recreational opportunities while affording protection to marine 
ecosystems.
    The Councils can choose from a variety of approaches and tools to 
manage fish stocks to meet this mandate--e.g., catch shares, area 
closures, and gear restrictions--and, when necessary, also determine 
how to allocate fish among user groups. These measures are submitted to 
the U.S. Secretary of Commerce for approval and are implemented by 
NMFS. Thus, the Councils, in developing their plans, must carefully 
balance the need for stable fishing jobs, ecological conservation, and 
societal interests to create holistically sustainable fisheries. A key 
aspect of this effort is to ensure that overfishing is prevented, and 
if it occurs, to end it quickly and rebuild any stock that becomes 
overfished. Other National Standards mandate that conservation and 
management measures be based upon the best scientific information 
available, not discriminate between residents of different States, take 
into account variations in fisheries and catches, minimize bycatch, and 
promote the safety of human life at sea.
    Effects on fishing communities are central to many Council 
decisions. Fishing communities rely on fishing-related jobs, as well as 
the non-commercial and cultural benefits derived from these resources. 
Marine fisheries are the lifeblood of many coastal communities in the 
Pacific Islands and West Coast regions and around our Nation. 
Communities, fishermen, and fishing industries rely not only on today's 
catch, but also on the predictability of future catches. The need to 
provide stable domestic fishing and processing jobs is paramount to 
fulfilling one of the Magnuson-Stevens Act's goals--to provide the 
Nation with sources of domestic seafood. This objective has even 
greater purpose now than when the Act was passed, as today U.S. 
consumers are seeking--more than ever--options for healthy, safe, 
sustainable, and local seafood. Under the standards set in the 
Magnuson-Stevens Act--and together with the Councils, States, tribes, 
territories, and fishermen--we have made great strides in maintaining 
more stocks at biologically sustainable levels, ending overfishing, 
rebuilding overfished stocks, building a sustainable future for our 
fishing-dependent communities, and providing more domestic options for 
U.S. seafood consumers in a market dominated by imports. Thanks in 
large part to the strengthened Magnuson-Stevens Act and the sacrifices 
and investment in conservation by fishing communities across the 
country, the condition of many of our most economically important fish 
stocks has improved steadily over the past decade.
Limited Access Privilege Programs (LAPPs)
    The Magnuson-Stevens Act authorizes the use of LAPPs, which 
dedicate a secure share of fish to fishermen for their exclusive use 
via a Federal permit. NMFS has implemented LAPPs in multiple fisheries 
nationwide and additional programs are under development.
    While limited access privilege programs are just one of many 
management options the Councils can consider, they have proven to be 
effective in meeting a number of management objectives when they have 
broad stakeholder support. Both in the United States and abroad, such 
programs are helping to achieve annual catch limits, reduce the cost of 
producing seafood, extend fishing seasons, increase revenues, and 
improve fishermen's safety.
    For example, NMFS has three LAPPs in the Southeast Region, 
including a South Atlantic commercial wreckfish individual transferable 
quota program implemented in 1992, a Gulf of Mexico commercial red 
snapper individual fishing quota program implemented in 2007, and a 
Gulf of Mexico commercial grouper and tilefish individual fishing quota 
program implemented in 2010. While the grouper and tilefish program is 
too young to fully evaluate, recent reviews of the wreckfish and red 
snapper programs demonstrate they are working as intended. The 
wreckfish program eliminated excess fleet capacity and the race to 
catch fish and reduced gear and fishing area conflicts. The red snapper 
program is better aligning the capacity of the fleet with the 
commercial catch limit, mitigating short fishing seasons, improving 
safety at sea and increasing the profitability of the fishery. 
Individual fishing quota participants are targeting red snapper year 
round, compared to an average of 121-day seasons prior to 
implementation of the LAPP. And the average ex-vessel price of red 
snapper in 2012 was 27 percent greater than the average inflation 
adjusted ex-vessel price in 2007.
    In the West Coast Region, the groundfish trawl catch share program 
has been remarkably successful in its first 2 years of implementation. 
Results from 2012 indicate a substantial reduction in bycatch, with 
fishermen catching more of their targeted species and fewer species 
that should be avoided. Because fishermen have more flexibility under a 
catch share program, they can be more selective in the areas they 
target. To catch fish in better condition and sell them at a higher 
price, fishermen are shifting their tactics. For example, trawl 
fishermen increased their use of fixed gear (i.e., fixed pots that rest 
on the sea floor or baited hooks on miles-long lines) the first 2 years 
of the program. Additionally, in 2012, 58 percent of sablefish revenue 
in the catch shares program was from fixed gear, up from 48 percent in 
2011. The number of quota transfers in 2012--a good indicator of how 
fishermen are fine-tuning their quota holdings to better reflect their 
fishing plans--was double that of 2011. The total pounds of such 
vessel-to-vessel transfers in 2012 was 25 percent above 2011 and 
suggests that participants are planning earlier and becoming more 
comfortable with the individual fishing quota management system. This 
strong partnership will carry the West Coast Groundfish Catch Shares 
Program toward the common goal of healthy, sustainable fisheries and 
fishing communities. NMFS is hopeful that the increased planning and 
knowledge about the fishery will lead to the continued success of the 
program.
Improvements to Science and Recreational Fishing Data
    Without high-quality fishery science, we cannot be confident the 
Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires investing in information about fish 
stocks, marine habitats, and ecosystems and the individuals and groups 
that rely upon fishing. NMFS is committed to generating the best 
fishery science--biological, ecological, and socioeconomic--to support 
the goals of the Magnuson-Stevens Act. To achieve the goals of the Act, 
we are conducting the research and analyses necessary to understand the 
environmental and habitat factors affecting the sustainability of fish 
populations. We must continue to increase what we know about our fish 
stocks in order to reduce uncertainty and avoid potentially reduced 
annual catch limits, resulting in lost economic opportunities.
    The importance of increasing the frequency of stock assessments, 
improving the quality of fisheries science with a better understanding 
of ecosystem factors, investing in cooperative research and electronic 
monitoring technology, and enhancing our engagement with fishermen 
cannot be stressed enough. Partnerships with industry and academia are 
a key component of successful fisheries management. Cooperative 
research provides a means for commercial and recreational fishermen to 
become involved in the science and data collection needed to improve 
assessments, and develop and support successful fishery management 
measures.
    With regard to electronic monitoring, the agency recently 
implemented a national policy to encourage the consideration of 
electronic technologies to complement and/or improve existing fishery-
dependent data collection programs to achieve the most cost-effective 
and sustainable approach that ensures alignment of management goals, 
data needs, funding sources and regulations. In consultation with the 
Councils and subject matter experts, we will assemble guidance and best 
practices for use by Regional Offices, Councils and stakeholders when 
they consider electronic technology options. Implementation of 
electronic technologies in a fishery-dependent data collection program 
is subject to the Magnuson-Stevens Act and Council regulatory process 
and other relevant State and Federal regulations.
    In the Southeast, the SouthEast Data, Assessment, and Review 
(SEDAR) is a cooperative process initiated in 2002 to improve the 
quality and reliability of Southeast Region stock assessments, and to 
increase stakeholder participation in the process. SEDAR is managed by 
the Caribbean, Gulf of Mexico, and South Atlantic Fishery Management 
Councils in coordination with NMFS and the Atlantic and Gulf States 
Marine Fisheries Commissions. SEDAR emphasizes stakeholder 
participation in assessment development, transparency in the assessment 
process, and a rigorous and independent scientific review of completed 
stock assessments. The Territorial Fisheries Science Initiative in the 
Pacific Islands and Caribbean is an effort to overcome the lack of data 
collection capacity in the U.S. territories that has resulted in a 
paucity of scientific information to guide management actions. The 
small size of the territory governments with their modest budgets; the 
relatively low commercial value of the diverse and small-scale 
fisheries; and the limited NMFS presence in the territories have all 
contributed to the current shortcomings. This initiative also is 
intended to address these shortcomings and improve the quality and 
reliability of Pacific Islands Region stock assessments and increase 
stakeholder participation in the process.
    The Magnuson-Stevens Act required improvements to recreational 
fisheries data collected by NMFS for use in management decisions. In 
October 2008, NMFS established the Marine Recreational Information 
Program (MRIP), a new program to improve recreational fishery data 
collection efforts, consistent with the Magnuson-Stevens Act 
requirement and the 2006 recommendations of the National Research 
Council. MRIP is a national system of coordinated regional data 
collection programs designed to address specific needs for improved 
recreational fishing information. One major component of this program 
is the development of a national registry of anglers which NMFS has 
been using in a series of pilot studies to test more efficient mail and 
telephone surveys for the collection of data on recreational fishing 
activity. Based on the results of these studies, NMFS expects to be 
ready to implement new registry-based survey designs in 2015.
    MRIP is also developing and implementing numerous other survey 
improvements to address the National Research Council's 
recommendations, including improvements in estimation methodologies, 
shoreside survey design, and for-hire fishery data collections.
    Improved fisheries science also relies on data collected by 
fisheries observers as well as collaborative research with non-
government partners. Adequate observer coverage also is critical for 
improving our bycatch data, and the biological samples collected by 
observers are used in stock assessments and life history studies. 
National Standard 9 requires fishery management plans to take into 
account the impact of the fishery on bycatch, particularly for 
protected species. NMFS continues to work with the Councils and through 
take reduction teams established under the Marine Mammal Protection Act 
to identify measures that can be taken to minimize serious injury and 
mortality to sea turtles, corals, dolphins and other marine mammals 
throughout the Nation's oceans.
Successes and Challenges
    There are many examples of what fishermen, scientists, and managers 
can do by working together to bring back a resource that once was in 
trouble. In the Pacific Islands Region, NMFS, the Western Pacific 
Fishery Management Council, the State of Hawaii, and fishing 
communities have ended overfishing of the Hawaiian archipelago's deep-
water bottomfish complex--a culturally significant grouping of seven 
species of snapper and grouper. This has enabled NMFS to increase 
annual catch limits for these stocks for both commercial and 
recreational fishermen and ensure these fish are available year-round.
    On the West Coast, NMFS and the Pacific Fishery Management Council, 
the fishing industry, recreational anglers, and other partners have 
successfully rebuilt a number of once overfished stocks, including coho 
salmon, lingcod, Pacific whiting, and widow rockfish. These and other 
conservation gains, including implementation of the West Coast 
groundfish trawl rationalization program, enabled NMFS to increase 
catch limits for abundant West Coast groundfish species that co-occur 
with groundfish species in rebuilding plans.
    In the Southeast Region, NOAA, the Gulf of Mexico and South 
Atlantic Fishery Management Councils, the fishing industries, 
recreational anglers and other partners have successfully rebuilt a 
number of once overfished stocks, including red grouper and king 
mackerel in the Gulf of Mexico, black sea bass in the South Atlantic, 
and yellowtail snapper, which is shared by both the Gulf of Mexico and 
South Atlantic regions. These and other conservation gains enabled NMFS 
to increase catch limits for six stocks or stock complexes and 
eliminate or reduce two fixed seasonal closures over the last year. The 
additional harvest opportunities attributed to rebuilding the South 
Atlantic black sea bass stock alone have increased annual consumer 
surplus for recreational anglers, annual ex-vessel revenues for 
commercial fishermen and annual profits for for-hire vessels by about 
$13 million, $1 million and $350,000, respectively.\7\
---------------------------------------------------------------------------
    \7\ SAFMC (South Atlantic Fishery Management Council). 2013. 
Regulatory Amendment 19 to the Fishery Management Plan for the Snapper 
Grouper Fishery of the South Atlantic Region. South Atlantic Fishery 
Management Council, 4055 Faber Place, Ste 201, North Charleston, SC 
29405.
---------------------------------------------------------------------------
    The Atlantic sea scallop resource in New England was rebuilt after 
fishermen partnered with academic and NOAA scientists to learn more 
about scallop abundance and distribution, and then embraced a 
rotational management approach focused on long-term sustainability. 
Valued at approximately $389 million dollars in 2012, the scallop 
fishery has made New Bedford, MA, the top revenue port in the United 
States. In fact, many fisheries in the Northeast and Mid-Atlantic are a 
significant part of the national success story. Of the 32 stocks 
rebuilt nationally since 2000, 18, more than half, were rebuilt by 
NOAA, the Northeast and Mid-Atlantic Fishery Management Councils, the 
fishing industries, recreational anglers, and other partners on the 
Atlantic coast. In addition to Atlantic sea scallops, these include 
other important stocks such as summer flounder and Atlantic swordfish.
    But meeting mandates to prevent and end overfishing and implement 
annual catch limits can be very challenging where data is scarce, which 
is the case for many of the stocks in the Pacific Islands region and 
the Caribbean, particularly those species being fished in the coral 
reef ecosystem. The agency has begun the process of reviewing the 
National Standard 1 guidelines, which were modified in 2009 to focus on 
implementing the requirement for annual catch limits. This was a major 
change in how many fisheries were managed, and we want to ensure the 
guidance we have in place reflects current thinking on the most 
effective way to meet the objectives of National Standard 1, building 
on what we and the Councils have learned. A May 2012 Advance Notice of 
Proposed Rulemaking was followed by an almost 6-month public comment 
period where we asked for input on 11 topics addressed in the 
guidelines. We received a significant amount of input, and are in the 
process of working through the comments and developing options for 
moving forward, be it through additional technical guidelines, 
regulatory changes, and/or identifying issues for discussion as part of 
a reauthorization of the Magnuson-Stevens Act.
    We also face formidable challenges managing recovering stocks to 
benefit both commercial and recreational user groups with fundamentally 
different goals and objectives. This is perhaps most evident in the 
Gulf of Mexico red snapper fishery. Rebuilding measures put in place in 
2007 are working. That stock is rapidly recovering and now supports the 
largest combined commercial and recreational catch quota ever specified 
for this stock. Commercial individual fishing quota program 
participants directly benefit from stock recovery by receiving 
additional pounds of quota that can be fished more efficiently as catch 
rates and fish size increase over time. But recreational fishermen who 
simply desire the opportunity to fish are seeing that opportunity 
progressively restricted as the stock recovers because they are able to 
reach their quota in fewer and fewer days. A lasting red snapper 
management strategy will require broad agreement, equitable application 
and management support at both State and Federal levels.
    Currently, all Gulf Coast States have expressed support for moving 
to a regional red snapper management strategy which could provide 
greater flexibility in tailoring the recreational fishing season, bag 
limit and minimum size limit to meet constituent needs. The Gulf 
Council is working toward implementing such a regime in the 
recreational fishery for the 2015 fishing year. NMFS fully supports 
this and any other management option that has broad stakeholder support 
and provides the fishery greater stability, while meeting conservation 
objectives.
                         looking to the future
Remaining Challenges
    Amid these successes, challenges remain. It is critical that we 
maintain progress toward meeting the mandate of the Magnuson-Stevens 
Act to end overfishing and rebuild overfished stocks. Annual catch 
limits have been an effective tool in improving the sustainability of 
fisheries around the Nation, but managing fisheries using annual catch 
limits and accountability measures was a major change for some 
fisheries, and the initial implementation has identified some areas 
where we can improve that process. We will continue to work with the 
Councils to achieve the best possible alignment of science and 
management for each fishery to attain the goals of the Magnuson-Stevens 
Act. We will continue to develop our science and management tools, 
improve our stock assessments and monitoring efforts, and create more 
effective annual catch limits and accountability measures. In so doing, 
we must continue to ensure solid, science-based determinations of stock 
status and better linkages to biological, socioeconomic, and ecosystem 
conditions.
    We value the important partnerships we have formed with the States, 
territories, tribes, fishermen, and other interest groups in helping 
address these challenges. These partnerships are critical to developing 
successful management strategies. Together with our partners, we 
continue to explore alternative and innovative approaches that will 
produce the best available information to incorporate into management.
    It is also increasingly important that we better understand 
ecosystem and habitat factors, such as the effects of climate change, 
interannual and interdecadal climate shifts, ocean acidification, and 
other environmental regime shifts and natural disasters, and 
incorporate this information into our stock assessments and management 
decisions. Resilient ecosystems and habitat form the foundation for 
robust fisheries and fishing jobs. The Magnuson-Stevens Act currently 
provides flexibility for bringing ecosystem considerations into 
fisheries management. This flexibility in the Magnuson-Stevens Act is 
one of the Act's strengths, allowing us to meet our responsibilities 
under the Act in concert with related legislation, such as the Marine 
Mammal Protection Act and the Endangered Species Act, to reduce bycatch 
of protected species to mandated levels. The alignment of measures to 
conserve habitat and protected species with measures to end overfishing 
and rebuild and manage fish stocks will be a key component of NOAA's 
success in implementing ecosystem-based fisheries management.
    NOAA supports the collaborative and transparent process embodied in 
the Councils, as authorized in the Magnuson-Stevens Act, and strongly 
believes that all viable management tools should continue to be 
available as options for the Councils to consider when developing 
management programs.
The Next Reauthorization of the Magnuson-Stevens Act
    With some of the largest and most successful fisheries in the 
world, the United States has become a global model of responsible 
fisheries management. This success is due to strong partnerships among 
the commercial and recreational fishing, conservation, and science and 
management communities. Continued collaboration is necessary to address 
the ongoing challenges of maintaining productive and sustainable 
fisheries.
    The Managing Our Nation's Fisheries 3 conference--co-sponsored by 
the eight Councils and NMFS-- brought together a broad spectrum of 
partners and interests to discuss current and developing concepts 
addressing the sustainability of U.S. marine fisheries and their 
management. The conference was developed around three themes: (1) 
improving fishery management essentials, (2) advancing ecosystem-based 
decisionmaking, and (3) providing for fishing community sustainability.
    We were excited to see a wide range of stakeholders represent many 
points of view, from commercial and recreational fishermen, to 
conservation and science and management organizations, to indigenous 
communities. Before the last reauthorization, we co-sponsored two of 
these conferences, and they played an important role in bringing people 
together and creating an opportunity to present ideas and understand 
different perspectives. We expect the ideas that emerged from this 
event to inform potential legislative changes to the Magnuson-Stevens 
Act, but the benefits are much greater than that. The communication 
across regions and Councils provided an opportunity to share best 
practices and lessons learned, and could also inform changes to current 
policy or regulations that can be accomplished without statutory 
changes.
                               conclusion
    Because of the Magnuson-Stevens Act, the United States is 
sustainably and responsibly managing U.S. fisheries, to ensure that 
stocks are maintained at healthy levels, fishing is conducted in a way 
that minimizes impacts on the marine ecosystem, and fishing 
communities' needs are considered in management decisions. Fisheries 
harvested in the United States are scientifically monitored, regionally 
managed, and enforced under 10 National Standards of sustainability. 
But we did not get here overnight. Under the Magnuson-Stevens Act, our 
Nation's journey toward sustainable fisheries has evolved over the 
course of 38 years.
    In 2007, Congress gave NOAA and the Councils a clear mandate, new 
authority, and new tools to achieve the goal of sustainable fisheries 
within measurable timeframes. Notable among these were the requirements 
for annual catch limits and accountability measures to prevent, respond 
to, and end overfishing--real game changers in our national journey 
toward sustainable fisheries that are rapidly delivering results.
    This progress has been made possible by the collaborative 
involvement of our U.S. commercial and recreational fishing fleets and 
their commitment to science-based management, improving gear-
technologies, and application of best stewardship practices. We have 
established strong partnerships with States, tribes, Councils, and 
fishing industries. By working together through the highly 
participatory process established in the Magnuson-Stevens Act, we will 
continue to address management challenges in a changing environment.
    To understand where we are, it is important to reflect on where 
we've been. We have made great progress but our achievements have not 
come easily, nor will they be sustained without continued attention. 
This is a critical time in the history of Federal fisheries management, 
and we must move forward in a thoughtful and disciplined way to ensure 
our Nation's fisheries are able to meet the needs of both current and 
future generations. We will take the recommendations from the Managing 
Our Nation's Fisheries 3 conference, and look to the future in a 
holistic, comprehensive way that considers the needs of the fish, 
fishermen, ecosystems and communities.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act. We are available to answer any 
questions you may have.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Rauch.
    Now, let me introduce Mr. Richard Robins, Jr., who is the 
Chair of the Mid-Atlantic Fishery Management Council.
    Mr. Robins, you are recognized for 5 minutes.

   STATEMENT OF RICHARD B. ROBINS, JR., CHAIR, MID-ATLANTIC 
                   FISHERY MANAGEMENT COUNCIL

    Mr. Robins. Good morning, Chairman Hastings, Ranking Member 
DeFazio, and distinguished members of the committee. I am Rick 
Robins, Chairman of the Mid-Atlantic Fishery Management 
Council, and I appreciate the opportunity to testify before you 
again on the reauthorization of the Act.
    The Magnuson-Stevens Act is the strongest regulatory 
framework and statutory framework for managing fisheries and 
sustainable fisheries in the world. However, since the 2006 
reauthorization was implemented, it has become clear that the 
Councils need focused flexibility to make decisions that are 
tailored to the needs and circumstances of each fishery.
    The Mid-Atlantic region has had its share of rebuilding 
successes. All of our assessed stocks are at, near, or above 
their biological targets. These efforts have been successful in 
biological terms. But the current statutory requirements 
prevented the Council from considering alternative schedules 
that would have attenuated the social and economic impacts 
associated with the mandated rebuilding schedules. The Act 
should enable the Councils to achieve success more fully in 
biological, ecological, social, and economic dimensions, and 
this reauthorization presents an important opportunity to fine-
tune, but not sacrifice, the primacy of biology in U.S. 
fisheries management.
    These changes should facilitate successful social and 
economic outcomes, while preserving the integrity of the Act. 
The most significant change you can make to enable the Councils 
to more fully consider tradeoffs in stock rebuilding is 
addressed effectively in the draft's proposal to replace the 
requirement to rebuild stocks ``as quickly as possible'' with 
``as quickly as practicable,'' and eliminating the 10-year 
requirement. I will focus my comments today on ways that I 
think the draft can still be improved.
    I was concerned to find that several important issues were 
not addressed in the draft, and I would strongly encourage the 
committee to consider revisions to address the following 
issues.
    First, the draft does not address the problems with 
recreational accountability measures. I strongly believe 
recreational fisheries can be successfully managed under this 
Act. But the Councils need statutory flexibility to develop 
accountability measures that are appropriate, relative to the 
available data and their statistical characteristics. 
Recreational management should not be reduced to an exercise in 
catch accounting, particularly in regions where catch estimates 
lack the accuracy and precision to justify rigid responses in 
management.
    Second, the draft does not respond to the need for 
sustainability certifications or verifications. Our standards 
are among the toughest in the world. And in an increasingly 
global market, U.S. fishermen and processors should be able to 
market their fish as sustainably caught under U.S. Federal 
fisheries management.
    Third, the draft does not encourage or advance ecosystem-
based fisheries management references in the Act. The 
ecosystem-based management may require temporarily fishing some 
stocks at levels above maximum sustainable yield, which is not 
an option of the current law. The draft is also silent on the 
management of forage fish. Adequate consideration of the 
ecological role of forage fish within the marine ecosystem is a 
core principle of ecosystem-based management, and should be 
addressed.
    Fourth, the draft does not create any additional funding 
mechanisms for observer coverage. Councils should be able to 
specify observer coverage level requirements within their 
fishery management plans. Cost sharing between the agency and 
industry could facilitate improved coverage, and should be 
added to the Act, but the agency also needs to have more 
discretion about allocating funding to cover the incidental 
costs associated with observer coverage.
    The reauthorization should build on the Act's existing 
strengths, and exemptions to key requirements should not weaken 
our ability to ensure the sustainable management of U.S. 
fisheries, or to address future challenges. I will highlight 
several concerns regarding the provisions in the draft.
    The draft changes to the role of the SSC may set up a 
conflict with National Standard 2 by changing the annual catch 
limit ceiling to the overfishing limit, rather than their 
fishing level recommendation. The buffers between those two 
values are essentially determined by the Council's ABC control 
rule, or risk policy. Where the Councils do need flexibility, 
in my opinion, on this issue is in the management of data-poor 
stocks. And I would suggest re-crafting this exemption for 
data-poor stocks.
    The proposed exemption for incidentally caught species, as 
proposed, would exempt any incidentally caught species from 
annual catch limits. Some species considered to be incidentally 
caught, in technical terms, are, in fact, high-volume important 
species. This exemption needs significant revision.
    We need a workable mixed-stock exception. And the recent 
National Academy of Sciences' review offered insight into this 
issue. The 1998 NS1 guidelines were essentially too weak in 
their protection of weak stocks in a complex. They were 
inadequate, while the current NS1 guidelines preclude effective 
mixed species management. We need a solution in the middle that 
maintains fishing mortality rates at appropriate levels for 
weak stocks to ensure their continued resilience, while 
enhancing yields on more productive stocks in the fishery.
    Finally, the data confidentiality section of the draft does 
not significantly improve the Council's ability to make 
informed decisions, and the prohibition on the use of fisheries 
data in coastal marine spatial planning would significantly 
disadvantage U.S. fisheries in this process. Marine planning is 
a data-driven process, and fisheries in the Mid-Atlantic could 
be compromised if fisheries data are prohibited from use in 
marine planning discussions in advance of large-scale wind 
energy development.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Robins follows:]
 Prepared Statement of Richard B. Robins, Jr., Chairman, Mid-Atlantic 
                       Fishery Management Council
    Chairman Hastings, Ranking Member DeFazio, and members of the 
committee, thank you for the opportunity to testify before you today 
regarding the discussion draft titled ``H.R. 4742, Strengthening 
Fishing Communities and Increasing Flexibility in Fisheries Management 
Act.'' I am Richard B. Robins, and I serve as the Chairman of the Mid-
Atlantic Fishery Management Council. The Mid-Atlantic Council has 
primary management authority for 12 species of fish and shellfish in 
Federal waters off the coast of North Carolina through New York.
    Through the Magnuson-Stevens Fishery Conservation and Management 
Act, the United States has one of the world's strongest statutory 
frameworks for the management of sustainable fisheries. The Act is 
highly effective at preventing overfishing and rebuilding overfished 
stocks. However, in the years since the requirements of the last 
reauthorization have been implemented, it has become increasingly clear 
that the Councils need more flexibility to make decisions that are 
tailored to the needs and circumstances of each fishery.
    I applaud the committee's efforts to increase flexibility in the 
Act by addressing one of the most acute impediments to the successful 
management of some U.S. fisheries--the 10-year rebuilding requirement. 
Giving the Councils flexibility to rebuild stocks as quickly as 
practicable, instead of on a 10-year rebuilding timeline, will allow 
Councils to incorporate biological, ecological, social, and economic 
considerations more effectively into the development of rebuilding 
plans. I strongly believe that this change will enable the Councils to 
achieve more meaningful and durable successes in the stock rebuilding 
process while promoting more productive and resilient fisheries.
    Spiny dogfish is one example of a fishery that would have benefited 
significantly from the proposed amendment to the 10-year rebuilding 
requirement. The spiny dogfish rebuilding plan initially called for a 
5-year rebuilding plan. This aggressive rebuilding schedule required a 
1-year transition to an ``exit'' fishery that eliminated the directed 
fishery in Federal waters and limited catches to incidental quantities 
of 600 pounds per day. At the time, the fishery accounted for over 60 
million pounds of landings annually and supported hundreds of 
predominantly small, day boats and their crews from Cape Hatteras to 
Maine. Spiny dogfish have a mean generation time of 35 years, so the 
proposed modifications to the rebuilding requirements in Section 3 of 
the draft would have allowed for a longer rebuilding period that would 
have stabilized the fishery at a lower level. This would have 
substantially mitigated the social and economic impacts to coastal 
fishing communities.
    I also appreciate the addition of a provision to vest the liaisons 
of the New England Fishery Management Council and Mid-Atlantic Fishery 
Management Council with voting rights. This solution responds 
effectively to concerns among many Mid-Atlantic and New England 
stakeholders and will facilitate enhanced coordination between the two 
Councils.
    These are important provisions that, if included in the final 
reauthorization, will have undoubtedly positive impacts on our Nation's 
fisheries. However, after careful review of the draft I continue to 
have a number of concerns. My testimony today will have two parts. 
First, I will briefly comment on several issues that were not addressed 
in the draft, despite being highlighted during the initial hearings. 
Second, I will share a number of specific concerns regarding content 
within the draft.

    The draft does not address problematic accountability requirements 
in recreational fisheries. The 2006 reauthorization of the MSA 
introduced a new requirement for the Councils to develop accountability 
measures (AMs) for all federally managed fisheries. While AMs have been 
effective management tools for some fisheries, they must be developed 
appropriately for recreational fisheries, relative to the available 
catch data. Councils need the ability to develop recreational AMs that 
are consistent with the precision, accuracy, and timeliness of the 
catch estimates, in order to manage recreational fisheries effectively. 
This issue is critical to the successful management of recreational 
fisheries. The need for more statutory flexibility in the development 
of recreational AMs was evidenced most recently by the Agency's partial 
disapproval of the Mid-Atlantic Council's Recreational Omnibus 
Amendment. In recreational fisheries monitored by NMFS' Marine 
Recreational Information Program (MRIP), the Councils should be able to 
consider confidence intervals about the catch estimates when developing 
triggers for AMs.

    The draft does not respond to the numerous recommendations 
regarding a sustainability certification for U.S. fisheries managed 
under the Act. In an increasingly global market, the sustainability of 
U.S. fisheries needs to be affirmed. Our standards for sustainable 
management are the strongest in the world, and an affirmation of this 
sustainability would be an important step to facilitate education, 
awareness and marketing for the benefit of U.S. fisheries.

    The draft does not strengthen or clarify the Act's references 
regarding ecological considerations or ecosystem approaches to 
fisheries management. Implementing ecosystem principles in fisheries 
management could require fishing some individual stocks at levels above 
F<INF>MSY</INF> temporarily, which is currently precluded by the Act. 
This is a statutory impediment to the implementation of ecosystem 
management principles, and should be resolved by allowing fishing on 
individual stocks at levels above F<INF>MSY</INF> on a temporary basis, 
if those levels are within ecosystem reference points recommended by 
the Scientific and Statistical Committee. The draft is also silent on 
the management of forage fish stocks, which play an important role in 
the structure and function of marine ecosystems. The optimum yield (OY) 
definition in the current Act provides for reductions below maximum 
sustainable yield for ecological considerations, and the National 
Standard 1 guidelines include references to managing forage stocks at 
levels above B<INF>MSY</INF>. Adequate consideration of the importance 
of forage stocks within regional ecosystems is an important 
consideration in the implementation of ecosystem principles in 
fisheries management and should be clarified in the Act.

    The draft does not include any provisions for cost-sharing or other 
funding mechanisms for observer coverage, and the draft does not extend 
any of the section 313 provisions to Councils other than the North 
Pacific Fishery Management Council. The draft also does not enable the 
other seven Councils to specify observer coverage levels within their 
fishery management plans. Councils should have the authority to specify 
observer coverage levels in their FMPs. This need is reinforced by the 
recent disapproval by the National Marine Fisheries Service of the 
observer coverage requirements in Amendment 5 to the New England 
Fishery Management Council's Atlantic Herring Fishery Management Plan 
and Amendment 14 to the Mid-Atlantic Fishery Management Council's 
Squid, Mackerel, and Butterfish Fishery Management Plan. Councils 
should be able to specify required observer coverage levels within 
their fishery management plans. In the Northeast Region, this 
discretion should supersede the inflexible allocations required by the 
Standardized Bycatch Reporting Methodology (SBRM) omnibus amendment. 
The Act should also enable the Agency to use cost-sharing mechanisms, 
with the industry, to cover at-sea observer costs, and should have 
specific discretion within their appropriations, to allocate sufficient 
funds to meet observer coverage levels.
    The reauthorization should build on the Act's strengths and enhance 
its flexibility, without compromising its integrity. The exemptions to 
the requirements in the current Act should be reviewed carefully to 
ensure that they would not substantially weaken the Act's ability to 
ensure the sustainable and effective management of U.S. fisheries, or 
compromise our ability to address future challenges in fisheries 
management, including changing environmental conditions associated with 
climate change.
    Several provisions in the draft reauthorization are of particular 
concern. These include:

    <bullet> The ACL exemption for incidentally caught species,
    <bullet> The exemption for rebuilding mixed-stock fisheries,
    <bullet> The changes in the role of the Scientific and Statistical 
            Committees (SSC),
    <bullet> The proposed data confidentiality provisions, including 
            the prohibition on the use of fisheries monitoring data in 
            coastal marine spatial planning.

    The draft's proposal to exempt incidentally caught species from 
ACLs poses several problems (reference Page 8, line 16). Some 
incidentally caught species are landed on a very large scale, and this 
exemption would exempt them from quota-based management. Monkfish is 
one example--most of the Northern Management Area landings of monkfish 
are landed under ``incidental'' trip limits. Other species, such as 
river herring, are caught incidentally but are a species of concern, 
and are currently being managed by catch caps in the Northeast Region. 
This exemption could be difficult to define and could substantially 
weaken the management of important fisheries resources.

    This reauthorization should address the mixed-stock exception, as 
it relates to rebuilding requirements. The 1998 version of the NS1 
guidelines allowed weak stock components within a mixed-stock fishery 
to be exempted from rebuilding requirements, if they were not expected 
to invoke protection under the Endangered Species Act. These guidelines 
offered inadequate protection for weak stock components, while the 
current NS1 guidance is overly rigid, since it does not exempt weak 
stocks from the statutory rebuilding requirements. The National Academy 
of Sciences' National Research Council devoted considerable attention 
to the limitations of the current mixed-stock exception in their 2013 
report, and it should be enhanced in this reauthorization. The draft 
proposes to exempt weak stock components from rebuilding requirements 
if they would result in significant economic consequences. This 
exemption attempts to address the NRC's conclusions, but results in a 
wholesale exemption from the rebuilding requirements. The NRC also 
suggested focusing on maintaining F rates, rather than focusing on 
fixed rebuilding schedules. Perhaps these concepts can come together in 
the mixed-stock exception, by exempting weak stocks from a fixed 
rebuilding requirement, but requiring the maintenance of an appropriate 
F rate on the weak stock. This would ensure more biological protection 
than the proposed solution in the draft, and would give Councils more 
flexibility to mitigate the social and economic impacts associated with 
the application of the current NS1 guidelines to the more productive 
stocks in the complex.

    The draft proposes to substantially change the role of the SSC, by 
modifying the ACL ceiling from the SSC's fishing level recommendation 
to their overfishing level recommendation (Page 9, line 3.) For 
Councils that have a risk policy, the buffer between the overfishing 
level (OFL) and the SSC's acceptable biological catch (ABC) 
recommendation, is determined by applying the Council's risk policy to 
the OFL, in fisheries with stock assessments that produce biological 
reference points. All but one of the Councils have risk policies or ABC 
control rules. In fisheries with adequate assessments, the Councils 
ultimately determine the relationship between ABC and OFL through their 
risk policy. In data-poor stocks that do not have assessment-based 
reference points, the SSCs use ad hoc methods to determine ABC, and the 
Councils generally have less control over the buffer. Since the OFL is 
determined in the stock assessment and peer review process, this change 
would marginalize the role of the SSC, and sets up a potential conflict 
with National Standard 2.
    The SSC's responsibilities, which include providing the Councils 
with advice on ABC, do not change in the draft. Consequently, the SSC 
would still be providing the Councils with ABC and OFL, and a 
certification that their advice represents the best available science. 
If the Council subsequently set an ACL above the ABC, it would create a 
tension with the National Standard 2 requirements of the Act.
    The greatest need for flexibility on this issue is on data-poor 
stocks, rather than on stocks that are adequately assessed. Councils 
should have more discretion in establishing ACLs on data-poor stocks 
that do not have assessment-based reference points, or in cases where 
the SSC invalidates the reference points. This issue should be 
addressed in both section 302(h)(6) and section 302(g)(B) to avoid 
conflicts relative to National Standard 2 in the management of data-
poor stocks.

    With respect to the data confidentiality section of the draft, the 
Act should safeguard the identity of individuals while ensuring 
informed decisionmaking by the Councils and the Agency. Section 8 of 
the draft does not adequately advance the ability of the Councils to 
make informed decisions. Furthermore, the prohibition on the use of 
fisheries monitoring data for purposes of coastal marine spatial 
planning would significantly disadvantage U.S. fisheries in the future. 
Marine spatial planning is a multi-sectoral, data driven process. The 
Mid-Atlantic region of the United States is expected to experience 
significant development of offshore wind energy. Preserving access to 
these important fisheries will depend on adequate fisheries monitoring 
data, and incorporating this data in data portals as the wind energy 
siting process moves forward. This issue will be among our most 
important challenges in the future on the East Coast, and the Act 
should put the regional councils and U.S. fisheries in a strong and 
effective position.
    To the extent that electronic monitoring is intended to monitor 
interactions with public, U.S. fisheries resources, it should be 
available for law enforcement purposes. Fisheries monitoring data 
(e.g., VMS data) should also be available to the U.S. Coast Guard for 
search-and-rescue operations to promote safety at sea.
    The transparency requirements proposed in Section 6 would benefit 
from additional review. Transparency is an important aspect of the 
Council process, and we have undertaken important efforts to webcast 
our Council meetings, which facilitates enhanced access and 
transparency. The proposal to require video broadcasting of the 
meetings would require additional resources and would not add 
significantly to the transparency of the process. Similarly, the 
proposed requirement for written transcripts would add considerable 
costs without providing additional resources. Audio archives of our 
Council meetings are already available on our Web site and should 
satisfy these concerns.
    Section 7 proposes to extend the referendum requirements for new 
catch share programs beyond the Gulf and New England Councils. 
Referenda may be appropriate in certain circumstances, but may not 
result in the most effective management of fisheries in other 
situations. Many East Coast fisheries have been through a period of 
overexploitation and stock depletion that were preceded and accompanied 
by open access and oversubscription. If the referendum requirement is 
extended to other jurisdictions, the Councils should have flexibility 
in determining eligibility and voting details. I recognize that major 
fisheries reforms require broad support, and we have made stakeholder 
engagement a hallmark of our Council's management philosophy and 
programs. Our Council has a solid track record of evaluating catch 
shares objectively and pragmatically, as one option among many in the 
management of fisheries, and we have not adopted catch shares in the 
large majority of our fisheries.
    I appreciate the committee's efforts to make resources available 
for cooperative research priorities in Section 8(e) through the use of 
the Asset Forfeiture Fund, and in Section 10, through Saltonstall-
Kennedy (SK) funds. I would suggest making a portion of the SK funds 
available to all of the regions to support cooperative research 
priorities identified by the Councils. I would also suggest including 
the Northeast Area Monitoring and Assessment Program (NEAMAP) in your 
definition of eligible research programs in both of these sections.
    The reauthorization also presents an important opportunity to 
enhance the coordination between the Act and other Federal statutes; 
notably, the National Environmental Policy Act, the Endangered Species 
Act, and the National Marine Sanctuaries Act. The references to these 
coordination opportunities in the draft discussion document would 
benefit from additional discussion by the regional councils, and I look 
forward to providing additional information on these important 
references following the upcoming meeting of the Council Coordination 
Committee (CCC).
    I have included below additional comments that focus on specific 
details within the draft in the attached appendix. I appreciate the 
complexity of the reauthorization before the committee and sincerely 
appreciate the opportunity to testify before you.
DETAILED COMMENTS ON ``H.R. 4742, STRENGTHENING FISHING COMMUNITIES AND 
          INCREASING FLEXIBILITY IN FISHERIES MANAGEMENT ACT''
SEC. 3--FLEXIBILITY IN REBUILDING FISH STOCKS

    Page 2, Line 13
    Description: In the management of ``highly dynamic fisheries,'' the 
Council could phase-in the rebuilding plan over a 3-year period.
    Comments: ``Highly dynamic fisheries'' should be defined. This 
exemption may also benefit from some biological caveats.

    Page 3, Line 17
    Description: Exemption III to the rebuilding requirements would 
exempt the requirement to rebuild components of a mixed-stock fishery 
from the T<INF>max</INF> requirement if it would result in 
``significant economic harm to the fishery.''
    Comments: ``Significant'' is not defined. The mixed-stock exception 
should be refined in this reauthorization, to strike a balance between 
the 1998 NS1 guidance and the current guidance, to facilitate its 
implementation where appropriate.
    Page 3, Line 18
    Description: Exemption III to the rebuilding requirements also 
exempts mixed stock components from the T<INF>max</INF> rebuilding 
requirement if that component cannot be rebuilt in that timeframe 
without ``causing another component of the mixed-stock fishery to 
approach a depleted status.''
    Comments: Ecosystem references in the current Act should be 
clarified and strengthened, particularly as they relate to OY and to 
the management of fisheries across trophic levels.

    Page 4, Line 9
    Description: Exemption V provides an exemption to the rebuilding 
timeframe if the Secretary ``determines that the stock has been 
affected by unusual events.''
    Comments: ``Unusual events'' are not defined. Councils should be 
able to amend rebuilding timelines if ecological conditions inhibit the 
recovery of the stock.

    Page 4, Line 18
    Description: The proposed requirement to consider ``predator/prey 
relationships'' in specifying a rebuilding timeframe does not appear to 
have any specific implication and would benefit from additional 
clarification.

    Page 5, Line 7
    Description: This proposed provision would allow the use of 
``alternative rebuilding strategies, including harvest control rules 
and fishing mortality targets.''
    Comments: If such an alternative still resulted in the development 
of a rebuilding plan consistent with the other, proposed requirements 
of Section 304, this may not be problematic. However, if the control 
rules and fishing mortality targets are not set at levels that are 
expected to achieve stock rebuilding within the proposed 
T<INF>max</INF>, subject to the other draft exemptions, then this may 
not result in stock rebuilding.

    Page 5, Line 13
    Description: ``Depleted'' appears here and is defined elsewhere in 
the draft as a level below the normal range of stock sizes associated 
with the production of MSY.
    Comments: The addition of this language is welcome for stocks that 
are depleted as a result of factors other than fishing. The definition 
would benefit from additional review and discussion.

    Page 5, Line 13
    Description: The draft proposes to allow Councils to terminate the 
application of paragraph (3), which include the requirements to end or 
prevent overfishing, if a Council meets one of two exemptions if the 
Council determines that a fishery is not depleted.
    Comments: Exemption B is based on the completion of the next stock 
assessment. Exemption A is the end of the 2-year period following the 
effective date of a regulation, plan, or amendment. A stock assessment 
or assessment update would be essential to making the determination 
that the fishery is not depleted, so it may be cleaner to base this 
exemption just on the assessment-based determination. If an assessment 
update or other analytical product would satisfy this determination 
requirement, that should be clarified.

    Page 6, Line 8
    Description: This proposed exemption to ending overfishing would 
allow Councils to phase-in the regulations to end overfishing over a 3-
year period if chronic overfishing has not occurred and if an immediate 
end to overfishing would result in significant adverse economic 
impacts.
    Comments: ``Significant adverse economic impacts'' are not defined. 
This provision could be helpful in cases where assessments produce 
results that are dramatically worse than previous assessments. This may 
have the practical effect of allowing overfishing to continue for up to 
3 years in some cases. This section may benefit from some additional 
detail or biological caveats if this exemption goes forward.
SEC. 4--MODIFICATIONS TO THE ANNUAL CATCH LIMIT REQUIREMENT

    Page 6, Line 19
    Description: This adds language allowing Councils to consider 
``changes in an ecosystem and the economic needs of the fishing 
communities'' in establishing annual catch limits (ACLs).
    Comments: This is vague, and it is unclear how these considerations 
relate to National Standard 1 and OY. Ecosystem changes that have 
adverse consequences for stock performance would typically result in 
lower yields, and may lead to lower reference points if they persist. 
Would this exemption allow Councils to specify higher ACLs than 
indicated in an assessment due to ecosystem changes? If so, this would 
not promote the ecological sustainability of our fisheries. Similarly, 
could Councils set ACLs higher than currently allowed in order to meet 
the economic needs of the fishing communities, and, if so, how does 
this relate to National Standard 1? We have previously testified that 
Councils should have the flexibility to optimize rebuilding periods to 
more fully consider biological, ecological, and economic factors, and 
the draft addresses this by replacing ``as short as possible'' with 
``as short as practicable,'' and by eliminating the 10-year 
requirement. This proposed language, beginning in line 19, should be 
reviewed relative to National Standard 1 and clarified.

    Page 7, Line 9
    Description: The ACL exemption for short-lived species would be 
extended to a stock for which ``more than half of a single-year class 
will complete their life cycle in less than 18 months.''
    Comments: We use the short-lived exemption for squid on the East 
Coast, but we still set quotas for those fisheries, based on SSC 
advice, and we still have to satisfy National Standard 2. The practical 
benefit of the exemption is that accountability measures (AMs) are not 
required on these short-lived species. The exemptions for short-lived 
species might be more appropriately applied as exemptions to AMs (at a 
minimum, they should be exempt from paybacks), since year classes are 
already dead before regulations could be developed and implemented.

    Page 8, Line 8
    Description: ACLs may be set for a ``stock complex.''
    Comments: ``Stock complex'' is not defined in the language and the 
implications of this provision are unclear.

    Page 8, Line 16
    Description: This section defines Ecosystem Component Species as 
stocks of fish that are ``non-target, incidentally harvested stock of 
fish in a fishery, or (emphasis added) a non-target, incidentally 
harvested stock of fish that a Council or the Secretary has determined 
. . .'' is not subject to overfishing or depleted.
    Comments: The use of ``or'' in line 16 would effectively exempt all 
non-target, incidentally caught species from annual catch limits. 
Consequently, this language is problematic and would benefit from 
additional review and discussion.

    Page 9, Line 2
    Description: This language would substantially modify the role of 
the SSC, by striking ``fishing'' and inserting ``overfishing.'' Whereas 
Councils are currently required to set ACLs within the ``fishing level 
recommendations of its scientific and statistical committee,'' the 
draft language would require Councils to set ACLs within an 
``overfishing'' level set by the SSC.
    Comments: With the exception of data-poor stocks, the current 
overfishing levels (OFLs) are identified in the stock assessment 
process. This modification would marginalize the role of the SSC, and 
could create a tension with NS2. The current process works well for 
stocks that have adequate stock assessments, and has produced more 
inconsistent results in the absence of reference points. We have 
testified in support of having more flexibility in setting ACLs on 
data-poor stocks. This section could also benefit from additional 
review and discussion.

SEC. 5--DISTINGUISHING BETWEEN OVERFISHED AND DEPLETED

    Page 9, Line 22
    Description: Replacing the term ``overfished'' with ``depleted'' 
acknowledges that the deterioration of some stocks may result from 
anthropogenic and other impacts unrelated to fishing.
    Comments: The proposed definition of the term ``depleted'' would 
benefit from additional review and discussion.

SEC. 6--TRANSPARENCY AND PUBLIC PROCESS FOR SCIENTIFIC AND MANAGEMENT 
        ACTIONS

    Page 10, Lines 15 and 20; Page 11, Line 4
    Description: This section would require live broadcast of the 
Council and CCC meetings, and audio/video archives of each meeting.
    Comments: Transparency is an important attribute of the Council 
process. Audio webcasts and archives should be considered as an 
alternative to the proposed video requirement. Similarly, written 
transcripts pose a significant cost and an audio archive should be 
sufficient for most uses.

    Page 11, Line 17
    Description: NEPA streamlining.
    Comments: This reauthorization is an opportunity to streamline the 
NEPA and Magnuson-Stevens processes.

SEC. 7--LIMITATION ON FUTURE CATCH SHARE PROGRAMS

    Page 12, Line 12
    Description: Catch shares are defined here to include ``sectors.''
    Comments: This may need some revision, since ``sector'' is used 
broadly in fisheries discussions, but has a distinct use in the New 
England groundfish fishery. This language should be reviewed and 
refined.

    Page 14, Line 16
    Description: This section includes a hardship provision for 
participation in a referendum.
    Comments: This could make it impracticable to conduct a referendum. 
Limiting referenda to permit holders would facilitate the 
administration of referenda. This section should be reviewed and 
discussed.

    Page 15, Line 2
    Description: This section would preclude the use of catch shares in 
any Secretarially managed fisheries unless first petitioned by a 
majority of those eligible to participate in the fishery.
    Comments: This requirement is burdensome and would diminish the 
role of the HMS AP in the development of plan amendments.

SEC. 8--DATA COLLECTION AND DATA CONFIDENTIALITY

    Page 16, Line 6
    Description: This language would not authorize use of electronic 
monitoring for law enforcement.
    Comments: If electronic monitoring is in use to monitor 
interactions with public fishery resources, they should be available to 
law enforcement.

    Page 16, Line 21
    Description: This section would allow Councils to develop plans to 
substitute electronic monitoring for human observers, if it will 
``provide the same level of coverage as a human observer.''
    Comments: This may be impracticable or impossible, depending on the 
nature of the fishery and the details of the vessel. This requirement 
should be reviewed and revised to facilitate and encourage the 
development and use of electronic monitoring.

    Page 18, Line 1
    Description: Confidentiality provisions.
    Comments: The confidentiality protections should allow for 
reasonable use of fisheries data by Councils in making management 
decisions, and by stock assessment scientists, without identifying 
individual vessels or operators. Limiting the use to Council employees 
may prevent Councils from making informed decisions regarding important 
issues. That was the case when our Council made allocations to tiers in 
the Tilefish fishery. The tiers were based on history, but we did not 
know what the allocations were. This section should be amended to 
improve decisionmaking.

    Page 21, Line 14
    Description: This would prevent the Secretary from providing 
fisheries monitoring data to any person for the purposes of coastal and 
marine spatial planning under Executive Order 13547.
    Comments: This would severely disadvantage U.S. fisheries in the 
ocean planning process and should be deleted. Ocean planning is a 
multi-sectoral, data-driven process, and the best defense of 
traditional fisheries uses of the ocean will depend on effective data 
collection and interpretation.

    Page 23, Line 4
    Description: This would allow the Secretary to use law enforcement 
proceeds within regions for fisheries science. At line 4, it states 
``subject to appropriations.''
    Comments: Since this section provides for the use of law 
enforcement penalties, is it necessary to make it subject to 
appropriations?

SEC. 9--COUNCIL JURISDICTION FOR OVERLAPPING FISHERIES

    Page 26, Line 1
    Description: This section would prioritize Saltonstall-Kennedy (SK) 
funds for Gulf of Mexico Cooperative Research and Red Snapper 
Management.
    Comments: This same model could be used around the Nation to 
address data-poor fisheries, and would benefit from broader discussion. 
Some portion of the SK funds should be made available to all of the 
regions to support cooperative research.

                                 ______
                                 

Question Submitted for the Record by Representative Hanabusa to Richard 
                             B. Robins, Jr.
    Thank you for the opportunity to respond to Representative Colleen 
Hanabusa's question regarding the implications of proposed Federal 
fisheries legislation relative to the Endangered Species Act (ESA) and 
the National Marine Sanctuaries Act (NMSA).

    Answer. The current Magnuson-Stevens Act (MSA) requires that 
fishery management plans be consistent with all applicable Federal law. 
Representative Hanabusa raises important questions about the 
relationship between MSA, ESA, NMSA, and the role of the Council.
    Through the Council Coordinating Committee (CCC), the leadership of 
the U.S. regional fishery management councils have agreed to form a 
working group to address the interface between MSA and other Federal 
statutes, including ESA, NMSA, NEPA, and MMPA, among others, relative 
to the draft reauthorization. This item will be discussed at the May 
meeting of the CCC, and I anticipate that the CCC will develop specific 
comments on this issue at the May meeting.
    The CCC has expressed a strong interest in the role of the Councils 
in the ESA consultation and implementation process. At the February, 
2014 meeting of the CCC, a MAFAC working group made recommendations 
that were endorsed by the CCC. These included measures that will 
clarify the role of the Councils in the ESA process through the 
development of regional memoranda of understanding (MOU) between the 
regional offices of NMFS and the Councils, and the development of 
national policy guidance on best available science in ESA 
determinations. Previously, Councils have been involved to varying 
degrees around the Nation in ESA consultations. The role of the 
Councils in the ESA process should be clarified and will benefit from 
the development of regional MOUs. Another important aspect of ESA 
related to fisheries is the inconsistent integration of the regional 
offices of Sustainable Fisheries within NMFS during ESA listing 
determinations, and this issue is beyond the scope of the draft. 
Organizationally, SF should be more effectively and more consistently 
integrated with the offices of Protected Resources during listing 
determinations.
    Regarding the Member's question of legal supremacy, if a more 
restrictive regulation has been implemented under another statute, or 
another statute is more restrictive than the MSA, then such other more 
restrictive regulations or statutes take legal precedence under current 
Federal law. However, the current situation under NMSA is more complex 
because of certain exemptions from it applying to fishing activities 
regulated under the MSA. As long as a NMSA regulation is not 
specifically exempted from being applicable to fishing, it would also 
be the controlling legislation. The proposed legislative changes in the 
draft are incorporated in the following language, ``In any case of a 
conflict between this Act and the National Marine Sanctuaries Act (16 
U.S.C. 1431 et seq.) or the Antiquities Act of 1906 (16 U.S.C. 431 et 
seq.), this Act shall control.'' The draft language would make MSA 
controlling in the event of a conflict, which would ensure that 
regulation of fishing activities in areas designated as marine 
sanctuaries under NMSA or areas otherwise protected under the 
Antiquities Act would remain under the control of Federal fishery 
managers operating under MSA. If the draft is implemented, existing 
limitations on fishing established under ESA or NMSA would remain in 
effect unless superseded by regulations subsequently promulgated under 
ESA, NMSA, or MSA.
    Thank you again for the opportunity to respond to questions from 
the Committee on Natural Resources and I look forward to continued 
engagement with your committee as you move forward with the 
reauthorization of our Nation's Federal fisheries legislation.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Robins, for your 
testimony. Mr. Rauch, thank you also. I will now recognize 
myself for 5 minutes for questions.
    For you, Mr. Rauch, Section 303 of the Act tells Councils 
what is required in each fishery management plan, requires that 
each fishery management plan created by the Council--and I will 
quote--``contain the conservation and management measures which 
are necessary and appropriate for conservation and management 
of the fishery to prevent overfishing.''
    Does the draft discussion that is out there eliminate this 
requirement?
    Mr. Rauch. No.
    The Chairman. Next question I have, also on Section 303. 
Requires that the fishery management plans--and I quote again--
``In the case of a fishery which the Council or the Secretary 
has determined is approaching an overfished condition, or is 
overfished, contain conservation and management measures to 
prevent overfishing or end overfishing.''
    Once again, does the discussion draft eliminate this 
requirement?
    Mr. Rauch. No.
    The Chairman. And my final question for you is National 
Standard number 1 of the Act states that--and I quote--
``Conservation and management measures shall prevent 
overfishing, while achieving, on a continuing basis, the 
optimum yield for each fishery for the United States 
industry.''
    Once again, does this discussion draft eliminate the 
requirement to end that standard?
    Mr. Rauch. No.
    The Chairman. OK. Thank you very much. And the reason I ask 
those questions is simply to suggest that we are keeping the 
basic parts of Magnuson-Stevens, but giving flexibility, 
hopefully, to the Councils to carry out those instructions.
    So, Mr. Robins, let me ask you this question. The last time 
that Magnuson-Stevens was looked at was 2006, 2007. And the 
2006 amendments required NOAA, along with CEQ, to revise the 
NEPA guidelines to make the timelines mesh with the Magnuson-
Stevens timelines. Did that occur?
    Mr. Robins. It has not, to the best of my knowledge.
    The Chairman. So it is--OK, fair question. I have been--or 
fair answer. But our understanding, it has not occurred. And 
this goes, to me, to the very basic point. This is very, very 
important in order to carry out your roles. And if they haven't 
followed that through on something that they need to follow 
through, why wouldn't one give flexibility to the Councils, 
because you are the one on the ground--probably a bad way--on 
the water to look at that? Am I correct in that assessment?
    Mr. Robins. Yes, sir.
    The Chairman. OK. Those are the only questions I have, and 
I see a lot of members want to ask questions. So I recognize 
now the Ranking Member.
    Mr. DeFazio. Thank you, Mr. Chairman. I will just follow up 
with Mr. Robins.
    You said something which I think reflected a concern I 
expressed at the beginning, which is, having held a meeting on 
the coast of my district recently, a meeting with fishermen, 
they expressed a lot of concern about some proposed wind and 
wave energy off the coast, and felt that, in the current 
hierarchy of things, they are kind of at the end, in terms of 
being consulted, and the Bureau of Energy Management doesn't 
really have them formally as part of the process. And their 
only opportunity comes at the NEPA analysis of what has already 
been proposed, as opposed to perhaps up front, being better 
able to accommodate their concerns.
    And you said something interesting. It said that the 
restrictions in this bill that say you can't use any of the 
data for any marine spatial planning would really inhibit that, 
and could be destructive. Could you just expand on that for a 
second?
    Mr. Robins. Certainly. If you think about what could happen 
in the offshore environment, particularly in the Mid-Atlantic 
and in the Northeast of the United States, we could see 
significant wind energy development. And we have never seen 
anything like that in the offshore environment.
    Wind energy is obviously something that is in the Nation's 
interest to pursue, as far as renewable energy development 
goes, but when an offshore array is sited, it could take up 25 
to 30 square miles of the ocean. And those areas may then be 
out of play for mobile gear commercial fisheries.
    Mr. DeFazio. So, your concern is that if we have data that 
shows, particularly where they want to put it, is a prime 
fishing area, well stocked, we couldn't use that data to oppose 
it.
    Mr. Robins. That is correct. And I think it is critically 
important that that data come into those discussions, to ensure 
that our traditional uses of those areas and fisheries----
    Mr. DeFazio. Right.
    Mr. Robins [continuing]. And/or the resources----
    Mr. DeFazio. Yes, OK. Well, thank you. I appreciate that. 
That points to one problem.
    Mr. Rauch, some of what is happening here is because of the 
slowness of the bureaucracy. And I will raise two issues.
    One, we have a pilot for electronic monitoring in the 
Pacific, in North Pacific region, in our region, PFMC. And it 
seems to be going very well. Yet I don't know what progress has 
been made in other areas. And, further, in our region we are 
requiring, as your--the share of the agency's budget for 
observers goes down, putting an incredible burden--it is 
already difficult enough to have another person on a small 
boat, let alone to have another person on a small boat who 
isn't contributing to your income, and have to pay them.
    Can't we move this along more quickly? The bill would 
mandate you do it all within 6 months. So, would you address 
that, please? How quickly can you move?
    Mr. Rauch. Thank you. The agency supports electronic 
monitoring and other types of observing systems. But, in 
particular, the new advents of electronic monitoring, they 
offer a lot of promise, in terms of better data collection, in 
terms of more cost-effective data collection. I don't think 
that there is a circumstance in the near future in which they 
will completely replace observers and all the things that 
observers can get. But they certainly can supplement, and in 
many instances can do some of the same things that the 
observers do.
    In the Pacific--well, let me back up. We, the agency, did 
issue a policy last year, articulating those principles of 
support, and requiring our regional offices to work with their 
respective councils to come up with regional plans to move out 
and to actually start implementing some of these systems, to 
move out of the pilot process, which we are in, into actual 
implementation.
    The Councils are a key partner in this process. The 
Councils have to set the goals for the monitoring. They have 
to----
    Mr. DeFazio. OK, so--and, you know, we are going to run out 
of time, I have other questions.
    Mr. Rauch. OK.
    Mr. DeFazio. So you are basically putting the blame back on 
the Councils for slow implementation.
    Mr. Rauch. No, sir. But I think it is a partnership that we 
need to work together to move more quickly.
    Mr. DeFazio. OK. Well, you hear the frustration here.
    Mr. Rauch. I do.
    Mr. DeFazio. And that is what is reflected in the 
legislation.
    ESA issues. This would put the Councils in charge of ESA. I 
am wondering. How would that work for recovery of, say, the 
Snake River sockeye salmon? Does the Council have the expertise 
to deal with the BiOp up the Columbia River, how could they be 
in charge?
    Mr. Rauch. Well, certainly the Councils don't have the 
expertise to deal with all of the ramifications of ESA 
recovery.
    I view the provision in the draft discussion bill as saying 
that whenever you issue a fishery management rule, which is a 
critical part for some species recovery, that that has to be 
done in the Magnuson Act.
    But there are many other things that are affecting salmon 
and many of our other species which would retain their original 
jurisdiction. Recovery plans are documents by--that the Marine 
Fisheries Service does. And I don't see the draft is changing 
that. It does, I think, say that if we do a harvest regulation 
for salmon or other stocks, that that has to be run through the 
council process.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Louisiana, Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. Mr. Rauch, a 
significant amount of money is going to be funding research in 
the Gulf of Mexico from the RESTORE Act. A concern has been 
raised that NOAA may not incorporate data from the research 
projects such as surveys around the artificial reefs, and oil 
and gas structures into upcoming stock assessments.
    Our first question is why NOAA doesn't--why doesn't NOAA 
currently search around reefs for red snapper in stock 
assessments? Red snapper is a reef fish. Wouldn't it make sense 
to survey around reefs?
    Mr. Rauch. Thank you for the question. NOAA does conduct a 
number of reef fish surveys which look for red snapper across 
the Gulf. Some of those surveys intercept them around reefs and 
others don't. They do not make--in these independent surveys, 
they do not make a special effort to highlight around reefs, 
because that would tend to bias the surveys, in terms of the 
reefs.
    We are aware that there are a number of data sets involving 
the abundance of red snapper and others around reefs, and we 
were looking for ways to incorporate those into the stock 
assessments, accounting for the sampling bias that you always 
have when you say that you are going to sample any particular 
place. We think it can be done, and it should work into the 
stock assessment. And we certainly think that information that 
is generated through the RESTORE Act should be used and 
incorporated into our stock assessments.
    Dr. Fleming. OK. So, if I understand you correctly, what 
you are saying is that you are still going to sample random 
parts of the ocean, not necessarily going where the red snapper 
usually live. Am I correct about that answer?
    Mr. Rauch. We use a standard random sampling design. Yes, 
sir.
    Dr. Fleming. OK. I mean, obviously, if you are looking for 
timber wolves, you wouldn't go to, say, a desert. Certainly you 
wouldn't look for polar bears in Florida. So, again, if it is a 
reef fish, why not sample on the reefs?
    Mr. Rauch. The fish exist throughout the Gulf. They are 
prevalent on the reef, they are a reef fish, but they also 
exist everywhere else. They are ubiquitous throughout----
    Dr. Fleming. Well, let me ask you this. That is your 
opinion. Do you have any proof that they live apart from the 
reef as much as they do around the reefs?
    Mr. Rauch. I think you are right, Congressman, that they 
are much more abundant around the reefs than everywhere else. 
But they do live everywhere else. They do----
    Dr. Fleming. We don't have--we haven't been monitoring, we 
don't have any science, any data to actually support that.
    Mr. Rauch. I believe there are data to support the fact 
that they are prevalent on the reefs.
    Dr. Fleming. So I can get on to the next question. Would 
you please submit to the committee the data, the science, that 
supports your statements on that?
    Mr. Rauch. Yes.
    Dr. Fleming. OK, thank you. Number two, NOAA's past 
practice has been to wait 6 years or more to assess trends 
before using a new source data. Wouldn't it make sense to 
incorporate new data right away, and adjust as more data 
becomes available? In some sense, isn't that what NOAA is doing 
by using a predictive model and then adjusting after more data 
becomes available?
    In other words, the data that you may actually begin to use 
could be as old as 6 years. Obviously--you know, I can 
understand looking at trends, but why not look at data as 
recent as it is put out in your science?
    Mr. Rauch. Thank you. We do tend to look at both types of 
data. If data is immediately available for some purposes, you 
can use it immediately. There are certainly biological data on 
species health, species presence or absence, that you can 
incorporate immediately. But when you are looking at trends, as 
you indicated, it takes a while for those trends to develop. 
And for trends, you do need to wait and incorporate those into 
the science when the trend becomes available. But there are 
certain subsets of data that you absolutely should be using 
immediately.
    Dr. Fleming. So you would then agree that, while it may 
have a value for trend purposes, that as soon as it rolls out, 
we should be quite willing to utilize it immediately?
    Mr. Rauch. It depends on what it is. Not all data tell you 
the same things. Certain things can be utilized immediately in 
stock assessment, and should be. Others only tell you 
information about trends, and those you need to wait. But we 
should evaluate the data that we get, and the ones that are 
appropriate to use immediately, we absolutely should be doing 
that.
    Dr. Fleming. OK. My time I have left, Mr. Robins, real 
quickly. Do the eight regional fishery management councils 
believe that increased flexibility is a priority for the 
reauthorization of the Magnuson-Stevens Act?
    Mr. Robins. They have identified that as a priority through 
the CCC discussions. The CCC has not had an opportunity to 
develop an all-council position. We have not had a meeting 
since the draft came out. But just building on the discussions 
that we had through the Managing Our Nation's Fisheries 
Conference 3, I would say that that is a priority.
    Dr. Fleming. OK, thank you. I yield back.
    The Chairman. The time of the gentleman has expired. The 
gentleman from New Jersey, Mr. Pallone, is recognized.
    Mr. Pallone. Thank you, Chairman Hastings. I would first 
like to say that I agree with you that the Magnuson-Stevens Act 
requires changes, and that in its current form it is not 
working for fishermen. I appreciate today's hearing, and would 
like to stress my belief that this reauthorization requires 
careful consideration. And I hope that we can work together 
after today to ensure that our committee puts forth a strong 
bipartisan reauthorization bill.
    My questions are of Chairman Robins. I have two questions. 
Hopefully we can get through them. One, the draft legislation 
we are examining includes flexibility in the rebuilding 
timeline for stocks, something I have been advocating for 
years, and have introduced legislation to accomplish. It also 
allows the Councils to use alternative rebuilding strategies.
    From your perspective, will these types of flexibility 
allow the Mid-Atlantic Council to sustainably manage fisheries? 
And how will this allow the Councils to mitigate social and 
economic impacts associated with the current rebuilding 
requirements? And finally, are there any other provisions 
needed to improve the rebuilding requirements?
    I have a second set, too, but let's take this first.
    Mr. Robins. And I appreciate the first question. I would 
suggest that what is in the draft, relative to the elimination 
of ``as soon as possible'' and replacing that with ``as soon as 
practicable,'' and eliminating the 10-year requirement and 
replacing that, and leaving the maximum rebuilding time as F = 
0 plus 1 mean generation time, I think that, more than anything 
else, gives us the flexibility we need to fully consider a 
broader range of rebuilding alternatives.
    And if you think about the example of spiny dogfish that 
happened in the Mid-Atlantic, that was probably the most 
extreme case of rebuilding, where we started out with a plan 
that would rebuild it in 5 years. It has a mean generation time 
of 35 years. I think that highlights the difference in range of 
potential outcomes that we could have considered. And I am not 
suggesting we would have gone to the maximum, but we could have 
considered a schedule that would have allowed us to attenuate 
those impacts that wasn't available to us at that time, and we 
could have allowed a sustainable but lower level of fishery to 
occur that would preserve the infrastructure.
    So, I think--in addition, I think that there is some need 
at the end of a rebuilding period, if biological or 
environmental conditions aren't favorable for rebuilding--you 
know, if you have a period of low recruitment, or if growth 
changes and your projections aren't realized in a stock that 
you are trying to rebuild, I think you should have flexibility 
to amend the timeline. You still have to maintain a low rate of 
removals.
    But part of the problem is if you get to the point that you 
have 2 years left in a 10-year period and you are not there, 
you may have to impose very draconian cuts on the fishery. And 
we considered that in summer flounder, as you know, in the 
past.
    Mr. Pallone. Exactly. All right, let me ask you a second 
question. I am interested in your proposal to give Councils 
flexibility in the development of recreational accountability 
measures when there is poor scientific information. And I have 
proposed making management more contingent upon having adequate 
scientific information.
    Would you elaborate on how the Council could develop ways 
of basing management on levels of scientific certainty, and 
what type of statutory authority you would need to achieve 
that?
    Mr. Robins. Certainly. I think there are two areas where 
this is most significant. One is in the process of setting 
quotas. So, just thinking back to the way that the assessments 
work, and then putting that through the SSC, the draft does 
include a provision that would change the advice coming from 
the SSC, or the ceiling that we would have in setting quotas. 
And I see some problems with that provision. But I think if 
that were re-purposed around giving the Councils some 
discretion in setting quotas on data-poor stocks, I think that 
would give us important flexibility, and that would be 
important for some of our recreational fisheries in the Mid, 
like black sea bass.
    But with respect to the recreational accountability 
measures, I think they shouldn't be set up in a way that 
implies a level of precision and accuracy that does not exist. 
And that is where we are now. So, if we had the ability to 
consider the confidence intervals, for example, about the catch 
estimates in developing accountability measures, I think that 
would allow us to temper our responses and make them more 
appropriate. Because these are not census estimates, they are 
simply--on the East Coast they are sample-based surveys. And it 
is not a complete enumeration of catch.
    So, in those situations we need to treat the data 
appropriately. I think accountability is still in order, but it 
needs to reflect the data better.
    Mr. Pallone. All right, thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and thanks for holding 
this hearing. I am looking forward to the whole day's worth of 
panels, and probably don't have any questions for this 
gentleman in particular.
    But I do want to share some comments, just for the record, 
from the Charleston Area Hospitality Association, a number of 
restaurants, and fishermen down in that area. It is not in my 
district, but it is in our State. And I will tell you what. I 
enjoy going down to Charleston and experiencing the culture and 
the cuisine. And the cuisine means it is local seafood, that 
shrimp, that snapper, that grouper, and all the other species 
that they serve at those restaurants.
    But the fishermen in South Carolina and the wider South 
Atlantic Coast are now fishing under historically low fishing 
quotas during seasons that can only be described as derby 
seasons. All fishermen race out to catch as much fish as they 
can before the quota closes, regardless of weather and other 
safety conditions, based on stock assessments that are, more 
often than not, based on very little data.
    Most of the species that chefs rely on for their menus are 
caught in Federal waters, and are managed by one of the 
regional fishery management councils, based on the guidance and 
science provided by the particular regional office or the NOAA 
National Marine Fisheries Service. By law, as prescribed in the 
Magnuson-Stevens Fishery Conservation and Management Act, when 
one of these assessments identifies a fishery as undergoing 
overfishing, drastic measures must be taken immediately to end 
that overfishing, often resulting in the closed fisheries--red 
snapper, for an example--or huge quota reductions for snapper 
and black sea bass, with little time for businesses to plan or 
adjust.
    And a chef that I talked with back in November, he states 
that our culinary identity is one of the main reasons that 
people come to visit the Charleston area, and we owe that, by 
and large, to our fishing and shrimp fleets. These are huge 
investments in these fleets. And one of the things he says is 
that the data and the closure creates so much uncertainty that 
we are going to start losing some of these fleets in South 
Carolina because of the uncertainty that is created.
    He says the flexibility--I will just read his whole 
statement here. ``One of the things we are trying to accomplish 
as a way to change the Magnuson-Stevens Act is to where there 
is a little bit of flexibility in the shut-down times and 
allowing businesses to prepare for it.'' Chef after chef that 
was quoted in here mentioned that, that we lag behind in 
collecting data that I think is paramount. But let's have real 
data that is solid before we make these decisions.
    Just the transparency of data, the way--and, more 
importantly, that that data is collected and shared is just 
integrally as important for all. The government is not making 
it super-easy for fishermen to make an honest living, in my 
opinion.
    So, I will just wrap up my comments and say that we need 
real data. Over the past, when we have had hearings on this 
Act, we have heard from folks that have talked about the data 
not being indicative of what they are actually finding at the 
docks. When people go out and talk to the captains that are 
coming in, and they are finding out what the fishery is like 
out there, whether it is in South Carolina or Florida, I think 
that that data is just as important as my friend from Florida 
said once, as two guys in a lab coat up in a cubicle here in 
Washington, using some computer model to figure out what the 
fishery should be like. We need to use real data. We need to 
use the data that, when you talk to the captains and you talk 
to the guys.
    And then, the last thing I will say is we need to make sure 
that the recreational fishermen aren't cut out of this loop, 
and they feel like that they are ostracized in a lot of ways.
    So, I appreciate the hearing. I look forward to the other 
comments today, as we move forward, and I yield back.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentlelady from California, Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. And listening to the 
comments from my colleague in regard to the chefs, the plans to 
adjust, maybe we need to be able to figure out if there is a 
phased-in notification, so they are able to plan ahead for, I 
would say, a month, at least to be able to give them 
notification of whether there is going to be a shut-down of--in 
overfishing in certain areas. That might be something that 
might help be able to create a better environment for the 
fishing fleets and for the people who own the restaurants, so 
there is a continuous assistance to them, if you will. That is 
just a comment.
    Mr. Rauch, you indicated that the bill does not eliminate 
the requirement to end overfishing, but it would let 
overfishing continue for as much as 7 years. Is that correct?
    Mr. Rauch. I did not say that. I am not aware of where the 
7 years came from.
    Mrs. Napolitano. That is apparently in the record 
somewhere, the 7 years.
    The Chairman. I was consulting. What was the question? I 
apologize.
    Mrs. Napolitano. Well, if overfishing is allowed for as 
much as 7 years, would that harm? And would that be a good 
move? Would that be detrimental or helpful?
    Mr. Rauch. The United States right now enjoys a very good 
reputation nationally and with our consumers for being 
sustainable. That reputation is based on the fact that we end 
overfishing immediately. We do not allow it to continue.
    In prior versions of the Magnuson Act, before 2007, there 
were situations in which you could allow overfishing to 
continue. That led to a degradation of the stocks.
    Mrs. Napolitano. Right.
    Mr. Rauch. Led to a degradation of the reputation of U.S. 
fishermen. It is something that we do not face right now, and 
so we would try to----
    Mrs. Napolitano. All right, thank you. And my time is 
running out. The fact that there are still some endangered 
species, am I correct, that are being overfished.
    Mr. Rauch. There are still some stocks subject to 
overfishing. Most of those are international. The ones that are 
overfishing in the United States, domestically, it is because 
we don't have a stock assessment to demonstrate that 
overfishing has ended.
    Mrs. Napolitano. OK. And how often do you assess? To be 
able to answer Mr. Duncan's concern is that you are able to 
determine that you are nearing a level of overfishing. Am I 
correct?
    Mr. Rauch. Some stocks we assess annually, some stocks we 
assess usually on a 2- to 5-year basis.
    Mrs. Napolitano. Is it based on their being overfished?
    Mr. Rauch. Some of them we assess more frequently, based on 
their vulnerability. Some of them we assess more frequently, 
based on their importance to the U.S. economy, or to the 
community. So it does vary, in terms of what we do. But we try 
to assess the more vulnerable stocks more frequently.
    Mrs. Napolitano. But then, overfishing could continue, if 
not watched.
    Mr. Rauch. Yes. If we do not monitor the fisheries, 
overfishing could continue, even with well-meaning managers and 
fishermen. It could happen.
    Mrs. Napolitano. Thank you, sir. Mr. Robins, one thing that 
has not really been highlighted, though Dr. Pikitch mentioned 
it in her testimony, the fact that any of the exceptions to 
rebuilding timeline that are included in the draft be 
triggered, there is then no timeline at all for rebuilding an 
overfished stock.
    And, as the Chairman of the Council, do you think it is a 
good idea--one question--to have no timelines for rebuilding 
more fish? Second, hasn't your Council already rebuilt all 
stocks under the existing requirements of the law?
    And, third, would that have happened, had you had no 
rebuilding deadlines whatsoever?
    Mr. Robins. I appreciate the question, and we have, in 
fact, rebuilt our stocks in our portfolio. We have stocks that 
are at, near, or above their rebuilding targets. So we have 
done that. And I would suggest that we would have still rebuilt 
stocks, albeit on a different timeline, if we had had the 
option to consider what is in the draft.
    But, having said that----
    Mrs. Napolitano. Which part of consideration of the draft 
are you talking about, sir?
    Mr. Robins. That is the elimination to rebuild a stock ``as 
quickly as possible,'' and replacing that with ``as quickly as 
practicable,'' and allowing the maximum stock rebuilding 
timeline to be the time it would take, in the absence of any 
fishing, plus one mean generation, which is currently in the 
Act as what we call T-max, that is the maximum time. But that 
would still be there.
    So, you would still have to rebuild it within that 
timeline. But having that range would allow you to consider 
more fully, I think, the tradeoffs involved in the biological 
timelines versus the social and economic mitigations that we 
have talked about.
    Mrs. Napolitano. Thank you for your answer. Mr. Chair, I 
yield back.
    The Chairman. I thank the gentlelady. I recognize now the 
gentleman from Florida, Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Rauch, I am 
going to ask you some questions. I am going to give you just a 
couple here.
    The 2014 omnibus contains $25 million for catch shares. How 
do you plan to spend that?
    Mr. Rauch. We have yet to submit our spend plans to the 
Appropriations Committee, so I can just tell you in general, 
but not the details. There are a number of existing catch share 
programs around the country that we plan to invest in, some of 
them in your region in the Gulf.
    Mr. Southerland. Wonderful.
    Mr. Rauch. Some of them on the West Coast. But in terms of 
working out the actual details, I do not have any until we get 
through with our discussions with the Appropriations Committee.
    Mr. Southerland. Red snapper, as you know, is closed in the 
South Atlantic. What year was that closed?
    Mr. Rauch. I don't recall. It was before 2010, I think.
    Mr. Southerland. OK. I think----
    Mr. Rauch. Something like that.
    Mr. Southerland. I think it was 2008, but I may be off a 
year or two. So we are in the same----
    Mr. Rauch. Yes.
    Mr. Southerland [continuing]. Understanding there. Red 
snapper--and it still remains closed with no updated 
assessment. Is there--I mean what is the plan? When can we--you 
know, because I know, according to National Standard Number 8, 
the economic viability--and in your own testimony you alluded 
to the red snapper and its economic viability to our region.
    So, therefore, I am trying to find some consistency, 
because I find great inconsistency to name a fish that is so 
viably, economically important that you would name it in your 
written testimony and verbally allude to it, and yet it has 
been closed since 2008 and we still have not had an assessment. 
Give me an idea into what you are thinking.
    Mr. Rauch. Red snapper is very important to the region, 
both----
    Mr. Southerland. You stated that.
    Mr. Rauch [continuing]. Both in the Gulf and the South 
Atlantic.
    Mr. Southerland. Yes.
    Mr. Rauch. It has been closed in the South Atlantic. We did 
create a framework that allows short-term openings, and it 
did--there was a very brief opening----
    Mr. Southerland. Weekend, one weekend.
    Mr. Rauch. Yes, very brief.
    Mr. Southerland. Very, very brief.
    Mr. Rauch. Very brief.
    Mr. Southerland. So, you and I, we talk the same language.
    Mr. Rauch. Yes.
    Mr. Southerland. That was very, very brief.
    Mr. Rauch. It was very brief. We are concerned--we were 
concerned when we closed it, because the way that you assess 
the science in that fishery is with the fishermen's landings. 
And once you close it, the fishermen aren't landing anything, 
so you have no way to assess the stock.
    So, in 2010 we created a fishery independent survey with 
our Southeast Science Center to send a vessel out there to 
collect the data on which to assess it. We are going to do a 
stock assessment in 2014, which would allow us to evaluate 
those openings, based on a set of data that didn't exist in 
2008. And hopefully, if the stock is recovered, we will be able 
to expand those very brief openings into much more substantial 
openings, and to see some more of the economic promise that red 
snapper does hold for the region.
    Mr. Southerland. There was an assessment done in the Gulf 
of Mexico in 2004 that said there were 8 million pounds of red 
snapper. The one that was done last year, 2013, the fish had 
doubled to 16 million pounds. And the recreational fishermen 
were rewarded with reduced days. I found it ironic that our 
Council would not release those results, or not address those 
results, until after the season had been announced. Kind of a--
seemed like a little poke in the eye to most people.
    But if something is--you know, you have not done an 
assessment in so long, I have to think that you can chum for 
snapper in the South Atlantic, as reports have been given.
    So, you are saying that, even if the data comes back and it 
is good, we can look for very brief--and you and I have 
determined that ``brief'' is like a weekend--brief openings for 
a fishery that clearly has rebounded?
    Mr. Rauch. So the stock assessment was about Gulf red 
snapper. So the Gulf red snapper has----
    Mr. Southerland. I understand.
    Mr. Rauch [continuing]. Rebounded fantastically.
    Mr. Southerland. But I am hearing the same observations 
that I hear in the Gulf about how the fish have rebounded.
    Mr. Rauch. So, if that is correct, I would be hopeful that 
we could have more than a brief season next year. But we 
haven't seen that stock assessment yet.
    Mr. Southerland. Because there hasn't been one.
    Mr. Rauch. There hasn't been one in the South Atlantic.
    Mr. Southerland. That is my point.
    Mr. Rauch. Right.
    Mr. Southerland. So you are waiting for an assessment that 
hasn't been scheduled.
    Mr. Rauch. It is going to happen in 2014, we believe.
    Mr. Southerland. OK. I will be eager for those results.
    Last question with 28 seconds. When a Council opens up a 
public comment period, is there a threshold that needs to be 
met before action is taken? For example, over 4,000 individual 
comments against sector separation, and yet the Council has 
been moving--in our neck of the woods--moving ahead with it, 
now voting on something called ``voluntary sector separation.'' 
If 4,000 people showed up at a meeting and made public 
comments, wouldn't that get the Council's attention?
    Mr. Rauch. I think it would get the Council's attention.
    Mr. Southerland. It doesn't.
    Mr. Rauch. I don't think--I have not yet seen the Council 
meet in a room that could hold 4,000 people.
    Mr. Southerland. No, but I am talking about the comments 
that come in. Clearly, the comments have been clearly against 
them moving forward. And yet, there is a rush to get this done.
    Mr. Rauch. The Councils are quasi-independent bodies. And, 
much like Congress, they take issues up in their own time. 
There are standards for action in the council process that, 
before they take a final action, they have to meet certain 
standards dictated by the Magnuson Act or we will overturn the 
amendment. But within those broad standards, the Council sets 
its own agenda.
    The Chairman. The time of the gentleman----
    Mr. Southerland. I yield back, thank you.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Mr. Rauch, 
I have a couple of questions for you.
    On Guam in the Western Pacific, data collection and 
scientific methods remain a significant challenge to us. But 
they are crucial to the health of our fisheries and ecosystems. 
Now, I also believe a science-based approach can and should 
take into consideration unique cultural issues, as well as our 
diverse ecosystem.
    With that said, do you believe that this draft bill's 
provision that undermined the advice of scientific and 
statistical committees will result in more profitable and 
sustainable fisheries?
    Mr. Rauch. I am not sure what provision you are talking 
about, but I do want to echo your concern about the importance 
of science in the Western Pacific. It is something that we have 
been very concerned about. We have recently increased our 
investment there.
    I do believe that fishery management depends on good 
science. There needs to be science-based decisions and there is 
a national standard that requires all management determinations 
to be based on best available science.
    Ultimately, at the end of the day, the Secretary acts as 
the gatekeeper for science. We have to approve all the 
regulations, and we will have to make sure that the Councils--
or that the regulations are based on best-available science. So 
I am not sure exactly what provision you are talking about, but 
we are concerned that the decisions need to continue to be made 
science-based. And if there was any undermining of that, that 
would be of a concern to us.
    Ms. Bordallo. All right. And my second question for you is 
under current law, NOAA makes the determination of whether or 
not a stock is overfished. Now, Section 3 of the draft bill, it 
says it would remove scientific criteria and allow Councils to, 
one, determine independently whether or not a stock is 
overfished; and, two, unilaterally terminate rebuilding 
efforts. So, what would be the result of removing such 
scientific criteria from determining whether or not a stock is 
overfished?
    Mr. Rauch. So that issue is somewhat complicated right now. 
Currently, the Councils set the criteria for what is overfished 
in all existing fishery management plans. It has to be based on 
the best-available science. We, ultimately, as I said, are the 
gate-keepers. So every fishery management plan right now has a 
council-generated definition of what is overfished or not. We 
then, the Fisheries Service, comes in and we run the science 
and the stock assessments and determine were those criteria met 
in any given basis. So, we will tell the Council whether the 
situation has met that.
    The current bill would seem to allow the Councils to short-
cut a rebuilding plan before it has achieved its objectives by 
saying it was depleted and it is no longer depleted. And it is 
unclear to me how that process works. We have seen in the past, 
situations where rebuilding plans were going on, and then, for 
whatever reason, the situation changes. And there needs to be 
some flexibility and adjustment. We think we have done that, 
but we have heard that there is this issue about rebuilding 
plans which need to terminate early. This bill, it would seem, 
would allow the Councils to terminate the rebuilding plan 
early. It is not clear what the criteria they would use to do 
that.
    But, as I said, ultimately, the Secretary would be the 
gate-keeper, and would require that it be based on the best 
available science, but that is an issue that we would need to 
look into.
    Ms. Bordallo. So, let me get back to, then, this provision 
that we spoke of, here. It would be a concern. Is that correct?
    Mr. Rauch. The concern is that when we set out a rebuilding 
plan, we say we are going to achieve a biological target. That 
biological target, then, has economic consequences. The reason 
we are doing this is we want to generate economic growth in the 
fishery. This would appear to allow the Councils to stop their 
rebuilding before you achieve that target. And it is not clear 
to me what the consequences of that are.
    Whether--so are you leaving economic value--are you 
foregoing economic value, or are there significant short-term 
costs that you need to account? So that is a delicate balancing 
that we would have to look at. So we would want to look at that 
issue before we take a firm position. But that would be the 
issue about terminating before you achieve your biological 
target.
    Ms. Bordallo. In listening to the answers to my questions, 
Mr. Rauch, I do feel that you think that scientific methods are 
important, whatever section of the bill we are talking about.
    Mr. Rauch. Absolutely.
    Ms. Bordallo. Thank you.
    The Chairman. The gentlelady yields back her time? I thank 
the gentlelady. The Chair recognizes the gentleman from 
Louisiana, Mr. McAllister.
    Mr. McAllister. I yield back my time, Chairman.
    The Chairman. The Chair recognizes the gentleman from the 
Northern Marianas, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. And, Mr. 
Rauch, thank you for meeting with me. And we are still looking 
forward to a letter we wrote to NOAA. And please extend my 
congratulations to the new Assistant Secretary Administrator of 
NOAA.
    Several of the witnesses have reiterated the argument that 
the law does not provide flexibility when it comes to 
rebuilding requirements. Yet, as you point out, 53 percent of 
the stock currently in a rebuilding plan have rebuilding 
timelines that exceed 10 years, due to a biology or 
environmental conditions, and that current rebuilding timelines 
actually range from 4 to 100 years. That seems very flexible to 
me, as does your mention of the ability to revise building 
plans based on new scientific information, or when a stock is 
failing to make progress in rebuilding.
    Would you care to expand on that? Elaborate on this, 
please.
    Mr. Rauch. Thank you, Mr. Congressman. Yes, we do believe 
that there is a great deal of flexibility in the rebuilding 
timeframes. First, on the timeframes themselves. As you say, 
there is this perception that there is 10 years, and there is, 
in statute. But there are a number of areas that would allow us 
to extend them, based on certain factors, including the biology 
of the stocks and others that I mentioned in my oral and 
written testimony, so that we have roughly half of them are 
longer, and some of them much longer, than 10 years.
    Once you set the timeframe itself, there are circumstances 
where you can change it, based on biological conditions, as we 
have done a number of times in the Pacific Coast, or you could 
determine that you are not making adequate progress, and 
revisit that, like we are doing on the East Coast in a couple 
of occasions. So, I do think that there is some flexibility 
there.
    But I do have to reflect that the National Academy of 
Sciences did just come out with a report that indicated that 
perhaps there are better ways to look at this. If the law stays 
as written, we are undergoing a National Standard 1 rewrite 
process in which we are looking at those flexibilities to see 
if we can take the National Academy of Sciences' 
recommendations within the law as it is currently structured to 
highlight the flexibility that does exist.
    Mr. Sablan. So my other question is, as you have mentioned 
before, there are all types of electronic monitoring, from 
catch accounting to electronic log books to VMS, vessel 
monitoring systems. This bill contains language that would 
prevent electronic monitoring data from being used for law 
enforcement purposes. And the way it is written seems to 
preclude the use of VMS. What would be the consequence of that? 
And what other types of EM are necessary for compliance, 
enforcement, and safety-at-sea purposes?
    Mr. Rauch. Well, we certainly use a wide variety of 
electronic monitoring systems for both enforcement and for data 
collection. It would be a concern to us, in terms of how are 
you going to implement the Act, if you could not use electronic 
monitoring for such enforcement. And I did read that provision 
in the statute. And, as written, it does seem to do that, 
although I think that there may perhaps be another 
interpretation which might not go so far.
    So, we do use that currently. I know a number of Councils 
we talked about with another one of the Members about the 
importance of trying to develop more electronic monitoring 
systems, and some of the Councils currently are considering 
uses for this for enforcement purposes. So I do think that the 
bill, as written, would limit that ability. And then we would 
have a concern about how else are you going to enforce the Act 
if you can't rely on these systems.
    Mr. Sablan. All right. And before I ask my last questions, 
I also want to associate myself with the distinguished lady 
from Guam, and your office giving greater attention to the 
Pacific, especially Guam and the Northern Marianas, in review.
    But my final question for you, Mr. Rauch, is that we have 
heard testimony today and over the past year that NOAA is 
putting too much emphasis on ending overfishing, and not enough 
emphasis on achieving optimal yield from fisheries. While I 
agree that there should be coequal goals, isn't the second 
contingent on the first? Is it possible to achieve OY while 
overfishing is occurring? Optimal yield while overfishing is 
occurring?
    Mr. Rauch. I think ending overfishing is important, not 
only for environmental sustainability reasons, but I think the 
fishermen are achieving a great benefit from being able to 
demonstrate that they sustainably fish their harvest. I think 
that they get a competitive advantage from that. They are 
improving the product, not only for the U.S. markets, but for 
international markets. It is something we would not want to 
lightly give away, even if we environmentally could.
    I do not think that we could achieve optimum yield and 
allow overfishing, certainly on a long-term basis. 
Theoretically, it might be possible to do it in a year. But 
over the long term, you could not do that.
    The Chairman. The time of the gentleman has expired. 
Recognize the gentleman from Alabama, Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Mr. Rauch, I have some 
questions for you about snapper. I think I heard you say, in 
response to a question from Mr. Southerland, that the Gulf red 
snapper has ``rebounded fantastically.'' Did you say that?
    Mr. Rauch. If I didn't say that exactly, I said something 
like it.
    Mr. Byrne. OK. Now, is that based upon the assessments by 
the Southeast Science Committee?
    Mr. Rauch. Southeast Science Center and the Council's 
Science and Statistical Committee.
    Mr. Byrne. OK.
    Mr. Rauch. Yes.
    Mr. Byrne. And in reply to a previous question about 
snapper, you talked about how you assess not just the reefs, as 
this is a reef fish, but other areas in the Gulf, as well. So 
it is based upon that total assessment.
    Mr. Rauch. Yes.
    Mr. Byrne. Can you tell me, then, why the snapper season 
for this coming year has only been increased by 10 days?
    Mr. Rauch. While the stock itself has increased, and it has 
increased much quicker than we thought, fishing effort has also 
increased with the Gulf. The fish have expanded their range, so 
they are encountering more recreational fishermen than they did 
before. They are bigger than we expected, so one fish that a 
fisherman got historically is now two or three times that size.
    So, what that means is that the impact that the 
recreational fishermen may be having is also growing, at the 
same time that the fish population is growing. So, while we 
have consistently added to the recreational quota in every year 
for the past--I could get this wrong--for the past several 
years, we have looked at the recreational effort and added 
fish, increased the quota based on the growing thing, the 
growing health of the biomass, it is also true that the 
effort--the recreational fishermen have quickly caught that 
quota every single year, and they continue to do so.
    So, we did expand the quota, based on recent numbers. But 
we couldn't expand it more than 40 days this year. We continue 
to work with the Council. The Council is meeting, I think, this 
week, to look for ways to increase that season. We understand 
how important it is to the Gulf.
    Mr. Byrne. Well, and I appreciate your saying how important 
it is to the Gulf. Under the draft legislation, you would be 
required to come up with a prioritization of the species that 
you are actually assessing. Does that mean you are going to 
prioritize the red snapper?
    Mr. Rauch. I could be wrong. I think it talked about 
prioritizing data-poor stocks. We already prioritize red 
snapper. Red snapper is one of the most important economic 
species in the Gulf, and is one that we are devoting a 
substantial amount of our resources to, because it is so 
important. I don't think that it would be any less important 
under any prioritization scheme that we do.
    Mr. Southerland. Would the gentleman yield?
    Mr. Byrne. Yes, sir.
    Mr. Southerland. The statement you just made, you said you 
based red snapper as a priority. And yet we know, in the South 
Atlantic, it has been closed since 2008 and you haven't had a 
survey. That contradicts the statement you just made. It is not 
a priority.
    Mr. Rauch. We instituted a survey in 2010 for South 
Atlantic red snapper.
    Mr. Southerland. My point----
    Mr. Rauch. And----
    Mr. Southerland. OK. But, I mean, you clearly made a 
statement that it is a priority. And you are satisfied that the 
results from 2010 on a fishery that was closed in 2008--and you 
just--by the way, your Department has come and testified. You 
all just recently made the decision to do the 2014, because the 
last time your Department came and testified, that wasn't on 
the books. So, I mean, it is not a priority.
    And with that I yield back to the gentleman. Thank you.
    Mr. Byrne. Let me go back to the Gulf Council, because I 
have talked to some of the members of the Council, including a 
marine scientist that is on the Council, a very respected 
marine scientist. And his conclusion, based upon data that he 
had, scientific data, is that there are far more snapper in the 
Gulf than you all are indicating.
    Is it possible that the analysis that you are using, the 
data collection you are using, is under-counting the red 
snapper in the Gulf, because you are not adequately sampling 
around the reefs? And we know that there are a lot of 
artificial reefs out there.
    Mr. Rauch. So it is always possible. We don't count every 
fish, as I think Chairman Robins indicated. We count a subset 
of the fish and try to do that to estimate the entire 
population. In estimating the entire population, there is 
always a possibility that we are under-counting or over-
counting that population. These uncertainties figured into the 
stock assessment, and I think I am familiar with the individual 
you are talking about, and he is a well-respected member. And 
we do try to account for his data in the stock assessment.
    Mr. Byrne. Well, let me ask you to go back again, bear down 
a little bit harder, because I think the data is going to 
reflect that we could fish more days than 40 days. Thank you, 
Mr. Chairman.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentlelady from Massachusetts, Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And I want to thank 
you all for being here today. I think your perspectives and 
your experiences under the Magnuson-Stevens are very important, 
as we continue to look at how best to reauthorize it.
    I do not represent a coastal district, but my home State of 
Massachusetts is home to one of our Nation's most historic 
fishing industries. The fishing industry has not only shaped 
the history and culture of our State for centuries--and it is a 
very proud heritage, one we share whether we are on a coastal 
community or not--but it also remains the lifeblood of many 
communities, with a significant, though fragile, economic 
impact. And while New Bedford, Massachusetts, is home to the 
most profitable port in the Nation, based on a scalloping 
industry, we have also seen the dire economic consequences of 
the near collapse of the New England groundfish population, and 
the ripple effects across many Massachusetts communities.
    As today's hearing demonstrates, we all have similar goals 
for the Magnuson-Stevens reauthorization. We all want to 
implement a regulatory framework that results in healthy, 
sustainable fish stocks, but also one that encourages vibrant 
fishing communities. And I think, as you hear from the many 
questions here today, we all struggle with the economic impacts 
upon those who make a livelihood from fishing, as well as their 
communities, even as we understand the need to think carefully 
about how to maintain vibrant fishing stocks.
    I have real concerns about this bill's potential impact on 
the long-term success of Massachusetts fisheries. When I visit 
our fishing communities, one of the main themes that I hear is 
how best to balance the short-term needs of our fishermen and 
their families with the long-term sustainability of the stocks, 
which is necessary for the long-term survival of our fishing 
economy, and for the generational responsibility many of those 
who have spent not only their livelihood, but over many years, 
their family's livelihood, and who look to preserve a fishing 
life for their children.
    But I am concerned that this draft prioritizes the short 
term over the long term. I am also concerned about the impact 
of waving bedrock environmental laws such as the National 
Environmental Policy Act and the Endangered Species Act, which 
are essential for maintaining the healthy marine ecosystems 
crucial to securing the Massachusetts fishing industry well 
into the future.
    So, this is really more of a statement, just simply that, 
as we work on reauthorizing Magnuson-Stevens, we know it is not 
an easy process, we are all trying to find that delicate 
balance, Dr. Rauch, that you referenced. But moving forward, I 
hope we can work together on a bipartisan basis to address some 
of these concerns.
    And just, I guess, your thoughts, really, as to the balance 
in the proposed draft, and where we might look to bring it into 
better alignment in order to well understand the short-term 
challenges, but also maintain a vibrant fishing stock and a 
vibrant fishing industry, going forward, Dr. Rauch.
    Mr. Rauch. Thank you. The Administration has not taken a 
formal position on this discussion draft. And so I can't answer 
the question about my thoughts on that.
    I will tell you some of my thoughts on National Standard 1, 
which are the regulations that we have written to implement 
these kinds of provisions in the past. And one of the things we 
have heard from fishermen through this process, through 
Managing Our Nation's Fisheries--information also went to the 
Congress--was about that balance that you just described.
    We have done a very good job about ending overfishing, 
putting our fish and fishermen on a sustainable basis. And we 
are starting to see the economic value of that. But we also 
know that, in doing so, we are leaving some economic growth on 
the table, some growth that is important, some stability to the 
fishermen that is important. And I do think that, collectively, 
at least from the Administration's perspective, we want to re-
look at our regulatory process to determine whether we have 
struck the balance correctly within the laws that exist. And I 
would hope that Congress will do the same.
    It is an issue that we need to struggle with. It is 
something we are hearing from the fishermen.
    Ms. Tsongas. And, Mr. Robins, you have a few seconds here.
    Mr. Robins. Thank you. I would tend to agree. I think the 
exemptions need to be treated very carefully, because, on the 
one hand, they are necessary to, I think, enhance the stability 
of the fisheries that we are all trying to achieve. And yet, if 
they are put in in such a way that undermines the integrity or 
the fundamental strengths of the Act, that would not be in our 
long-term interest. So I would suggest, as I have in my written 
testimony here today, that several of those exemptions receive 
significant revisions and consideration before they get 
approved.
    Ms. Tsongas. Thank you both. I yield.
    The Chairman. The time of the gentlelady has expired. The 
Chair recognizes the gentleman from Virginia, Mr. Wittman.
    Dr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks so 
much for joining us today. Mr. Robins, I want to go straight to 
you and talk a little bit about catch shares. You know there is 
a referendum requirement for the creation of new catch shares. 
I wanted to get your perspective in the Mid-Atlantic about the 
use of catch shares, and then also your thoughts about 
flexibility within the creation of those catch shares.
    And you made some comments on Section 7, talking about the 
inclusion of sectors in defining catch shares, also hardship 
provisions there, how those hardship provisions might create 
some challenges. And then, also, a provision for the preclusion 
of the use of catch shares. Can you kind of give us your 
perspective in the Mid-Atlantic, and then talk about the 
flexibility elements in some of these issues that you pointed 
out that may contradict flexibility?
    Mr. Robins. Thank you, Mr. Wittman, for the question, and I 
will. The Mid-Atlantic manages 12 different species of fin fish 
and shellfish. At this point, only three of those are subject 
to catch share management. Two of them were among the first 
ever in the country to have an ITQ, Surfclam and Ocean Quahog 
Fisheries.
    Dr. Wittman. Yes.
    Mr. Robins. Those have been successfully managed under that 
program for, now, over 20 years. The third is golden tilefish, 
which is a more recent development.
    But we have a longstanding history, I think, as a Council, 
of looking relatively pragmatically at these questions, in 
terms of considering catch shares among many alternatives in 
managing a fishery. And we have a history of considering and 
generally not adopting catch shares in those fisheries, and 
that is why most of our fisheries now are not managed in that 
way. But I think Councils should have the flexibility to 
consider them as a management tool.
    And I question whether the referendum is really an 
efficient way, or an effective way, for the decisionmaking 
process in fisheries management. There might be some situations 
where it is appropriate. But we have a history, I think, on the 
East Coast, some fisheries that had years and years of open 
access, and that led to over-subscription to the fishery. And 
so, you know, you may have a fishery that has a lot of 
inactivity and latent permits in it. Is a referendum the best 
way to address that question? I don't know that it is. And you 
have a lot of concerns about how to craft a referendum, who is 
eligible, how do the votes get counted. It strikes me as a 
cumbersome and somewhat unwieldy tool by which to consider how 
to best manage a fishery.
    The council process allows for extensive public input. And 
if you are going to consider a major reform in the management 
of a fishery, it has to have broad support. I think that is a 
basic principle of fact in making good management decisions.
    So, you know, I see it as somewhat unwieldy. And I think 
there is a loss of flexibility in what is proposed. If Councils 
do have to use that process, I think they ought to have the 
discretion to determine voting eligibility, and how it is going 
to be done. But, again, I think it is somewhat cumbersome.
    Dr. Wittman. Let me ask this. As an alternative, then, 
maybe, to a referendum requirement, is there a higher level of 
rigor that possibly could be put in place to incorporate public 
comment in these decisions? Because I know some folks--and I 
think rightfully so--sometimes they are concerned that the 
public comment is separated from the ultimate public policy 
decisionmaking.
    So, I didn't know if there is a way--if it is not a 
referendum, is there another tool that we could use to more 
closely connect that, so the public understands how their 
comments are put into the management decision process?
    Mr. Robins. Well, I think, just reflecting more broadly on 
the experience in the Northeast region, and thinking about some 
of the difficulties that were experienced when the groundfish 
fishery moved into sectors, one consideration might be to have 
a minimum time for the development of allocated fisheries, 
because in that case, you know, the process was accelerated, 
and there was some significant dissatisfaction, as I know you 
all have heard.
    But I think it is critical that Councils take a 
deliberative approach when they go through that process. And in 
that situation New England had to do a lot quickly to comply 
with the ACL requirements, and they were in a difficult 
position. But I think it is important to have adequate time for 
the development of those plans when they are being considered.
    Dr. Wittman. Let me ask you one quick question, too, about 
energy development. Obviously, off the Mid-Atlantic the Outer 
Continental Shelf is a focus on energy development, especially 
there off the Virginia coast. Do you see that there is an 
opportunity for reconciling whatever conflicts may exist 
between OCS energy development and fisheries management within 
the Middle Atlantic?
    Mr. Robins. I think there is. To some extent, the horse has 
already left the barn, but--you know, through the Smart From 
The Start energy program. And yet, when those arrays are 
ultimately sited, there should be fisheries data that comes 
into those discussions as it relates to the micro-siting 
decisions. And I think, through that, we might be able to 
mitigate some of the impacts on our fisheries.
    Dr. Wittman. Very good.
    Mr. Robins. While accommodating the energy development.
    Dr. Wittman. Very good, thanks. Thanks, Mr. Chairman.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentlelady from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Mr. Rauch, you have 
heard both the Chair make reference and the gentlelady from 
Massachusetts also made reference to the NEPA requirements and 
the conflict between the MSA and NEPA. I think though, you 
know, I don't necessarily advocate that we do away with the 
NEPA requirements, you can understand the frustration, 
especially that the fishermen feel and others feel that have to 
deal with it, when in the 2006 MSA that basically NOAA was 
tasked with trying to resolve the conflict.
    I understood from your response to the Chair that, 
basically, nothing has been done. I am asking now what exactly 
has been done. We may not have addressed it, but what have you 
done? And to really ignore a provision in an authorization act 
for this many years--under a different administration, albeit, 
but still--to ignore it is kind of difficult for those of us 
who want to support all of your efforts to sit there and say, 
``Well, 2006 to now''--that is a long period of time. And why 
hasn't it been done?
    Mr. Rauch. Thank you, Congresswoman, for that, and for 
giving me the opportunity to address this. I think the last 
time this issue was--it was addressed at Chairman Robins, who 
offered his opinion about whether it had been done.
    I disagree. I think we have dealt with this. A little 
background on this issue. We have struggled, historically, with 
integrating the timeframe requirements, the analytical 
requirements between NEPA and the Magnuson Act for some time. 
But in 2000, after we had lost a series of court cases on this, 
we devoted a substantial amount of financial resources and 
agency resources, both on our side and the Council, to try to 
align the processes better. And we worked very hard on that.
    And so, over that time, it is harder and harder to find any 
actual evidence of more than a theoretical conflict between the 
two statutes. It does require some increased analytical effort. 
It requires, sometimes, an increased time effort. But, largely, 
we have been able to mesh those two statutes.
    In response to the 2006 requirement by Congress, we 
initially did a proposed rule, which we put out for public 
comment and then subsequently withdrew, which would mesh the 
two provisions better. We then decided that we could do much of 
the same thing by putting out a policy statement about how the 
Magnuson Act and the NEPA provisions are supposed to apply 
together. We have implementing policies. We did that last 
February, in February 2013. And, as we said, then we thought 
that that had complied with the 2006 requirements.
    We are about to put that out for a further round of public 
review, recognizing it is a living document. And so, in the 
coming months I think you will see another revision of that, 
because once we put it out we talked to the Councils, and the 
Councils had some input they wanted to put into that process. 
And so we have taken that Council input, and we will be putting 
out a revision.
    But we believe we have complied with the 2006 mandate 
between NEPA and the Magnuson-Stevens Act.
    Ms. Hanabusa. Mr. Rauch, I guess my difficulty in 
understanding that is that you have a NEPA, which is a law. You 
have MSA, which is a law. And to mesh two laws together, it 
doesn't seem to be logical that you can simply do it by a 
policy statement. It would seem that you would need a law to 
mesh two laws together, to at least have some kind of force in 
effect.
    And I still don't understand--2006 to 2013 is an awful long 
period of time to come up with a policy statement that has been 
put out, withdrawn, and now you are trying to convince me that 
what Congress has to accept is that a policy statement will 
mesh the MSA and NEPA. And, again, I want to believe that there 
is a resolution to this, I just can't understand how a mere 
policy statement can then trump two statutes that have the kind 
of historic implementation that NEPA and MSA has.
    Mr. Rauch. Well, we are not trying to trump either statute. 
The two statutes do mesh together remarkably well, as long as 
the Councils and NOAA make an affirmative effort to do that. 
Both statutes require a consideration of a number of 
environmental impacts before you take actions. Both have 
timelines and public processes that inform decisionmakers. The 
only real conflict comes, if it is not applied correctly, in 
that the minimum time for action under NEPA is the maximum time 
for action under the Magnuson Act. And so, you have to move a 
lot of the NEPA processes down to the council level in order to 
meet those timeframes.
    So, we are able to mesh them together without trying to 
trump each statute. It does take a little work. But as long as 
we are invested in the process, and the Councils are, we think 
that the two can be handled coherently.
    Ms. Hanabusa. Mr. Rauch, I respectfully disagree that you 
can mesh it like that.
    Mr. Chair, I have some additional questions that I would 
like to submit for the record, if that is OK.
    The Chairman. They will be, and I will make that 
announcement at the end of this panel. I thank the gentlelady 
from Hawaii.
    Ms. Hanabusa. Thank you.
    The Chairman. The Chair recognizes the gentleman from 
Alaska, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman, and thank you for 
holding these hearings. I think I am the only one in this room 
that voted for this legislation when the original Magnuson-
Stevens Act passed. So this is interesting; I appreciate the 
witnesses.
    Mr. Rauch, as you know, in 2004, Congress required NMFS to 
reserve an allocation of pollock for the Aleutian Islands for 
the Aleut Corporation. Since NMFS set aside the Steller sea 
lion habitat, the Aleuts have been unable to fish its 
allocation, and NMFS has allocated it elsewhere in the Bering 
Sea, frustrating efforts to improve the local economy following 
the closure of Adak's naval facility.
    What solution do you suggest that allows either the Aleuts 
to fish their pollock allocation elsewhere in the Bering Sea, 
where the habitat restrictions will not prohibit it, or will 
allow them the economic benefit when others are allowed to fish 
that allocation elsewhere in the Bering Sea?
    Mr. Rauch. Thank you for the question. As you are well 
aware, we are in the process of reviewing those Steller sea 
lion restrictions. We had put out a biological opinion in, I 
believe, 2010, which opposed those restrictions. We have 
received a number of comments, critical comments from 
independent peer reviewers. We had a court telling us that we 
have to do the EIS for that process. We have reinitiated 
consultation, and we expect a new biological opinion out this 
spring. It is on a schedule, I don't recall it off the top of 
my head. But it is in the coming months.
    So, if, as a result of that review, we find that a 
different harvest regime is available, that more flexibility is 
available that can be done and also protect the Steller sea 
lions, then we would look at how you could more easily 
effectuate the needs of the Aleutians in their pollock 
transfer, because there is a possibility there, if we find 
flexibility, we find that the Steller sea lions are doing 
better, we will do that.
    We have committed to working with the Councils on the 
results of that biological opinion and having revised 
regulations in place next year, if we are also seeking an 
extension from the court. But if that is not granted, revised 
regulations will be in place January of next year, which may 
provide some relief in this instance.
    Mr. Young. Well, I appreciate that answer. Will you commit 
to me today that you will work with my office and the 
representative of the Aleut Corporation to find a solution?
    Mr. Rauch. Yes, we absolutely will work with your office.
    Mr. Young. I thank you. As you know, when areas experience 
poor fishing, the Magnuson-Stevens Act allows NMFS to declare 
disaster for commercial fishermen. However, poor returns don't 
simply affect commercial users, but also those subsistence 
users who rely on fish to feed their families. Do you have any 
thoughts on how we can address this contrast between the two?
    Mr. Rauch. Currently, the Magnuson Act requires disasters 
to be based on whether the commercial fishery has failed. That 
is in the current statute, and the discussion draft doesn't 
change that.
    Once that finding has been made, however, the current 
statute allows--if Congress were to appropriate funds to 
mitigate that disaster, allows those mitigation funds to be 
spent on a wide variety of interests. Some of them could be 
subsistence uses. Some of them could be recreational interests, 
interests to other Members. It could be community-based 
interests that don't have a direct connection to the commercial 
fishery.
    So, although the finding is based on a commercial fishery 
failure, by statute, the uses of the money could be much 
broader, to the extent that Congress appropriates money for 
that disaster.
    Mr. Young. OK. Mr. Rauch, I will compliment you. Usually, 
when we get Administration people down in front of us they 
dance pretty well. You are not much of a dancer, and I want to 
compliment you on that.
    Mr. Rauch. I have never been much of a dancer.
    [Laughter.]
    The Chairman. Take that home with you and box it up.
    [Laughter.]
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentlelady from Massachusetts, Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman. I yield back my time.
    The Chairman. OK. Does the gentleman, your colleague 
sitting to your right, Mr. Tierney, have something to say?
    Mr. Tierney. Mr. Chairman, I say simply that I want to 
appreciate the comments of both witnesses, and maybe just ask 
Mr. Robins to expound a little bit more on the flexibility 
issue with regard to how it might affect people in the 
Atlantic, particularly in the Northeast, on that basis about 
the need to have more flexibility in terms of the length of 
recovery time that might be allowed, and other aspects of that 
in their specific fishery.
    Mr. Robins. Thank you, I appreciate the question. And, 
indeed, in the case of fish in the Northeast region, I think 
the flexibility that is proposed in the draft, relative to the 
rebuilding timelines and mandates, would afford more 
flexibility than we have had in the past to consider the 
tradeoffs between biological rebuilding schedules and the 
attendant social and economic impact. So I think that is 
important.
    I think one of the most important considerations, though, 
in the Northeast in particular, for the groundfish fishery is 
having an effective mixed stock exception. And there is a 
proposal in the draft for that. I don't know that it affords 
enough protection for the weak stock, frankly.
    But I think what is needed is something between that and 
what was in the old National Standard 1 guidelines. You know, 
so we need to strike a balance--a better balance, I think--in 
the management of those weak stocks, so that we can facilitate 
the effective yields out of the more productive stocks in a 
mixed-stock fishery. And in New England, in the Mid-Atlantic, 
we have some mixed fisheries where that would be an important 
consideration.
    So, I think that is among the most important things in 
there. I think that does need some additional draft. But I 
think that would really help to create flexibility that could 
be translated into economic and social benefits.
    Mr. Tierney. I thank you for those comments, and I yield 
back, Mr. Chairman.
    The Chairman. Why don't you yield to Mr. DeFazio? He has a 
question.
    Mr. Tierney. I will yield to Mr. DeFazio, thank you.
    Mr. DeFazio. I thank the gentleman for yielding.
    Mr. Rauch, you mentioned at the beginning you are in the 
process of evaluating National Standard 1 guidelines to look at 
a balance and an increase in flexibility. Where are you in that 
process? When can we expect to see a proposal, you know, so we 
have some idea on when it could be done?
    Mr. Rauch. Yes. The short answer is we think that this fall 
we will put out a proposed rule. We have, as has the Hill, been 
working, soliciting ideas from our stakeholders. We are still 
waiting on the Council chairs to see whether they will have 
inputs into this process. We have heard from a number of 
stakeholder communities, we expect to hear from the 
recreational community later, I think in March. So we wanted to 
collect all those inputs into the process before we put out a 
bill.
    Mr. DeFazio. But, I mean, part of what you are hearing here 
today--and parts were reflected in the bill by the Majority--is 
the very ponderous pace at which you change things. And 
couldn't you just say, ``We want comment, your ideas and 
suggestions, by this date, because we want to move ahead''? You 
have been in this review process for 3 years now. This is the 
third year.
    And couldn't this just move a little more quickly, as 
opposed to saying, ``Well, gee, we are waiting to hear from 
people, and we don't know if they are going to get something to 
us, but they are waiting for it,'' as opposed to putting out a 
notice, ``Anybody who is concerned, send us your ideas by this 
date, because we are going to move ahead and we are going to be 
done by this date with a proposed rule''? I mean, is that too 
much to ask of a bureaucracy?
    Mr. Rauch. We did solicit an advance notice of proposed 
rulemaking where we asked that. What we didn't have is your 
deadline date----
    Mr. DeFazio. Yes, I mean, that is part of what you are 
hearing here today, is you are looking at some pretty radical 
changes, in my opinion--although they would say that we are not 
making some of those changes. But all of this is a reaction to 
bureaucracy. And a lot of what goes on in this House is a 
reaction to bureaucracy. And I would like to see a more adroit 
bureaucracy.
    So, I am just suggesting that, if you could move that ahead 
more quickly--I guess I just ask that--have you commented?
    Mr. Robins. The Councils have. But when we commented, it 
has actually been some time, I think, since we initially 
submitted comments. And at that point the implementation was 
still relatively early. I think if we were to take another bite 
at it today, we would have a whole other layer of comments 
that----
    Mr. DeFazio. Well, couldn't you do that quickly? I mean 
does it take you a really long time, too, to do these things?
    Mr. Robins. Sir, not nearly as long. I think we can develop 
comments fairly quickly.
    Mr. DeFazio. OK, thank you--I thank the gentleman from 
Massachusetts, thank the Chairman.
    Mr. Tierney. Thank you. And I want to thank both the Chair 
and the Ranking Member and my colleagues here for allowing me 
the opportunity to sit in on this hearing, and I yield back.
    The Chairman. I thank the gentleman for his remarks. I ask 
unanimous consent that the following documents be included in 
the record: a letter from Mr. Young of Alaska, Mr. Larsen of 
Washington, to Samuel Rauch regarding confidentiality of 
information collected for fishery management; a letter from Mr. 
Don McIsaac to me and Senator Begich regarding a census 
statement; and then, information from the Charleston Area 
Hospitality Council; and then, finally, comments on the 
discussion draft that showed up on our Web site from a number 
of individuals and associations.
    [No response.]
    The Chairman. And, without objection, that will be part of 
the record.
    I want to thank the first panel. Thank you very much. Many 
times, as Ms. Hanabusa said, there may be follow-up questions.
    And if you get those questions, if you could respond in a 
quick period of time, we would appreciate it very much. And the 
first panel is dismissed.
    And while that panel is being dismissed, I want to call up 
the second panel. Mr. Rick Marks from the firm Robertson, 
Monagle and Eastaugh; Mr. Vito Giacalone, Policy Director of 
the Northeast Seafood Coalition; Mr. David Krebs, President of 
Ariel Seafoods, representing the Gulf Seafood Institute; Mr. 
George Geiger, Owner and Operator of Chances Are Fishing 
Charters; Mr. Jeff Deem from the Recreational Fishing Alliance; 
and Ms. Ellen K. Pikitch, Ph.D., Professor and Executive 
Director of the Institute for Ocean Conservation Services from 
Stony Brook University.
    OK, we will go through the testimony in the order that we 
have it here on my list. Most of you sat in on the first panel, 
and so you know what the rules are.
    When the green light is going, you are going very well. 
When the yellow light goes on you have a minute to go. And when 
the red light comes on, we would ask you to wrap up your 
remarks. Your full testimony will appear as part of the record. 
So, with that, we will start with Mr. Rick Marks from the firm 
of Robertson, Monagle & Eastaugh.
    You are recognized for 5 minutes.

 STATEMENT OF RICK E. MARKS, ROBERTSON, MONAGLE & EASTAUGH, PC

    Mr. Marks. Thank you. I am here because I work with 
commercial fishermen, processors, and seafood markets, 
associations, fishing-dependent communities, Alaska Native 
corporations, and a fishing-dependent Indian Tribe from the 
Aleutians and Kodiak, Washington, Oregon, California, both 
coasts of Florida and the Florida Keys, North Carolina, New 
Jersey, New York, and Rhode Island. I canvassed these folks 
about the draft, and I provided their views alongside my own.
    Thank you, Mr. Chairman, for a discussion draft. This 
provides an opportunity for input from all stakeholders, which 
is a great start, and much appreciated, given the significance 
of the topic.
    Generally, the draft reflects much of what we heard from 
several industry members that have come to this table the past 
2 years, the recommendations from Managing our Nation's 
Fisheries conference, as well as from the regional councils who 
deal with these challenging issues on a regular basis. Whenever 
we comprehensively reform complex policy, we cannot always get 
it all right. And it makes perfect sense to consider some 
carefully targeted reform to deal with some of the unintended 
consequences. We hope this can be a bipartisan rebalancing 
effort, rather than a perceived rollback of conservation, as 
some groups have already suggested. We prefer to say ``re-
regulate,'' rather than ``de-regulate.''
    Section 3 allows the Councils not to have to choose the 
shortest, most economically harmful rebuilding strategy, but 
still achieve the goals of the Act. The 10-year rebuild is 
replaced with a scientific alternative, based on 
recommendations from NAS that a predetermined period is both 
arbitrary and harmful to coastal communities. Based on this 
report, those clinging to the 10-year dogma are likely more 
interested in harming our coastal economy than in reasonable 
scientific management. This section also provides the 
Secretary, and not the Councils, with some helpful, but 
limited, rebuilding considerations.
    Section 4 provides the Councils with limited ACL exceptions 
for ecosystem species, short-lived species with high natural 
mortality, and some transboundary stocks, and Section 5 
clarifies overfished and overfishing, much of these generally 
supported by industry.
    Section 7 requires a catch share requirement only in 
certain regions and only for future programs. We very much need 
this provision to put an end to the inequity. There are some 
questions that remain: defining an inclusive vote criteria; 
determining whether we need to take prescriptive steps to 
protect new entrants; and ensure that catch shares remain 
within the fishing industry to protect the consumer.
    I note here, Mr. Chairman, that even in the regions where 
this would not apply, there are differences of opinion on this 
topic.
    There is industry support for clarifying provisions for 
confidential data. I recommend we review this provision to 
ensure that we do not inadvertently prevent industry from 
accessing their own data so they can use it to protect 
themselves in the national ocean policy arena, and to ensure 
that the data used to justify closing fishing areas are 
transparent.
    Regarding electronic monitoring, there are divergent 
industry views. A prudent approach would be to encourage EM 
projects in specific regions in fisheries where they are needed 
and wanted, rather than a prescriptive national program. 
Section 10 requires improved scientific activities in the Gulf 
and South Atlantic, all things we have begged of the Southeast 
Science Center. This is an extremely important provision for 
industry in the lower half of the country.
    Section 6 and 13 add transparency, streamlining, and 
consistency with other statutes impacting fisheries. Much of 
this is also being supported by industry.
    What is missing from the draft? May I suggest respectfully 
the committee consider some of the following: a more developed 
mixed-stock exception to address underfishing, and 
consideration that all species cannot be maintained at peak 
levels; an ACL exception for spiny lobster in the Gulf, where 
there is no international agreement, but the stock is truly 
transboundary; require the Secretary to develop a 
comprehensive, national transparent stock assessment plan 
similar to that contained in H.R. 3063; a reconsideration of 
whether Congress intended for ACLs on every single minor 
species, and be wary of efforts to add forage fish to FMPs, a 
stalking horse to overwhelm the system with the proliferation 
of data-poor choke stocks; amend Section 306 to extend or 
remove the sunset date for authority over West Coast Dungeness 
crab; amend Section 312(a) to require the Secretary render a 
fishery disaster declaration within 9 months, or certainly no 
later than a year's time, after receipt of request.
    Finally, Mr. Chairman, in sum, the draft provides a 
starting point for us to begin rebalancing the Act, providing a 
more practical application of rules and flexibility to deal 
with unique circumstances, and also an opportunity to ensure 
that we are achieving, on a continuing basis, optimum yield in 
every fishery. Thank you all for your time.
    [The prepared statement of Mr. Marks follows:]
 Prepared Statement of Rick E. Marks, Robertson, Monagle & Eastaugh, PC
    Chairman Hastings, Ranking Member DeFazio and distinguished members 
of the committee, I appreciate the opportunity to speak with you about 
the ``Discussion Draft'' legislation titled ``Strengthening Fishing 
Communities and Increasing Flexibility in Fisheries Management Act'' 
(henceforth referred to as ``Draft'').
    I am Rick Marks, a Principal at Robertson, Monagle & Eastaugh, P.C. 
(``ROMEA'') of Reston, VA. Our extensive fisheries-related client base 
includes fishermen, fish houses, shore-based processors, fishing 
associations and fishing-dependent coastal communities in many States 
from several regions around the Nation.
    My background includes service on the Mid-Atlantic Fishery 
Management Council, as a supervisory marine fish biologist for the 
State of North Carolina and as a Fishery Reporting Specialist and 
Benthic Marine Field Technician for NOAA. I hold a Master of Science 
degree in Marine Environmental Science and a Bachelor of Science degree 
in Biology. I have authored several scientific papers in peer-reviewed 
journals regarding various aspects of marine finfish ecology and 
biology and have a professional certification in Environmental Conflict 
Resolution from the Morris K. Udall Foundation in Arizona.
    My comments here today are my own as a Principal at ROMEA and 
advocate for the U.S. commercial fishing and seafood industry. However, 
in my preparation for this hearing I canvassed our clients extensively 
about specific contents of the ``Draft'' so in large part my testimony 
reflects feedback on issues critical to many of our clients operating 
in Alaska, Washington, Oregon, California, Florida (Gulf Coast, East 
Coast, and the entire FL Keys), New Jersey, New York, and Rhode Island.
    The 2006 Amendments and subsequent implementation fundamentally 
altered the way domestic fishery resources are managed. The core 
concept was to separate fish politics from science. The new provisions 
focused on ending overfishing immediately, accountability, rebuilding 
stocks as quickly as possible, reducing fishing capacity through 
limited access programs--all in the context of a more intensive 
reliance on science in the decisionmaking process.
    In 2009 NOAA revised the National Standard One Guidelines (NSG1) 
requiring the Regional Fishery Management Councils (RFMCs) to consider 
both scientific and management uncertainty when setting quotas. For the 
2006 reauthorization to work it required a heavy reliance on high 
quality scientific information. Unfortunately, this is information that 
in most regions we simply do not have. Juxtaposition of insufficient 
data on many stocks with consideration of uncertainty in the quota 
setting process has resulted in precautionary buffers and yields below 
MSY at the expense of the industry and our Nation. In addition, 
proliferation of unpopular catch share programs in some regions has 
intensified the call for reform.
    The following points justify the idea that additional reform is 
necessary and to address the unintended consequences from 2006. These 
include but are not limited to: (1) the committee considered no less 
than eight bills focusing on MSA reform in 2011; (2) you have convened 
6 hearings with testimony from almost 100 witnesses in the 113th 
Congress; (3) NOAA is conducting a re-examination of NSG1 and data 
confidentiality standards; (4) in 2013 the GAO concluded that the 10-
year rebuilding requirement was arbitrary and the mixed-stock exemption 
should be revisited; (5) many of the recommendations from the 2013 
``Managing Our Nations Fisheries III'' and from the Regional Fishery 
Management Councils (RFMCs) strongly support carefully targeted reform; 
(6) we are plagued by weak stock management and a requirement to have 
all stocks, incl. minor ones, at MSY in the same time/space; and (7) we 
are not meeting our objectives to maximize harvest to provide the 
greatest benefit to the Nation.
    Whenever comprehensive changes are made to complex policies we 
don't always get it all right. The time to begin discussing a 
responsible rebalancing of the Act is now and we appreciate the 
committee's attention to and leadership in this matter.
                       comments on the ``draft''
SECTION 3: Flexibility in Rebuilding Fish Stocks
    The title of the ``Draft'' reflects the interest from around the 
country in restoring some measure of flexibility to the stock 
rebuilding requirements without undermining conservation. This theme 
resonates with many in the fishing industry. RFMCs unanimously 
supported adding an element of stock rebuilding flexibility during the 
2006 reauthorization and renewed those efforts in 2013-2014.
    The change to section 304(e)(4)(A)(i) of the Act of ``possible'' to 
``practicable'' in terms of rebuilding periods affects the existing 9th 
Circuit Court ruling in NRDC v. Daley which has been an issue for the 
Pacific Council and the subject of Council comments. If approved, this 
provision would provide the Council the option to choose between 
several rebuilding scenarios and not just the shortest and most 
harmful. The proposed change is viewed by the industry as beneficial to 
coastal communities without undermining stock rebuilding objectives.
    The section also removes the 10-year rebuilding timeframe and 
substitutes the time a fishery could be rebuilt without fishing, plus 
one mean generation (which is the current NSG1 for stocks that can't be 
rebuilt in 10 years). The 10-year requirement has long been considered 
by industry to be completely arbitrary but was touted by the 
environmental community as the gold standard.
    The National Academy of Science (NAS) concluded in their report 
titled ``Evaluating the Effectiveness of Fish Stock Rebuilding Plans in 
the U.S.'' (NAS 2013) that the pre-set 10-year rebuilding requirement 
was indeed arbitrary and harmful, thus ending the debate. We need to 
replace this requirement with more scientifically valid metrics.
    The ``Draft'' also provides several common-sense exceptions to the 
rebuilding time period which will be determined by the Secretary (not 
the RFMCs) including: (1) biology of the stock, environmental 
conditions or management measures under an informal international 
agreement; (2) the cause of depletion is outside the jurisdiction of 
the Council or can't be affected simply by limiting fishing; (3) if a 
stock is part of a mixed-stock fishery that cannot be rebuilt in the 
timeframe if that causes another component to approach depleted status, 
or will lead to significant economic harm; (4) informal transboundary 
agreements that affect rebuilding; and (5) ``Unusual events'' affecting 
the stock and rebuilding and rebuilding can't be accomplished without 
significant economic harm to fishing communities.
    Subsection (a) also adds helpful new flexibility requirements that 
rebuilding plans take into account environmental factors, including 
predator/prey relationships; a schedule for reviewing rebuilding 
targets and progress being made on reaching those targets; and 
consideration of alternative rebuilding strategies including harvest 
control rules and fishing mortality targets, things also requested by 
the RFMCs.
    The ``Draft'' also includes a helpful flexibility provision 
allowing a RFMC the ability to terminate a rebuilding plan for a 
fishery that was initially determined to be overfished when updated 
science determines the stock is no longer overfished. This clarifies 
that once a stock is in a rebuilding period the process does not have 
to proceed to completion irrespective of stock response and condition.
    The ``Draft'' omits a change to MSA Section 312(a) Fisheries 
Disaster Relief that was a provision in 2011 in Mr. Runyan's H.R. 1646 
which requires the Secretary to render a disaster determination within 
specified time period after receiving a disaster request. Currently, 
Section 312 applies no time constraint for the Secretary to render a 
declaration. We recommend the committee consider a response time not to 
exceed 1 year.
    To illustrate, in May 2009 the Secretary closed the entire Gulf of 
Mexico snapper-grouper fishery to protect sea turtles for 5 consecutive 
months. The Governor of Florida issued a formal request to the 
Secretary for a fisheries disaster declaration along with 350 members 
of the Florida fishing industry. The Secretary did not respond to this 
situation until early 2011, and determined that despite the hardship 
the industry survived the closure so no disaster declaration was 
necessary.
    By comparison, it took the Secretary of Commerce just 90 days to 
respond to the most recent 2013 disaster request for a commercial 
fishery failure for Frazier River Sockeye in Washington State.
    Subsection (c) allows increased flexibility by allowing a RFMC to 
phase-in rebuilding restrictions over a period of 3 years for healthy 
fisheries not subject to chronic overfishing and for which immediate 
restrictions will result in significant economic impacts to fishing 
communities. It is critical to note that overfishing will still need to 
end but that in certain circumstances, up to 3 years will be allowed to 
lessen economic harm.
SECTION 4: Modifications to the ACL Requirements
    This section provides Councils with increased flexibility in 
setting annual catch limits (ACL). The ACL requirement is retained in 
the Act but the RFMCs could consider changes in ecosystem and economic 
needs of the communities when setting limits. In light of changing 
environmental conditions, these additions make scientific and common 
sense.
    There are helpful targeted ACL exceptions for ecosystem component 
species that are not overfished or subject to overfishing or likely to 
become subject to those conditions. These species are defined in a 
manner that generally matches what is now in the NSG1. Since these non-
targeted species are such minor components, it makes sense to retain 
them generally in the management context but not as species ``in the 
fishery''. This allows for ecological monitoring but does not increase 
management complexity or negative economic ramifications. A potential 
example of this application is the Giant Grenadier in Alaska trawl 
fisheries in the BSAI/GOA.
    The ``Draft'' allows setting multiple year ACLs and annual catch 
limits for a stock complex. We suggest ``stock complex'' be replaced 
with ``mixed stock assemblage''. This provision will provide some 
limited flexibility for RFMCs to set a single ACL for a group of fish 
stocks that are commonly found in association with each other. Often, 
the availability of individual species within a mixed stock assemblage 
will fluctuate and may be inconsistent with species-specific ACLs. 
However, this provision does not really address the weak stock 
management problems inherent in mixed stock fisheries and should be 
further developed to address minimum stock biomass. This problem can be 
exacerbated as stocks rebuild, in data poor situations, and where 
monitoring is not timely.
    The Act currently provides an exemption from the ACL control rules 
for stocks managed under international agreements and for species whose 
life cycle is approximately 1 year that is not subject to overfishing. 
These provisions are too narrow in scope and do not address species 
that are truly transboundary in nature that have an informal agreement 
(or no agreement) in place, or are species whose life history 
characteristics prevent NOAA from being able to apply the ACL control 
rules in an efficient manner. The ``Draft'' contains helpful provisions 
to address two of these three concerns.
    For example, in the case of Atlantic mackerel, scientific evidence 
indicates the stock distribution is shifting into Canadian waters 
(Overholtz, 2011). Unfortunately, the United States has no formal 
transboundary sharing agreement and Canada takes what they can harvest. 
In this instance, unilateral U.S. management actions pursuant to MSA do 
not affect rebuilding or end overfishing but disadvantage our fishermen 
and weaken the U.S. negotiating position. While the U.S. opportunity to 
harvest mackerel was reduced by more than 80,000 metric tons since 2007 
(from 115,000 mt to 34,907 mt) the Canadian government allowed their 
fishermen to harvest most of the available quota since their fishermen 
are under no obligation to fish under MSA rules. Due to the lack of a 
transboundary ACL exemption, rigid interpretation of MSA requirements, 
and application of layers of scientific uncertainty, the U.S. mackerel 
fishery (which is not overfished) has been severely restricted and it 
will prove difficult to rebuild quota levels under the new MSA 
standards.
    The proposed ACL exception is also appropriate for Atlantic 
butterfish, a species that exhibits a short lifespan (1-3 years), an 
extremely high natural mortality rate, highly uncertain and variable 
survey indices, and an exceedingly variable catch level so that it is 
not possible to accurately determine the condition of the stock on a 
timely basis. Each of these uncertainties contributes to precautionary 
ACLs, essentially turning butterfish into a ``choke'' stock with 
negative effects on fishing for other robust species, undermining our 
ability to achieve Optimum Yield (OY) which is a requirement of 
National Standard 1.
    However, Section (3)(B) in the Draft (Page 7) does not quite 
address the problems related to the Spiny Lobster fishery in the Gulf 
of Mexico. While valued at $375M and supporting more than 3,500 jobs in 
Monroe County, FL alone--U.S. fishermen account for just 6 percent of 
the total harvest. Genetic evidence indicates that stock recruitment 
occurs entirely outside U.S. jurisdiction within the Caribbean Basin 
and waters of Southern Cuba, Brazil, Belize, Honduras and Columbia.
    In 2011, NOAA's Southeast Data Assessment Review (SEDAR) determined 
it was not possible to establish population benchmarks based only on 
the U.S. segment of the population (FKCFA 2011). There is no agreement 
(formal or informal) to manage this international stock.
    Despite the true transboundary nature of this stock and 
insufficient data available to render a status determination, MSA 
requirements could force the RFMC's to set precautionary ACL control 
rules for this species that will harm U.S. fishermen with no biological 
benefit to the stock. Considerations should be made in this particular 
instance where there is no transboundary agreement but the recruitment, 
distribution, life history and preponderance of fishing activities are 
transboundary.
SECTION 5: Overfished and Overfishing Defined
    This section correctly defines ``overfishing'' and removes the term 
``overfished'' from the Act, substituting the newly defined term 
``depleted''. The section also requires changes to the annual Status of 
Stocks report submitted by the Secretary to distinguish between stocks 
that are depleted or approaching that condition due to fishing and 
those meeting that definition as a result of other factors. The 
industry supports the separation and clarification of the two terms and 
the requirement to differentiate vis aa vis stocks status. However, we 
recommend the proposed definition of ``overfished'' be revised to 
include a minimum stock biomass level which reflects the current NSG1.
SECTION 6: Transparency and Public Process
    This section requires RFMC Science and Statistical Committees 
(SSCs) to develop advice in a transparent manner and allow for public 
input. However, the 2006 MSA amendments ceded unprecedented authority 
to the SSC and the increased use of video/call conferencing/webinar 
technology has increased to where critical decisions can be made 
outside of the public eye. So, there is an elemental need to consider 
public access.
    While each Council operates differently, and the range of comfort 
in the regulated community varies from region to region based on those 
differences, there is no reason why we should not require RFMC, SSC and 
Council Coordinating Committee (CCC) meetings be widely available in 
some timely manner and archived for public access.
    We note that subsection (b) requires the Council and CCC to provide 
a live broadcast only if practicable to do so, but does require an 
audio recording, video (if the meeting was in person or via video 
conference), and a transcript of each Council and SSC meeting on its 
Web site within 30 days. Note there are some concerns being expressed 
that 60 days may be a more appropriate timeframe. It will be the 
responsibility of the Secretary (not the RFMCs) to maintain and make 
available an archive of the Council and SSC meetings.
    This concept of ensuring public access was raised originally in 
2011 and generally supported by the fishing industry, especially in the 
Gulf of Mexico and South Atlantic regions as a provision in H.R. 2753: 
``The Fishery Management Transparency and Accountability Act'' 
introduced by Rep. Walter Jones (NC-R).
    Subsection 6(c) stipulates that fishery management plans, 
amendments, and regulations implementing those plans and amendments are 
deemed to have met the requirements of the National Environmental 
Policy Act (NEPA). The provision also specifies that MSA timelines will 
be the controlling schedule.
    In spite of clear direction given by Congress in 2006 (Section 
304(i), as added by P.L. 109-479), NMFS and the Council on 
Environmental Quality have yet to adequately streamline the procedures 
for review under the two statutes. The results are unconscionable 
delays in conserving and managing our fish stocks due to duplicative 
mandates. This delays and hamstrings the RFMC process and can harm the 
fishing industry.
    For example, 2014 measures for West Coast Groundfish are based on 
data from 2010 to inform a regulatory process that began in 2011 in 
order to comply with environmental review timelines. At its November 
2011 meeting, the Pacific Fishery Management Council voted to maintain 
status quo on almost all ACLs through 2014 in spite of data showing 
markedly increased abundance on key stocks, simply because the 
environmental review time requirements would prevent the fishery from 
starting on time.
SECTION 7: Limitations on Catch Share Programs
    Generally, the industry supports this comprehensive definition of 
the term ``catch share''. We note the inclusion of the term ``sector'' 
which heretofore has been excluded from the limited access program 
concept and one that has different connotations. The term ``sector'' 
should include the system being used today to manage New England 
Groundfish.
    My processors in Alaska, the West Coast, and New Jersey support 
retention of ``processors'' in the definition. Though this inclusion 
does not mandate that harvesting shares be awarded to processors, it is 
a continual recognition (along with recognition of cooperatives and 
communities), that in certain high volume fisheries where there is a 
heavy reliance on shore side processing capacity, investment and 
marketing capability, (such as Atlantic mackerel and pelagic squids, 
Alaska and Pacific groundfish), that consideration can be given to 
these critical elements of the infrastructure.
    We note that Subsection (b) establishes a formal simple majority 
catch share referendum process applicable only to future catch share 
programs in New England, Mid-Atlantic, South Atlantic, and Gulf of 
Mexico regions. This is broad support across the fishing industry in 
the named regions for an iron-clad transparent referendum process. Now, 
there is no interest in my broad client base to dismantle existing 
catch share programs or remove the tool entirely from the system. 
However, what may not be widely known is a lack of consensus in the 
exempted regions about a referendum requirement for future programs. 
This is readily apparent in the small boat fishing-dependent 
communities in the Aleutians and on the West Coast.
    There is a groundswell of opposition from the named regions against 
NOAA's National Catch Share program that plays out annually in the 
Commerce-Justice-State appropriations process. It is important to note 
this widespread opposition is not against the policy but rather its 
implementation. Many in the fishing industry, particularly in the Gulf 
and South Atlantic, consider the catch share process to be a top-down 
process. NOAA indicated as early as December 2009 (in the initial 
stages of the DRAFT policy!) that ``32 additional programs will begin 
development in fiscal year 2012'' (NOAA 2009). Many fishermen firmly 
believe the process to be tainted by foundation trust grants to NGOs 
who do not have the best long-term interests of the U.S. commercial 
fishing industry in mind.
    It is important to note here that in some regions, catch share 
programs are supported by industry, while in other areas they are 
flatly opposed and viewed not as conservation tools but as a means of 
social engineering and worse. NOAA clearly knows this, stating in the 
Policy that ``Taken together, ACLs and LAPs [limited access privilege 
programs] combine the positive benefits of a firm cap on fishery 
removals with the additional benefits of achieving important economic 
and social objectives . . ..'' (NOAA 2010).
    It is the darker side of social and economic implications of catch 
share programs that are the reason the fishing industry in many regions 
desires to have an honest transparent vote. Reforming the referendum 
process contained in Section 303(A) was first raised in 2011 by Rep. 
Runyan in H.R. 1646/2772. The current law does not protect fishermen, 
particularly small boat fishermen in New England and Gulf of Mexico, 
and there is no referendum provision for the South Atlantic and Mid-
Atlantic, leaving the industry in those areas exposed to proliferation 
of catch share programs they mostly do not want and for which there is 
often insufficient scientific information.
    Frankly, the only question before the committee should be what 
definition of ``Permit holders eligible to participate'' is the most 
appropriate. Some of my fishermen in the named regions support the 
current proposed definition that requires holders of a permit with 
landings in 3 of most recent 5 years (with allowances for hardship 
considerations); while many others, particularly in the Gulf of Mexico 
and South Atlantic, believe that an active permit holder (with no or 
very low landing requirements) should be allowed to vote. There is 
agreement in all named regions that all catch share program specifics 
must be provided in advance to ensure a fully informed vote.
SECTION 8: Data Collection and Confidentiality
    This comprehensive section constitutes a very large segment of the 
``Draft'' and received mixed reviews from industry across regions, 
covering the gamut of issues. I also note here there is currently 
controversy surrounding the agency's codification of practices 
pertaining to the protection of confidential data so the topic has 
relevance.
    First, regarding Electronic Monitoring (EM)--the industry feedback 
was essentially that EM can be helpful in some targeted regional 
fisheries (some of our clients are experimenting with electronic 
logbooks to enhance reporting efficiency/accuracy; some fishermen see 
EM as a key to cost savings for observer coverage) but perhaps not as 
part of a national model. As such, there was some concern expressed by 
industry that developing EM programs at a regional left would be 
difficult enough and the Secretary should not be trying to develop 
national objectives, performance standards and regulations.
    Also, perceptions exist that the development of a national EM 
program could be West-Coast centric. There was also concern that this 
section could be interpreted as a potential mandate for broad use of EM 
and about potential costs to industry. Many industry stakeholders 
oppose video cameras while some support it, and there are others that 
actually prefer human observers.
    I fully recognize and appreciate the growing interest in EM being 
expressed by NOAA in the 2014 ``Priorities and Annual Guidance'' Report 
(NOAA 2013); in discussions at the recent CCC meetings; and for the 
work being done by the PSMFC, the PFMC, and some participants in the 
West Coast Groundfish IFQ program and in some small boat fisheries in 
Alaska as a potential cost savings option.
    However, I am not convinced from the feedback I am receiving from 
industry that there is broad national acceptance for EM, esp. video 
cameras, in all regions/fisheries. Perhaps a more suitable approach for 
the ``Draft'' would be to limit EM to pilot projects in specific 
fisheries where the RFMC of jurisdiction and stakeholders can 
collaborate to develop/implement a program with objectives, standards, 
regulations and costs suitable to the specific needs of a given 
fishery.
    Regarding confidentiality of information in Subsection (c), there 
is general industry support for clarifying and enhancing the current 
language regarding the collection and use of confidential information 
and providing a comprehensive definition of what constitutes ``observer 
information''.
    I noted earlier that NOAA is under pressure from the NGO community 
to relax confidentiality standards and increase the types of 
information made available to the public, including trade secrets and 
proprietary information. The ``Draft'' provides a clear indication that 
it is the intent of Congress to protect sensitive information.
    The only concerns raised by industry (from the West Coast mainly) 
include: (1) the potential for an interpretation of the changes to 
Section 402(b) to mean that NOAA/observers could be prevented from 
informing fishermen of their catch, discards and MMPA interactions for 
an observed trip; and (2) the inability to release data in the 
aggregate to show the value of a fishery or a particular fishing area 
to help the industry defend its interests during National Ocean Policy 
implementation.
    Subsection 8(d) focuses on Data-Poor fisheries by authorizing the 
use of area-specific money in the Asset Forfeiture Fund (AFF) to gather 
fishery independent data, to survey/assess ``Data-Poor'' fisheries, and 
to develop cooperative research to collect fishery independent data. It 
also requires the RFMCs to list and prioritize Data-Poor fisheries.
    NOAA currently manages 528 stocks of fish. Of this total, roughly 
114 are considered adequately assessed by the agency. Most of the 114 
assessments (approximately 80) occur regularly on economically 
important stocks in Alaska and New England. In other regions, the 
assessment periodicity is far less--approximately 15 per year in the 
Gulf of Mexico, South Atlantic and Caribbean combined (Angers 2011). 
Thus, a large majority of fish stocks are Data-Poor or not adequately 
assessed at all with the result being uncertainty trumping opportunity 
for the achievement of OY.
    There is widespread industry support for the improved data 
collection and focus on Data-Poor stocks contained in the ``Draft'', 
especially in the Gulf of Mexico, South Atlantic and Mid-Atlantic 
regions where assessments occur less frequently compared to other 
areas.
    I note here that Rep. Wittman introduced H.R. 3063 which contains a 
potentially useful provision pertaining to development of a national 
stock assessment plan under MSA Section 404(b). I have long been a 
proponent for a national, transparent, prioritized stock assessment and 
survey program to ensure that adequate assessments, supporting surveys 
and cooperative research are conducted in each region to support 
healthy commercial/charter/sport fisheries. This provision should be 
considered in the context of the ``Draft'' and dovetail with current 
requirements specified in MSA Section 302(h)(7).
SECTION 9: Council Jurisdiction for Overlapping Fisheries
    This section adds reciprocal voting rights to established Council 
``liaison'' positions between the New England and Mid-Atlantic RFMCs 
only. While fishermen in the Mid-Atlantic have not requested this 
action and do not wish to dismantle established Council membership, 
fishermen in New England made the request. Since the provision 
establishes a limited reciprocal voting right and does not disrupt 
current Council procedures, there is general agreement about this 
provision between fishermen in the two areas. Please note that H.R. 
3848 was referred to this committee and provides the State of NY with a 
non-reciprocal, 3-vote seat on the NEFMC. This legislation is likely to 
meet with stiff opposition from fishermen in both regions and from 
States on both RFMCs.
SECTION 10: GOMEX Cooperative Research and Red Snapper Management
    There is longstanding and widespread industry support in the Gulf 
of Mexico and South Atlantic for a requirement that the Secretary, 
working with States, GMFMC/SAFMC, and commercial/charter/sport 
stakeholders, develop and implement a cooperative research program for 
both regions with a priority on data-poor stocks.
    I note here that industry comments from Alaska elucidated concerns 
that S-K funding proposed to be diverted for use in implementation of 
subsection (b)(2) could potentially pull funds from other regions.
    Subsection (d) of the ``Draft'' outlines specific scientific 
requirements for timely surveys and stock assessments and task 
prioritization at the NMFS Southeast Regional Science Center; and adds 
a requirement to utilize any information generated from RESTORE Act 
funding to be used as soon as possible in any fisheries stock 
assessment. There is widespread industry support in the affected 
regions for these requirements.
    Regarding red snapper management and State seaward boundaries in 
the Gulf of Mexico in Subsection (f), the proposal to uniformly extend 
State jurisdiction 9 nautical miles has generated little comment from 
my constituents in Florida. Their State already has jurisdiction out to 
9 miles so this represents little change for Florida fishermen. The 
comments that I did receive indicate the existing boundaries are 
historic and should remain as they are, and also that the Federal 
Government should not be dictating individual Gulf State authority.
SECTION 11: NPFMC Clarification
    This section should be expanded to include extension (or removal) 
of the sunset date for authority over the West Coast Dungeness crab 
fishery (See 16 U.S.C. 1856 note).
SECTION 13: Consistency With Other Laws
    This section clarifies that fisheries management activity impacted 
by the National Marine Sanctuaries Act (NMSA), the Antiquities Act, or 
the Endangered Species Act (ESA) be accomplished under the MSA using 
the RFMC process. In instances where the MSA conflicts with these other 
laws, the MSA shall be the controlling process. This provision does not 
amend these other statutes.
    Regarding Marine Sanctuaries, many stakeholders who fish in/around 
these areas believe there are definitely conflicting jurisdictions 
between the National Marine Sanctuary Act (See NMSA 16 U.S.C. 1434) and 
the MSA when it comes to fishing regulations. I hear most often about 
these conflicts (and the potential for increasing problems . . .) 
related to the Channel Islands, Olympic Coast and Florida Keys 
Sanctuaries.
    The specific problem appears in Section 304(a)(5) of NMSA (16 
U.S.C. 1434) whereby the Councils are afforded the opportunity to 
prepare draft regulations using the MSA as guidance only ``to the 
extent that the standards are consistent and compatible with the goals 
and objectives'' of the Sanctuary designation. This is the crux of the 
jurisdictional and philosophical conflict between NOAA/NMFS and NOAA/
National Ocean Service (NOS).
    The RFMC Chairmen adopted a unanimous position in 2006 to amend 
both the NMSA and the MSA to exclude fishery resources as sanctuary 
resources and to achieve jurisdictional clarity by vesting Federal 
fisheries management under the MSA. The House Natural Resources 
Committee attempted to address this issue during the 2006 
reauthorization but members at the time deferred to the NMSA 
reauthorization.
    The RFMCs did not resurface this as primary issue for the 2014 MSA 
reauthorization. None the less, I agree with the 2006 position and 
recommend the committee consider at least supporting the provision 
contained in the ``Draft'' to ensure jurisdictional clarity under the 
MSA in instances of conflict between the statutes. This approach will 
help ensure that fishery resources are intended to be managed 
consistently throughout their range and under a transparent public and 
scientific process.
    The potential for widespread adverse industry impacts from 
Antiquities Act authority increases during the latter part of every 
administration. Creation of the Hawaiian Islands National Marine 
Monument was a case in point. The provision contained in the ``Draft'' 
will likely not protect the industry from expansive closures but could 
provide some level of protection with the application of MSA 
requirements.
    Regarding conflicts with the ESA--during the past 20 years, ROMEA's 
clients in several regions have struggled to contend with intrusive ESA 
impacts in federally managed fisheries involving a number of protected 
species. We assisted our clients with ESA decisions involving: Steller 
Sea Lions (Alaska trawl fisheries); Loggerhead Sea turtles (Gulf of 
Mexico longline fisheries); Atlantic Right Whales (South Atlantic 
gillnet fisheries); Atlantic Sturgeon (Mid-Atlantic gillnet fisheries); 
and Sea Turtles (Mid-Atlantic/NE Atlantic Sea Scallop dredge fishery).
    Each one of these environmental conflicts represented extremely 
difficult challenges that mostly did not end well for industry. In many 
instances, fisheries were closed and industry losses severe. These 
processes were often marred by NGO litigation (or threats thereof) but 
also by several key characteristics such as: (1) lack of a transparent 
process, (2) lack of adequate scientific data; (3) lack of adequate 
time to address the problem, and (4) lack of a clearly defined role for 
the RFMC.
    The noted exception to this was the most recent 2013 situation with 
Atlantic Sturgeon. NOAA/NMFS leadership adopted a different model for 
the sturgeon, providing a Draft Biological Opinion and allowing input 
from the RFMCs, Atlantic States Marine Fisheries Commission, and the 
public. The adequate time and added transparency ensured that 
additional data were considered (a first ever stock assessment is 
underway) which has, so far, allowed for a more informed decisionmaking 
process.
    The provision contained in the ``Draft'' specifying that the MSA 
process will be used to develop changes to federally managed fisheries 
impacted by these statutes is widely supported by industry and should 
facilitate a less litigious, more transparent process, and signal it is 
the intent of Congress that this be the preferred approach.
                                closing
    Implementation of the 2006 MSA amendments exceeded our scientific 
capabilities and limited our flexibility. The NSG1 evolved to include 
precautionary decisionmaking leading to ACLs with safety buffers that 
effectively prevent the U.S. fishing industry from achieving OY. 
Furthermore, Data-Poor stocks persist and unwanted catch shares 
threaten fishermen in several regions. These are some of the weaknesses 
of U.S. fisheries policy yet achieving OY is a primary objective of 
MSA.
    Mr. Chairman, thank you and Mr. DeFazio and the members of this 
committee for beginning this process in earnest. I and many of my 
clients view the ``Draft'' as a helpful, measured step in the right 
direction. I look forward to working with this committee to refine the 
``Draft'' and to seek constructive balanced improvements in our 
Nation's fisheries policy.
                            literature cited
Angers, J. 2011. In Testimony to the House Natural Resources Fisheries 
Subcommittee Hearing on NOAA Science Costing Jobs, July 26, 2011.

FKCFA, 2011. Report titled ``Florida's Spiny Lobster (Panulirus argus) 
Issues for Consideration by the National Marine Fisheries Service and 
the 112th Congress'', 2 pages.

NAS, 2013. Report titled ``Evaluating the Effectiveness of Fish Stock 
Rebuilding Plans in the U.S.'', 292 pages.

NOAA 2009. Powerpoint slide from NOAA presentation to RFMCs on Draft 
National Catch Share Policy titled ``Catch Share Programs by Region'', 
December 2009.

NOAA, 2010. National Catch Share Policy, 21 pages.

NOAA, 2013. Priorities and Annual Guidance for 2014, 20 pages.

Overholtz, W.J., J.A. Hare & M. Keith. 2011. Impacts of Interannual 
Environmental Forcing and Climate Change on the Distribution of 
Atlantic Mackerel on the U.S. Northeast Continental Shelf, Marine and 
Coastal Fisheries, 3:1, 219-232.

                                 ______
                                 

    The Chairman. I thank the gentleman for his testimony, and 
I will recognize Mr. Vito Giacalone, Policy Director of the 
Northeast Seafood Coalition.
    You are recognized for 5 minutes, Mr. Giacalone.

STATEMENT OF VITO GIACALONE, POLICY DIRECTOR, NORTHEAST SEAFOOD 
                           COALITION

    Mr. Giacalone. Thank you, Mr. Chairman and distinguished 
members of the committee. Let me begin by expressing our 
profound appreciation to all those Members of Congress and 
their exceptional staff who supported the fishing disaster 
funding included in the fiscal year 2014 omnibus 
appropriations. With that assistance in place, we can now fully 
focus on those aspects of U.S. fishery policy that could be 
improved to ensure the long-term biological and economic 
sustainability of our fishery and many others nationwide.
    I would like to highlight several measures set forth in 
your draft bill that I believe would greatly contribute to 
achieving that objective. I note that there are so many 
provisions that we view as positive and progressive that it 
will be difficult to choose which to highlight today.
    Section 3(a)(3) would add a new paragraph 8 to the 
rebuilding provision of the Act that provides authority for the 
Councils to implement alternative rebuilding strategies that 
are based on fishing mortality rate targets such as Fmsy. This 
represents perhaps the most important move in the direction of 
basing rebuilding strategies on the actual biological, 
ecological, and environmental realities that drive the 
population dynamics of fish stocks.
    Note this provision reflects the very specific 
recommendations of the NRC in their recent report to Congress. 
This policy allows the Councils to develop rebuilding plans 
that will, by definition, achieve the dual primary biological 
objectives of the Act to prevent overfishing and to rebuild 
overfished stocks. But it will do so in a timeframe and to a 
biomass that is the product of prevailing ecological and 
environmental conditions, rather than man's arbitrary goals. 
This approach will also, by definition, achieve the full suite 
of elusive congressional objectives set forth in National 
Standard 8, including, in particular, to minimize, to the 
extent practicable, adverse economic impacts on fishing 
communities.
    That said, an equally important and necessary component of 
implementing this approach is to ensure that Councils have the 
authority to adapt their management response to drastic 
fluctuations and results of stock assessments. We have 
suggested one such authority, which is to revise the current 
definition of overfishing to accommodate multi-year evaluations 
of overfishing as a means to smooth the management responses to 
these fluctuations.
    A strategy structured around Fmsy will, instead, provide 
the space to effectively smooth management responses to drastic 
fluctuations in stock abundance estimates. While some have 
argued that authority already exists for the Councils to employ 
such smoothing techniques, we reiterate our request for the 
committee to consider making that explicit in the overfishing 
definitions.
    Section 3(a) would eliminate the arbitrary 10-year 
rebuilding timeframe and the discontinuity between stocks that 
can be rebuilt in less than 10 years and those that cannot. We 
appreciate your proposal to, instead, provide a consistent 
biological basis for setting the rebuilding period based on 
Tmin plus one mean generation for all stocks. We see this as a 
major step forward in managing fisheries based on biological 
and ecological realities, rather than arbitrary-stated goals.
    Section 3 further sets forth a number of important 
scenarios under which the Council can both phase in and extend 
the rebuilding timeframe to reflect a range of realities and 
circumstances that are beyond the Council's control. While, 
again, this approach would still involve setting a specific 
rebuilding timeframe and biomass target, these provisions will 
provide the needed flexibility for the Councils to make common-
sense management decisions. They will enable the Councils to 
avoid the kind of prescriptive management responses that have 
achieved little, if anything, biologically in our fishery, but 
which have been catastrophic to the economics of our fishery 
and communities.
    I note that one of the scenarios recognized the 
difficulties faced in managing internationally shared stocks to 
informal transboundary agreements. One such agreement with 
Canada has profound impacts on our fishery for our valuable 
Georges Bank cod, haddock, and yellowtail flounder stocks.
    Another scenario contemplates unusual events that make 
rebuilding within the specified timeframe improbable, without 
significant harm to fishing communities. This is a scenario we 
have endured often in New England.
    Thank you again for this opportunity to provide some input 
on these incredibly important and positive proposals in your 
bill, and many more too numerous to address in this short 
timeframe. We have learned the hard way in New England that 
U.S. policy under the current statute is simply too narrow and 
too prescriptive to embrace the dynamics of our fisheries and 
ecosystems. This policy needs more flexibility to be realistic 
and effective, so we greatly appreciate this effort and look 
forward to working further with you and your fine staff on this 
excellent draft.
    [The prepared statement of Mr. Giacalone follows:]
   Prepared Statement of Vito Giacalone, Policy Director, Northeast 
                           Seafood Coalition
    Thank you Mr. Chairman and distinguished members of the committee.
    Let me begin by expressing our profound appreciation to all those 
Members of Congress and their exceptional staff who worked on and 
supported the fishery disaster funding included in the fiscal year 2014 
Omnibus Appropriations.
    With that assistance in place, we can now fully focus on those 
aspects of U.S. fishery policy that could be improved to ensure the 
long-term biological and economic sustainability of our fishery and 
many others nationwide.
    With that in mind, I would like to highlight several measures set 
forth in your draft bill that I believe would greatly contribute to 
achieving that objective. I note that there are so many provisions that 
we view as positive and progressive that it was difficult to choose 
which to highlight today.

  1.  Section 3(a)(3) would add a new paragraph (8) to the rebuilding 
            provisions of the Act that provides authority for the 
            Councils to implement alternative rebuilding strategies 
            that are based on fishing mortality rate targets such as 
            Fmsy.

     This represents perhaps the most important move in the direction 
            of basing rebuilding strategies on the actual biological, 
            ecological and environmental realities that drive the 
            population dynamics of fish stocks. I note this provision 
            reflects the very specific recommendations of the NRC in 
            their recent report to Congress. This policy allows the 
            Councils to develop rebuilding plans that will by 
            definition achieve the dual primary biological goals of the 
            Act--to prevent overfishing and to rebuild overfished 
            stocks. But it will do so in a timeframe and to a biomass 
            that is a product of prevailing ecological and 
            environmental conditions rather than man's arbitrary goals. 
            This approach will also by definition achieve the full 
            suite of elusive congressional objectives set forth in 
            National Standard 8--including in particular, to minimize--
            to the extent practicable--adverse economic impacts on 
            fishing communities.

     That said, an equally important and necessary component of 
            implementing this approach is to ensure the Councils have 
            the authority to adapt their management responses to 
            drastic fluctuations in the results of stock assessments. 
            We have suggested one such authority which is to revise the 
            current definition of overfishing to accommodate multiyear 
            evaluations of overfishing as a means to smooth the 
            management responses to these fluctuations. A strategy 
            structured around Fmsy will instead provide the space to 
            effectively smooth management responses to drastic 
            fluctuations in stock abundance estimates. While some have 
            argued that authority already exists for the Councils to 
            employ such smoothing techniques, we reiterate our request 
            for the committee to consider making that explicit in the 
            overfishing definition.

  2.  Section 3(a) would eliminate the arbitrary 10-year rebuilding 
            timeframe and the discontinuity between stocks that can be 
            rebuilt in less than 10 years and those that cannot. We 
            appreciate your proposal to instead provide a consistent 
            biological basis for setting the rebuilding period based on 
            Tmin plus one mean generation for all stocks. We see this 
            as a major step forward in managing fisheries based on 
            biological and ecological realities rather than arbitrary 
            statutory goals.

  3.  Section 3(a) further sets forth a number of important scenarios 
            under which the Council can both phase-in and extend the 
            rebuilding timeframe to reflect a range of realities and 
            circumstances that are beyond the Councils' control. While 
            again, this approach would still involve setting a specific 
            rebuilding timeframe and biomass target, these provisions 
            will provide the needed flexibility for the Councils to 
            make common sense management decisions. They will enable 
            the Councils to avoid the kind of prescriptive management 
            responses that have achieved little if anything 
            biologically in our fishery but which have been 
            catastrophic to the economics of our fishery and 
            communities.

     I note that one of the scenarios recognizes the difficulties faced 
            in managing internationally shared stocks through informal 
            transboundary agreements. One such agreement with Canada 
            has a profound impact on our fishery for our valuable 
            Georges Bank cod, haddock and yellowtail flounder stocks. 
            Another scenario contemplates ``unusual events that make 
            rebuilding within the specified time period improbable 
            without significant harm to fishing communities'' which is 
            certainly near and dear to our hearts.

    Thank you again for this opportunity to provide some input on these 
incredibly important and positive proposals in your bill and many more 
too numerous to address in this short timeframe. We have learned the 
hard way in New England that U.S. fishery policy under the current 
statute is simply too narrow and too prescriptive to embrace the 
dynamics of our fisheries and ecosystems. This policy needs more 
flexibility to be realistic and effective--and so we greatly appreciate 
this effort and look forward to working further with you and your fine 
staff on this excellent draft.

                                 ______
                                 

   Questions Submitted for the Record by Republican Members to Vito 
                               Giacalone
    Question. In your testimony you highlight and support the need to 
provide the Councils with authority to implement alternative F-based 
rebuilding strategies--coupled with the need to provide managers with 
the tools to smooth-out the drastic fluctuations in stock assessment 
results for groundfish in your region. Can you elaborate on this?

    Answer. To elaborate, there is only one rebuilding strategy 
currently authorized in the Act--the so-called `10-year rebuilding 
strategy' set forth in section 304(e)(4)--which prescribes a rebuilding 
period to be as short as possible but not to exceed 10 years except in 
certain limited circumstances.
    This strategy is based on making a scientific projection of what 
MSY and, therefore, Bmsy will be at the end of the rebuilding period 
once a stock is fully rebuilt. The current MSA rebuilding strategy is 
based on the assumption that the stock biomass will rebuild during the 
rebuilding period at a rate that is sufficient to achieve Bmsy by the 
end of the rebuilding timeline.
    However, the rate at which stock biomass increases (or decreases) 
over time and what biomass it will achieve in that timeframe depends on 
three key elements of a stock's biological population dynamics. These 
are: (1) ``recruitment''--the measure of reproductive success in any 
given year and the degree to which it contributes to stock biomass, (2) 
``growth''--the measure of the collective growth of individuals in the 
population and the degree to which that contributes to stock biomass, 
and (3) ``natural mortality''--the measure of non-fishing deaths that 
occur naturally in the population through, for example, disease or 
predation, and the degree to which those deaths subtract from the stock 
biomass.
    None of these three biological dynamics can be controlled by man. 
They are instead a product of `nature' and they are highly susceptible 
to changes in ecological and environmental conditions. Thus, they can 
be extremely difficult to predict into the future, especially when the 
dynamics of the ecosystem and environment are highly volatile and 
unpredictable in themselves. In this way the current MSA rebuilding 
strategy places unrealistic demands on science. (see NRC Summary, Task 
4 discussion, Conclusions).
    The fourth key element affecting stock biomass is ``fishing 
mortality''--the measure of deaths caused by fishing and the degree to 
which that mortality subtracts from the stock biomass. Unlike the other 
three key elements, however, fishing mortality can be controlled by man 
and, as confirmed by the NRC, is more predictable than estimates of 
biomass itself. (see NRC Summary, Key Findings 2 & 3, Task 1 
discussion, and Conclusions).
    Not surprisingly, the NRC report concluded that the current 
rebuilding strategy has produced mixed results. ``Fishing mortality . . 
. has generally been reduced'', and ``stock biomass has generally 
increased'' while . . . ``others are still below rebuilding targets and 
some continue to experience overfishing.'' ``This reflects a mismatch 
between policymakers' expectations and the inherent limitations of 
science due to the complex dynamics of ecosystems.'' (see NRC Summary).
    One major reason for these mixed results identified by the NRC is 
that MSY (on which rebuilding targets are based) is not a static 
quantity. Instead, MSY reflects the productivity of a stock (i.e. the 
additions and subtractions by the three key elements above) under 
prevailing ecological and environmental conditions which can change 
quite dramatically and unpredictably over the course of a 10-year 
rebuilding plan. MSY is not subject to man's management control--it is 
a product of ``nature''. Thus, the setting of a Bmsy rebuilding target 
10 or more years in advance is a highly uncertain exercise. (see NRC 
Summary Task I discussion)
    These inherent flaws in the reasoning behind the current MSA 
rebuilding strategy are why most rebuilding plans begin with the stated 
probability of success in achieving their objectives being no more than 
50 or 60 percent. Unfortunately, when the 40 or 50 percent chance of 
failure occurs, the burden is placed on the fishery--through fishing 
mortality controls--to correct the error. And, as is often the case 
when the deviation from rebuilding expectations occurs late in the term 
of a rebuilding period, the resulting fishing mortality reductions can 
be so extreme as to effectively shut the fishery down. This is a highly 
disruptive, ineffective and costly strategy for rebuilding a fish 
stock.
    Despite these realities of nature, there is currently only one tool 
in the Act's toolbox of rebuilding strategies in the statute. This `one 
size fits all' strategy policy is clearly not working for some 
important stocks, even those which are considered data rich including 
the multispecies groundfish complex. Indeed, as noted by the NRC, this 
has had significant social and economic consequences.
    As set forth in the NRC's ``key findings'' the scientific community 
has definitively concluded and recommended that a rebuilding strategy 
based on controlling the fishing mortality rate would be more effective 
than the current rebuilding target/timeframe strategy especially in 
situations of high ecosystem/environmental dynamics:

  3.  Rebuilding plans that focus more on meeting selected fishing 
            mortality targets than on exact schedules for attaining 
            biomass targets may be more robust to assessment 
            uncertainties, natural variability and ecosystem 
            considerations, and have lower social and economic impact.

          a.   The rate at which a fish stock rebuilds depends on 
        ecological and other environmental conditions such as climate 
        change, in addition to the fishing-induced mortality,

          b.   A rebuilding strategy that maintains reduced fishing 
        mortality for an extended period (e.g., longer than the mean 
        generation time) would rebuild the stock's age structure and be 
        less dependent on environmental conditions than one that 
        requires rebuilding to prespecified biomass targets, and

          c.   When rebuilding is slower than expected, keeping fishing 
        mortality at a constant level below FMSY may forgo less yield 
        and have fewer social and economic impacts than a rule that 
        requires ever more severe controls to meet a predetermined 
        schedule for reaching a biomass target. (NRC Summary key 
        findings #3. See also Summary Task 2 Discussion, Task 5 and 
        Conclusions).

    Once again, consistent with the NRC's advice, I believe there is a 
critical need to add new additional discretionary authority to the Act 
to enable the Councils to develop, and for the agency to approve and 
implement, one or more alternative rebuilding strategies that are more 
robust to the uncontrollable and unpredictable ecosystem and 
environmental dynamics that are driving groundfish stock productivity. 
Your proposed addition of paragraph (8) to section 304(e) of the Act is 
right on target. (see NRC Summary Conclusions).
    Taking into consideration the foregoing discussion, an equally 
important and necessary component of implementing such an alternative 
rebuilding approach is to ensure the Councils have the authority to 
adapt their management responses to drastic fluctuations in the results 
of stock assessments.
    We have suggested one such authority which is to revise the current 
definition of overfishing to accommodate multiyear evaluations of 
overfishing as a means to smooth the management responses to these 
fluctuations. A strategy structured around Fmsy will instead provide 
the space to effectively smooth management responses to drastic 
fluctuations in stock abundance estimates. While some have argued that 
authority already exists for the Councils to employ such smoothing 
techniques, we reiterate our request for the committee to consider 
making that explicit in the overfishing definition or elsewhere in the 
Act.

    Question. Some witnesses have testified that the Act currently 
provides enough flexibility and no additional flexibility is required. 
Do you agree?

    Answer. Although I would agree that there exists a more broad and 
sensible interpretation of the current version of the Act than has been 
implemented or opined by the Secretary (Agency), persistent legal 
challenges have thwarted attempts to utilize these more sensible 
interpretations. The legal ````vulnerabilities'' that plague the most 
important areas where ``flexibility'' was once perceived to exist, in 
my opinion, now drives the agency's notorious tendency to interpret the 
Act in the most rigid, conservative manner. Perhaps now it could be 
said that there exists more flexibility to interpret some provisions in 
the Act far more conservatively than was intended by Congress when 
enacted.
    Now that areas where ``flexibility'' was perceived to have existed 
have been marginalized through legal decisions or more often, simply 
through persistent threats of challenge from ENGO's and what appears to 
be a practice by NOAA General Counsel to make decisions on Council 
recommendations based on an analysis of the financial, political and 
public relations resources of the plaintiffs and the probabilities for 
winning or losing--rather on what is the right thing to do. It appears 
these decisions are then backfilled with whatever legal justification 
is needed. So, the bottom line is that while additional flexibility in 
the Act may exist, a combination of non-scientific forces does not 
allow for it to be implemented.
    For key provisions such as rebuilding and status determination 
(overfished or overfishing) it is clear that we need more explicit 
alternatives that are crafted from the experience of operating under 
MSRA 2006 in order to advance the goals of balancing conservation and 
maintaining viable fishing communities. Unless and until we acknowledge 
the fact that the current provisions demand far more precision, 
knowledge and control of stock dynamics than we are capable of 
delivering, we will only succeed in achieving rebuilding and stock 
status objectives by coincidence--i.e. by luck. In my opinion, many if 
not most of our fishery management ``successes'' with regards to 
attaining Bmsy have been largely due to chance because, with the 
exception of limiting fishing to an ACL, everything else is outside of 
our control.
    Nowhere in the current version of the Act is there a rebuilding 
alternative that adequately considers these realities. For this reason, 
finding ``flexibility'' adequate to mitigate the impacts of holding 
fisheries accountable for stock performance that is outside our control 
is often difficult if not impossible.

    Question. The Discussion Draft extends the time period under which 
emergency or interim measures can be used. Do you support this 
provision and can you explain why this was requested by the New England 
fishing industry and whether this change is supported by the New 
England Council?

    Answer. We strongly support this provision. Section 3(b) of the 
draft bill addresses the apparent discontinuity in the statute that we 
were the unfortunate victims of with the management of our Gulf of 
Maine cod stock. In that instance the Council and agency had agreed to 
adopt interim measures for 1 year that, pursuant to section 304(e)(6) 
of the Act, would reduce rather than end overfishing during the time a 
new rebuilding plan was being developed. Although section 304(e)(3) of 
the Act provides the Councils up to 2 years to develop such a new 
plan--and despite the fact that the New England Council had clearly 
notified the agency of its intent to fully utilize those 2 years--the 
agency rejected the Council's request to have interim measures 
implemented for a second year. This rejection was based on a 
misinterpretation of the Council's request itself and a rather 
contorted interpretation of the statute.
    While section 305(c) does indeed limit the duration of any single 
set of interim measures to 1 year, it in no way restricts the Council 
from requesting or the agency from approving a second, sequential set 
of interim measures for a second year. Such an interpretation would 
have been consistent with the clear congressional intent of providing 
the Councils with up to 2 years to develop a new rebuilding plan 
(Section 304(e)(3)), and of allowing interim measures that reduce 
rather than end overfishing to be implemented during the 2-year full 
term of this plan development process. The agency's onerous decision 
unnecessarily limited our Gulf of Maine small boat fleets' access to 
their most important stock at a crucial time when the fishery was in a 
state of disaster declared by the Secretary of commerce 5 months 
earlier. Once again it appears the agency's incoherent decision was 
made as a result of evaluating litigation probabilities rather than 
sound policy and common sense.
    Given this experience, we appreciate that the draft bill would 
address this discontinuity with a common sense approach of allowing 
emergency and interim measures to be in place for up to 2 years, 
including those interim measures to reduce rather than end overfishing 
during the development of a rebuilding plan. We can only wish we had 
this provision in place 2 years ago--but this situation we faced then 
may well arise again in the future.

                                 ______
                                 

    The Chairman. Thank you, Mr. Giacalone, for your testimony.
    And now I will recognize Mr. David Krebs, Jr., President of 
Ariel Seafoods, representing the Gulf Seafood Institute.
    Mr. Krebs, you are recognized for 5 minutes.

 STATEMENT OF DAVID A. KREBS, JR., PRESIDENT, ARIEL SEAFOODS, 
         INC., REPRESENTING THE GULF SEAFOOD INSTITUTE

    Mr. Krebs. Mr. Chairman, Ranking Member, members of the 
committee, my name is David Krebs, and I am pleased to be here 
to discuss reauthorization of the Magnuson-Stevens Act. I am a 
lifelong commercial fisherman, and owner of Ariel Seafoods, 
based in Destin, Florida. For today's hearing, I will be 
speaking as a board member of the Gulf Seafood Institute, GSI, 
representing all facets of the Gulf of Mexico seafood 
distribution chain.
    The mission of the Gulf Seafood Institute is to protect the 
Gulf's unique culture and environment, while elevating the 
Gulf's seafood brand with consumers, customers, and policy 
leaders through advocacy, education, and science. Overall, GSI 
maintains that MSA is working. The Department of Commerce, 
NMFS, and the Council work together to monitor, manage, and 
enforce a program that has led the United States to its 
position as a global leader in responsibly managed fisheries 
and sustainable seafood.
    Prior to seeing the committee's discussion draft, GSI had 
already outlined a platform for reauthorization that included 
the following.
    Flexibility in rebuilding timelines. GSI is in full 
agreement with NRC's recommendations, which include support for 
a biologically-based approach to rebuilding plans.
    Annual catch limits. In order for fishery managers to set 
appropriate annual catch limits, data collection must be 
improved by accounting for actual take, both retained and 
discarded. While a revision of National Standard 1 guidelines 
might address this concern, it should be explicitly defined in 
MSA.
    Role of science and statistical committees. In today's 
fast-moving world, we should be able to react swiftly by 
calling SSC and other council meetings in a more timely manner. 
The notice period for meetings should be more flexible to help 
address very time-sensitive matters quickly and efficiently. 
The process is overly long and needs better integration with 
the demands of NEPA requirements to achieve a balance in time, 
public access, and reasonable deliberation.
    Regional fishery management council accountability. Strict 
accountability measures must be established for the Councils 
and their actions. Measures should include a revision of the 
council membership and appointment process to ensure fair and 
equitable representation from both the commercial and 
recreational communities, as well as consumers.
    One way to achieve this important goal would be to revive 
language from Section 302(b)(2)(D)(I) of the 2006 Act that 
required governors from States participating in the Gulf 
Council to include at least one nominee each from the 
commercial, recreational, and charter fishing sectors, and at 
least one individual who is knowledgeable regarding the 
conservation and management of fisheries resources when making 
appointments to the Council.
    Regarding catch share programs, Section 7 would require 
referendum by a majority of the permit holders prior to the 
Gulf Council submitting any new catch share program for 
approval by Commerce. We support this concept, but feel that 
referendums should be constrained to stakeholders. With regard 
to data collection, GSI strongly supports the use of electronic 
monitoring, and we believe this is an important part of the 
data collection process.
    Red snapper, Section 10. While there have been management 
challenges in the recreational red snapper fishery in recent 
years, the current program on the harvest side is working. 
While I agree that Congress should take steps to improve 
management of recreationally caught red snapper, any solution 
that upsets the success of the commercial red snapper program 
is not a solution at all, and will only harm the industry, 
seaside communities, and the millions of consumers who depend 
on the year-round availability of red snapper.
    Section 10(f) of the discussion draft simply extends State 
seaward boundaries in the Gulf to 9 miles, which would have the 
effect of turning management of red snapper over to five Gulf 
States. While this seems like a simple, straightforward 
solution, the devil is in the details. Most importantly, we 
need to clarify that this section only applies to the 
recreational red snapper fishery. Our further concern is the 
impact of the extension of State water boundaries on the 
commercial fleet if they are excluded from operating in 
traditional areas.
    The committee should also take this opportunity to reassess 
language found in Section 407(d)(1) of the current MSA that 
mandates the shut-down of the entire recreational fishery, 
which currently includes charter-for-hire boats, when that 
sector's quota is met. Some other options that you should 
consider include separate quotas for the charter-for-hire and 
private angler user group, questions of State enforcement 
capabilities, State scientific data collection capabilities, 
State funding ability, and the enforcement of interstate 
boundaries at sea.
    With this testimony I hope I have provided the committee 
with more clarity on how the proposed changes to MSA will 
impact the Gulf of Mexico seafood community and consumers who 
depend on us.
    I look forward to working with the committee on these 
important issues, and I welcome any questions you may have.
    [The prepared statement of Mr. Krebs follows:
 Prepared Statement of David Krebs, President, Ariel Seafoods, Destin, 
            Florida, Representing the Gulf Seafood Institute
    Chairman Hastings, Ranking Member DeFazio, and members of the 
committee, my name is David Krebs and I am pleased to be here to 
testify before you today on the committee's draft reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act (MSA). I 
am a lifelong commercial fisherman and owner of Ariel Seafoods based in 
Destin, Florida. For purposes of today's hearing, I will be speaking as 
a Board member of the Gulf Seafood Institute (GSI), a broad-based group 
representing all facets of the Gulf of Mexico seafood distribution 
chain.
    The mission of the Gulf Seafood Institute (GSI) is to protect the 
Gulf's unique culture and environment while elevating the Gulf seafood 
brand with consumers, customers and policy leaders through advocacy, 
education and science. The GSI's board of directors represents every 
Gulf State as well as every aspect of our industry--both commercial, 
charter for hire, and recreational--and is positioned to be a leading 
voice on key issues including sustainability, seafood safety, disaster 
mitigation and recovery, and data collection. Additionally, GSI seeks 
to bolster fisheries science and research to help preserve the Gulf 
seafood resource and contribute to the longevity of the industry 
overall. The GSI came together in July 2013 and is currently taking the 
steps necessary to organize under the laws of the State of Louisiana 
and will then seek approval of the IRS for determination of approved 
501(c)(6) status.
    Today, I will highlight several areas of the discussion draft that 
GSI sees as improvements to current law, I will outline a few 
additional measures for you to consider, and I will give you our 
perspective on Section 10, ``Gulf of Mexico Cooperative Research and 
Red Snapper Management'' which drastically modifies Sec. 407 of the 
current statute.
    Overall, GSI maintains that the process outlined under MSA is 
working. The Department of Commerce, the National Marine Fisheries 
Service (NMFS) and the eight Regional Fishery Management Councils work 
together to monitor, manage and enforce a program that has led the 
United States to its position as a global leader in responsibly managed 
fisheries and sustainable seafood. Guided by 10 National Standards of 
sustainability, these agencies monitor, manage and legally enforce all 
marine fisheries in the United States under the most restrictive 
regulations in the world. As a result, U.S. fish populations are 
rebuilding and overall fish abundance is improving. Since 2000, 32 fish 
stocks in the United States have been rebuilt meaning that routine 
stock assessments conducted by fishery scientists indicate that the 
abundance of the stock is above the maximum sustainable yield.
    Prior to seeing the committee's discussion draft, GSI had already 
outlined a platform for reauthorization that included the following:
Flexibility in Rebuilding Timelines:

    <bullet> Timelines for rebuilding fisheries must be relaxed to 
            enhance flexibility for fishery managers. The current MSA 
            requirement for rebuilding overfished fisheries within 10 
            years, with certain exceptions, is an arbitrary timeframe 
            and totally unrelated to the biological needs at hand. 
            Similarly, the requirement to end overfishing immediately 
            considers no other factors. These strict, arbitrary 
            timelines for rebuilding fisheries lead to significant 
            disruptions for the seafood community while the fishery is 
            usually capable of a far more gentle transition.
    <bullet> A recent National Research Council (NRC) report issued in 
            September 2013 \1\ addresses the existing rebuilding needs 
            and realities. GSI is in full agreement with NRC's 
            recommendations, which include support for a biologically-
            based approach to rebuilding plans. We urge incorporation 
            of those recommendations into the revised MSA. Recognition 
            of the need for establishing a biological basis to 
            rebuilding strategies is a fundamental change to achieve 
            success for the fish stocks and the populace.
---------------------------------------------------------------------------
    \1\ National Research Council. Division of Earth Life Sciences. 
Ocean Board. Evaluating the Effectiveness of Fish Stock Rebuilding 
Plans in the United States. Washington, DC: U.S. National Academies 
Press, 2013.

---------------------------------------------------------------------------
Annual Catch Limits:

    <bullet> The process for establishing ACLs should be revised to 
            increase flexibility, particularly in cases where a fish 
            stock lacks enough data to make sound management decisions.
    <bullet> In order for fishery managers to set appropriate ACLs, 
            data collection must be improved by accounting for actual 
            ``take,'' both retained and discarded. While the current 
            consideration of revision of National Standard 1 Guidelines 
            might well address this concern, it should be explicitly 
            defined in MSA.

New Funding Sources:

    <bullet> Monies collected from marine enforcement actions and 
            permitting fees should stay within the region in which they 
            were collected and not be transmitted to the general fund. 
            These funds should be managed by the relevant Regional 
            Fishery Management Council.
    <bullet> Balance should be incorporated into MSA's enforcement 
            language to ensure that the collection of fines does not 
            drive the process, but instead helps to achieve the true 
            objective of 100 percent compliance and $0 in fines.

Role of Science and Statistical Committees:

    <bullet> In today's fast-moving world, we should be able to react 
            swiftly by calling SSC and other Council meetings in a more 
            timely manner. The notice period for meetings should be 
            more flexible to help address very time-sensitive matters 
            quickly and efficiently. The process is overly long and 
            needs better integration with the demands of NEPA 
            requirements to achieve a balance in time, public access, 
            and reasonable deliberation.

Regional Fishery Management Council Accountability:

    <bullet> Strict accountability measures must be established for the 
            Councils and their actions. Measures should include a 
            revision of the Council membership and appointment process 
            to ensure fair and equitable representation from both the 
            commercial and recreational communities as well as 
            consumers. One way to achieve this important goal would be 
            to revive language from Section 302(b)(2)(D)(i) of the 2006 
            MSA reauthorization that required governors from States 
            participating in the Gulf of Mexico Fishery Management 
            Council to include at least one nominee each from the 
            commercial, recreational and charter fishing sectors and at 
            least one other individual who is knowledgeable regarding 
            the conservation and management of fisheries resources when 
            making appointments to the Council. Unfortunately, this 
            provision of the 2006 bill has since expired, leaving the 
            balanced makeup of the Gulf Council in jeopardy. GSI 
            strongly recommends that this language be renewed and made 
            permanent.

    The GSI is pleased to note that several of these priority issues 
are adequately addressed in the discussion draft and we thank you for 
seeing our concerns were met. For example, on the issue of rebuilding 
timelines, the committee draft vastly improves current law by allowing 
for 3 years to end overfishing for highly dynamic fisheries and 
provides that rebuilding times must be as short as ``practicable'' as 
opposed to short as ``possible'' which we feel gives more appropriate 
consideration for human needs.
    Regarding Annual Catch Limits (ACLs), the draft bill provides for 
consideration of the economic needs of fishing communities when 
establishing and modifying ACLs which GSI believes is a step in the 
right direction. We are also pleased to see language providing for 3-
year ACLs which is an improvement over the current 1-year requirement. 
One area that could still be improved would be to require fishery 
managers to incorporate actual ``take,'' both retained and discarded, 
when setting ACLs as suggested in our list of recommendations.
    Further, the GSI supports language in Sec. 6 requiring the Science 
and Statistical Committees (SSCs) to develop their advice in a more 
transparent manner that allows for greater public involvement.
    Regarding catch share programs, Section 7 would require a 
referendum by a majority of the permit holders prior to the Gulf of 
Mexico Fishery Management Council submitting any new catch share 
program for approval by Commerce. GSI would appreciate some 
clarification on whether this new requirement would impact pilot 
programs and, if so how? Also, Section 7(b)(1)(D)(i) provides that in 
order to be eligible for the referendum, you must have fished in the 
past 5 years, yet Section 7(b)(1)(D)(iii) provides that you must have 
fished in 3 out of the 5 last years. It should be made clearer as to 
what the exact eligibility requirements are. Further, is a petition 
required before any catch share program can be considered? If a 
petition by the majority is required, then a potential catch share 
program is given a thumbs up or a thumbs down before it is even 
designed and its ramifications determined, effectively shutting down 
consideration of catch share programs before the Council can thoroughly 
evaluate them. This may pose a serious challenge to Councils as they 
work on a regional basis to implement management programs that may make 
sense in their areas.
    With regard to data collection, Sec. 8 requires the Councils to 
work with the fishing industry to develop regulations to govern the use 
of electronic monitoring for data collection within 6 months of 
enactment. GSI strongly supports the use of electronic monitoring and 
has already been working independently with the charter boat fishery in 
the Gulf to establish similar, voluntary programs. Electronic 
monitoring has come a long way in recent years with the introduction of 
smartphone and tablet apps that can be available to all fishers in the 
industry. We believe electronic monitoring is an important part of the 
data collection process and programs that encourage its use should 
absolutely be supported wherever possible.
    Section 8(d) provides for the use of the asset forfeiture fund to 
pay for surveys on data-poor fisheries. GSI supports this concept as 
many of our stocks are considered data-poor and any additional funding 
to increase science in those areas is appreciated. We also support the 
concept of making fisheries that have not been surveyed in the 
preceding 5-year period a top priority. However, given that many 
species in the Gulf would meet that requirement, we may have a very 
long list of priorities and conducting surveys on such a broad list 
might be unrealistic.
Red Snapper/Section 10
    Section 10 of the discussion draft addresses management of the red 
snapper fishery in the Gulf of Mexico, an issue that has become fairly 
volatile in the Gulf seafood community in recent years. This section 
will uniquely impact GSI, our customers and all those that depend on a 
healthy Gulf seafood supply chain. I know this committee held a hearing 
on red snapper management in June of last year and GSI's interim 
Chairman, Harlon Pearce, was a witness at that hearing. During his 
testimony, Harlon outlined the importance of preserving a healthy, 
commercial red snapper fishery for the benefit of consumers nationwide 
and I fully support that position. I would ask that the committee 
revisit his written testimony while deliberating this section as it 
outlines some very important concepts of importance to GSI and the 
commercial seafood community broadly.
    While there have been management challenges in the recreational red 
snapper fishery in recent years, the current program on the harvest 
side is working. Yes, there have been challenges with overfishing of 
the stock in the past, however the species is no longer undergoing 
overfishing and it is now being managed under a rebuilding plan which 
will allow the species to rebuild back to target population levels. The 
commercial red snapper Individual Fishing Quota (IFQ) program, which 
began in 2007, has reduced the number of vessels and improved the 
operation of this fishery. The IFQ program now provides the harvesting 
sector with flexibility to fish during times that suit their needs and 
the needs of the market resulting in less pressure on the fishery and 
less pressure on the resource. Unfortunately, the recreational red 
snapper sector has yet to adopt a similar solution and Federal 
management of the recreational side of the business is in turmoil. 
Fishery managers, still relying on the antiquated ``days at sea'' model 
for management, have drastically reduced fishing days for recreational 
red snapper leading to serious economic implications for the Gulf Coast 
economy. While I agree that Congress should take steps to improve 
management of recreationally caught red snapper, any solution that 
upsets the success of the commercial red snapper program is not a 
solution at all and would only harm the industry, seaside communities 
and the millions of consumers who depend on the year-round availability 
of red snapper.
    Section 10(f) of the discussion draft simply extends State seaward 
boundaries in the Gulf to 9 miles which would have the effect of 
turning management of red snapper over to the five Gulf States. While 
this seems like a simple, straightforward solution, the devil is in the 
details.
    Most importantly, we need to clarify that this section only applies 
to the recreational red snapper fishery. Simply inserting the word 
``recreational'' before the term ``red snapper'' in this section should 
meet this important goal. Management of the commercial red snapper 
fishery is working and to throw that program into turmoil would be 
detrimental to communities and to consumers who might lose access to 
the resource. Of equal importance to the future of the fishery would be 
to ensure that the sustainability standards required by MSA be 
preserved in any new State-run red snapper management program. It is in 
all our best interests to maintain strong Federal oversight of these 
new State programs to ensure a positive long-term prognosis for the 
species and those who rely upon it to make a living. Finally, we would 
like clarification on the seaward boundary lines. Section 10(f) seems 
to extend the seaward boundary for red snapper to 9 miles two separate 
times so it is unclear if the final boundary is 9 miles or 18 miles. A 
final boundary of 9 miles is acceptable and would be comparable to the 
territorial sea boundaries of Texas and the west coast of Florida, 
while 18 miles is not and would be inconsistent with the boundaries of 
Texas and Florida.
    Of further concern is the impact of the extension of State water 
boundaries on the commercial fleet if they are excluded from operating 
in traditional areas. For example, in Florida, commercial vessels are 
prohibited from harvesting reef fish in State waters and currently, 
those waters extend to 9 miles. So, if the boundaries are extended to 9 
miles in Alabama, Louisiana and Mississippi as well, the vibrant 
commercial red snapper fishery that has been operating in those areas 
traditionally will suddenly be shut out causing serious challenges to 
our community. Congress must ensure that traditional fishing grounds 
for the commercial red snapper fleet are maintained.
    The committee should also take this opportunity to reassess 
language found in Sec. 407(d)(1) of the current MSA that mandates the 
shut-down of the entire recreational fishery, which currently includes 
charter boats, when that sector's quota is met. Under the current MSA, 
charter boats are considered part of the recreational fishery, despite 
the fact that the Gulf Council is moving forward with some innovative 
new management programs that apply to charter boats only. If the 
broader recreational community exceeds their quota, under current law, 
the shut down of that sector would also handicap the charter boats. One 
way to address this might be to remove language in Sec. 407(d)(1) that 
states that the term ``recreational `` shall include charter boats for 
purposes of this subsection. The GSI would appreciate an opportunity to 
discuss this concept in more depth with the committee as this 
reauthorization moves forward.
    Some other questions that you should consider before moving forward 
with this section include questions of State enforcement capabilities, 
State scientific data collection capabilities, State funding ability, 
and the enforcement of interstate boundaries at sea. Despite the usual 
procedural challenges, the Council management process works as intended 
and to throw one fishery into a State-run model might set a misguided 
precedent that threatens to undermine the great successes MSA has had 
overall.
    While GSI has reservations about the State boundary language of 
Section 10, the remainder of the section addressing research is very 
positive. We strongly support the development of a real-time reporting 
and data collection program, increased frequency of stock surveys, and 
the use of updated fisheries information in red snapper stock 
assessments. In fact, it would be helpful if these concepts were 
expanded to all fisheries in the Gulf of Mexico, not just red snapper. 
We look forward to working closely with the committee to see these 
priorities are enacted.
    With this testimony, I hope I have provided the committee with more 
clarity on how the proposed changes to MSA will impact the Gulf of 
Mexico seafood community and consumers who depend on us. Again, 
maintenance of the Federal framework for sustainability and the 
preservation of the current IFQ program for the commercial community is 
imperative to any plan designed to eliminate confusion in the red 
snapper fishery. Our consumers and the American public depend on it. 
Further, I hope I've given you some food for thought with regard to 
additional modifications to the draft bill that might benefit our 
Nation's fishery management system overall.
    I look forward to working with the committee on these important 
issues and I welcome any questions you may have.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Krebs, for your 
testimony.
    I will now recognize Mr. George Geiger, Owner and Operator 
of Chances Are Fishing Charters.
    You are recognized for 5 minutes, Mr. Geiger.

STATEMENT OF GEORGE J. GEIGER, OWNER AND OPERATOR, CHANCES ARE 
                        FISHING CHARTERS

    Mr. Geiger. Thank you, Chairman Hastings and Ranking Member 
DeFazio and members of the House Natural Resources Committee. 
Thank you for the opportunity to testify today.
    My involvement with fisheries began when I retired from the 
U.S. Army active duty in 1987, and my return to Florida. To 
understand where we are, it is critical to understand where we 
were with regard to fisheries prior to the 2006 amendment.
    The story begins during my Army assignment in Daytona Beach 
in 1971 and 1972. During that assignment I experienced fishing 
opportunities with regard to species diversity and abundance 
only dreamed of. The experience resulted in my buying property 
in Sebastian, Florida, with a dream of an eventual return as a 
resident, post-Army retirement. In a scant 14 years, the dream 
became reality, along with the realization the fisheries which 
served to lure me had become a mere shadow of what I knew in 
1972. Worse, it seemed those in other fisheries were in an 
unchecked continuing downward spiral.
    I felt betrayed and angered, and began an effort to 
understand what had happened, the cause, and who was 
responsible for this debacle. A conclusion which readily became 
apparent was the responsibility for managing and conserving 
fish stocks was not being faithfully administered. It became 
too obvious the system in place was fraught with potential 
abuse, as there were no standards or firm goals established for 
the fishery management councils to achieve.
    To the contrary, the Councils had broad discretionary 
powers--you can call it flexibility--allowing them to bend to 
political pressures and the wishes of local fishers, the 
majority of whom had a vested financial interest in short-term 
economic decisions. The result were fisheries which were 
becoming overfished, and overfishing seemed to be the goal, as 
it appeared minimal and ineffective effort was applied to 
stopping it.
    After railing against the system, 19 years later, I was 
nominated and appointed to the South Atlantic Fishery 
Management Council in 2002, eventually serving three terms. I 
worked joylessly for the first 3 years under the failed then 
extant pretend system, getting and going virtually nowhere.
    One only has to review the South Atlantic Council's 
snapper/grouper fishery management plans from 1982 to 2004 to 
see virtually every one--save two, which involved closures--
fail to meet the purpose and need of the plan, and virtually 
every stock in the complex was in a continuing downward spiral. 
That is 24 years of failed management, or, if you choose, 24 
years of successful mismanagement.
    Even efforts with the 1994 reauthorization failed. The 
degree of overfishing resultant from Magnuson-Stevens Act, 
which gave the Councils broad discretionary authority, and the 
subsequent abuse of that authority, became so pervasive that 
Congress, in a bipartisan effort, reauthorized the Magnuson-
Stevens Fishery Management Council and Conservation Act--excuse 
me, Management and Conservation Act--in 2006, with requirements 
for Councils to end overfishing managed species, and put 
measures in place to ensure it didn't reoccur. And further, put 
measures in place to recover those stocks so affected in a 
specific flexible time period, acting upon the advice of their 
science and statistical committees, where heretofore were 
generally ignored.
    My final 6 years on the Council working under the 
requirements of the 2006 reauthorization were hard, but 
extremely rewarding. The recoveries to date resultant from 
science-based recovery plans, annual catch limits, and 
accountability measures are testimony to the wisdom crafted in 
that bipartisan Act in 2006, and has resulted in proven, sound 
management, going far in ensuring sustainability of our 
fisheries.
    The fact is, it is not about the process. It is always 
about the answer. Assessed stocks that do not require 
regulatory action which are assessed using the same assessment 
processes across the board, using the same type of data, are 
never questioned as to their validity. The only stocks that are 
challenged, the assessments that are challenged, are the ones 
that require regulatory management.
    The written proposals in the Magnuson-Stevens 
reauthorization discussion draft would revert the fishery 
management process to a period when the Councils failed to do 
their duty with regard to managing and conserving fisheries for 
long-term sustainability. The 2006 reauthorization is ending, 
and has ended overfishing. Catch limits are in place, 
overfishing does not reoccur. Recoveries are widespread and 
well underway nationwide, with significant positive results 
reflected in the NOAA Fisheries Annual Report to Congress.
    Unfortunately, new species since have fallen into the 
overfished category, and need mandates in the Act to recover. 
Now is not the time, just 7 years into recovering our 
fisheries, to make changes to a wisely crafted, successful 
bipartisan bill, negating the sacrifice of fishers and hard 
work done by fishery management councils and NOAA fisheries to 
date, especially with the effect of returning fisheries 
management to a period when our fisheries and fishers suffered 
under a system of political influence and short-term economic 
decisionmaking.
    I strongly urge Congress exercise its courage and political 
will and leave in place the proven and amply flexible 
requirements in the 2006 reauthorization, and allow the long-
term economic benefits to the resource and fishermen accrue 
with recovered long-term sustainable fisheries. If there is a 
desire or a need----
    The Chairman. Just finish your quick thought.
    Mr. Geiger. Thank you, Chairman. If there is a desire to 
improve fisheries management, provide direction and leadership 
to the Councils to transition from single-species management to 
an ecosystem-based management system. Thank you, sir.
    [The prepared statement of Mr. Geiger follows:]
  Prepared Statement of George J. Geiger, Owner/Operator, Chances Are 
                            Fishing Charters
    Chairman Hastings and members of the committee, thank you for 
inviting me to this legislative hearing to discuss the discussion draft 
entitled ``Strengthening Fishing Communities and Increasing Flexibility 
in Fisheries Management Act.'' I am George Geiger, a former Chairman 
and three-term member of the South Atlantic Fishery Management Council 
(SAFMC or Council). I am also a recreational fisherman and fishing 
guide with a Coast Guard 50 Ton Ocean Operator License. I operated a 
for-hire service for offshore and inshore trips until 1998, when I 
switched to guiding near shore and inshore clients exclusively. In my 
personal time, I still enjoy fishing offshore for coastal pelagic and 
benthic species. I am also a retired U.S. Army Lieutenant Colonel, 
privileged to have been stationed in Daytona Beach, Florida from 1971-
72. During those 2 years I experienced fishing opportunities and 
abundance heretofore undreamed of by me. I knew Florida was where my 
wife and I wished to retire, if I was so privileged as to earn the 
right to remain on active duty.
    Upon my retirement and return to Florida in 1986, I was at first 
shocked, then increasingly disgusted, and eventually angered to see 
that the fisheries which lured me to my retirement Mecca had become 
virtual shadows of what I'd experienced in the 1970s. I was angered to 
the point of seeking out and joining the Florida Conservation 
Association (now the Coastal Conservation Association of Florida). This 
association lasted almost as long as my military career and culminated 
in my rise through leadership positions to the Chairmanship of CCA 
Florida in 2007.
    During my 19 years with CCA Florida, I worked extensively on 
Florida inshore fishery issues and was appointed to multiple Federal 
advisory panels, including the Atlantic States Marine Fisheries 
Commission's bluefish advisory panel and the South Atlantic Council's 
red drum advisory panel. That work led to me to apply for an at-large 
seat on the South Atlantic Council, a position that I held for three 
terms, including serving as Chairman from 2006 to 2008.
    Decades of experience with the South Atlantic Council and other 
organizations has taught me that type of flexibility being proposed in 
the Magnuson-Stevens Act (MSA) reauthorization discussion draft before 
this committee would lead us back to the failed policies of the past 
that led to severe overfishing problems in the South Atlantic and 
nationwide. My testimony will outline some of the key lessons learned 
from the South Atlantic, and illustrate why a bipartisan Congress 
reauthorized the Magnuson-Stevens Act in 1996 and 2006 with 
requirements to implement science-based management, including annual 
catch limits (ACLs) and accountability measures (AMs), to ensure the 
end of overfishing in U.S. waters. Implementation of those requirements 
coincided with my tenure as Council Chair. I'm very familiar with the 
arguments--and sometimes fervent passion--about our charge to end 
overfishing immediately. I'm also familiar with successes wrought by 
our Council's difficult but necessary decisions, such as the recent 
recovery of black sea bass after two failed rebuilding plans and more 
than 20 years of being subject to overfishing.
    Overfishing, or catching fish more quickly than the population can 
reproduce, is ultimately a losing proposition for fish, but more 
importantly, for fishermen. Just like it is important to maintain 
fiscal discipline and make hard choices in order to balance the Federal 
budget, managers must make difficult, and sometimes unpopular, 
decisions to ensure that we don't ``overspend'' by allowing more fish 
to be caught than populations can reasonably sustain.
    The consequences of decades of chronic overfishing became acutely 
clear with the sudden collapse of some of the Nation's most important 
fisheries in the early 1990s. In the Sustainable Fisheries Act of 1996, 
Congress took decisive action mandating that stocks that were 
overfished (at unhealthy population levels) must be rebuilt ``as soon 
as possible'' and within 10 years, unless the biology of the stock, or 
an international agreement, dictated otherwise. In some parts of the 
country, including New England and the Southeast regions, overfishing 
continued unabated and it had become clear that traditional management 
tools were not working. In 2006, Congress once again amended the MSA in 
the following fundamental ways: ensuring that scientific-based 
decisionmaking was prioritized over those based on short-term 
economics, requiring science-based annual catch limits and 
accountability measures for all managed stocks, with some exceptions, 
and removing the Councils' discretion to permit continued overfishing. 
These changes provided clear statutory mandates that empowered the 
Councils to take action to address overfishing and rebuild populations, 
within the boundaries of scientific advice.
    At the time the MSA was reauthorized in 2006, the very same type of 
``flexible'' management being proposed in the draft bill before the 
committee had resulted in 11 stocks officially subject to overfishing, 
and dozens more with unknown status. Anyone who has attended a South 
Atlantic Council meeting knows that ending and preventing overfishing 
in our region, like many others, has not been easy, but the changes 
that Congress authorized were absolutely necessary to force our Council 
into action to address overfishing, and to establish clear guidance on 
how to rebuild fish populations to healthy levels. The Council manages 
76 species through 8 Fishery Management Plans (FMPs), and still suffers 
from the ramifications of decades of overfishing for a number of 
snapper and grouper species. The annual catch limit requirements have 
changed how the Councils operate and forced real accountability. In the 
past, we generally managed fishing only using indirect controls like 
``bag limits''--limits on the number of fish each angler could retain 
per day, size limits intended to protect juvenile fish and older fish 
that are often the best breeders, and trip limits that capped how many 
fish commercial vessels could bring back to the dock at any one time. 
However, very few of the species that we manage were subject to a cap 
on the total amount of fish that could be taken out of the water each 
year.
    With the passage of the 2006 MSA reauthorization, the Council 
embarked on a difficult, but necessary, path to implement science-based 
management and rebuild overfished stocks. We succeeded in meeting the 
statutory deadlines of 2010 and 2011 for implementing annual catch 
limits and accountability measures for all of the stocks requiring 
them. Today, we have catch limits and accountability measures in place 
across the country. This is a major, precedent-setting accomplishment 
that has made American fisheries some of the most sustainable and best 
managed in the world.
    Today, I see a number of our South Atlantic fish stocks benefiting 
from implementation of catch limits and accountability measures. The 
number of stocks subject to overfishing has dropped nearly in half, 
from 11 to 6. One example is black sea bass, a popular recreational and 
commercial target and a mainstay for many charter operators in our 
region. It's recovery in 2013 offers a clear example of how the MSA is 
working to rebuild depleted stocks, increase fishing access and provide 
benefits to our coastal economies and communities. Before the MSA was 
reauthorized to close the loopholes that had allowed overfishing to 
continue, the South Atlantic Council approved not one, but two plans to 
rebuild this species. Both of these plans failed to do so, and nothing 
much changed because there was no accountability when quotas were 
exceeded. Because of the 2006 Magnuson requirements, a new rebuilding 
plan was initiated that included accountability measures to make sure 
the catch limits were not exceeded. Austerity worked and fishermen 
reaped the benefit: as of April 2013, 3 years earlier than expected, 
the population was rebuilt and the catch limit was more than doubled to 
1.8 million pounds. The black sea bass example illustrates why we must 
not deviate from the MSA's course of recovery and prudent management 
practices, and suggests the wisdom of the clear, science-based 
requirements with strong accountability measures.
    As this committee has heard numerous times before, recreational 
fishing in the Southeast continues to increase, and this further 
complicates the challenges of preventing and ending overfishing. 
According to NMFS data, the number of angler trips in the South 
Atlantic has increased from less than 15 million per year in the 1980s, 
to about 17 million a year in the 1990s, to more than 20 million per 
year since 2000. Cheap and widely available technological enhancements, 
such as GPS and fish finding technologies, have led to an increase in 
fishing pressure. This increasing fishing pressure makes it 
increasingly challenging to manage many of our vulnerable snapper and 
grouper species, some of which take 5-10 years to reach reproductive 
maturity and can live for 50 years or longer. Once overfished, some 
stocks can take decades to rebuild. Implementing annual catch limits 
provides necessary accountability to ensure our fisheries continue to 
recover and are able to support a growing number of recreational 
anglers over time.
    In the South Atlantic, we are faced with managing many species for 
which limited scientific information is available. However, there are 
no species that we know nothing about. For every species we manage, 
some combination of data on catch and fish landed at the dock, biology, 
reproduction, habitat, and other life history characteristics are 
available. The annual catch limit mandate has spurred a flurry of 
scientific advances in assessing and setting catch limits for stocks 
for which we have more limited data than we may have for stocks that 
have undergone more conventional assessment. Today, there are multiple 
data-limited assessment methods and tools that are designed to utilize 
the available data to determine catch limits that prevent overfishing 
and allow higher long-term yields. For example, the Pacific region has 
pioneered the use of several of these methods, which are now regularly 
applied to over 90 stocks of previously unassessed, data-limited 
groundfish. The Southeast region has lagged behind these scientific 
advances in other regions due to a less efficient assessment process, a 
propensity to conduct repeated and duplicative assessments on a limited 
number of the most commercially valuable stocks, and a lack of 
familiarity with some of the latest scientific methods. Fortunately, 
this is now beginning to change thanks to the hard work of a number of 
fisheries scientists in the region. Just a few weeks ago, about 30 of 
the Nation's leading fisheries scientists, including many from the 
Southeast Fisheries Science Center, gathered in Miami to review new and 
emerging data-limited methods, to unveil a new data-limited assessment 
toolkit, and to discuss a specific roadmap for streamlining the 
assessment process to utilize the available data on all currently 
unassessed stocks. In a few short years since the annual catch limit 
requirement went into effect, we are seeing transformative changes in 
how we assess and manage many dozens of stocks of previously neglected 
stocks with important ecological and economic value. While some of the 
stocks may not be as valuable commercially as the most popular, 
targeted stocks, there is no doubt that they are essential parts of the 
ecosystem and fisheries of the region. When I, like most all of my 
recreational counterparts, fish on the diverse fisheries of the 
Southeast and want to see more than a few undersized red snapper and 
black sea bass. And the heavily targeted fish, like red snapper and 
black sea bass, are dependent on healthy populations of other fish to 
survive and thrive.
    Driven by the ACL requirements, we have developed rational 
scientific ways to set catch limits when full stock assessments are not 
available. These approaches use the best science available to set 
reasonable catch limits until new science becomes available that makes 
it clear a population can support an increase in catch. With this 
science-based framework in place, new information can continually 
inform managers and we can make adjustments to maximize the benefits 
for all participants in the fishery. This is exactly what we are doing 
now in the South Atlantic, and it makes sense because it is a lot 
better to deal with a short period of reduced catch than suffer the 
years of painful recovery after a fish population has crashed.
    Transitioning from the ``flexibility'' of the past to today's 
science-based management system was a long and deliberate process, with 
extensive public participation and scientific contributions, that took 
years and cost American taxpayers tens of millions of dollars. I 
believe we have made major improvements that could achieve 
sustainability for our marine resources in the Southeast. Despite all 
of this progress, this committee is now considering draft legislation 
that would backpedal and return to the ineffective management practices 
that produced failure after failure in fisheries management. This 
legislation would re-instate the failed policies of the past, eliminate 
the science from science-based management, and constrain the ability of 
the public to evaluate or participate in fisheries management 
decisions. In particular, I would like to highlight several specific 
concerns with the draft legislation. The bill would:

    <bullet> Remove any time limit for rebuilding overfished stocks;
    <bullet> Allow Councils to continue overfishing for up to 7 years 
            on vulnerable fish populations that are in most need of 
            protection;
    <bullet> Permit Councils to ignore science-based annual catch 
            limits that prevent overfishing and protect long-term 
            economic value in the fishery; and
    <bullet> Remove the annual catch limit requirement for literally 
            hundreds of ``non-target'' stocks, many of which are not 
            specifically targeted but still valued by fishermen.

    In addition to these concerns, the draft legislation also 
significantly weakens other important requirements to fully evaluate 
the impacts of management decisions and to provide the public access to 
important information. Specifically, the legislation would:

    <bullet> Eliminate the authority of other important laws, such as 
            the Endangered Species Act and the National Environmental 
            Policy Act, to influence management decisions related to 
            fisheries;
    <bullet> Establish new rules for data confidentiality that would 
            significantly restrict the ability of the public to access 
            data related to Federal fisheries; and
    <bullet> Create a new State management regime for Gulf of Mexico 
            red snapper fishery without any of the accountability 
            measures of the MSA.

    Taken together, these amendments to the MSA would waste years of 
sacrifice by fishers and hard work that have put our fisheries on a 
course to sustainability. The conservation measures we have put in 
place in the South Atlantic and around the country are working, but 
require strong action supported by clear legal mandates to protect and 
rebuild fisheries. I ask members of this committee to carefully 
consider the history of fisheries management in this country, and to 
recognize that we are only just beginning to see the benefits of our 
science-based management system. Further, I strongly urge members to 
reject this short-sighted proposal and redraft a new bill that will 
move us ahead to address the challenges of the future rather than 
reinventing the problems of the past.

                                 ______
                                 

    The Chairman. Thank you very much.
    I now recognize Mr. Jeff Deem, who is here to testify on 
behalf of the Recreational Fishing Alliance.

     STATEMENT OF JEFF DEEM, RECREATIONAL FISHING ALLIANCE

    Mr. Deem. Good morning, Mr. Chairman and members of the 
committee. I am Jeff Deem. And, although I serve on the Mid-
Atlantic Council representing Virginia, I am here today to 
present the position of Mr. Jim Donofrio, the Executive 
Director of the Recreational Fishing Alliance, who is, 
unfortunately, snowbound in New Jersey this morning.
    I would like to thank Chairman Hastings, committee members 
and committee staff for holding a series of hearings over the 
past 2 years, and listening to the concerns, needs, and 
suggestions from the fishing community, fishery managers, 
business owners, academics, and private citizens. The RFA and 
many other stakeholders in the recreational fishing community 
are encouraged to see many of the deficiencies identified at 
previous hearings included in the discussion draft released to 
the public on December 19.
    The spirit and intent of MSA was to conserve fish stocks 
for the benefit of the Nation in terms of food production, 
economic output, and recreational opportunities. With this in 
mind, we believe Magnuson is only producing positive results in 
the conservation half of this equation, and this failure of MSA 
to achieve both objectives is most painfully visible in 
recreational fisheries.
    Unlike commercial fishing operations that become more 
efficient and profitable by spending less time on the water and 
achieving more fish when stocks rebuild, the exact opposite is 
true for the recreational sector. The recreational sector 
desires open access and opportunity to allow the most 
participants to engage in the fishery.
    The rebuilding contradiction lies in the fact that, as 
stocks rebuild, regulations must become more restrictive as the 
fish become more available to anglers. To enforce annual catch 
limits in the recreational sector, as mandated under the 
current reauthorization regime, seasons become shorter, bag 
limits are reduced, and minimum size limits are increased. Not 
only does this scenario depress the socioeconomic capacity of 
the recreational fishing industry, but, from a conservation 
standpoint, the mortality associated with harvest is converted 
to mortality associated with dead discards, which serves no 
purpose. RFA believes language offered in the discussion draft 
attempts to address this issue and inequity.
    Flexibility is a common theme throughout the draft. RFA 
strongly supports the use of limited, common-sense flexibility 
in rebuilding fish stocks, and with ending overfishing. As seen 
in the summer flounder fishery in the Mid-Atlantic region, 
which was subjected to limited flexibility through the 2007 
reauthorization of MSA, limited flexibility can be used to 
accommodate the needs of the fishing industry, while causing no 
more conservation issues with the stock.
    In fact, the summer flounder stock continued to rebuild 
during the period when limited flexibility was applied, 
contrary to the dire predictions of the flexibility critics. 
RFA believes that the successful use of limited flexibility in 
the summer flounder fishery demonstrates the value of providing 
flexibility and adaptive management options in all federally 
managed species when appropriate. The use of flexibility 
acknowledges a known fact that we cannot count every single 
fish in the ocean, nor can we predict how every environmental 
factor--water temperatures, salinity, current strength, et 
cetera--will impact a stock's recruitment or speed at which it 
can rebuild. Flexibility is simply using an adaptive fishery 
management approach to accommodate the limitations of an 
imperfect science.
    RFA is encouraged to find that the discussion bill deals 
with the application of annual catch limits specifications--
excuse me--specific to the recreational fishing community. No 
recreational data collection program currently exists that is 
designed specifically for quota monitoring, or that can monitor 
recreational performance relative to an annual catch limit. 
That said, annual catch limits either force managers to use 
excessive precaution when setting specifications for the 
recreational sector, thereby depriving the sector from fully 
maximizing their allocation of fish stocks. Our recreational 
fishermen are punished for simply following regulations 
approved and put in place by fisheries managers to receive 
specific annual catch limits.
    In regards to the issue of catch shares, which is addressed 
in Section 7 of the discussion draft, RFA is adamantly opposed 
to the use of such measures in the recreational fishery. The 
primary purpose of catch shares is to reduce capacity in the 
fishing sector. This concept is a complete contradiction to the 
traditional open access approach needed to allow the 
recreational fishing sector to achieve its full socioeconomic 
potential.
    Furthermore, the implementation of commercial catch share 
programs in a mixed-use fishery limits the ability to revise 
commercial and recreational allocations. This is an issue that 
must be raised during any referendum procedure. RFA suggests 
that the members of the committee consider developing options 
to allow some recreational input during any referendum process. 
Also, the committee should work to develop a mechanism or 
process to evaluate commercial-recreational allocation in 
fisheries where a commercial sector has or is considering a 
catch share program.
    We appreciate this opportunity, and we are happy to answer 
any questions.
    [The prepared statement of Mr. James A. Donofrio, Executive 
Director, Recreational Fishing Alliance follows:]
   Prepared Statement of Mr. James A. Donofrio, Executive Director, 
                     Recreational Fishing Alliance
    Mr. Chairman and members of the committee, I am Jim Donofrio, the 
Executive Director of the Recreational Fishing Alliance (RFA). The RFA 
is a national 501(c)(4) non-profit grassroots political action 
organization whose mission is to safeguard the rights of salt water 
anglers, protect marine, boat, and tackle industry jobs, and insure the 
long-term sustainability of our Nation's marine fisheries. Recreational 
fishing produces significant economic activity in the United States. 
The U.S. Department of Commerce estimates the economic output of 
recreational saltwater fishing includes $59 billion in direct sales 
impacts, $27 billion in value added impacts and supports over 260,000 
full-time jobs. The recreational fishing industry is ``Main Street 
America'' in every sense; it is largely composed of small, family-run, 
mom and pop businesses. It goes without saying that these businesses 
serve a critical role in the economic health of the Nation's coastal 
economies.
    I would like to thank Chairman Hastings, committee members and 
committee staff for holding a series of hearings over the past 2 years 
and listening to the concerns, needs and suggestions from the fishing 
community, fishery managers, business owners, academics and private 
citizens. The RFA and many other stakeholders in the recreational 
fishing community are encouraged to see many of the deficiencies 
identified at previous hearings included in the discussion draft 
released to the public on December 19, 2013.
                            general comments
    From a recreational fishing standpoint, it is difficult to justify 
a statement that claims that the Magnuson-Stevens Fishery Conservation 
and Management Act has been a success. As will be pointed out by other 
witnesses today, the conservation portion of the Act has largely 
worked. The number of stocks experiencing overfishing has been 
significantly reduced and many fisheries are either rebuilt or on a 
trajectory to rebuild in the near future. If conservation was the only 
measure of success, we could claim that Magnuson has been working but 
we can't. The spirit and intent of this fisheries law was to conserve 
fish stocks for the benefit of the Nation in terms of food production, 
economic output and recreational opportunities. With this in mind, 
Magnuson is only producing positive results in one half of this 
equation and this failure of MSA to achieve both objectives is most 
painfully visible in the recreational fisheries. Unlike the commercial 
fishing operations that become more efficient and profitable by 
spending less time on the water and catching more fish when stocks 
rebuild, the exact opposite is true for the recreational sector. The 
recreational sector desires open access and opportunity to allow the 
most participants to engage the fishery. The rebuilding contradiction 
lies in the fact that as stocks rebuild, regulations must become more 
restrictive as the fish become more available to anglers. To enforce 
annual catch limits in the recreational sector as mandated under the 
current 2007 reauthorization regime, seasons become shorter, bag limits 
are reduced and minimum size limits are increased. Not only does this 
scenario depress the socioeconomic capacity of the recreational fishing 
industry but from a conservation standpoint, the mortality associated 
with harvest is converted to mortality associated with dead discards 
which serves no purpose. RFA believes language offered in the 
discussion draft attempts to address this issue and inequity.
    Flexibility is a common theme throughout the discussion draft. RFA 
strongly supports the use of limited, common sense flexibility in 
rebuilding fish stocks and with ending overfishing. As seen in the 
summer flounder fishery in the Mid-Atlantic region which was subjected 
to limited flexibility through the 2007 reauthorization of MSA, limited 
flexibility can be used to accommodate the needs of the fishing 
industry while causing no conservation issues with the stock. In fact, 
the summer flounder stock continued to rebuild during the period when 
limited flexibility was applied, contrary to the dire predictions of 
the flexibility critics. RFA believes the successful use of limited 
flexibility in the summer flounder fishery demonstrates the value of 
providing flexibility and adaptive management options in all federally 
managed species when appropriate. The use of flexibility acknowledges 
the known fact that we cannot count every single fish in the ocean nor 
can be predict how every environmental condition (water temperature, 
salinity, current strength, etc . . .) will impact a stock's 
recruitment or speed at which it can rebuild. Flexibility is simply 
using an adaptive fishery management approach to accommodate the 
limitations of an imperfect science.
    RFA is encouraged by language in the discussion draft that provides 
more power to the Regional Fishing Management Councils when setting 
rebuilding timeframes and other rebuilding requirements contained in 
fishery management plans. RFA believes the regional councils represent 
the best composition of managers, industry representatives, and fishing 
stakeholders to develop specifications in terms of quotas that balances 
the needs of fishermen and the needs of the fish stock as the Magnuson 
Act intended. However, fishery management plans and amendments prepared 
by the regional Councils are not promulgated until approved by the 
Secretary of Commerce. Moreover, a strong push by the environmental 
industry to seat their representatives on the regional fishery 
management councils has minimized the number of votes by those 
representatives with a vested interest in the long-term, sustainable 
management of our Nation's marine resources. RFA encourages members of 
the committee to participate in the regional Council appointment 
process beginning at the State level and conclude with the Secretary of 
Commerce to ensure that the composition of the regional Councils 
reflects the true and widely held views of the collective commercial 
and recreational fishing community of the region and not the 
ideological agenda of the environmental industry.
    RFA is encouraged to find the discussion bill deals with 
application of annual catch limits. Specific to the recreational 
fishing community, no recreational data collection program currently 
exists that is designed specifically for quota monitoring, or that can 
monitor recreational performance relative to an annual catch limit. 
That said, annual catch limits either force managers to use excessive 
precaution when setting specifications for the recreational sector, 
thereby depriving the recreational sector from fully maximizing their 
allocation of fish stocks, or recreational fishermen are punished for 
simply following regulations approved and put in place by fishery 
managers to achieve a specific annual catch limit.
    RFA supports greater transparency in the process that sets annual 
catch limits and supports efforts that would allow a greater number of 
stakeholders in the fishery management process. Engaging the fishery 
management process can be costly and time prohibition for many 
fishermen. Councils and Commissions should not only broadcast meetings 
online but also allow for public comment via the web or teleconference. 
This would expand the voice from stakeholders and allow fishery 
managers to make management decisions based on a more comprehensive 
public comment.
    In regards to the issue of catch shares which is addressed in 
Section 7 of the discussion draft, RFA is adamantly opposed to the use 
of such measures in the recreational fishery. The primary purpose of 
catch shares is to reduce capacity in a fishing sector. This concept is 
in complete contradiction to the traditional `open access' approach 
needed to allow the recreational fishing sector to achieve its full 
socioeconomic potential. Furthermore, the implementation of a 
commercial catch share program in a mixed use fishery limits the 
ability to revise commercial/recreational allocations. This is an issue 
that must be raised during any referendum procedure. RFA suggests that 
the members of the committee consider developing options to allow some 
recreational input during any referendum process. Also, the committee 
should work to develop a mechanism or process to evaluate commercial/
recreational allocation in fisheries where the commercial sector has or 
is considering a catch share program.
Comments on H.R. 4742, Strengthening Fishing Communities and Increasing 
                Flexibility in Fisheries Management Act
    RFA submits the following suggestions and recommendations for the 
committee's consideration.
SECTION 3. FLEXIBILITY IN REBUILDING FISH STOCKS
    The urgency to rebuild fish stocks with complete disregard to the 
needs of the fishing industry is a flawed management approach that 
fails to achieve optimum yield from fisheries and reduces the overall 
social and economic benefits that can be achieved from a well managed 
fishery. Save the rebuilding timeframe extension language for summer 
flounder included in the 2007 reauthorization, RFA was convinced that 
mandates and lack of flexibility included in the 2007 reauthorization 
was going to move fishery management away from the fundamental 
objectives of the law when originally passed in 1976. What was most 
concerning to the RFA was that the pain caused by the 2007 
reauthorization would not be short-term but would cause permanent loss 
of recreational fishing infrastructure. That said, RFA is encouraged to 
see that the discussion draft attempts to address the shortcomings the 
2007 reauthorization by inserting limit flexibility when appropriate. 
RFA offers minor recommendations for this section.
    RFA suggests that additional information be provided by the 
committee to aid NOAA when defining the term highly dynamic fishery as 
included in this section. RFA assumes that the intention of the term is 
to provide implementation flexibility for fisheries that are shorted-
lived (<2 years) or display high variability in either recruitment or 
spawning stock biomass on a year-to-year basis. Such fisheries are 
typically influenced more by environmental conditions than direct 
fishing pressure. However, this cannot be determined from the existing 
language in the discussion draft and therefore RFA suggests some 
clarification for this new term.
    RFA supports changing possible to practicable as included in Sec. 
3(a)(2)(A). RFA has long supported this wording change and experience 
has proven that the time and rate to rebuild a stock should be a lower 
priority compared to minimizing socioeconomic impacts on the affected 
fishing communities. Most marine fish stocks have proven to be 
extremely resilient and will respond rapidly to even modest fishing 
restrictions. The fishing infrastructure that makes up a fishing 
community is not nearly as resilient and as mentioned above, loss of 
recreational fishing infrastructure tends to be permanent. Therefore, 
the focus should be preserving and protecting the fishing industries, 
not rebuilding a fish stock as quickly as possible. From an ecological 
standpoint, rebuilding a fish stock in a time period as short as 
possible may cause tropic imbalances where a stock dominates or impedes 
other stocks' rebuilding progress. Again, this wording change would 
promote more adaptive fishery management that is more responsive to the 
dynamic nature of the marine environment.
    In Sec. 3(a)(2)(B)(ii), RFA notes that the time to rebuild a stock 
in the absence of fishing is a period of time that will vary from year 
to year for a particular stock based on stock size, average 
recruitment, environmental conditions, habitat limitations, etc. Also, 
the time to rebuild in the absence of fishing will also vary throughout 
the course of a rebuilding timeframe. It is unclear from the wording 
provided in this section if the time to rebuild a stock in the absence 
of fishing will be periodically reviewed or if it is a static value. 
RFA suggests including some clarification in this section on the 
process to revisit the extension period based on the time to rebuild 
without fishing.
    RFA would suggest to committee members that they consider also 
providing limited flexibility to the provision that require ending 
overfishing immediately as contained in MSA Sec. 304(e)(3)(A). RFA 
certainly agrees that there are conservation benefits in ending 
overfishing, yet, a review of post-Sustainable Fisheries Act fisheries 
management proves that significant rebuilding can occur even if 
overfishing is occurring in a fishery. To this point, Dr. Ray Hilborn 
testified before the House Resources Committee in September 2013 that 
an unwavering drive to end overfishing has resulting in the unnecessary 
loss of harvest, jobs, recreational opportunities and revenue. 
Moreover, this self-imposed obligation to end overfishing has not 
resulted in significantly more conservation benefits than the those 
benefits that would have been achieve by ending overfishing at a more 
reasonable pace.
    RFA suggests that the members of the committee consider applying 
minimal flexibility to section 304(e)(3)(A) which would ultimately 
allow managers to put forward a wider range of options when ending 
overfishing. Possible wording for this flexibility to end overfishing 
could be the addition of the following, or measures to end overfishing 
following the word plan in Sec. 3(a)(1) of the discussion draft. An 
alternative fix could simply be striking the word immediately in MSA 
302(a)(3)(A) which would continue to ensure that overfishing is ended 
but on a more reasonable schedule if needed.
    RFA suggests adding section (VI) to Sec. 3(a)(2)B)(ii) to read as 
follows: The Council(s) determines that new information supports a 
revision or modification to the rebuilding plan. RFA believes the 
addition of this wording would allow the Councils to adjust rebuilding 
plans and rebuilding as new information becomes available or as stock 
assessments are released.
    RFA suggests the following wording be added to the end of Sec. 
3(a)(2)(C)(B), all other non-fishing related factors that influence a 
rate at which a stock can rebuild. RFA agrees with the discussion draft 
that predator/prey relationships should be taken into consideration 
when setting and evaluating rebuilding plans. However, RFA believes 
that this consideration should not be limited to predator/prey 
relationships and that all non-fishing related environmental conditions 
should be factored when estimating the rate at which a stock is able to 
rebuild. This type of approach is the very basis for ecosystem-based 
management which is the preferred direction that the regional fishery 
management councils and the recreational fishing community have 
indicated they that wish to move toward. Ecosystem base management can 
be very data demanding and expensive, yet, simply looking at a fishery 
and how it interacts with its marine environment and other species as 
this section suggests, is a very practical approach in light of the 
resources currently available to the regional Councils and Commissions.
    RFA suggests amending Sec. 3.(a)(1)((E) by adding the following 
wording at the end of the subparagraph; and socioeconomic impacts 
resulting of rebuilding efforts and progress. Consistent with the 
original intent of the Magnuson-Stevens Fishery Conservation and 
Management Act, RFA believes a primary purpose for rebuilding fish 
stocks is for deriving social and economic benefits from the fisheries. 
Therefore, it is necessary to determine if this objective is being 
achieved as fish stocks rebuild. Gauging success by simply measuring 
the absolute amount of fish does not capture the health of the fishing 
communities that are dependent on these fish stocks.
    RFA supports Sec 3.(a)(3)(8) which approves the use of alternative 
rebuilding strategies such as harvest control rules and fishing 
mortality targets. RFA believes that the use of these strategies would 
allow the regional fishery management Councils to manage the 
recreational sector through traditional management regulations such as 
season, size limits and bag limits. Moreover, monitoring recreational 
mortality in the context of fishing mortality is a vast improvement 
over monitoring recreational performance relative to a rigid annual 
catch limit set in pounds of fish. Such an approach is neither 
appropriate for the recreational sector nor practical due to the known 
design limitations of the existing recreational data collection 
programs.
    In Sec. 3(b), RFA is unclear why MSA should be amended to increase 
the time for which emergency regulations and interim measures can be 
put in place. RFA suggests that rationale for this amendment be 
provided by the authors of the discussion draft. In addition, RFA 
suggests that the committee members consider expanding the authority of 
the Secretary under MSA 305(c)(3)(B) to implement emergency regulations 
and interim measures in order to allow a fishery to achieve optimum 
yield. RFA makes this suggestion to expedite immediate access to a 
fishery if information becomes available supporting an increase in 
quota or easing of regulations.
SECTION 4. MODIFICATIONS TO ANNUAL CATCH LIMIT REQUIREMENT
    In Sec. 4(a), RFA suggest changing may to shall in subparagraph 
(m)(1). The stated purpose of marine fisheries management in the United 
States is to manage fisheries for the benefit of the Nation. Those 
benefits are provided to the citizens of the United States by way of 
food and recreational opportunities through fishing communities. 
Regional fishery management Councils must take into consideration the 
economic needs of the fishing communities when setting annual catch 
limits to ensure that this necessary infrastructure is sufficient 
enough to parlay the benefits of rebuilding fish stocks to the American 
people.
SECTION 5. DISTINGUISHING BETWEEN OVERFISHED AND DEPLETED
    RFA supports revisions to the Magnuson Act that would distinguish 
between overfished and depleted fish stocks. In most stock assessments, 
natural mortality is a theoretical fixed parameter because empirical 
data to determine a species-specific natural mortality rate is not 
available. When natural mortality parameters are static, fluctuations 
in natural mortality are reflected in fishing mortality rates which can 
then trigger overfishing or overfished determinations. Fishing is not 
always the cause for a stock to depart from a level associated with 
maximum sustainable yield and therefore, the term depleted may be a 
more accurate term in some fisheries.
SECTION 6. TRANSPARENCY AND PUBLIC PROCESS FOR SCIENTIFIC AND 
        MANAGEMENT ACTIONS
    RFA supports the intent of Section 6 in the discussion draft. 
Scientific and Statistical Committee meetings are proving to be 
extremely important in the fisheries management process as they are the 
one opportunity where the public can comment on an annual catch limits 
prior to them being released by the committee. Once annual catch limit 
recommendations are released, having the Science and Statistical 
Committees revisit these recommendations can be difficult if not 
impossible. Despite their importance, it can be difficult and expensive 
for the general public to attend Scientific and Statistical Committee 
meetings. Moreover, participation in such meetings should not be 
limited to those who are able to attend in person but any stakeholder 
that has an interest. Inexpensive options exist that can allow remote 
participation and thereby expanding the opportunities for members of 
the fishing community to contribute to these important meetings.
    RFA also supports the inclusion of wording in Sec. 6 that the 
preparation of any fishery management plan, amendment or addendum 
consistent with the Magnuson-Stevens Fishery Conservation and 
Management Act satisfies and complies with the National Environmental 
Policy Act of 1969.
SECTION 7. LIMITATION OF FUTURE CATCH SHARE PROGRAMS
    RFA does not support the use of catch shares in the recreational 
fisheries. We believe that catch shares are a management tool that has 
absolutely no place in the management of recreational fisheries. 
Specific to Sec. 7, the recreational fishing community must be afforded 
an equal opportunity to weigh in on approval or implementation of a 
catch share program in any commercial fishery that also has a 
recreational component to that fishery. RFA believes this is necessary 
to ensure that the allocation provided to the commercial catch share 
program is representative and fair to the recreational sector. RFA asks 
that the members of the committee consider this point and put forward 
language for this section that would ensure that commercial/
recreational allocations are evaluated prior to the implementation of a 
commercial catch share program in a mixed fishery and periodically 
there after upon implementation.
SECTION 8. DATA COLLECTION AND DATA CONFIDENTIALITY
    RFA supports amendments to MSA offered in Sec. 8. However, RFA 
suggests to committee members that equal consideration in terms of use 
of electronic reporting and monitoring be afforded to the recreational 
sector. Specifically, provide greater opportunities for private anglers 
to submit voluntary catch data and expand electronic vessel trip 
reporting for for-hire and head boats. The recreational fishing 
community has long been critical of NOAA for not using vessel trip 
reports from federally permitted charter and head boats. Perhaps if 
those trip reports were in an electronic format then NOAA would be more 
willing to use this valuable information.
SECTION 10. GULF OF MEXICO COOPERATIVE RESEARCH AND RED SNAPPER 
        MANAGEMENT
    The RFA supports the development of cooperative research programs 
and making opportunities available to the recreational sector to 
participate in such programs. The entire recreational fishing community 
is in collective agreement that securing better data for both stock 
assessments and quota monitoring is a top priority. A lack of data 
almost always results in artificially lower quotas and unnecessarily 
restrictive regulations that hurt participation and overall economic 
output from the sector. Federal funding to improve fisheries science 
has been drastically reduced over the past few years and RFA is 
encouraged by the discussion draft's wording that would restore the 
proper use of Saltonstall-Kennedy funds by making cooperative research 
a priority for the Act. RFA also encourages committee members to 
consider prioritizing money generated through the Sportfish Restoration 
Act for cooperative research.
    Consistent with the theme of Section 10, RFA suggests that members 
of the committee consider the initiation of a review of recreational 
data collection programs by the National Research Council. Congress and 
the fishing industry called for such a review in 2005. In response to 
this pressure, NOAA requested NRC conduct a review. The review included 
public hearings and public comment periods in addition to an in-depth 
analysis of programs in place at the time to collection information on 
recreational catch, harvest, effort and participation. The NRC released 
their findings in a 2006 report titled Review of Recreational Fishing 
Survey Method. The report included numerous recommendations developed 
by non-bias experts in statistical design to improve the accuracy, 
precision, timeliness and confidence in the Marine Recreational Fishing 
Statistics Survey (MRFSS), the Large Pelagic Survey (LPS), the 
Recreational Billfish Survey, and other federally administered data 
collection programs. During the MSA reauthorization process in 2006 and 
early 2007, Section 401(g) was included in the final bill that 
endeavored to improve recreational data collection by adopting many of 
these recommendations put forward by the NRC. NOAA's attempt to 
implement this section is manifest in the renamed MRFSS known as Marine 
Recreational Information Program (MRIP). During previous committee 
hearings, NOAA personnel have indicated that they have complied with 
section 401(g).
    This January marks the seventh year since then President George W. 
Bush signed the Magnuson Reauthorization Act of 2007 into law. Many in 
the recreational fishing community have not been satisfied with the 
progress made by NOAA fisheries to make these improvements. Dr. F. J. 
Breidt who served on the NRC panel for the 2006 review, indicated in 
his testimony before this committee on May of 2013 that he felt the 
Marine Recreational Information Program (MRIP) has ``directly addressed 
the concerns noted in the 2006 NRC report and is now a complete 
statistical system with a sound scientific basis.'' Based on this 
statement, RFA believes it is appropriate for the NRC to again conduct 
a formal review of NOAA's recreational data collection programs.
    Acknowledging the budgetary constraints at the Federal and State 
level, RFA encourages members of the committee to authorize the use of 
funds from the Sportfish Restoration Fund. Funds in the Sportfish 
Restoration Fund are derived from a federally imposed tax on all 
fishing tackle, electronic fishing equipment, electric outboard motors, 
import duties and marine fuel which on average amounts to $650 million 
per year. Of these funds, Sportfish Restoration Fund disburses 
approximately $383 million to State agencies to aid with the 
administration of their fish, wildlife, game and habitat restoration 
and protection programs which RFA believes is a valuable use of this 
money.
    Of the remaining funds, approximately $13 million is provided for 
national outreach and communication programs. These programs are 
primarily marketing campaigns administered by non-governmental 
organizations given access to the funds under noncompetitive 
agreements. These organizations directly benefit from marketing the 
sport of fishing and boating and that also glean administrative fees 
from of these programs. The results of these outreach and communication 
programs have been minimal and $13 million set aside for these efforts 
have become a private advertising account for a few industry groups. 
RFA believes that a far better use of this money would be to fund a 
follow-up NRC review of recreational data collection.
    The 2006 NRC review cost approximately $430,000. RFA contends that 
this number is insignificant considering the fact that the recreational 
fishing industry generates several hundred million dollars in Federal 
taxes every year. However, RFA also appreciates Congress's commitment 
to reducing government spending which is why it suggests the committee 
look to the Sportfish Restoration Fund, a fishermen funded account. Not 
only would the money for a follow-up NRC review stand to benefit all 
saltwater anglers that fund the Sportfish Restoration Fund through 
their fishing related purchases, but such a review ultimately stands to 
improve the management and conservation of the Nation's saltwater 
fisheries. RFA believes a follow-up NRC review is the only way that 
fishermen will ever gain any confidence in the new MRIP program.
    For the committee's consideration, RFA offers the following new 
language which would create an additional section in the discussion 
draft and read as follows:
SECTION 14. EVALUATION OF RECREATIONAL DATA COLLECTION

  a.  Upon enactment of this Act, the Secretary of Commerce will charge 
            the National Research Council to undertake a review of all 
            recreational data collection programs to evaluate their 
            accuracy, precision, and timeliness and to offer 
            recommendations for improvements.
  b.  The National Research Council would make available their findings 
            to Congress within 365 days.
  c.  Funding for recreational data collection evaluation conducted by 
            the National Research Council under subparagraph (a) will 
            be made available from the Sportfish Restoration Fund (16 
            U.S.C. Sec. Sec. 777-777l).

                            closing remarks
    In closing, I would like to again thank Chairman Hastings and 
committee members for the opportunity to testify today on this 
important issue. RFA believes the discussion draft is a good start and 
stands to spur improvements to the current fishery management process. 
The current reauthorization process being initiated for Magnuson 
represents a significant opportunity to strike a balance between 
conservation and the needs of the fishing communities in U.S. 
fisheries. RFA appreciates the commitment taken by Chairman Hastings, 
committee members and staff in reaching out to the fishing stakeholders 
and putting forward pragmatic solutions to correct and improve U.S. 
fisheries management. RFA looks forward to working with Chairman 
Hastings and committee members in the coming months to refine the 
discussion draft.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Deem, for your 
testimony.
    And last, but certainly not least, Ms. Ellen Pikitch. Did I 
say it correctly?
    Dr. Pikitch. Yes, sir.
    The Chairman. I did say it correctly, OK. Professor and 
Executive Director of the Institute for Ocean Conservation 
Science from Stony Brook, you are recognized for 5 minutes.

 STATEMENT OF ELLEN K. PIKITCH, PH.D., PROFESSOR AND EXECUTIVE 
 DIRECTOR, INSTITUTE FOR OCEAN CONSERVATION SCIENCE, SCHOOL OF 
    MARINE AND ATMOSPHERIC SCIENCES, STONY BROOK UNIVERSITY

    Dr. Pikitch. Thank you, Chairman Hastings, Ranking Member 
DeFazio, and members of the committee. I appreciate the 
opportunity to comment on the discussion draft to amend the 
Magnuson-Stevens Fishery Conservation and Management Act.
    Throughout my 30-plus-year career beginning in Oregon, 
conducting research of commercial fishing vessels, I have been 
deeply involved in fishery science and management. While 
serving on the scientific and statistical committees of the 
Pacific and New England Councils during the 1980s and 1990s, I 
witnessed firsthand how flexibility was used to avoid 
addressing difficult problems.
    Scientific advice was often ignored. Political pressure was 
applied to delay action desperately needed to prevent 
overfishing and rebuild fish stocks. Over-fishing continued, 
even on extremely depleted stocks. Coastal communities faced 
economic hardships, due to collapsing fish populations. 
Congress took notice. In 1996, and then in 2006, the law was 
amended, strengthening the overfishing provisions and ensuring 
the foundational importance of science.
    Consequently, we have turned the corner. Many fish 
populations have been rebuilt. The number experiencing 
overfishing has declined. And science-based catch limits are 
now in place for all federally managed fish.
    In addition, fisheries profitability has increased. And 
jobs, even in the recreational sector, have been created. 
Although we have more work to do, the state of our fisheries is 
improving. It is certainly stronger now than at any time during 
my professional career.
    I am very concerned, however, with the Chairman's 
discussion draft, as it rolls back key provisions of the 
Magnuson-Stevens Act that have boosted the health of our 
fisheries. Among its shortcomings, the draft proposal would 
weaken the Act's rebuilding requirements, reverse recent gains 
in science-based fishery management, diminish the ability of 
managers to prevent overfishing of forage fish, and put basic 
fishery data, including information collected using taxpayer 
support, off-limits to the general public. Rather than revert 
to using policies and practices that were not successful in the 
past, we should build on the success of the Magnuson-Stevens 
Act.
    No fish is an island. We must shift from managing fish as 
separate, individual species, and recognize that they are part 
of an interacting web of life, an ecosystem. We need to stop 
using scientific uncertainty as an excuse for inaction. 
Instead, we must see it as a sign that care is needed to 
sustainably manage the ecosystem's interconnected parts. We 
must confront new challenges, such as the impacts of a changing 
climate on fish populations.
    I recommend that, during this reauthorization of the Act, 
that Congress firmly establish ecosystem-based fishery 
management approaches in the law. Specifically, this would 
include measures to sharpen existing provisions to protect 
habitat, to enhance provisions to reduce by-catch, to require 
Councils to prepare and implement fishery ecosystem plans, and 
to ensure that forage fish are managed to account for the 
important role they hold in the ocean.
    As Chair of the Lenfest Forage Fish Task Force, I would 
like to discuss why small fish matter so much. These fish are 
small, short-lived, but they represent about a third of the 
world's wild marine fish catch. Yet only 10 percent are 
consumed directly by people. In the ocean, forage fish serve as 
a primary food source for larger fish, such as cod, salmon, and 
tuna, as well as other marine life. Over-fishing of forage fish 
jeopardizes not only the target species, but also the health of 
the entire food web.
    The task force I chaired estimated that the supportive 
value of forage fish as food for commercially important fishes 
is more than twice their value, as direct targets of 
harvesting. In other words, forage fish are worth twice as much 
when left in the water as they are taken out in a net. Forage 
fish contribute to many other economically important coastal 
activities, so there are even more reasons to expect that 
little fish will equal big bucks.
    So, to summarize, our Nation has taken steps to implement 
science-based fishery management, and there is considerable 
progress to report. Let's not undo the success we have worked 
so hard to obtain. We must move forward with the Magnuson Act 
that will help us confront the challenges ahead. Thank you 
again.
    [The prepared statement of Dr. Pikitch follows:]
Prepared Statement of Ellen K. Pikitch, Ph.D., Professor and Executive 
 Director, Institute for Ocean Conservation Science, School of Marine 
            and Atmospheric Sciences, Stony Brook University
    Good morning Chairman Hastings, Ranking Member DeFazio, and members 
of the committee. Thank you for inviting me to appear before you today. 
I appreciate the opportunity to offer my perspectives on the discussion 
draft circulated by Chairman Hastings to amend the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act) and my 
recommendations for the next reauthorization of this critical law.
    I am a Professor and the Founder and Executive Director of the 
Institute for Ocean Conservation Science at Stony Brook University.\1\ 
The Institute conducts world-class scientific research in order to 
increase our knowledge about critical threats to the ocean and its 
inhabitants, provide the foundation for smarter ocean policy, and 
establish new frameworks for improved ocean conservation. A primary 
focus of our work is to advance ecosystem-based fishery management, or 
put another way, to support the progression of fishery science and 
management from its current species-by-species emphasis to a more 
comprehensive and realistic approach. Importantly, an ecosystem-based 
methodology accounts for the interactions among marine species, their 
habitat requirements and environment, and the people who depend upon 
them. There is a growing consensus among scientists that this approach 
to management is the necessary next step to ensure sustainable 
stewardship of our ocean resources.
---------------------------------------------------------------------------
    \1\ The views expressed in this testimony are mine. They do not 
necessarily reflect the views of Stony Brook University.
---------------------------------------------------------------------------
    As such, I am very concerned about the Chairman's discussion draft, 
as it roll backs many of the important provisions of the Magnuson-
Stevens Act that have led to recent improvements in the health of the 
Nation's fisheries. Rather than relapse to using policies and practices 
that were not successful when widely applied in the past, we should use 
this opportunity to move forward, adopt ecosystem-based fisheries 
management, and better equip our fishery managers to address future 
challenges facing our oceans.
    Throughout my professional career, I have been deeply involved in 
fishery conservation and fisheries management science. As an Assistant 
Professor at Oregon State University in the early 1980s, I conducted 
cooperative research with the commercial fishing industry focusing on 
Pacific coast groundfish assessments and complex management issues 
(such as bycatch and discards) arising from the multispecies nature of 
the trawl fishery. Much of this work took place aboard commercial 
fishing vessels operating under commercial fishing conditions. Later, 
while on the faculty of the University of Washington, I directed the 
Fisheries Research Institute and expanded my research program into 
Alaskan waters. I served on the Pacific Regional Fishery Management 
Council's Scientific and Statistical Committee between 1989 and 1994, 
and chaired its Groundfish Subcommittee in 1993 and 1994. I also served 
as chairman of the New England Regional Fishery Management Council's 
Scientific and Statistical Committee from 1998 to 2000. I have been a 
member of several advisory panels convened by the National Academy of 
Sciences to research sustainable fishery management issues. I have 
conducted field research, in the United States and overseas, on many 
iconic fish species, including sturgeon, sharks, and several species of 
groundfish.
    In the late 1980s and 1990s, I witnessed firsthand how regional 
fishery management councils used flexibility to avoid addressing the 
difficult problems affecting many of our Nation's important fisheries. 
Scientific advice was often ignored. Political pressure was applied to 
delay action desperately needed to prevent overfishing and rebuild 
depleted fish populations. So, overfishing continued, even on stocks 
experiencing substantial population declines. In many areas along our 
Nation's coastline, fishing-dependent communities faced economic 
hardships due to collapsing fish populations.
    Congress took notice. In 1996 and 2006, a bipartisan group of 
Senators and Representatives, led by the late U.S. Senator Ted Stevens, 
amended the law to establish clearer provisions to prevent overfishing, 
rebuild fish populations, and ensure scientific advice provides a solid 
foundation for our Nation's fishery management system. In 1996, 
Congress added a requirement that overfished fish stocks be rebuilt in 
as short as time as possible but not to exceed 10 years, with certain 
limited exceptions. A decade later, Congress amended the law to require 
science-based catch limits and accountability measures in order to 
restore and maintain fish populations.
    Due to the hard work of managers, fishermen, scientists, 
conservationists, and others, we are turning the corner in fishery 
management. Although we certainly have more work to do, the state of 
our fisheries is improving--it is certainly stronger now than at any 
time during my professional career.
    In December of 2013, the National Marine Fisheries Service reported 
that 34 fish stocks have been rebuilt since 2000.\2\ These include 
Pacific Coast lingcod, Georges Bank haddock, Southern Atlantic black 
sea bass, and Gulf of Mexico red grouper. In addition, the number of 
stocks experiencing overfishing has declined from 72 in 2000 to 28 by 
the end of 2013.\3\ Science-based catch limits, designed to prevent 
overfishing, are in place for all federally managed fish populations.
---------------------------------------------------------------------------
    \2\ NOAA Fisheries. Status of U.S. Fisheries. 2013 Quarter 4 Update 
through Dec. 31, 2013. Available at http://www.nmfs.noaa.gov/sfa/
statusoffisheries/SOSmain.htm.
    \3\ NOAA Fisheries. Status of U.S. Fisheries. Data from 2000 and 
2013 updates. Available online at http://www.nmfs.noaa.gov/sfa/
statusoffisheries/SOSmain.htm.
---------------------------------------------------------------------------
    According to National Marine Fisheries Service testimony submitted 
to this committee last September, ``U.S. commercial fishermen landed 
9.9 billion pounds of seafood valued at $5.3 billion in 2011, which 
reflects an increase of 1.6 billion pounds (20 percent) and $829 
million (18 percent) over 2010 figures. 2011 was the highest landing 
volume since 1997 and highest value in nominal terms ever recorded.'' 
The agency went on to report that jobs generated by recreational 
fishing represented a 40 percent increase between 2010 and 2011.\4\
---------------------------------------------------------------------------
    \4\ Rauch, Samuel D. 2013. Written Testimony by Samuel D. Rauch 
III, Acting Assistant Administrator for the National Marine Fisheries 
Service. For a Hearing on Magnuson-Stevens Fishery Conservation and 
Management Act before the Committee on Natural Resources. September 11, 
2013.
---------------------------------------------------------------------------
    I proudly share these facts, along with stories detailing how much 
we have accomplished, with my students. The improvements we are making 
are not only benefiting fish populations and ocean ecosystems but also 
making important economic contributions through jobs and more 
profitable fisheries. The United States has one of the best management 
systems in the world thanks to our commitment to follow scientific 
recommendations, prevent overfishing, and rebuild fish populations. As 
we consider modifications to the Magnuson-Stevens Act, it is imperative 
that we maintain and build upon this recent progress.
Concerns With the Discussion Draft
    Unfortunately, the draft proposal circulated in December would 
jeopardize the hard-earned progress the United States has made in 
recent years. It would undercut the very requirements of the Magnuson-
Stevens Act that are largely responsible for the recent turn-around. It 
fully embraces and re-institutes many 20th century management policies 
that, in the 1980s and 1990s, failed to promote sustainable fish 
populations and foster long-term productivity for fisheries and coastal 
communities. It is not the forward-looking vision we need to ensure our 
fishery management system can respond to and overcome challenges of 
changing oceans in the 21st century. Among its shortcomings, the draft 
proposal would:

    <bullet>  Weaken the Act's rebuilding requirements. The proposal 
would allow overfishing to continue by delaying the onset of rebuilding 
measures in a rebuilding plan for 5, and perhaps up to 7 years, once a 
population has been declared to be below healthy levels. There are both 
ecological and economic arguments to begin rebuilding overfished 
populations immediately. Allowing depleted fish populations to further 
decline may reduce survival of early life stages, decrease genetic 
diversity, and cause shifts in ecosystem structure and function. 
Extending overfishing will, at worst, increase the risk of severe 
collapse for some fish populations, and, at best, greatly delay their 
recovery--jeopardizing both the resiliency of the fish population and 
the long-term economic viability of businesses and communities that 
rely upon them.\5\ \6\ For species like forage fish, continued 
overfishing or extended periods of depletion jeopardizes not only the 
target species, but also the health of the entire food web of marine 
species.
---------------------------------------------------------------------------
    \5\ Pikitch, Ellen K. 2003. The Scientific Case for Precautionary 
Management: Current Fishery Problems Traced to Improper Use of Science. 
In: Managing Marine Fisheries in the United States. Proceedings of the 
Pew Oceans Commission Workshop on Marine Fishery Management.
    \6\ Babcock, Elizabeth A., McAllister, Murdoch K. and Pikitch, 
Ellen K. 2007. Comparison of Harvest Control Policies for Rebuilding 
Overfished Populations within a Fixed Rebuilding Time Frame. North 
American Journal of Fisheries Management. 27: 1326-1342.

       In addition, the discussion draft would eliminate the target to 
rebuild an overfished stock within 10 years if biologically possible 
and add a number of new, broad exceptions for setting any timeline. My 
research and that of others concludes that it is biologically possible 
for the majority of fish species to recover in 10 years, even if they 
were significantly depleted at the start of rebuilding.\7\ \8\ 
Moreover, rapid rebuilding confers long-term economic benefits because 
the sooner a population approaches a sustainable level, the sooner 
catches (and hence revenues generated by the fishery) can increase.\9\ 
In a comparison of rebuilding strategies, my colleagues and I concluded 
that the best strategy to ensure healthy populations and economic 
returns was to employ both a 10-year rebuilding target as well as 
management strategies called harvest control rules that set varying 
levels of catch in accordance with the abundance (or size) of the fish 
population.\10\
---------------------------------------------------------------------------
    \7\ Safina, Carl, et al. 2005. U.S. Ocean Fish Recovery: Staying 
the Course. Science. 309: 707-708. 29 July 2005.
    \8\ Babcock, McAlister and Pikitch, 2007.
    \9\ Babcock, McAlister and Pikitch, 2007.
    \10\ Babcock, McAlister and Pikitch, 2007.

       In addition, the discussion draft includes several broad 
exceptions that would give regional fishery management councils the 
option not to set any rebuilding target date. If these exceptions were 
to be used, I would be concerned that rebuilding a stock to a 
sustainable level could be delayed indefinitely. This would risk the 
long-term economic benefits associated with a rebuilt, sustainable 
---------------------------------------------------------------------------
fishery.

       Current provisions of the Act already permit sufficient 
flexibility including the ability to deviate from the 10-year timeframe 
in appropriate circumstances, such as if biological conditions of the 
stock would require a longer period. In fact, the majority of stocks 
currently undergoing rebuilding have plans that exceed 10 years.\11\ 
The Natural Resources Defense Council (NRDC) analyzed 44 fish stocks 
that had been put in rebuilding plans since 1996 and had sufficient 
information to evaluate progress. In its 2013 report, NRDC found that 
the average rebuilding time periods for these plans is close to 20 
years.\12\
---------------------------------------------------------------------------
    \11\ NOAA Fisheries. Status of U.S. Fisheries. Available online at 
http://www.nmfs.noaa.gov/sfa/statusoffisheries/SOSmain.htm.
    \12\ Natural Resources Defense Council. Bringing Back the Fish: An 
Evaluation of U.S. Fisheries Rebuilding Under the Magnuson-Stevens 
Fishery Conservation and Management Act. 2013. Appendix A.

    <bullet>  Reverse recent gains in better incorporating science in 
our fishery management system. The proposal would make significant 
changes to existing requirements for science-based fishery management. 
For example, it would allow regional fishery management councils to 
dismiss recommendations of the Council's scientific and statistical 
committees in setting annual catch limits by providing them with 
opportunities to elevate short-term economic issues, jeopardizing the 
sustainability of fish populations and sacrificing long-term economic 
---------------------------------------------------------------------------
benefits.

    <bullet>  Diminish the ability of managers to prevent overfishing 
of forage fish. The proposal includes provisions that would exempt 
forage fish species from the Act's requirements to establish science-
based catch limits that prevent overfishing. As a food source of larger 
fish and other marine wildlife, forage fish play a critical role in 
marine ecosystems. Because of this, they contribute to many 
economically important coastal activities, including commercial 
fisheries, recreational fishing, whale watching, and bird viewing. It 
would be a mistake to sideline consideration of this crucial link in 
the ocean food web by excluding forage fish from requirements to set 
science-based limits that would help manage their populations.

    <bullet>  Put basic fishery data, including information collected 
using taxpayer support, off limits to the general public. The proposal 
would reduce public access to data collected by on-board observers and 
through cooperative research projects involving fishermen and 
scientists. University and independent scientists rely on this data, 
typically shared in ways to maintain privacy and confidential 
information, to conduct research that helps improve knowledge of fish 
populations and efficacy of management measures. Keeping vast amounts 
of this information out of the public domain will not only be a set-
back to fishery science but also undermines our Nation's commitment to 
open government, particularly for managing public resources such as 
fish.

    I am also concerned about provisions in the discussion draft that 
would weaken core environmental laws, including the National 
Environmental Policy Act, the Endangered Species Act, the National 
Marine Sanctuaries Act, and the Antiquities Act, as they would apply to 
fishery management decisions.
Recommendations for Magnuson-Stevens Reauthorization
    Instead of these regressive changes, Congress, the administration, 
and those of us involved in fishery management and science should be 
considering and implementing ways to build on the success of the 
Magnuson-Stevens Act. We have unfinished business, such as how to 
minimize bycatch, protect and restore fish habitat, and invest in 
science.
    No fish is an island. A species may be in good shape from a single 
species perspective--but may be overfished from an ecosystem 
perspective.
    We must shift our focus from managing fish as separate, individual 
species with a primary goal of maintaining populations of key target 
species, and move toward recognizing they are part of an interacting 
web of marine life, an ecosystem. We need to stop using scientific 
uncertainty as an excuse for inaction, and instead see it as an 
indicator that precautionary care is needed to sustainably manage the 
interconnecting parts of ecosystem. In addition, we must confront new 
challenges, such as the impacts of a changing climate on fish 
populations.
    The concept of ecosystem-based fisheries management is not new. In 
fact, in 1996 Congress called for an expert panel to offer 
recommendations ``to expand the application of ecosystem principles in 
fishery conservation and management activities.'' \13\ In its 
subsequently released report to Congress the Ecosystem Principles 
Advisory Panel set forth core recommendations for incorporating 
ecosystem principles in fishery management, including: that each 
regional fishery management council be required to develop a fishery 
ecosystem plan for the ecosystem(s) under its jurisdiction; that the 
Secretary of Commerce should establish guidelines for developing 
fishery ecosystem plans, and; that management measures consider 
predator-prey interactions, consider the impact of bycatch to the 
ecosystem, and minimize the impacts of fishing operations on essential 
fish habitat.\14\
---------------------------------------------------------------------------
    \13\ Magnuson-Stevens Fishery Conservation and Management Act, 
Section 406(a)-(e), 16 U.S.C. 1882.
    \14\ Ecosystem-based Fishery Management, A Report to Congress by 
the Ecosystem Principles Advisory Panel as mandated by the Sustainable 
Fisheries Act amendments to the Magnuson-Stevens Fishery Conservation 
and Management Act 1996. 1998. pp. 3-5.
---------------------------------------------------------------------------
    In 2004, several colleagues and I further analyzed and outlined 
this approach.\15\ We identified several key components of Ecosystem-
based Fishery Management including:
---------------------------------------------------------------------------
    \15\ Pikitch, E. K. et al. 2004. Ecosystem-Based Fishery 
Management. Science. 305: 346-347. 16 July 2004.

    <bullet> Consideration of the overall state of the ecosystem, 
            habitat, protected species, and non-target species when 
            designing precautionary fishery management plans;
    <bullet> Identification, restoration and conservation of essential 
            habitat to ensure spawning and other crucial life stages of 
            species are protected;
    <bullet> Reduction of bycatch, or the killing of non-target species 
            or undersized individuals;
    <bullet> Accounting for direct and indirect impacts on endangered 
            and protected species, including ecological processes 
            essential for their recovery;
    <bullet> Requirements that new and developing fisheries first prove 
            that fishing pressure will have minimal direct or indirect 
            effects on ecosystem function; and
    <bullet> Management of forage fish with special consideration that 
            accounts for their role as prey for marine predators.

    Subsequent, peer-reviewed scientific papers have been published, 
exhibiting a strong and growing scientific consensus supporting a more 
integrated ecosystem-based approach to fishery management.
    In addition, in 2003 the Pew Oceans Commission recommended that the 
principal objective of our Nation's fishery policy should be ``to 
protect the long-term health and viability of fisheries by protecting, 
maintaining, and restoring the health, integrity, productive capacity 
and resilience of the marine ecosystems upon which they depend.'' \16\ 
And, in 2004, the U.S. Commission on Ocean Policy, established by the 
U.S. Congress and appointed by President George W. Bush, called for 
managers to begin moving toward a more ecosystem-based fishery 
management approach.\17\
---------------------------------------------------------------------------
    \16\ Pew Oceans Commission. America's Living Oceans: Charting a 
Course for Sea Change. A Report to the Nation. May 2003. p. 109.
    \17\ U.S. Commission on Ocean Policy. An Ocean Blueprint for the 
21st Century. Final Report. 2004. p. 295.
---------------------------------------------------------------------------
    Ecosystem-based fishery management will be our best tool for 
ensuring productive and economically viable fisheries in the face of 
stressors like climate change, ocean acidification, pollution, habitat 
destruction, and the long-term consequences of fishing pressure. Using 
ecosystem-based fishery management, we can sustain the long-term 
socioeconomic benefits of fisheries without compromising the ecosystem. 
In fact--we are likely to be able to enhance socioeconomic benefits of 
fisheries as well.

    I recommend that during this reauthorization of the Magnuson-
Stevens Act, Congress firmly establish ecosystem-based fishery 
management approaches in the law. More specifically, this would include 
measures to:

    <bullet> sharpen existing provisions in the Act to protect habitat 
            needed for fish, including habitat adversely affected by 
            non-fishing activities;
    <bullet> enhance existing provisions to reduce bycatch;
    <bullet> ensure that forage fish are managed to account for the 
            important role they hold in our ocean; and
    <bullet> require Councils to prepare and implement fishery 
            ecosystems plans.

    Each of these elements is important, but due to my recent 
experience chairing an expert panel of 13 marine and fisheries 
scientists that examined the unique role of forage fish in sustaining 
ocean food webs, I would like to briefly discuss why these small fish 
matter so much to marine ecosystems and coastal economies. This 
project, conducted as the Lenfest Forage Fish Task Force, undertook a 
comprehensive worldwide analysis of the science and management of 
forage fish populations. Our findings were released in a report \18\ 
and a peer-reviewed paper in 2012.\19\
---------------------------------------------------------------------------
    \18\ Pikitch, E., Boersma, P.D., Boyd, I.L., Conover, D.O., Cury, 
P., Essington, T., Heppell, S.S., Houde, E.D., Mangel, M., Pauly, D., 
Plagaanyi, EE., Sainsbury, K., and Steneck, R.S. 2012. Little Fish, Big 
Impact: Managing a Crucial Link in Ocean Food Webs. Lenfest Ocean 
Program. Washington, DC. 108 pp.
    \19\ Pikitch, E. K., Rountos, K. J., Essington, T. E., Santora, C., 
Pauly, D., Watson, R., Sumaila, U. R., Boersma, P. D., Boyd, I. L., 
Conover, D. O., Cury, P., Heppell, S. S., Houde, E. D., Mangel, M., 
Plagaanyi, EE., Sainsbury, K., Steneck, R. S., Geers, T. M., Gownaris, 
N. and Munch, S. B. (2012), The global contribution of forage fish to 
marine fisheries and ecosystems. Fish and Fisheries. doi: 10.1111/
faf.12004.
---------------------------------------------------------------------------
    Forage fish are small to medium-sized fish, such as sardines, 
anchovies, and menhaden, that provide a primary food source for marine 
mammals, sea birds, and larger commercially and recreationally 
important fish, such as cod, salmon, and tuna. Forage fish play a key 
function in transferring energy from the plankton they feed on to the 
larger animals that prey on them and thus are essential to ensuring 
productive, resilient ocean ecosystems. Scientists have estimated that 
the world's marine mammals consume up to 20 million tons of forage fish 
annually.\20\ A 2011 study examining 14 species of seabirds, including 
puffins, penguins, and terns, in seven ecosystems around the world 
concluded that when the supply of forage fish drops to less than one-
third its maximum historic level, seabird breeding success is greatly 
reduced which threatens the entire ecosystem.\21\ Because many marine 
ecosystems have predators highly dependent on forage fish, it is 
biologically imperative that we develop improved management strategies 
for these small but significant species.
---------------------------------------------------------------------------
    \20\ Kaschner, K., Karpouzi, V., Watson, R., and Pauly, D., 
``Forage fish consumption by marine mammals and seabirds,'' pp. 33-46. 
In: Alder, J., and Pauly, D. (Eds.). On the multiple uses of forage 
fish: from ecosystems to markets. Fisheries Centre Research Reports 
14(3) (2006), Fisheries Centre, University of British Columbia.
    \21\ Cury, Phillppe M. et al. 2011. Global Seabird Response to 
Forage Fish Depletion--One Third for the Birds. Science 334: 1703-1706. 
23 December 2011.
---------------------------------------------------------------------------
    Forage fish mature early, live short lives, and produce substantial 
numbers of offspring. But, because of their short life span, they are 
susceptible to significant population fluctuations. In addition, forage 
fish are often found in large shoals. These characteristics make these 
fish highly detectable and catchable. About one-third of wild marine 
fish caught globally are forage fish. However, most forage fish are not 
used directly as human food. Rather, an estimated 90 percent is 
processed as feed for fish farms, poultry, and livestock, as well as 
human nutritional supplement.\22\
---------------------------------------------------------------------------
    \22\ Tacon, A. G. J., and Metian, M. 2008. Global overview on the 
use of fish meal and fish oil in industrially compounded aquafeeds: 
trends and future prospects. Aquaculture, 285 (1-4), 146-158.
---------------------------------------------------------------------------
    Our panel synthesized 72 Ecopath models representing marine and 
estuarine ecosystems from around the world. Our panel's final report 
concluded that, in most ecosystems, at least twice as many forage fish 
should be left in the ocean as typically are now in order to account 
for their critical role as food for fish, seabirds, and marine mammals. 
Our analysis found that conventional management approaches of forage 
fish species did not ``adequately account for the population dynamics 
of forage fish and their role in the ecosystem,'' thereby making these 
small species top candidates to lead the transition to ecosystem-based 
fishery management.\23\
---------------------------------------------------------------------------
    \23\ Pikitch, E., Boersma, P.D., Boyd, I.L., Conover, D.O., Cury, 
P., Essington, T., Heppell, S.S., Houde, E.D., Mangel, M., Pauly, D., 
Plagaanyi, EE., Sainsbury, K., and Steneck, R.S. 2012. Little Fish, Big 
Impact: Managing a Crucial Link in Ocean Food Webs. Lenfest Ocean 
Program. Washington, DC. 108 pp. At 86.
---------------------------------------------------------------------------
    There are several examples of current management regimes that have 
taken the step to account for the essential role forage fish play in 
marine ecosystems. For example, in the Barents Sea, in order to ensure 
an adequate food supply for cod, Norway and Russia established a 
threshold to limit direct fishing on capelin if its spawning stock 
biomass, a strong indicator of the population, falls below 200,000 
tonnes. In addition to using other standard management tools, such as 
minimum landing size and fishing seasons, managers have instituted 
conservative catch levels for capelin, and ecosystem and multispecies 
models are used as part of a comprehensive assessment methodology. As 
these measures have been put in place, capelin populations have not 
collapsed, as they have done in the past and the cod fishery is 
improving.\24\ In fact, the cod fishery is the most valuable fishery in 
the Barents Sea and is the largest stock of cod in the world.\25\ \26\
---------------------------------------------------------------------------
    \24\ Pikitch, E., Boersma, P.D., Boyd, I.L., Conover, D.O., Cury, 
P., Essington, T., Heppell, S.S., Houde, E.D., Mangel, M., Pauly, D., 
Plagaanyi, EE., Sainsbury, K., and Steneck, R.S. 2012. Little Fish, Big 
Impact: Managing a Crucial Link in Ocean Food Webs. Lenfest Ocean 
Program. Washington, DC. 108 pp. At 31, 36-37.
    \25\ Pikitch, E., Boersma, P.D., Boyd, I.L., Conover, D.O., Cury, 
P., Essington, T., Heppell, S.S., Houde, E.D., Mangel, M., Pauly, D., 
Plagaanyi, EE., Sainsbury, K., and Steneck, R.S. 2012. Little Fish, Big 
Impact: Managing a Crucial Link in Ocean Food Webs. Lenfest Ocean 
Program. Washington, DC. 108 pp. At 37.
    \26\ The IndiSeas Project. Indicators for the Seas. http.//
www.indiseas.org/.
---------------------------------------------------------------------------
    And, it is important to manage forage fish from a more holistic 
vantage point not only for the sake of the ecosystem--but for the 
economic vitality of our Nation. Using the Ecopath models, our panel 
estimated the economic importance of forage fish to global commercial 
fisheries. We estimated the total ex-vessel value of forage fish to 
global commercial fisheries to be an impressive $16.9 billion (2006 
USD) annually, yet only about one-third ($5.6 billion) of this value 
derives from catches of forage fish themselves. The value of the 
supportive role of forage fish as food for larger commercially 
important fishes (estimated at $11.3 billion annually) is more than 
twice their value as direct targets of harvesting.\27\ In other words, 
we estimated that forage fish are worth twice as much when left in the 
water as they are taken out in a net.
---------------------------------------------------------------------------
    \27\ Pikitch, E. K., Rountos, K. J., Essington, T. E., Santora, C., 
Pauly, D., Watson, R., Sumaila, U. R., Boersma, P. D., Boyd, I. L., 
Conover, D. O., Cury, P., Heppell, S. S., Houde, E. D., Mangel, M., 
Plagaanyi, EE., Sainsbury, K., Steneck, R. S., Geers, T. M., Gownaris, 
N. and Munch, S. B. (2012), The global contribution of forage fish to 
marine fisheries and ecosystems. Fish and Fisheries. doi: 10.1111/
faf.12004.
---------------------------------------------------------------------------
    The economic impact of wildlife viewing provides another compelling 
reason to ensure management of forage fish accounts for their vital 
ecological role. A recent report by Audubon Florida and The Pew 
Charitable Trusts examined the importance of forage fish to Florida's 
coastal waterbirds. The report cited Florida Fish and Wildlife 
Conservation Commission figures estimating the economic impact of bird 
watching and other wildlife viewing in Florida to be $4.9 billion in 
2011.\28\ This is another example of how conservation of little fish 
translates into large economic gains.
---------------------------------------------------------------------------
    \28\ Florida Fish and Wildlife Conservation Commission. Overview--
Fast Facts. Updated Oct 2013. Available online at http://myfwc.com/
about/overview.
---------------------------------------------------------------------------
Conclusion
    My work has taken me to many countries around the globe, conducting 
research and helping to establish best practices for conserving and 
sustaining fisheries. But I love these shores like nowhere else in the 
world and it is my urgent concern that our Nation's fisheries and 
oceans, and all the families who depend upon them, remain healthy and 
strong, now and for generations to come.
    It is plain--without fish, there are no fishermen. In recent years, 
our Nation has taken steps to implement science-based fishery 
management and there is considerable progress to report. We are 
rebuilding fish populations and providing more opportunities for 
fishermen. Unfortunately, we still have work to do to and are facing 
new trials, such as changing ocean conditions due to warmer oceans and 
ocean acidification. We need a Magnuson-Stevens Act that can help us 
confront these challenges.
    That is why I am so concerned about the Hastings draft proposal. It 
would roll back the progress we have made in recent years and endanger 
the long-term health, sustainability and productivity of our oceans. 
Instead, we should be adopting an ecosystem-based fishery management 
approach, that includes enhancing protections for habitat, reducing 
bycatch, requiring fishery ecosystem plans, and ensuring we manage 
forage fish to account for the vital support they provide to ocean 
ecosystems and national and global economies.
    Let's not undo the work we have accomplished that is widely 
regarded as a great success story. We must ensure the health of our 
fisheries--It is good for fishermen, it is good for the Nation, and we 
should be moving forward not retreating backwards. Thank you again for 
the opportunity to share my views.

                                 ______
                                 

    The Chairman. Thank you very much for your testimony. I 
want to thank all members of the panel for their testimony. I 
only have a couple of questions. First question is to Mr. 
Marks.
    Since the mega-settlement on the Endangered Species Act in 
2011, there has been more and more discussion on the Endangered 
Species Act, which--in coming from the Northwest, I am probably 
more sensitive than most people, because of imposition of the 
Endangered Species Act.
    The discussion draft provides authority for the Councils to 
develop, through the Magnuson-Stevens Act, any fishery 
restrictions that would be the result of an interpretation of 
the Endangered Species Act. Would you elaborate on that?
    Mr. Marks. Thank you for the question. Yes. I have had the 
task of dealing with clients that have dealt with Steller sea 
lions in Alaska, South Atlantic right whales, loggerhead sea 
turtles in the Gulf, and Atlantic sturgeon on the East Coast. 
And all of those were ESA issues, and all of them incredibly 
challenging, because of either the lack of information, the 
short period of time, and not the best process to deal with 
that issue. And, essentially, the agency published a biological 
opinion, produced the alternatives, and basically handed it off 
to the Council.
    I think the benefit of what the draft would do--and it 
certainly does not amend the Endangered Species Act--all it 
simply does is, in situations where those other statutes would 
affect fisheries and fishing regulations, it allows the 
Magnuson process to move forward as the process to qualify what 
regulations make sense. And, quite frankly, we put experts at 
the table in the council process. They are there to help craft, 
if we need alternatives to protect species and humans. The 
Council seems to be the most logical place to do that.
    The Chairman. So this falls broadly in that discussion we 
had with the first panel of meshing statutes together. And we 
heard testimony, somewhat different, at least a different 
interpretation. But I think that the end result was that it 
didn't happen in a timely manner. This, from your point of 
view, would make whatever decisions happen in a timely manner, 
so there is some predictability. Is that correct?
    Mr. Marks. Well, not only timely, but a bit more 
transparent, and a bit more informed. And I think Atlantic 
sturgeon started to show that when we do it in a more 
collaborative, open manner, we do a better job for the animal 
and the fisherman. And I think that is where we want to go.
    The Chairman. Thank you very much for that. Mr. Giacalone, 
some witnesses--and you have heard--have testified that the 
current Act provides enough flexibility, and that there is no 
need for additional flexibility. Do you agree with that?
    Mr. Giacalone. No, Mr. Chairman. We emphatically disagree 
with that, that there isn't enough. And I think, really, what 
it comes down to when I look at this draft bill, your ``not'' 
list was right on, where it says we are not looking--you have 
not heard any commercial interests, and this bill does not talk 
about eliminating the need to end overfishing, or the 
requirement to end overfishing, annual catch limits set based 
on the overfishing limit.
    I have heard folks say--I think incorrectly--that by ending 
overfishing, we are somehow suspending or foregoing the goal of 
rebuilding. That is not true. The definition of Fmsy, the act 
of ending overfishing, fish stocks rebuild. They rebuild to a 
full--the MSY level. It is just they get there at their own 
pace, at what Mother Nature's pace is.
    And perhaps the shortcoming in the current law--and we went 
through a full 10 years attempting it--is that the portion of 
the 25 percent that humans have impact that we control through 
the Magnuson Act, which is fishing mortality, that we have 
succeeded at. And you are hearing commercial interests say, 
``That is a good thing, because that is how we are doing our 
part.'' It is the 75 percent of the stock that we leave in the 
water, and the three recruitment, natural mortality--you know, 
the things that we can't control, the congressional law can't 
change that.
    And all we have right now is we hold fishing communities 
accountable for the lack of productivity that might be 
happening on a cyclical basis in nature. And that is the part 
where we need to get flexibility. End overfishing, do our part. 
Stocks will rebuild on Mother Nature's clock. They are not 
going to rebuild on our clock.
    The Chairman. Thank you very much. I know that there is 
going to be a lot of discussion on that aspect. I think it 
deserves to be discussed, but I have always been one to believe 
that any law where it is closer to the source is better 
administered.
    So, with that, I will recognize the gentleman from Oregon, 
Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to explore with Dr. Pikitch this idea about using more of 
an ecosystem approach, and particularly the forage fish issue. 
You know, I guess this bill, as I read it--and I will see if 
you agree--would say that forage fish would not need to be 
regulated at all. Is that correct?
    Dr. Pikitch. Well, that is the way I read it, too.
    Mr. DeFazio. OK. And at this point are there unreasonable 
regulations on forage fish? I mean, what is happening with 
forage fish right now?
    Dr. Pikitch. Well, there are lots of examples of what is 
happening. There aren't requirements to manage forage fish in 
many places. And I would say that there need to be. We need to 
require that forage fish be managed, because they are so 
important in marine ecosystems.
    In the United States we have everything from a total 
prohibition of fishing forage fish--so, for example, the 
Pacific Council prohibited the development of a krill fishery, 
because they recognized how important krill are to the marine 
ecosystem. And we have everything from that to species of 
forage fish that are totally ignored.
    I would like to give an example that comes from outside the 
United States that I think is really telling, and that might 
help elucidate what managing forage fish can do.
    Mr. DeFazio. Well, quickly, because I have--yes.
    Dr. Pikitch. Yes, OK. So, in the Bering Sea, Norway and 
Russia established a 200,000-ton minimum stock size for 
capelin, which cod feed upon. And they wanted to do that to 
ensure that cod had enough food. Prior to that, there had been 
collapses of both species. Yet today, the cod stock in the 
Bering Sea is the largest in the world. Compare that with what 
has happened with cod stocks in the United States.
    Mr. DeFazio. So you think part of the problem with the low 
population, low density of cod stocks, is a loss of forage 
fish, menhaden, or whatever they eat?
    Dr. Pikitch. Well, I think that there are definitely some 
problems with herring and other forage fish species. Of course, 
there has been a lot of overfishing going on, as well.
    Mr. DeFazio. OK. Mr. Deem, from a recreational angler 
standpoint? I know striped bass and forage fish issues kind of 
go together. So do you have concerns about no regulation on 
forage fish and how it could impact recreational fishing?
    Mr. Deem. Well, I don't think it is safe to say that there 
is no regulation on forage fish. The Mid-Atlantic Council has 
started a program to regulate river herring, working with the 
ASMFC to improve on the management of river herring. It doesn't 
necessarily get a formal plan. But everybody on the Council and 
in our public understands that you have to have forage fish to 
have healthy stocks.
    Mr. DeFazio. OK.
    Mr. Deem. And we are taking steps very aggressively to 
protect those.
    Mr. DeFazio. OK, that is good to hear. Mr. Geiger, I think 
you are the only person--I am not sure--up there who has served 
on a Council. And I guess I just want your perspective--I think 
you talked about it a little bit--in terms of if limits are 
essentially optional, because there is one section of the bill 
which I think--there are a number of exceptions in the bill for 
ACLs.
    But then it goes, on page 5, section 9, it looks like they 
are giving an option that a Council could just opt out of catch 
limits and essentially deem something not to be overfished or 
understocked, even if it is. What do you think would happen at 
the Council with that kind of provision? Would there be a lot 
of political pressure on the Council? And was it like that in 
the old days?
    Mr. Geiger. It is exactly as you described. You give the 
Councils the opportunity to exercise discretionary powers, and 
in most cases you can't expect them to vote against their own 
self interest. It takes discipline, it takes personal courage 
and political courage to make the hard decisions to recover 
fisheries. If you try to satisfy everybody under the umbrella 
of ``everything is going to be OK,'' with new legislation it is 
going to be a difficult process.
    And I would like to thank--unfortunately, he is not here--
Chairman Hastings for his vote in 2006 for the reauthorization 
then that got our fisheries back on track.
    Mr. DeFazio. OK. Well, I will convey that to the Chairman 
for you. I think the Republican staff might not remember to do 
that.
    [Laughter.]
    Mr. DeFazio. So I thank the Chairman.
    Mr. Southerland [presiding]. Thank you very much. Before 
Doc had to slip out, I was next in line. So I am going to ask 
my question, and then we will go to Mr. Garcia.
    First of all, thank all of you for being here today. Mr. 
Krebs, I understand that when the Gulf Council and NOAA 
Fisheries first began red snapper catch share program, 
fishermen were opposed to allowing non-permit holders to own 
shares. Do you believe that anyone owning catch shares should 
also be a permit holder?
    Mr. Krebs. Thank you, Congressman. So in the original IFQ, 
when the red snapper started, there was a 5-year where any 
permit holder could buy shares. That was an existing re-fish 
permit holder for the first 5 years. And that was to allow the 
system time to adjust to let fishermen decide who wanted to be 
in, who wanted to be out, before there was any outside 
influence. The advisory panel strongly was against opening it 
up to private citizens. It was the Council that said it should 
be opened up.
    One of our revisions in the 5-year review that we have 
offered up is to go ahead and sunset that, and stop allowing 
the fishery to become an investor fishery. We think that catch 
share programs should remain in the industry.
    Mr. Southerland. OK. And so, therefore--so explain to me 
your feelings when the Gulf Council, contrary to the wishes of 
the fishermen who rise early in the morning and go out in those 
waters--your thoughts or your feelings when they ignored your 
wishes and voted to allow non-permit holders to purchase catch 
shares.
    Mr. Krebs. Well, that is exactly why we bring up the sunset 
clause of Congressman Lott's provisions to have a balanced 
Council. We feel that, at the time that the Council was looking 
at this, they actually thought that the fishery could be bought 
up by recreational interest. And I think that was why the votes 
went the way they went.
    We definitely have to have provisions to have a balanced 
Council that will work toward solutions in the future to our 
fishery problems, and allow recreational and commercial people 
to sit down at the table and work out their differences.
    Mr. Southerland. You are obviously--you are a catch share 
owner, correct?
    Mr. Krebs. Yes, sir.
    Mr. Southerland. Are you a proponent of inter-sector 
trading?
    Mr. Krebs. I am one of those people, sir, that can sit at 
the table and see the bright light in anything. And I see 
promise and I see problems. I think it would take an awful lot 
of deliberation.
    The problem is what happens is the one user group says, 
``Well, if you are willing to trade it, you don't really need 
it.'' Where, in the case of--as a quota holder myself, I do 
lease some of my red snapper every year to my friends in the 
grouper industry that say, ``Hey, Dave, if we don't have red 
snapper quota available to us, we are going to be discarding 
fish that are going to be left dead. Will you lease us fish, 
rather than catching them yourself?''
    Some people turn that around and say that that makes me a 
person who doesn't need my fish. I say I am an environmentalist 
who says a dead fish is a dead fish, and we need to bring every 
fish we can to the dock, contrary--when you look at inter-
sector trading or allowing commercial shares to go into the 
recreational fishery, that is a philosophical topic that says 
if you have a recreational component that says, ``Hey, 
commercial fishermen, we are going to eat this fish, and we 
would like an opportunity to land fish outside of our quota, 
would you consider it?'' I think we can sit down and talk about 
it.
    Whether it makes sense or not, sir, I really don't know. 
But I do like the discussion.
    Mr. Southerland. I appreciate your optimism. Let me ask you 
this. Do you support a referendum that allows all permitted 
fishermen to vote before new catch share programs can be 
implemented?
    Mr. Krebs. I support all stakeholders in that fishery 
having the opportunity to vote. In other words, in the case of 
a grouper, in the grouper fishery----
    Mr. Southerland. So stakeholders? Now, wait a minute, you 
just opened up a Pandora's box. I mean, when you are talking 
stakeholders, I am sure there are a lot of stakeholders that 
don't have catch shares.
    Mr. Krebs. No, sir. We are talking about people who get 
allowed to vote. So----
    Mr. Southerland. OK.
    Mr. Krebs [continuing]. A guy that catches mullet shouldn't 
vote on a guy that catches tuna's referendum.
    Mr. Southerland. Right.
    Mr. Krebs. That is my point. When I say ``stakeholder,'' I 
mean participant. Maybe I should clarify.
    Mr. Southerland. OK.
    Mr. Krebs. If you participate in the fishery, then you 
should be allowed to vote. If you don't participate in that 
fishery, even though you are a----
    Mr. Southerland. So how do you determine participation?
    Mr. Krebs. We have had log book requirements since 1993. So 
their history is documented in Federal log books.
    Mr. Southerland. Mr. Marks, could you weigh in on that?
    Mr. Marks. Well, the only thing I would add is that the 
reason that is in the Act right now--and 303(a) doesn't protect 
participant fishermen, because the Secretary and the Council 
can determine what level a fisherman has to have of landings in 
order to vote.
    An example in the Gulf snapper-grouper program, the 
landings were 48,000 pounds over 6 years, or an average of 
8,000 per year. A tremendous number of regular working 
fishermen didn't meet the criteria, therefore never got to 
vote. So it definitely needs to be fixed, so there is a 
provision, as Mr. Krebs indicated, that all participating 
permitted fishermen should have a chance to vote, not just 
those with all the landings.
    Mr. Southerland. Very good. I see my time is expired. And 
the Chair recognizes the gentleman from Florida, Mr. Garcia.
    Mr. Garcia. Mr. Chairman, if we can recognize Mr. Costa, 
because of his much more senior status.
    [Laughter.]
    Mr. Garcia. No, he has got an event to go to, so I will 
wait.
    Mr. Costa. I want to thank the gentleman from Florida for 
yielding the order of the time. Obviously, I have a meeting I 
have with the Secretary of Agriculture, and so this is very 
helpful. Thank you very much, Mr. Garcia.
    Mr. Chairman and the Ranking Member, who have now had to 
leave, and to the members of this committee, I want to thank 
you for this opportunity to speak on some of the concerns 
related to the discussion on the draft of the Magnuson-Stevens 
Act reauthorization. And I would like to confine my comments--
and, of course, they were applicable to the first panel, as 
well as the second panel--to what I refer to as the law of 
unintended consequences. And it may not be the intention, but I 
believe it is potentially the impact, when we talk about those 
of us who represent inland waterways and--in which the issue of 
the Endangered Species Act, particularly as it applies to 
endangered salmon, various runs, whether they be spring runs or 
fall runs, and how this reauthorization may impact that.
    The majority of the fishery issues that affect my 
constituencies directly involve the Endangered Species Act, 
specifically how salmon are managed, and the impact on the 
water supplies for farming communities that are inland. When 
the salmon stocks are put in danger, it increases the problems 
that my constituents face, as it relates to the impacts of the 
Endangered Species Act.
    When I look at this bill, I have to ask myself a simple 
question. And that is, how did the policies in this legislation 
impact my friends and neighbors, who are dependent upon that 
water supply, as our fishermen are?
    The ESA provision in the Hastings Magnuson-Stevens 
reauthorization I think--when we review it, the Chairman's 
draft bill for reauthorizing this Act, I am particularly 
interested in the provision dealing with the Endangered Species 
Act, which has been a source of great contention, not only in 
California, but throughout the Western States. The provision, 
according to the language, applies to the ``management of 
fisheries''--as I read this--``throughout their range.'' The 
management of fisheries throughout their range, and states 
that, ``Any restrictions on the management of fishery resources 
that is necessary to implement a recovery plan under the ESA 
shall be implemented using the Magnuson-Stevens Act authority, 
and under the Magnuson processes and schedules.''
    Now, the way I could interpret this, based on what we have 
had to deal with, is that for species like salmon, whose range 
includes rivers, it appears that the in-river management would 
now occur under the Magnuson-Stevens Act, and be carried out by 
the fishery management councils.
    This raises a question in my mind, and that is, do any of 
the fishery management committees--or councils, excuse me--
contain any experience in dealing with in-river fish 
management? Or, with the complicated water issues associated 
with them that are always tenuous, at best, and always a 
balancing act? Do any of the fishery management councils 
currently have staff with any agricultural expertise?
    If the fishery management councils and their entire 
management process under the Magnuson-Stevens Act under this 
proposal, it seems to me would totally lack the expertise and 
the experience on these in-river management issues. For 
California, the water management issues in these extreme 
drought conditions we are facing are absolutely critical.
    So, I don't think my farmers in the Central Valley are 
going to have faith that the Endangered Species Act issues can 
be handled by the fishery management councils in a way that 
won't disregard their interest or management decisions that 
could have adverse impact. So those are my concerns.
    Mr. Geiger, I don't know if you have time to quickly 
comment on that or not. They tell me that you are the best 
person to direct my concerns to.
    Mr. Geiger. Well, thank you for the question, Congressman. 
Unfortunately, I served in the Southeast, and we don't have 
concerns such as salmon. But I certainly appreciate and 
understand your concerns with regard to Council staff having 
the expertise in agriculture to understand land use issues and 
water use issues in the Upland section, if they are 
responsible.
    I can assure you that, based on my experience, unless it is 
written into the Act that it requires them to do so, it won't 
get done. You know, they are extremely busy; they focus on the 
issues that they consider to be extremely busy, extremely 
important. And you need to write that into legislation if you 
need it.
    Mr. Costa. But is my concern about the potential ripple 
effect, or this law of unintended consequences, real, do you 
believe?
    Mr. Geiger. I think it probably is real. I would be 
concerned about it.
    Mr. Costa. Thank you, Mr. Chairman. And thank you, Mr. 
Garcia, for yielding your time.
    Mr. Young [presiding]. Thank the gentleman. And, Rick, you 
want to comment on that, the question that was just asked?
    Mr. Marks. Well, I would only add that I am not sure what 
is in the draft actually undermines the authority of the Act. I 
think that the Section 7 and Section 10 processes and the State 
involvement, and jointly with the Fish and Wildlife Service 
inland, along with the agency, would still proceed. I think the 
only thing that would be changed is if there are any impacts 
determined from federally managed fisheries that, just to 
handle those aspects, the Councils would have to put in 
reasonable and prudent alternatives and measures under ESA, 
based on a biological opinion.
    So, I am not sure that it undermines the process. But 
certainly, in those Federal waters, the Councils would be used 
to set those alternatives up.
    Mr. Young. Thank you. And, Rick, while we are at it, the 
Magnuson-Stevens Act national standards provide for the 
management of the stocks of fish throughout the range to the 
extent predictable, and the patchwork of marine sanctuaries, 
marine monuments, and marine protected areas implemented under 
such status in some areas has created a patchwork of management 
regimes.
    While the discussion draft does not restrict the creation 
of sanctions on monuments, it does provide that the Council 
provide the management of fish resources on the Magnuson-
Stevens Act. Why is this important?
    Mr. Marks. I have a number of folks, Mr. Young, that 
operate in and around the Olympic Coast National Marine 
Sanctuary, the Channel Islands, Florida Keys National Marine 
Sanctuary. And there has been an ongoing debate for years. In 
fact, the Council chairman brought it up, that there should be 
management of Federal fisheries by the National Marine 
Fisheries Service, which is set up to actually do that, not 
NOS, which is set up to run the Councils. They don't really 
have a council process or a fisheries management process.
    So, we felt all along that fishery resources that move in 
and out of these sanctuaries should be managed consistently, as 
you point out, across their range, and that the National Marine 
Fisheries Service is the right place for that.
    In terms of what we are concerned about, there are constant 
issues of sanctuary boundary expansion, there are issues of 
potential Antiquities Act at the end of any administration--we 
collectively hold our breath--and issues of protecting habitat, 
protecting coral from fishing impacts. So it is nice to 
actually have a process where you can go to and resolve these 
things with a law that sets up a system. And that is why we 
think the Act is the right way to go.
    Mr. Young. Right. Mr. Garcia, you are up if you have 
questions.
    Mr. Garcia. Thank you. Just want to broadly sort of talk 
about this. And, obviously, I didn't make an earlier statement, 
but my district is the Florida Keys and part of Biscayne 
National Park. So I probably have the most recreational boating 
in the world in my area; I think there are more boats per 
capita in my district than anywhere else on earth. And, at the 
same time, we have a vibrant, although stressed, group of 
people that are engaged in fishing, and make their living. So I 
want to ask a few questions.
    But, generally, as I look across--and you will forgive me 
for having arrived a little bit late--as I look across to all 
of you, if you were to say what the state of our fishing is 
since the last reauthorization, where it is today, would you 
say it is positive, or would you say it is neutral, or would 
you say we are falling behind? And I will just start with Rick 
and we will go that way.
    Mr. Marks. I would say it is----
    Mr. Garcia. And you can make an additional comment.
    Mr. Marks. Sure. I would just say it is positive with just 
the need to do some rebalancing.
    Dr. Pikitch. I would say it is working very well, positive.
    Mr. Krebs. I would say in the Gulf it is positive, with 
some caveats. We have had some redirected effort that has 
impacted what the fisheries and other species look like, as the 
IFQs went into place in 2007 and 2010.
    Mr. Giacalone. I too think it is generally positive, but we 
do need now to fix the rebuilding requirements. We have ended 
overfishing. That is the biggest positive effect. And now we 
have gone too far.
    Mr. Deem. I think we have turned the corner, and the 
difficulty now will be in managing the recovery of these 
species and properly allocating them.
    Mr. Geiger. Definitely positive. But positive only because 
of the regulatory mandates that are put on the council process.
    Mr. Garcia. OK. I am going to go back to Rick here real 
quick, but any of you that want to comment on it, since I don't 
think anyone else is--if you don't mind, Mr. Chairman--is 
waiting.
    So, fishermen have--at least I have found when I meet with 
the fishermen, they have an extensive knowledge of the species 
they catch, and I believe that knowledge needs to be included 
in what we are doing, in terms of management. And so, the broad 
question is, do you agree? And does the bill do enough to 
include the deep knowledge that some of the people who work 
with these resources have? Rick, and anybody else who----
    Mr. Marks. Well, I wholly agree. And I have been a big 
proponent of cooperative research anywhere that we can get it. 
And we have been asking for it down in your region, sir. We 
have had good success for it elsewhere.
    In fact, I want to take the Northeast Cooperative Research 
Program, clone it, and move it around the country so we would 
actually have a dedicated cooperative research program in every 
single region, because I think the fishermen can bring a 
tremendous amount of research capability to the table, their 
knowledge, using their boats as platform, helping them keep 
employed when they are not fishing, and producing assessment-
grade work. We have shown we can do that; we need to do more of 
it.
    Mr. Garcia. None of you have comment? Yes?
    Mr. Krebs. Yes, I couldn't agree more. Cooperative 
research, this goes back to the earlier discussion about were 
we sampling rigs, were we sampling reefs, or were you just 
throwing gear in the middle of the desert. Getting the real 
truth from people who know where it is at, and then seeing what 
the trend is by going back to these sites year after year is 
key.
    Mr. Garcia. I guarantee blowing up rigs is probably the 
worst part we could do.
    Mr. Giacalone. Conservation requires stewardship. And buy-
in to the science and the data that underlies it is huge, 
hugely important. And I think collaborative research is the 
biggest step in that.
    Mr. Deem. Well, I think I can speak on behalf of the RFA, 
that cooperative research is critical. And I think a perfect 
example would be the alarms that we were getting from all of 
the fishermen on the spiny dogfish issue before we lost 
complete control of that a few years ago, and now we are 
suffering the effects of that.
    Mr. Geiger. I would generally agree, but I just caution 
that it is dangerous to generalize an assumption that, because 
people fish, or because they speak about it, that they really 
know about it. And I was one of those people until I really got 
involved in this council process and got an education and held, 
basically, every public hearing in the State of Florida for 9 
years. The things I have heard are unbelievable from people 
that you would think--and who should--know better. So it is 
difficult to just generalize.
    Mr. Garcia. Yes. No, no, there is no question. I am a 
fisherman, and I have no idea what I am talking about, usually.
    [Laughter.]
    Mr. Garcia. But it is a general rule about fishermen.
    I want to go back to the recreational part. And I will 
start with you, Mr. Geiger, because I think it is important. We 
have heard from several witnesses that the recreational fishing 
community complains about MRIP program, right? But this bill 
does nothing to improve data collection in most of the 
recreational fisheries. You are talking to a recreational 
fisherman.
    So, how do you think we should go about improving the 
certainty and accountability of this sector?
    Mr. Geiger. To make those improvements would be cost 
prohibitive. The way the MRIP system is set up, it is a trend 
analysis. It demonstrates a trend in the recreational 
fisheries. That data, although not precise, although not a real 
data set that is like firm catch data based on landings----
    Mr. Garcia. Right.
    Mr. Geiger [continuing]. It is data that is used in the 
assessment process. All the data used in a stock assessment 
process is weighted by the assessment scientists. And through 
that weighting, that data can have different impacts on the 
eventual result in the stock assessment.
    In addition to weighting that data, they also do 
sensitivity runs. So they artificially inflate the MRIP data, 
and they artificially deflate the MRIP data, to see what impact 
it has on the assessment. And because of the weighting of MRIP 
data, it really doesn't have all that much consequence to the 
end result in an assessment.
    You know, things such as recreational fishing or release 
mortality has far more impact on the end result of a stock 
assessment than the MRIP data, in terms of effort.
    Mr. Garcia. Mr. Chairman, would you mind, if anybody else 
wants to answer that, that I could just take it real quick? 
Same question, I am not going to change it.
    Anybody want to weigh in?
    Mr. Deem. If I may, the MRIP data is all that we have. And 
it is years behind schedule. And maybe once we fully implement 
it and have some experience with it and can fine-tune it, it 
will be worth more. But being all that we have, we have to use 
it, but we have to take it in perspective, and we have to give 
it credit only to the limit that we know it is not 100 percent.
    Mr. Garcia. Again, thank you all for being here. I didn't 
mention that at the beginning. And thank you, Mr. Chairman, for 
your indulgence.
    Mr. Young. Thank you. And, Rick, one last question. You 
raised concerns that NOAA had been increasing the amount of 
data, including predatory data, that is gathered for fishery 
management purposes. Did the current data confidentiality 
requirements adequately protect predatory data, including data 
voluntarily provided to NOAA?
    Mr. Marks. Well, we note that right now NOAA is undergoing 
a Federal Register process to basically implement, or codify, 
the regulations they are doing--using now to handle 
confidential data. And they are under, I think, some extreme 
pressure to relax those standards. So there is a lot of concern 
about that right now. And I think the industry has weighed in 
during that comment process. What we think the draft does is 
enhance those protections, certainly shows congressional intent 
to protect critical information from your fishermen and your 
process, make sure it doesn't fall in the wrong hands.
    So, we have a couple of issues with that. We don't want to 
go too far with it, either, to make sure that people can access 
the information they use in aggregate to defend themselves, for 
economic information, for fishing areas, and such like that.
    But generally, what I have found the feedback from the 
industry has been, they support the protection of that 
information.
    Mr. Young. Thank you, Rick. And I want to thank the panel--
I don't see any other Members around here--for your testimony. 
And as the father of this legislation--and I say it never 
should have been named the Magnuson-Stevens Act, it started on 
the House side. Mr. Studds and I wrote this bill--from 
Massachusetts. And it got over there, and of course, the Senate 
does what they usually do, they took the name and said, ``We 
gave birth to it.''
    [Laughter.]
    Mr. Young. But that is not where it started. I would like 
to remind them of that.
    But thank you all for your testimony, and we will be 
listening, and any comments you would like to submit.
    And if there is no further business--wait a minute. Members 
of the committee may have additional questions for the 
witnesses, and I ask you to respond to them writing. The 
hearing record will be open for 10 days to receive the 
responses. If there is no further business, without objection, 
the committee stands in recess.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of Mark Fina, Ph.D., J.D., Senior Policy Analyst, 
                         United States Seafoods
    Good morning Chairman Hastings, Ranking Member DeFazio, and members 
of the committee. I am Mark Fina, a policy analyst for United States 
Seafoods and President of the Alaska Seafood Cooperative. My company 
and the cooperative, which includes four other companies, fish in the 
non-pollock multispecies groundfish fisheries off Alaska. We are 
substantial participants in the flatfish, rockfish, Atka mackerel, and 
Pacific cod fisheries in the Bering Sea, Aleutian Islands, and Gulf of 
Alaska. We participate in both catch share fisheries, in which portions 
of the total allowable catches are allocated for exclusive harvest by 
the cooperative, as well as limited access, derby fisheries, which are 
governed by limits on entry and in-season monitoring of harvests of 
total allowable catches. I am not representing my employer, the 
cooperative, or any other group today. I appreciate having the 
opportunity to offer comments to the committee on its Draft Discussion 
Bill and the Reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act. While I have some knowledge of 
fisheries throughout the country, I am most familiar with the fisheries 
in the North Pacific and therefore limit my comments to issues in the 
North Pacific.
    Overall, I believe that the Magnuson-Stevens Fishery Conservation 
and Management Act (the Magnuson-Stevens Act), in its current form, is 
serving its intended purposes well. The Act and its interpretation and 
administration by the Regional Fishery Management Councils (the 
Councils) and the National Marine Fisheries Service (NMFS) provide for 
the sound conservation and management of our valuable national fishery 
resources and promotes domestic commercial and recreational fisheries 
as intended. In the North Pacific, we have sustainable stocks as 
demonstrated by years of catches consistently between 1.5 and 2 million 
metric tons and no overfishing. Given these circumstances, only limited 
and focused, carefully considered modifications to the Act would seem 
merited at this time. One area addressed by the committee's draft 
discussion bill is confidentiality of information. The majority of my 
comments will be focused on that subject.
Data Confidentiality
    Before joining U.S. Seafoods last year, I worked for 11 years as 
the Senior Economist at the North Pacific Fishery Management Council 
(NPFMC or North Pacific Council). In that position, I routinely worked 
with confidential fisheries data preparing reports to be used by the 
North Pacific Council to guide their decisionmaking. In considering 
data confidentiality issues, the two primary questions that should be 
considered are:

  1.  Do policymakers have adequate information to make informed 
            decisions? ; and
  2.  Do stakeholders and the public have adequate information to 
            support their participation in that decisionmaking process?

    Based on my experience under the existing rules as they were 
interpreted when I worked as an analyst, the answer to both of these 
questions is `yes'.
    General information concerning fisheries is readily accessible in 
standardized reports that are publicly available and posted on NMFS and 
Council Web sites. These include weekly and annual catch and bycatch 
reports, fishery allocations, and closures. In addition, annual Stock 
Assessment and Fishery Evaluations are available, which include 
detailed biological, social, and economic analyses of all fisheries and 
stocks under the North Pacific Council's management. In the most recent 
year in the North Pacific, the Bering Sea and Aleutian Islands report 
alone exceeded 2,500 pages, including an economic section that exceeded 
300 pages and an ecosystem section that exceeded 200 pages. In 
addition, tens of thousands of pages of analysis and large volumes of 
data are available from the analyses of all previously adopted or 
considered measures. These documents, together with experience in or 
related to the fisheries, provide stakeholders with the foundational 
information needed to decide whether management changes should be 
advocated. If the North Pacific Council wishes to pursue a management 
action, staff prepare additional information and analyses examining 
specific aspects of the fisheries that might be affected by the 
proposed management changes. These reports and analyses provide ample 
information for decisionmaking and stakeholder participation in the 
Council and regulatory process.
Aggregating Under the Rule of Three
    Analyses of fishery management measures tend to be data intensive. 
Stakeholders and policymakers are often interested in examining several 
alternatives and several different views of data that illuminate 
various aspects of the effects of those alternatives. For example, a 
Council considering a change in allocations may consider a variety of 
historical periods, each of which will result in different allocational 
distributions. Under the Magnuson-Stevens Act and current 
confidentiality rules, data may only be disclosed in ``aggregate or 
summary'' form to ``not directly or indirectly disclose the identity 
and business'' of the submitter. Analysts can comply with this 
requirement by showing the distribution of possible allocations 
applying a ``rule-of-three'' under which each data point is an 
aggregation of the data of at least three submitters. This rule 
effectively allows analysts to show fishing data to assess a variety of 
measures. Data can be aggregated spatially to examine management 
measures such as area closures intended to protect habitat or bycatch. 
Historical catches can be allocated across groups of vessels to examine 
allocative measures or across vessels that deliver to a particular 
community to examine the effects of a fishery on a community. At times, 
analysts can be challenged to develop aggregations across submitters' 
activities to display data. For example, if only a single vessel fishes 
in a geographic area during a week, aggregations across multiple weeks 
or a larger area would be needed to mask data at the weekly level. The 
interest of policymakers and stakeholders in a variety of displays of 
data can challenge analysts, but under the rules and practices that I 
applied as a Council staff member, Council members and stakeholders are 
able to understand the implications of alternative management actions 
in all but the rarest of instances.
NMFS Proposed Rule on Data Confidentiality
    In May of 2012, NMFS released a proposed rule implementing the 
Act's current data confidentiality provisions for public comment. For 
the most part, the proposed rule simply formalizes current data 
confidentiality practices (see attached Department of Commerce, 
National Oceanic and Atmospheric Administration, Proposed Rule on 
Confidentiality of Information 77 FR 30486-30496, May 23, 2012). Most 
importantly, the proposed rule clearly establishes the requirement that 
any disclosure of data be in ``aggregate or summary'' form to ``not 
directly or indirectly disclose the identity and business'' of the 
submitter. This provision is intended to clearly establish the ``rule-
of-three'' aggregation requirement. The proposed rule also clarifies 
the breadth of protection of confidentiality rules by replacing the 
word ``information'' with ``statistics'', ensuring that all 
``information'' submitted to under a Fishery Management Plan (FMP) is 
subject to confidentiality protection. A variety of other 
clarifications are included in the proposed rule, including the 
development of more specific rules governing access to confidential 
information by NMFS, State, and Marine Fishery Commission employees and 
observer employees for fishery management purposes. These provisions 
all are consistent with the spirit of the current rule and formalize 
the requirement to continue current practices.
    The rule also addresses the Act's exception to confidentiality 
protections for information required to be submitted for ``any 
determination under a limited access program''. Currently (and in the 
proposed rule) ``limited entry program'' is interpreted to mean any 
catch share program (meaning any program which ``allocates privileges, 
such as a portion of the total allowable catch, to a person'') and 
``determination'' is interpreted as ``grant, denial, revocation of 
privileges, approval or denial of a transfer of a privilege''. Under 
this rule, any catch share allocations or transfers of those 
allocations are not subject to confidentiality protections. In my mind, 
this relatively narrow disclosure of information improves the workings 
of markets by ensuring that participants are aware of the distribution 
of shares to facilitate transfers. In addition, the disclosure is 
consistent with current practices, as NMFS routinely makes share 
allocations public through webpage postings.
    Some comments to the proposed rule have suggested a broader 
interpretation of the term ``determination'' should be applied, under 
which any information used to make any decision under a catch share 
program should be disclosed. Other comments have suggested that any and 
all fishing information should be disclosed. These comments argue for 
the disclosure of all catch and observer data (including all catch 
amounts and fishing locations) in a disaggregated form with 
identification of the submitter. Applying this broad definition would 
be very compromising of proprietary information.
What Fisheries Data are Proprietary
    Proprietary information is often thought of as financial 
information and market prices. Proprietary information often extends 
into many other aspects of a business, most importantly operational 
information. In the fishing industry, fishing locations and catch 
amounts are among the most sensitive business information. Location and 
timing of fishing drive costs and often determine a person's position 
in markets. Fish quality and catch rates often change with timing and 
location of catch. Because of these factors, timing of fishing, catch 
rates, and catch amounts can have significant implications for market 
success and competition.
    Contrary to the belief of some people, catch share programs often 
increase the proprietary value of this type of information. In most 
limited access fisheries, timing of catch is dictated by regulatory 
openings and closings. Fishing locations can be limited in a derby 
fishery by proximity to landing locations. Catch share programs, by 
providing exclusive access to a specific quantity of catch that may be 
harvested any time during an extended season, often provide 
participants with much greater latitude to decide when and where to 
fish. This greater flexibility increases the competitive effects of 
choices of fishing time and location. Participants can use proprietary 
operational information to increase their catch rates, improve product 
quality, and time deliveries of products to markets. Broadening the 
definition of ``information used to make determinations under a catch 
share program'' in a manner that divulges data and information 
revealing timing of fishing and location choices would compromise 
valuable proprietary information.
    For the most part, fishery participants are satisfied that the 
masking effect of aggregating data under the ``rule of three'' protects 
their propriety interests in business information; however, some 
participants remain concerned that in cases where data are aggregated 
across only a few submitters, competitors will be able to glean 
information concerning their markets and operations. For example, 
estimates of catch amounts of competitors can be generated, if only a 
few other vessels are in a fishery during a period. Despite these 
concerns, the current rule and its aggregation requirement strike a 
reasonable balance between the interests of industry in maintaining 
confidentiality of this proprietary information and the public interest 
in obtaining information to participate in the effective management of 
fisheries. Councils receive adequate information for decisionmaking and 
a minimal level of protection is provided for fishing industry 
proprietary information.
Data Confidentiality Rules Under New Catch Share Management Structures
    The development of new management structures, such as cooperatives 
in the North Pacific, and NMFS recent application of data disclosure 
limitations to these structures have unnecessarily complicated 
implementation of data confidentiality protections. Recently, NMFS made 
an internal decision to consider a cooperative a ``submitter'' of data 
for purposes of administering data confidentiality protections. If a 
cooperative is interpreted to be a submitter of data when applying the 
``rule-of-three'' to data aggregations, some meaningful restrictions on 
the release of data can arise. For example, no data can be revealed in 
a fishery with only two cooperatives, if data from three cooperatives 
must be aggregated for disclosure. Such an interpretation shows a 
fundamental misunderstanding of the operations of cooperative 
management structures and data reporting. Under NMFS management, 
cooperatives are organizations that are formed for the purpose of 
coordinating harvest of annual allocations. NMFS and the cooperative 
members can achieve efficiencies by having a single quota allocation 
made to the cooperative. Under harvest agreements, which are not filed 
with NMFS, quota holders can easily move the allocation among vessels 
to efficiently harvest their collective allocation. To ensure that 
quotas are not overharvested, each cooperative member must agree to be 
jointly liable for any overharvest of their collective allocation. NMFS 
reduces administrative costs by overseeing a single allocation to 
several vessels.
    In considering how to treat data of cooperative members for 
confidentiality purposes, it is useful to consider how cooperative data 
are collected. Catch data submitted to NMFS are transmitted by vessel 
operators, who are employed by cooperative members (not the 
cooperative). The cooperative is not liable for failure to submit these 
data, the vessel operator is. Under most cooperative agreements, the 
cooperative will be provided access to landings data by each member, 
but typically the cooperatives access to a vessel's data is limited to 
those data needed to oversee harvest of the allocation. A cooperative 
typically does not have access to each vessel's fishing locations or 
detailed catches by specific location. Those data are only shared 
within the cooperative for limited purposes, such as identifying 
bycatch hotspots.
    Cooperatives are not price setting entities and often do not even 
know the price paid to members for their catches. If cooperative 
members wish to share price information among members and negotiate 
prices collectively, they must take care to abide by antitrust laws, 
ensuring that members qualify for an exemption, most likely under the 
Fishermen's Collective Marketing Act. If a cooperative (or for that 
matter, any fishermen in any fishery) chooses to avail itself of an 
antitrust exemption, NMFS is unlikely to know. Even if and when a 
cooperative negotiates pricing under the exemption, members may have 
side agreements with processors and buyers that include price 
adjustments or other types of compensation, which the cooperative may 
be unaware of. For these reasons, NMFS collects price data from vessel 
operators, not cooperatives, and any enforcement action for failure to 
submit data are pursued with the vessel owner, not the cooperative.
    Given that cooperatives do not submit data to NMFS and often do not 
even have access to most of a member's proprietary data, it is clear 
that a cooperative should not be considered to be a data submitter for 
purposes of data confidentiality protections and applying ``rule-of-
three'' aggregations when implementing those protections. Applying the 
aggregations at the vessel level ensures that Councils, stakeholders, 
and the public have reasonable access to data for management and 
conservation purposes. Furthermore, only if ``submitter'' is 
interpreted as being a cooperative, is there even an argument that a 
broad release of data under the ``catch share determination exemption'' 
is needed for fishery management purposes. In short, maintaining the 
rule of three aggregation requirements at the vessel level and a narrow 
definition of ``determination under a catch share program'' for 
purposes of administering the exemption to confidentiality protections 
provides a reasonable balance between the interests of Councils, 
stakeholders, and the public in information for fishery conservation 
and management decisionmaking and fishery participants' interest in 
protecting proprietary information.
    From a practical standpoint, I can say that in working for the 
North Pacific Council for over 10 years I prepared thousands of pages 
of analysis that relied extensively on confidential data. In preparing 
those documents, I routinely applied the ``rule-of-three'' at the 
vessel level, and not the cooperative level. Not once during that time 
did any industry stakeholder express concern that aggregation at the 
vessel level compromised proprietary information. Given this state of 
things and the reality that cooperatives do not submit these data to 
NMFS, it is unclear why anyone would choose to interpret the term 
``submitter'' to mean the cooperative.
The Importance of Data Confidentiality to Maintaining Data Quality and 
        Existing Data Management Programs
    The satisfaction of industry with current confidentiality 
protections provides management benefits by increasing the willingness 
of industry to improve fishery management information. In the North 
Pacific, industry representatives have worked extensively with the 
Council and NMFS in the development of new data collection initiatives, 
including programs to collect data concerning bycatch management and 
economic and social information. Although the Magnuson-Stevens Act 
provides the Council with authority to dictate these data collection 
initiatives independent of any industry cooperation, the effectiveness 
of the programs are often increased greatly by industry participation 
in their development. For example, bookkeeping discrepancies across 
submitters and differences in interpretation of survey questions can 
often lead to errors and biases in data. Working with industry can 
ensure that questions and responses are accurate and correctly 
interpreted by analysts. It is not an overstatement to say that over 
half of the questions on the crab economic data collection forms were 
revised from their original form after discussions with industry. The 
importance of the NMFS/Council/industry working relationship is clearly 
described in the letter from the North Pacific Council in its October 
14, 2013 letter to NMFS Assistant Administrator, which states:

        . . . any further relaxation of these [confidentiality] 
        provisions could undermine the cooperation and goodwill of the 
        fishing industry we have worked hard to cultivate. This 
        cooperation, including numerous biological monitoring and 
        economic data collection programs associated with North Pacific 
        catch share programs, is essential to the effective management 
        of our fisheries. Through these programs we collect sensitive 
        cost and other operational information from industry 
        participants. We need to ensure that such information remains 
        confidential, except where Congress expressly intended 
        otherwise. (see attached letter)

    A separate issue with respect to any revisions to data 
confidentiality protections, which may be specific to the North 
Pacific, concerns data sharing arrangements between NMFS and the State 
of Alaska. Currently, the State and NMFS jointly collect in-season 
management data under a data sharing agreement. To maintain this system 
NMFS must maintain data confidentiality to the extent required by State 
law. The proposed rule is consistent with the data protection agreement 
between the State of Alaska and NMFS and is consistent with the 
requirements of the State law. Further relaxation of confidentiality 
protections, such as providing for broader release of data under the 
catch share determination exemption, however, could jeopardize the 
existing relationship and require extensive restructuring of data 
collection in the North Pacific. As noted by the North Pacific Council 
in its letter to NMFS Assistant Administrator:

        potential conflicts with State confidentiality statutes . . . 
        would inhibit the ability of the State to share State fishery 
        records with NMFS, and thus severely undermine the existing 
        data collection system used for inseason management of Federal 
        fisheries. Releasing information that the State deems to 
        require aggregation would be in violation of both State statute 
        and the existing data sharing agreement between the State and 
        NOAA.

    In concluding, I will concede that under the ``rule-of-three'', it 
is possible that Councils and stakeholders may benefit from additional 
information that cannot be released under the current confidentiality 
rules. For example, in a fishery with only a few participating vessels 
or processors, it is possible that community landings cannot be 
revealed. This need, while important, should not provoke a large scale 
abandonment of data confidentiality protections. Any modification to 
address this shortcoming should be focused with a well-defined process 
for determining: (1) if a broader disclosure is necessary for sound 
management, (2) the appropriate scope of that disclosure, and (3) any 
limitations on the disclosure to protect confidentiality. In 
considering these data needs, it should be noted that these needs arise 
in both catch share and non-catch share fisheries and a simple 
provision exempting catch share data from confidentiality protections 
will not address the issue. Only carefully considered and developed 
exemptions that focuses directly on specific data needs and balances 
those needs against the need to protect proprietary data should be 
developed.
Specific Comments on the Discussion Draft Bill
Section 3--Flexibility in Addressing Rebuilding Stocks
    Modification of rebuilding timelines--The proposed modification of 
the timeline for rebuilding would remove the current 10-year rebuilding 
requirement, replacing that requirement with a more flexible timeline. 
The proposed modification seems to appropriately accommodate the 
influences of other factors (such as non-fishing environmental effects) 
on rebuilding the time.
    Relief from rebuilding requirement if stock is not depleted--
Provision to relieve requirements for rebuilding if it is determined 
that a stock is not depleted is important, as it relieves the stress of 
rebuilding plans when improved stock information shows that a 
rebuilding plan was unnecessary in the first place.
Section 4--Modifications to the Annual Catch Limit (ACL) Requirement
    Ecosystem components--The provision for the exemption of stocks 
from ACL requirement by inclusion as an ecosystem components provides 
effective protection to nontarget stocks that are unlikely to be 
affected by fishing.
    Scientific and Statistical Committee fishing/overfishing 
recommendations--The bill would allow a Council to set an ACL for a 
stock above the recommended fishing level of its SSC. The North Pacific 
Council's policy of maintaining its ACLs at or below its SSC's 
recommended fishing level predates development of the provision of the 
current Magnuson-Stevens Act provision. Although a need for removing 
this requirement may exist in other regions, it is our hope that the 
North Pacific Council maintains its current policy of setting ACLs at 
or below the SSC recommended fishing level.
Section 5--Distinguishing Between Overfished and Depleted Stocks
    Distinguishing overfished stocks from depleted stocks could be 
important in the future, if some stocks are depleted for reasons other 
than fishing. Adopting a revised definition of ``depleted'' could have 
some implications for the development of rebuilding plans depending on 
how that definition is interpreted. For example, a stock might be 
determined to be ``depleted'' by dipping ``below the natural range of 
fluctuation associated with the production of maximum sustainable 
yield'', without reaching an ``overfished'' state which occurs only if 
``a level that jeopardizes the capacity of a fishery to produce the 
maximum sustainable yield on a continuing basis'' is reached. The 
proposed definition of depleted will require that the ``natural range 
of fluctuation associated with the production of maximum sustainable 
yield'' be defined for all stocks. The current definition of overfished 
provides a more certain metric for assessing stock status. Maintaining 
the current definition (and applying it to the term ``depleted'') or 
developing a more transparent revised definition may provide more 
certainty on when a stock will be considered depleted.
Section 6--Transparency and Process
    The procedural and analytical under the National Environmental 
Policy Act (NEPA) are somewhat redundant and at times difficult to 
reconcile with the procedural and analytical requirements of the 
Magnuson-Stevens Act. Notwithstanding, NMFS and the Regional Fishery 
Management Councils have generally managed to reconcile these 
requirements. An explicit statement that actions prepared in accordance 
with the Magnuson-Stevens Act are considered to comply with NEPA 
requirements would remove any uncertainty as to whether the 
reconciliation of the requirements has been fully achieved.
    The requirements for video recording and broadcast and production 
of transcripts seem excessive. Currently, audio broadcasts and 
recordings and tape logs are available of North Pacific Council 
meetings and deliberations. These materials provide adequate 
information to the public without excessive costs. Maintaining the 
current process provides for adequate transparency and public 
participation in the North Pacific Council process.
Section 7--Limitation on Future Catch Share Programs
    This applies only outside the North Pacific; therefore, I have no 
comment.
Section 8--Data Collection and Data Confidentiality
    Electronic monitoring--The use of electronic monitoring will be 
important to gaining improved information in fisheries across the 
Nation. The timeline for developing standards and regulations seems 
aggressive, but the spirit of the measure seems appropriate.
    To fully achieve the benefits of electronic monitoring, compliance 
monitoring should be permitted with electronic monitoring. In addition, 
several electronic technologies are currently used for compliance 
monitoring, such as Vessel Monitoring Systems. Continued use of these 
existing electronic technologies for monitoring should be maintained by 
any electronic monitoring provision. Any legislation should clearly 
provide that electronic monitoring may be used for compliance 
monitoring. Throughout the consideration of electronic monitoring 
systems, attention should be given to avoiding redundancies with 
observer coverage to achieve the most cost effective monitoring.
    Video and acoustic survey technologies--The support for further 
development of video and acoustic survey technologies is an appropriate 
measure for improving fishery information.
    Data confidentiality--Under (c)(1)(B), the insertion limits the 
protection to being ``exempt from disclosure under section 552(b)(3) of 
title 5, United States Code''. Depending on interpretation, as written 
this change could substantially broaden disclosures, since it only 
prevents disclosures under the Freedom of Information Act (FOIA). An 
alternative wording that provides the current protection could be: 
``shall be exempt from disclosure, including disclosure under section 
552 of title 5, United States Code, except--''. This change would make 
it clear that FOIA disclosures are not permitted.
    Under (c)(1)(B), the insertion at clause ``(F)'' disclosures ``to a 
Council or State'' are allowed with written authorization from the 
person submitting the data. The current rule allows disclosure of data 
to any person identified by the data submitter with written 
authorization. Industry has used the current exception to provide data 
to a third party for overseeing catches and bycatch, implementing 
bycatch reduction measures and area closures, and monitoring industry 
measures to reduce fishing impacts. Maintaining the ability of data 
submitters to release data to third parties, as permitted under the 
current exemption, is important to achieving the conservation benefits 
of these industry measures and poses no threat to confidentiality since 
disclosures are at the discretion of the submitter. Deletion of ``to a 
Council or State'' would clearly provide for the submitter to continue 
to release data to third parties.
    Under (c)(1)(B), the insertion at clause ``(G)'' allows for the 
disclosure of information ``required to be submitted to the Secretary 
for any determination under a catch share program.'' This modification 
is consistent with the current interpretation of an exception that 
provides for disclosure of information ``required to be submitted to 
the Secretary for any determination under a limited access program''. 
To date, NMFS has interpreted ``limited access program'' to mean 
``catch share program''. More problematic are the potential 
interpretations of the term ``determination''. In the Proposed Rule of 
May 2012, NMFS suggests that a ``determination'' is limited to a 
``grant, denial, or revocation of privileges; approval or denial of a 
transfer of privileges; or other similar regulatory determinations by 
NMFS applicable to a person.'' This interpretation adequately protects 
proprietary information of submitters. Including the specific 
definition of ``determination'' from the proposed rule in legislation 
could ensure that this protection is continued.
    A provision for the release of bycatch information with and without 
vessel identification applicable only in the North Pacific is removed 
by the discussion draft. When first adopted, this provision provided 
important bycatch information that stigmatized poor bycatch performers 
and likely stimulated improved bycatch performance. Since that time, 
extensive regulatory bycatch control measures have been adopted and 
fleets have developed cooperative arrangements to further reduce 
bycatch impacts. In some cases, it is possible that disclosures under 
the exemption could discourage experimentation or fleet coordination 
that might yield further bycatch reductions. In addition, expansive 
bycatch information is available without the exemption. Given the 
advances in bycatch reduction, the potential for disclosures to create 
a disincentive for bycatch reductions and the breadth of information 
available regardless of the exemption, the need for continued release 
of bycatch information under the current exemption should be explored.
    Asset Forfeiture Funds--The use of forfeiture funds would be 
beneficial for developing information on data-poor fisheries. In 
developing a provision, it should be borne in mind that NMFS often 
contracts surveys with private vessel owners. As written, the provision 
allows the use of funds to contract State personnel and resources for 
data development. A similar provision for the continued contracting of 
private vessels for surveys should be included.
    Thank you for the opportunity to present this testimony. I look 
forward to working with the committee on the Magnuson-Stevens Act 
reauthorization process to continue the sound conservation and 
management of our Nation's fisheries resources.

                                 ______
                                 

Questions Submitted for the Record by Republican Members to Mark Fina, 
                         United States Seafood
    Question. Can you explain how the disconnect between the timelines 
in the Magnuson-Stevens Act and NEPA affected your work when you worked 
as staff to the North Pacific Council? Do you believe the requirements 
of NEPA are already required under the Magnuson-Stevens Act? If not, 
what specific requirements of NEPA are not included in the Magnuson-
Stevens Act?

    Answer. Timelines for actions under the MSA are driven by fishery 
management council meeting schedules, fishing seasons, and the 
availability of information needed for management decisions. Although 
the Secretary of Commerce makes final determinations in the fishery 
management process, Councils typically shape and define regulatory 
measures. Consequently, stakeholder input and participation is most 
effective in the Council process. The EIS process and timeline are 
driven by NEPA, CEQ regulations, and NOAA Administrative Orders. 
Despite the extensive opportunity for stakeholder input in the Council 
process, NMFS interprets NEPA as requiring an independent scoping 
process with written and oral comments outside of Council meeting 
structure. Although NMFS staff typically provides the Council with 
summaries of stakeholder input received during the NEPA scoping 
process, this indirect participation is likely far less effective and 
influential than the direct input received through the Council process. 
This redundancy in processes is both costly and misguided especially 
for stakeholders who are less familiar with the fishery management 
process. In short, this confusing overlap of NEPA and the MSA processes 
further marginalizes persons who are infrequent participants in the 
fishery management process.
    Conflicting NEPA and MSA timelines also arise from interpreting 
Secretary of Commerce approval (rather than a fishery management 
council's adoption) of a fishery management measure as the Federal 
action under NEPA. The most direct conflict between timelines for 
fishery management under the MSA and NEPA timelines occurs in the 
preparation of Environmental Impact Statements. By interpreting the 
Secretary of Commerce's approval as the Federal action under NEPA, all 
judgments concerning the timing and adequacy of an EIS for a fishery 
management action are evaluated based on the timing and substance of 
that secretarial approval. Consequently, it is possible that the 
analysis (including the scope of alternatives) may be deemed inadequate 
only at the time of Secretarial approval, which may be months after a 
determinative Council action. The result is that an action may need to 
be fully revisited in the Council process months after a final Council 
action.
    The analytical requirements of the MSA fully satisfy the 
requirements of NEPA. The analytical requirements for taking action 
under the MSA are comprehensive. Analyses must broadly evaluate 
environmental effects (including impacts on the ecosystem), as well as 
social and economic effects. These MSA requirements not only fully 
satisfy NEPA requirements but are more appropriately directed to 
understanding the impacts of fishery management actions. It is unclear 
why it may be perceived that NEPA requirements bring anything other 
than procedural complications to the fishery management process.

    Question. The 2006 amendments required NOAA and CEQ to revise the 
NEPA guidelines to make them match up with the Magnuson-Stevens Act 
timelines. Did that happen?

    Answer. No, NOAA never completed the process of revising the NEPA 
guidelines to match up with MSA timelines. A proposed rule was 
published in May of 2008, but no final rule has been completed to date. 
NMFS has issued a policy on this subject that discusses some of the 
timeline conflicts, but fails to fully reconcile those conflicts.

    Question. You raise concerns that NOAA has been increasing the 
amount of data--including proprietary data--that is gathered for 
fishery management purposes. Do the current data confidentiality 
requirements adequately protect proprietary data--including data 
voluntarily provided to NOAA? If not, what suggestions can you provide 
to ensure that fishery managers have the information they need while 
maintaining the confidentiality of propriety information?

    Answer. Applying an aggregation rule-of-three at the vessel level 
for the disclosure of any proprietary data is adequate to protect 
confidentiality interests related to those data. Maintaining and 
abiding by this rule should address all concerns related to the 
disclosure of proprietary information in fishery management and 
analytical documents.
    An additional concern that arises with the increased collection of 
proprietary data arises from the management of those data by NOAA. The 
availability and distribution of data to both NOAA employees and 
contractors should be evaluated to ensure that data are shared and used 
only to the extent necessary for management of fisheries. In addition, 
these data should be tracked after any distribution to ensure that they 
are destroyed once the intended use is satisfied. Currently, the 
greatest risk of disclosure of proprietary data is likely from 
inadvertent disclosures because of poor data management or uses for 
unintended purposes. These risks can be minimized through closely 
attending to data management. During my time as Council staff, NOAA 
data management was very good, but some risk of inadvertent disclosure, 
particularly through distribution of data to contractors, remained.

    Question. Your testimony notes that the Act ``currently provides 
flexibility for bringing ecosystem considerations into fisheries 
management.'' Do you support the provisions in the Discussion Draft 
which would allow Councils additional flexibility to consider 
environmental changes when developing rebuilding schedules?

    Answer. Yes. The current MSA provisions that dictate a rebuilding 
timeline that is as short as possible and no longer than 10 years can 
force restrictive management measures that provide little or no 
conservation benefit. At times, environmental conditions, including 
inherent characteristics of stocks, may prevent achieving rebuilding in 
the 10-year time period regardless of whether a rebuilding schedule 
that accommodates increased fishing would delay stock rebuilding. 
Allowing rebuilding schedules that consider environmental conditions 
with reasonable limits to prevent harm to the stock (as proposed in the 
Draft Discussion Bill) is a reasonable means of addressing this issue.

                                 ______
                                 

Letter Submitted for the Record to Samuel D. Rauch III, National Marine 
     Fisheries Service, NOAA, from Representatives Larsen and Young

                     Congress of the United States,
                                      Washington, DC 20515,
                                                 December 16, 2013.
Samuel D. Rauch III,
Acting Administrator,
National Marine Fisheries Service,
National Oceanic & Atmospheric Administration,
Silver Spring, MD 20910.

    Dear Acting Administrator Rauch:

    We are writing to strongly encourage the National Oceanic & 
Atmospheric Administration (NOAA) to promulgate a final rule 
implementing the information confidentiality provisions of the 
Magnuson-Stevens Act (MSA) that protects proprietary information and 
maintains reasonable recordkeeping requirements. On May 23, 2012, NOAA 
issued a proposed rule (FDMS Docket No. NOAA-NMFS-2012-0030) that 
largely meets these standards, which we urge you to keep as you move 
forward. We believe the final rule must remain largely consistent with 
Congressional intent and conform as closely as possible to the proposed 
rule.
    As fisheries management programs such as Limited Access Programs 
and Catch Shares have been implemented, the data needs for effective 
fisheries management have increased. However, in both 1996 and 2006 
Congress recognized that if fishery participants were going to be 
required to submit sensitive, proprietary information, then greater 
confidentiality provisions needed to be afforded as well.
    We have heard from our constituents in the fishing industry that 
expanding the types and kinds of information subject to public release 
well beyond that outlined in the proposed rule would diminish the 
protections of confidential information in a way inconsistent with the 
requirements of the MSA.
    Indeed, the unnecessary release of sensitive, proprietary 
information could undermine the healthy competitive relationships that 
exist among fishermen, subject individual companies to unwarranted 
attacks from outside groups, and destabilize the fundamental economics 
of fisheries. We therefore urge you to not expand the release of 
information beyond that outlined in the proposed rule.
    Thank you for your consideration, We look forward to working with 
you in the future.

            Sincerely,

                                               Rick Larsen,
                                                 Don Young,
                                              U.S. Representatives.

                                 ______
                                 

   Letter Submitted for the Record from Regional Fishery Management 
                                Council
              Regional Fishery Management Council  
                            Coordination Committee,
                                                  November 8, 2013.
Hon. Doc Hastings,
U.S. House of Representatives,
1203 Longworth House Office Building,
Washington, DC 20515.

Hon. Mark Begich,
U.S. Senate,
111 Russell Senate Office Building,
Washington, DC 20510.

    Dear Representative Hastings and Senator Begich:

    On behalf of the eight Regional Fishery Management Councils, I am 
forwarding to you a consensus statement from the October 23-24, 2013 
Webinar meeting of the Council Coordination Committee (CCC) relative to 
potential reauthorization of the Magnuson-Stevens Act (MSA). Given the 
understanding that legislation drafting is advancing rapidly in the 
near term, the following CCC statement is necessarily brief and 
general.

        In expressing confidence in most aspects of the MSA and the 
        perspective that any changes should be carefully considered so 
        as to not impair features that the CCC believes are key to 
        current successes, the CCC noted the following as high priority 
        candidate areas for improvement:

    <bullet> stock rebuilding plans, including

      a.  providing flexibility In stock rebuilding schedules,
      b.  addressing the discontinuity of the 10-year requirement, and
      c.  taking into account socioeconomic impacts;

    <bullet> ending overfishing;
    <bullet> mixed stock fishery flexibility;
    <bullet> recreational fishery considerations;
    <bullet> management of data-poor stocks; and
    <bullet> a variety of international fishery management issues.

    In addition to this topical, general input, the CCC would also draw 
your attention to the more detailed perspectives from each of the 
Regional Fishery Management Councils (RFMC) that was available at the 
time of the October 23-24 webinar meeting; these can be found at http:/
/www.pcouncil.org/council-operations/council-meetings/ccc-oct-2013/
#oct2013cccBB. Please note that individual RFMCs may further elaborate 
on their individual priorities via separate communication in the 
relatively near future, and that the CCC is scheduled to discuss any 
legislation that is introduced at their mid-February meeting in the 
Washington, DC area.
    Last, please accept our thanks for the contributions of Mr. Dave 
Whaley and Mr. Jeff Lewis during the October 23-24 webinar meeting. 
Their professional participation was invaluable in making progress on 
this important matter.
    If there are any questions or specific information you need, feel 
free to contact me at any time.

            Sincerely,

                                      D. O. McIsaac, Ph.D.,
                                              Executive Director,  
                                Pacific Fishery Management Council.

                                 ______
                                 

         Prepared Statement of State Fish and Wildlife Agencies
               Association of Fish and Wildlife Agencies

    These comments are a compilation of issues raised by some of AFWA's 
members and not an exhaustive list. We look forward to working with the 
committee staff on addressing the State Fish and Wildlife Agencies' 
concerns and suggestions. Please contact Jen Mock Schaeffer at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e18b848f8c8e828aa18788928996888d858d888784cf8e9386">[email&#160;protected]</a> for more information.

Section 3. Flexibility in Rebuilding Fish Stocks

    <bullet> We agree with the proposed changes in this section.

Section 4. Modifications to the Annual Catch Limit Requirement (b)

    <bullet> It appears that changes to 302(h)(6) allows Councils to 
exceed recommendations made by the SSC and would only be prohibited 
from exceeding the OFL. Concerns were raised that this is not a helpful 
precedence and could set us back. Some Councils managing for 
sustainability look at everything and must make very deliberate 
decisions, which this section would not necessarily facilitate. One 
State questioned the need for such a provision if the bill is already 
providing more flexibility for States, communities and catches.

    <bullet> We do not understand what is meant by ``the Council may 
establish ACLs for each year in any continuous period up to 3 years''. 
Does this mean they can establish a 3-year ACL or three consecutive 
annual catch limits?

Section 5. Distinguishing Between Overfished and Depleted

    <bullet> We support these changes because they indicate that 
fisheries may be in decline for reasons other than fishing.

Section 6. Transparency and Public Process for Scientific and 
        Management Actions

    <bullet> We support more transparency in the Council and SSC 
process.

    <bullet> Do the audio/video/transcript requirements include Council 
committee meetings or just meetings of the full Council?

    <bullet> We recommend giving Councils the option and flexibility to 
provide the audio, video or a transcript within 60 days because 
producing such transcripts can be costly and time consuming. 
Furthermore, some rural communities access to broadband and Internet 
access for downloading video could be challenging and limiting, and 
Councils need to be responsive to the needs and conditions of 
interested parties. Additionally, under some circumstances or intense 
discussion topics, videotaping the discussion could stifle the 
scientific discussion and reduce its effectiveness, an undesirable and 
unintended consequence. We recommend providing the Councils more 
flexibility to meet the public transparency needs of their communities.

Compliance with NEPA

    <bullet> We support these changes.

Section 7. Limitation on Future Catch Share Programs

    <bullet> The definition of catch share could be broadened: ``. . . 
allocates a specific percentage, poundage or portion, of the total 
allowable catch . . .''

    <bullet> Currently, fishermen can petition the Secretary requesting 
that a Council be authorized to initiate development of a Limited 
Access Privilege Program (LAPP) such as an Individual Fishing Quota 
(IFQ,) program. There is currently a special clause for multispecies 
permits in the Gulf of Mexico, which states that only participants who 
have ``substantially fished'' the LAPP proposed species shall be 
eligible to sign a petition asking for an LAPP. Additionally, only 
participants meeting these requirements would count toward the 
percentage needed (permit or allocation holders) to petition the 
Secretary. There is no such provision for multispecies permits in the 
South Atlantic (such as Snapper Grouper and Coastal Migratory 
Pelagics), which means that fishermen could be eligible to request an 
IFQ program or other LAPP for species that they do not harvest.

     We suggest revising the term ``permit holder eligible to 
participate'' to specify that only participants who have 
``substantially fished'' the LAPP proposed species shall be eligible to 
sign a petition asking for a LAPP in the South Atlantic. The suggested 
change would help ensure that only fishermen that have ``substantially 
fished'' for a particular species can request LAPPs for that species. 
This is important because many fishermen specialize in harvesting a few 
species, even though their multispecies permit allows them to harvest 
dozens of other species. This is also important because several South 
Atlantic fisheries are regional, such as yellowtail snapper, which only 
occurs in South Florida. Thus, in this example, anyone holding a 
snapper-grouper permit would not be able to vote on a yellowtail 
snapper LAPP, only those folks actually fishing for yellowtail snapper 
(since that is one of many species covered by this permit).

    <bullet> In many cases, the captain and crew of a fishing vessel 
may not own the permits under which they fish, but derive all or a 
significant portion of their income from fishing. If a referenda is 
held to determine if an LAPP program should be created in the Gulf or 
South Atlantic, such fishery participants are not eligible to vote, 
even though they are familiar with operation of the fishery and 
directly affected by the referenda.

     Suggested Change: Modify Sec. 303A(c)(6)(D)(v) of the Magnuson-
Stevens Act to require the Secretary to promulgate criteria for 
determining whether additional fishery participants are eligible to 
vote in Gulf and South Atlantic referenda to ensure crew members that 
derive a significant portion of their income from the fishery are 
eligible to vote. This is already a requirement for New England.

     Reason for Change: This change would ensure crew members that 
derive a significant portion of their income from the fishery can vote 
on LAPPs that could change their industry and communities are created.

Section 8. Data Collection and Confidentiality

    <bullet> We do not support the limitation on enforcement use of 
electronic monitoring (EM) because it may disrupt law enforcement 
efforts to monitor the IFQ fisheries and ensure compliance with 
regulations. States use electronic monitoring, in part, for 
enforcement, and they believe limiting EM's use will hamper management 
of the fisheries resources. In a time of low State budgets and reduced 
resources, there should not be limitations placed on EM. Councils 
should have the flexibility to utilize EM as needed for various 
purposes to address resource, capacity, and other needs because it is 
significantly cheaper than the alternatives.

    <bullet> We support the change that allows asset forfeiture funds 
to go to fisheries independent data in the region from which they were 
collected.

    <bullet> Under (3) ``may'' could result in nothing happening. 
Councils should determine how best to monitor, but the intent of this 
language is not clear to us.

    <bullet> (3)(B) doesn't seem to facilitate the use of EM, which the 
States need and want. Some will argue that nothing replaces human 
observers, and therefore, that is the only acceptable course of action, 
but it is not a financially realistic one. What is the intent with this 
language?

    <bullet> (3)(c) Confidentially of Information--Current rulemaking 
for this is underway, and a final rule has not yet been published. 
Understanding what constitutes a ``determination'' is very relevant as 
well as the definition of confidentiality. Electronic landing systems 
are at risk and could conflict with current State laws/rules. States 
like the proposed rule but are not sure what will come out in the final 
rule; States do not support having all information made public and none 
kept confidential. States are comfortable maintaining the status quo on 
confidentiality. They are not willing to provide individual vessel 
info, but providing aggregated data for several vessels is acceptable.

    <bullet> p. 21, (5)--The intent and purpose of this provision is 
unclear to us, but States think it will make marine spatial planning 
more challenging.

Section 9. Council Jurisdiction for Overlapping Fisheries

    <bullet> No comment.

Section 10. Gulf of Mexico Cooperative Research and Red Snapper 
        Monitoring

    <bullet> We support extending seaward boundary of State waters in 
the Gulf of Mexico to 9 miles.

    <bullet> We support the repeal of 16 U.S. Code Sec. 1854, Gulf of 
Mexico Red Snapper Research.

    <bullet> We support the Cooperative Research Program for the Gulf 
and South Atlantic that gives priority to data-poor species.

    <bullet> Reporting and Data Collection Program:

   --  It appears that the bill is separating the recreational sector 
            into two separate sectors: ``charter'' and ``recreational'' 
            (assumed to be private recreational anglers). They are 
            currently managed as a single sector by the Gulf Council.

   --  We assume that a real-time reporting program would have to be 
            implemented by NMFS for the red snapper fishery with the 
            data collection program being implemented by the States 
            through dockside surveys. We are concerned that adequate 
            funds would not be available to administer such programs.
    <bullet> Stock Surveys and Assessments

   --  We support more frequent assessments for the southeast region, 
            but are concerned that inadequate funds are available for 
            the data collection and modeling needs for this effort.

   --  We support any effort to incorporate new fisheries data into 
            assessments as soon as possible.

Section 11. North Pacific Fishery Management Clarification

    <bullet> We support this change because it remedies an existing 
loophole.

Section 12. Authorization of Appropriations

    <bullet> No comments.

Section 13. Ensuring Consistent Management for Fisheries Management 
        Under Other Federal Laws

    <bullet> We support these changes.

Other Suggested Changes that are not Currently in the Bill:

    <bullet> Suggested change: Section 302(b)(2)(D) should be removed 
from the reauthorization and the process should be eliminated. Section 
302(b)(2)(D) established a special Council appointment process for the 
Gulf of Mexico Fishery Management Council that expired at the end of 
fiscal year 2012, This process was overly burdensome and should not be 
renewed. The existing process that is used for the other Councils and 
is currently being used for the Gulf Council is sufficient for 
appointing quality candidates to the Gulf Council.

    <bullet> Issue: There has been concern that advisory panel members 
that are purportedly representing a particular sector (e.g., 
commercial) are paid by NGOs, either directly or indirectly, to attend 
Council meetings, serve on Advisory Panels, and lobby Council members.

     Suggested change: Modify Sec. 302(g) of the Magnuson-Stevens Act 
to require disclosure of financial interests by advisory panel members.

     Reason for change: Sec. 302(g) currently requires disclosure of 
financial interests by those serving on Council science and statistical 
committees, but there is no such requirement for advisory panel 
members. Requiring disclosure of such financial Interests would help 
identify which organizations are represented by advisory panel members.

    <bullet> Section 317 Shark Feeding should prohibit shark feeding in 
the Gulf of Mexico and South Atlantic EEZ. The purpose of this change 
would be to reduce dangers to divers who encounter sharks.

    <bullet> Issue: Highly Migratory Species like sharks, tunas, 
swordfish, and billfish are regulated by NOAA Fisheries, but are not 
managed through the Council process. Magnuson establishes that the 
Federal Councils have Scientific and Statistical Committees (SSCs) that 
provide scientific advice for management decisions, but Magnuson does 
not establish SSCs to review Highly Migratory Species management 
actions.

     Suggested Change: Sec. 304(g) of the Magnuson Act should be 
modified to establish an SSC to provide scientific advice on potential 
fishery management plans and plan amendments for Atlantic Highly 
Migratory Species. At minimum, a mechanism for scientific peer review 
of proposed management alternatives for HMS species should be 
established.

     Reason for Change: There is no mechanism for scientific peer 
review of proposed management actions taken by NOAA Fisheries for 
Highly Migratory Species. Such review is important in determining if 
potential management actions are backed by sound science. This section 
already provides for establishment of an advisory panel for Highly 
Migratory Species.

    <bullet> Issue: According to the Magnuson-Stevens Act, a State may 
only regulate a fishing vessel outside State boundaries in adjacent 
Federal waters (A) ``if the fishing vessel is registered under the law 
of that State,'' there is no Federal FMP for the fishery in question, 
or the State's laws are consistent with the Federal FMP and Federal 
fisheries regulations or (B) if fishery management authority is 
delegated to the State. Accordingly, Florida has extended several of 
their fishery regulations into Federal waters (ex. Snook) when those 
fisheries are not federally managed. However, there are two issues with 
this part of the Magnuson Act. First, the extension of State fishing 
regulations into Federal waters has been successfully challenged in 
court when Florida claimed regulatory authority over fishing for a 
State-regulated species in Federal waters. Additionally, the State is 
currently unable to enforce regulations on out-of-State fishing vessels 
in Federal waters off Florida.

     Suggested Change: Sec. 306(a)(3) of the Magnuson Act should be 
changed to allow the State to regulate fishing and fishing vessels. In 
Sec. 306(a)(3)(A), the requirement that the fishing vessel be 
registered under the law of the State should be removed.

     Reason for Change: These changes would address court challenges in 
which the defendant claimed that the Magnuson Act only allows the State 
to regulate fishing vessels, and not fishing activity. They would also 
allow State officers working in Federal waters to enforce State rules 
that have been extended in Federal waters on ALL vessels, including 
vessels registered by the Coast Guard or in other States.

                                 ______
                                 

    Prepared Statement of Western Pacific Fishery Management Council
    Below are detailed comments from the Western Pacific Fishery 
Management Council on the draft House Bill to amend the Magnuson-
Stevens Fishery Conservation and Management Act. The comments and 
recommendations are presented by section.
Section 3: Flexibility in Rebuilding Fish Stocks
    Overall, the Council supports the language proposed in Section 3 to 
provide flexibility in rebuilding fish stocks. In particular, allowing 
for a phased-in approach over a 3-year period is practical and takes 
into consideration impacts to affected communities. However, further 
guidance is needed in defining ``highly dynamic fishery'' as it applies 
to the use of this phased-in approach.
    This Section notes that rebuilding may be contingent on factors 
beyond the control of the Councils, or in some cases beyond that of the 
USA with regard to shared transboundary stocks. Moreover, it notes that 
environmental conditions may predicate the rebuilding schedule. The 
statement in item IV is unclear which refers to ``informal 
transboundary agreements under which management activities outside the 
EEZ by another country may hinder conservation effort by U.S. 
fishermen''. How do ``informal transboundary agreements'' differ from 
international agreements which are included in Section (I)?
    Finally, Section 3(2)(C), we question the utility of including the 
``predator/prey relationships'' in this sentence as it is only one 
example of many that may be considered when accounting for 
``environmental conditions.'' We suggest it be removed.
Section 4: Modifications to the Annual Catch Limit Requirement
    The proposed changes in the Annual Catch Limit (ACL) section of 
this bill addresses many of the problems faced in implementing ACLs in 
the Western Pacific Region. Providing the Council the authority and 
opportunity to consider ecosystem and economic needs of the fishing 
community in implementing ACLs is a beneficial change to the current 
MSA text. The Western Pacific Council provides for similar 
considerations through an analysis that considers social, economic, 
ecological and management uncertainty. Consideration should be given to 
include social and management elements in this section as ecosystem and 
economic variations are already accounted for. Given the overall 
underutilized status of fisheries in the Western Pacific Region, this 
language could be revised to: ``In evaluating the need to establish 
annual catch limits, a Council may consider changes in an ecosystem and 
the economic needs of the fishing community''. This provides the 
Council flexibility in having to apply ACLs for in fisheries where it 
may not be appropriate.
    With regard to exempting Councils for having to develop ACLs, we 
suggest adding a third item for fisheries that are currently inactive 
and will remain inactive in the foreseeable future, Having to specify 
annual limits for dormant fisheries, such as deepwater shrimp and 
precious corals in the Western Pacific, unnecessarily consumes Council 
and NMFS resources.
    With regard to the section on ``Relationships of International 
Efforts'', the Council is concerned as those stocks managed through 
international agreements would now be required to have ACLs 
established, where currently they are exempt as established through 
NMFS guidelines.
    The Council supports the provisions included addressing 
multispecies complexes and multi-year catch limits and defining 
ecosystem component species.
    The suggested change to Section 302(h)(6) in striking ``fishing'' 
and inserting ``overfishing'' will result in a technical conflict with 
the NS1 guidelines. Currently, the fishing level recommendation by the 
SSC is the acceptable biological catch or ABC. The overfishing level is 
derived from the stock assessment developed by NMFS. Changing fishing 
to overfishing puts the onus on the SSC to develop its own stock 
assessment which changes the process on how ACLs are specified. Is this 
the intended outcome of this provision?
Section 5: Distinguishing Between Overfished and Depleted
    The Council supports redefining ``overfished'' to help distinguish 
between fisheries that are depleted as a result of fishing versus 
``depleted'' as a result of factors other than fishing. This issue has 
been a point of contention for our Advisory Panel and fishing 
communities for many years, as numerous fisheries have been impacted by 
changes in habitat resulting from coastal development and other non-
fishing activities. In particular, the Council looks forward to the 
NMFS reporting on the status of stocks as a result of this change.
Section 6: Transparency of the Public Process for Scientific and 
        Management Actions
    With regard to increasing transparency of the public process, to 
the extent practicable this Council has routinely provided for most of 
the public transparency elements identified in this section. However, 
requiring complete transcripts of both the Council and SSC will require 
additional resources to process this information within the 30-day time 
frame suggested. At this time, the Council makes available meeting 
minutes for all Council and SSC meetings on the web, among other 
documents.
Sec. 314: Compliance with National Environmental Policy Act of 1969
    The Council supports a reauthorized MSA that would allow for MSA 
fishery management plans, plan amendments, and regulatory amendments to 
be stand-alone documents that satisfy the requirements of NEPA. This is 
because the existing MSA/Council process is analogous to the procedures 
of NEPA with respect to public participation and impact analysis. 
However, the Council suggests that minor technical modifications to be 
made to Section 303(a) of MSA to ensure consistency with NEPA such as 
requiring the consideration of alternatives to the proposed action and 
requiring a broader-level of environmental review in MSA documents.
Section 7: Limitations on Future Catch Share Programs
    The Council suggests that the use of catch shares also consider 
regional flexibility in the need for its application to fisheries, 
particularly the non-commercial/recreational sector. Catch shares are 
not appropriate for the non-commercial/recreational fisheries sector as 
new entry opportunities and equal access to a public trust resource are 
imperative to effectively managing the Nation's fisheries resources for 
the good of all.
Section 8: Data Collection and Data Confidentiality
    Electronic monitoring should be one of many tools considered to 
facilitate data collection and monitoring when developing fishery 
management plans or amendments. We support developing objectives and 
performance standards for this new technology to ensure consistency in 
its application immediately after passage of the MSA reauthorization. 
However, mandating the development of regulations for electronic 
monitoring within this 6-month period is not appropriate. The 
implementation of such regulations should be promulgated through the 
standard regulatory process and not automatically mandated through this 
top-down approach.
    We also have serious concerns regarding prohibiting the use of 
electronic monitoring for enforcement which contradicts this Council's 
existing regulations on the use of satellite-based vessel monitoring 
systems on Hawaii longline vessels to monitor area-based closures. 
These regulations have been in place for nearly 25 years. If Congress 
wishes to maintain this provision, we suggest defining electronic 
monitoring to not include VMS.
    Regarding the new provision to supported ``Increased Data 
Collection and Action to Address Data-Poor Fisheries,'' the Council 
supports directing a portion of the fisheries enforcement penalties 
received by the United States to assess data-poor fisheries and 
cooperative research to improve fishery independent data in stock 
assessments. However, while this provision is good, it will be 
important to ensure that it does not conflict with the existing 
provisions in the MSA that directs enforcement fines and penalties in 
the Pacific Remote Island Areas to the Sustainable Fisheries Fund or 
those occurring in the U.S. EEZs surrounding American Samoa, Guam and 
Commonwealth of the Northern Mariana Islands to their respective local 
treasuries.
    This Council supports the proposed definition for ``data-poor 
fishery'' which would include many of the reef fisheries managed in the 
Pacific Island region.
Section 9: Council Jurisdiction for Overlapping Fisheries
    [No comments]
Section 10: Gulf of Mexico Cooperative Research and Red Snapper 
        Management
    [No comments]
Section 11: North Pacific Fishery Management Clarification
    [No comments]
Section 12: Authorization of Appropriations
    [No comments]
Section 13: Ensuring Consistent Management for Fisheries Through Their 
        Range
    The Council strongly supports this section recognizing the MSA as 
the controlling authority over promulgating fishing regulations. In 
addition to the National Marine Sanctuaries Act and Antiquities Act of 
1906, other Acts impacting fisheries should be included such as the 
Marine Mammal Protection Act, Migratory Bird Treaty Act and the 
Endangered Species Act.
    This Council also strongly supports the provision related to 
``Fisheries Restrictions Under the Endangered Species Act of 1973,'' 
but recommends that the text, ``. . . that is necessary to implement a 
recovery plan . . .'' be removed. While Section 4 of the ESA relates to 
rules that may be result from recovery plans, Section 9 of ESA may also 
result in fishery restrictions through take prohibitions for ESA-listed 
species. Further, the Council recommends that the text ``(1) using 
authority under this Act; and (2) in accordance with processes and time 
schedules required under this Act'' be modified to read ``in accordance 
with processes established under Section 302 of this Act''. Currently, 
fishery management measures deemed necessary to protect ESA-listed 
species are promulgated under Section 305 of the MSA, which bypasses 
transparent public process intended under MSA.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    <bullet> Allison, David L., JD, LL.M, Shelton, WA, Letter 
dated December 22, 2013
    <bullet> Association of Northwest Steelheaders, Russell 
Bassett, Executive Director, Letter dated January 27, 2014
    <bullet> Bunny Clark Corp., Tim Tower, President, Letter 
dated January 28, 2014
    <bullet> Center for Sustainable Fisheries, Discussion Draft 
Review dated January 14, 2014
    <bullet> Center for Sustainable Fisheries, Policy Paper 
dated November 20, 2013, also available online at http://
centerforsustainablefisheries.org/wp-content/uploads/MSA-
Reauthorization-Policy-Paper.pdf
    <bullet> Charleston Area Hospitality Association, Fisheries 
Management statement
    <bullet> Combined Governing Bodies of Shishmaref, Alaska, 
Joint Resolution 2013-02 dated April 17, 2013
    <bullet> Council for Sustainable Fishing, Tom Swatzel, 
Executive Director, Letter dated January 14, 2014
    <bullet> Davis Wright Tremaine, LLP, James P. Walsh, Letter 
dated January 31, 2014
    <bullet> Hawaii Longline Association, Prepared statement 
dated January 29, 2014
    <bullet> Maine Rivers, Landis Hudson, Executive Director, 
Letter dated January 8, 2014
    <bullet> Mirarchi, Frank, F/V Barbara L. Peters, Scituate, 
MA, Letter dated January 23, 2014
    <bullet> Natural Resources Defense Council, Bradford H. 
Sewell, Senior Attorney, Letter dated January 30, 2014
    <bullet> PEW Charitable Trusts, Lee R. Crockett, Director, 
U.S. Oceans, Letter dated January 27, 2014
    <bullet> Platt, Darren, Commercial Fisherman from Kodiak, 
AK, Comments
    <bullet> Prime Seafood, James R. Chambers, Founder/Owner, 
Letter dated February 6, 2014
    <bullet> Recreational Fishing and Boating Community, 
Discussion Draft Review
    <bullet> Tsongas, Niki, a Representative in Congress from 
the State of Massachusetts, Prepared statement

                                 # # #
                                     



LEGISLATIVE HEARING ON H.R. 4742, TO AMEND THE MAGNUSON-STEVENS FISHERY 
  CONSERVATION AND MANAGEMENT ACT TO PROVIDE FLEXIBILITY FOR FISHERY 
     MANAGERS AND STABILITY FOR FISHERMEN, AND FOR OTHER PURPOSES, 
   ``STRENGTHENING FISHING COMMUNITIES AND INCREASING FLEXIBILITY IN 
                   FISHERIES MANAGEMENT ACT''--PART 2

                              ----------                              


                       Friday, February 28, 2014

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 9:32 a.m., in 
room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, DeFazio, Sablan, 
Tsongas, Hanabusa, Huffman, Shea-Porter, and Garcia.
    The Chairman. I want to call our witnesses. We have Mr. 
Samuel Pooley, who is the Director of NOAA Pacific Islands 
Fisheries Science Center; Ms. Dorothy Lowman, Chair of the 
Pacific Fishery Management Council; Mr. Bob Rees, the North 
Coast Chapter President of the Association of Northwest 
Steelheaders--I will get it right; Mr. Peter Shelley, Vice 
President at Conservation Law Foundation; and Mr. Zeke Grader, 
Jr., Executive Director of the Pacific Coast Federation of 
Fishermen's Associations.
    I want to thank all of you for being here. If you have not 
had an opportunity to testify in front of the committee, you 
will note that the little machine in front of you has a 5-
minute timeframe there. And the way that works is when the 
green light is on, that means that you are doing very, very 
well in your testimony. And when the yellow light comes on, it 
is like going through a stoplight. It means you have to hurry 
up so you can finish before the red light comes on.
    Now, I say that because that gives you 5 minutes for your 
oral testimony, but your full written testimony will appear in 
the record. So it is not confined just to your oral testimony.
    So, with that, we will start with Mr. Samuel Pooley, 
Director of NOAA Fisheries--Pacific Islands Fisheries Science 
Center, and you are recognized for 5 minutes.

  STATEMENT OF SAMUEL POOLEY, DIRECTOR, NOAA PACIFIC ISLANDS 
                    FISHERIES SCIENCE CENTER

    Dr. Pooley. Good morning, and aloha, Mr. Chairman, and 
members of the committee. Thank you for the opportunity to 
speak with you today. I am pleased to represent the Pacific 
Islands region of NOAA fisheries. When the Pacific Islands 
region was established in 2003, the agency was committed to 
enhancing our relationships with stakeholders and local 
communities. I believe this is increasingly the case, and I 
hope to demonstrate that this morning.
    I came to Hawaii for graduate school in 1970 as an 
international trade and development economist, and I stayed 
because of the people and vibrant cultures of the region. 
Fisheries have been an important part of that culture and the 
development of our communities. I will be revisiting Guam and 
Saipan in 2 weeks. Much has changed in 30 years since my first 
trips there, but much of the important cultural aspects of 
those fisheries remain.
    NOAA Fisheries is committed to conducting high-quality 
marine science. We have worked with local resource agencies on 
fisheries statistics through our WestPac FIN program since 
1981, and we have conducted research missions on NOAA ships in 
the Marianas since the 1980s. And now, for the first time, we 
have permanent local scientific staff in Pago Pago, Saipan, and 
Guam. We work closely with local resource agencies to 
coordinate and improve the relevance of our work, including 
inviting their participation in and planning two research 
missions in the Marianas this year.
    Last year the agency announced a territorial science 
initiative of $250,000 to enhance our fisheries science work in 
the U.S. territories in the Pacific and the Caribbean. The 
final 2014 appropriation will allow us to further expand the 
territorial science initiative to enhance the agency's and 
local fisheries' capacity within these territories. In 
addition, the NOAA Fisheries Saltonstall-Kennedy grant program 
also identified cooperative research in U.S. island territories 
and commonwealths as a priority.
    But perhaps more important than these fiscal resources, 
this initiative provides us increased opportunity for our 
scientists to engage with the agencies, fishermen, and 
communities in these areas to a greater extent than before. 
With these partners, we are developing alternative assessment 
approaches for our reef fisheries. These alternative approaches 
integrate new life history information into data-poor 
assessments.
    We are also using human dimension studies from these 
communities to conduct socioeconomic analysis for annual catch 
limit determinations. Innovations like these allow us to 
continue to make progress toward meeting the mandate of the 
Magnuson-Stevens Act by adding more detailed information that 
addresses the special characteristics of our region.
    We made significant progress in the Pacific Islands, but 
much remains to be done. Objective continues to be to provide 
high-quality scientific information, to continue the agency's 
and the fishery management councils' ability to prevent 
overfishing, and achieve optimal yield.
    As an economist and social scientist, I am particularly 
interested in providing meaningful information on the 
industries and communities of our area for conservation and 
management decisionmaking. Thank you for the opportunity to 
discuss with you Pacific Islands fishery science in the context 
of the progress we have made under the Magnuson-Stevens Act. 
Mahalo.
    [The prepared statement of Dr. Pooley follows:]
  Prepared Statement of Dr. Samuel Pooley, Pacific Islands Fisheries 
 Science Center Director, National Marine Fisheries Service, National 
                 Oceanic and Atmospheric Administration
                              introduction
    Good morning, Mr. Chairman and members of the committee. Thank you 
for the opportunity to testify before you today. I am Samuel Pooley, 
the Pacific Islands Fisheries Science Center Director for the National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Fisheries Service (NMFS). NMFS is dedicated to the stewardship of 
living marine resources through science-based conservation and 
management. Much of this work occurs under the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act), which sets 
forth standards for conservation, management, and sustainable use of 
our Nation's fisheries resources.
    NMFS is an acknowledged international leader in fishery science, 
rebuilding overfished stocks, and preventing overfishing. Today, we 
know more about our fish stocks than ever before, although there is 
much yet to accomplish in our region. Nationally and locally, it is 
vital that our science not regress, as this would inevitably lead to 
declines in our stocks and a loss in the economic and social values 
they provide. Our progress in making fisheries management more 
effective is based on the principle that management is based on sound 
science. National Standard 2 of the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act) mandates that 
all fisheries conservation and management measures must be based upon 
``the best scientific information available'' (16 U.S.C. 1851(a)(2)). 
While we face challenges to securing accurate, precise, and timely data 
for stock assessments, on balance, our science-based management has 
consistently proven to provide better resource management than without 
this advice. This has, in turn, led to improved productivity and 
sustainability of fisheries and fishery-dependent businesses and 
communities.
    NMFS continues to make substantial progress toward improving the 
quality of the science available to effectively manage commercial and 
recreational fisheries, benefiting coastal communities and the United 
States (U.S.) economy both today and for generations to come. We 
greatly appreciate the increased funding that Congress has provided to 
make U.S. fishery management, and its preeminence worldwide, possible.
    My testimony today will focus on how fisheries science in the 
Pacific Islands is conducted and how this science underpins and 
provides for good management. We represent a diverse region with 
locally and internationally important fisheries, fisheries that are 
important both commercially and recreationally but also culturally. We 
provide scientific information for fishery management decisionmaking to 
the Western Pacific Fishery Management Council through its Scientific 
and Statistical Committee and to the Western and Central Pacific 
Fisheries Commission through its Scientific Committee and the 
independent International Scientific Committee on Tuna and Tuna-like 
Species (ISC) in the North Pacific.
                fisheries science in the pacific islands
    Without high-quality fishery science, we cannot be confident the 
Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires investing in information about fish 
stocks, marine habitats, and ecosystems and the people, industries, and 
communities that rely upon fishing. To achieve the goals of the 
Magnuson-Stevens Act, we must conduct the research and analyses 
necessary to understand the underlying life histories and population 
dynamics of our fisheries as well as the environmental and habitat 
factors affecting the sustainability of fish populations. We must 
continue to increase what we know about our fish stocks in order to 
reduce uncertainty in our estimates of fishery population status and to 
avoid reduced annual catch limits, resulting in lost economic and 
community opportunities.
    The importance of increasing the frequency of stock assessments, 
improving the quality of fisheries science with a better understanding 
of ecosystem factors, and enhancing our engagement with fishermen 
cannot be stressed enough. Collecting adequate data in our region, 
including the State of Hawaii, the Territories of American Samoa and 
Guam, and the Commonwealth of the Northern Mariana Islands as well as 
the high-seas fisheries, presents unique challenges and requires 
additional investments in personnel and resources to be successful. 
These historically have relied on fishery dependent data rather than 
the NOAA and cooperative research surveys that typify fisheries 
research in the continental United States.
    To address these challenges, NMFS announced on June 22, 2013, a 
Territorial Fisheries Science Initiative. This initiative involves the 
Pacific Islands and Southeast fisheries science centers to specifically 
expand fisheries science capacity, including fisheries information, 
from the Territories of American Samoa and Guam, and the Commonwealth 
of the Northern Mariana Islands, as well as the Territories of the U.S. 
Virgin Islands and the Commonwealth of Puerto Rico. The Territorial 
Fisheries Science Initiative is an effort to overcome the lack of data 
collection capacity in the U.S. territories that has resulted in a 
paucity of scientific information to guide management actions. The 
small size of the territory governments with their modest budgets; the 
relatively low commercial value of diverse and small-scale fisheries; 
and the limited NMFS presence in the territories have all contributed 
to the current shortcomings. This initiative is intended to address 
this situation, increase our engagement with territorial government 
agencies and academic institutions, improve the quality and reliability 
of Pacific Islands fishery stock assessments, and increase stakeholder 
and community participation in and understanding of our scientific 
work.
    Funds from this Territorial Fisheries Science Initiative will be 
spent in the territories to support locally-based science, build 
scientific and monitoring capabilities, and enhance capacity and 
relationships with each of these U.S. territories. This initiative will 
include grants to and contracts with the territorial fisheries agencies 
as well as to local academic institutions and cooperative research 
partners to help build local scientific capacity. In FY13 under this 
Territorial Fisheries Science Initiative, $125,000 was issued to each 
of the Pacific Islands and Southeast fisheries science centers to 
expand fisheries science capacity, including fisheries information, 
from the Territories of American Samoa and Guam, and the Commonwealth 
of the Northern Mariana Islands, as well as the Territories of the U.S. 
Virgin Islands and the Commonwealth of Puerto Rico.
    In fiscal year 2014, NOAA will expand the Territorial Fisheries 
Science Initiative to enhance the agency's and local fisheries' science 
capacity in the territories at a level of $1 million. Additionally, 
this year the Federal Funding Opportunity (FFO) for proposals under the 
FY13 Saltonstall-Kennedy (S-K) Grant Program, issued on July 31, 2013, 
identified ``Cooperative Research in U.S. island territories and 
commonwealths'' as a priority. This is the first year that Territorial 
Fisheries Science is included as a priority in this FFO to indicate an 
increased emphasis on these geographies within the S-K competition.
    In addition, as part of our fisheries science portfolio, the 
Pacific Islands Fisheries Science Center is conducting two NOAA ship-
based surveys to the Mariana Archipelago this year. The NOAA ship Oscar 
Elton Sette will conduct fisheries science surveys (e.g., supporting 
resource assessments), cetacean surveys in support of our protected 
species mandates, and support for local agency projects, and the NOAA 
ship Hi'ialakai will focus on coral reef ecosystem surveys and, in the 
last leg, ocean acidification and vents work with our partners in the 
Marianas Trench Marine National Monument.
                         looking to the future
Remaining Challenges
    It is critical that we maintain progress toward meeting the mandate 
of the Magnuson-Stevens Act to prevent and end overfishing and rebuild 
overfished stocks. Annual catch limits have been an effective tool in 
improving the sustainability of fisheries around the Nation, but 
managing fisheries using annual catch limits and accountability 
measures was a major change for some fisheries, and the initial 
implementation has identified some areas where we can improve that 
process. We continue to work with the fishery management councils to 
achieve the best possible alignment of science and management for each 
fishery to attain the goals of the Magnuson-Stevens Act. We will 
continue to develop our science and management tools, improve our stock 
assessments and monitoring efforts, and create more effective annual 
catch limits and accountability measures. In doing so, we must continue 
to ensure solid, science-based determinations of stock status and 
better linkages to biological, socioeconomic, and ecosystem conditions.
    A primary goal in the Pacific Islands Region is to bring more data 
to the table and ensure the fishery management response to annual catch 
trends is appropriate. Many fish stocks in the Pacific Islands are 
managed in mixed stock complexes to make the best use of scarce data. 
The majority of fisheries in the region are extremely data limited, 
making it challenging to manage and monitor annual catch limits in the 
way Congress envisioned. These small-scale commercial, non-commercial, 
and subsistence fisheries are nonetheless critically important to the 
island communities. Our work, both under our normal operations and 
under the new Territorial Fisheries Science Initiative, involves basic 
life history studies as well as improving collection and compilation of 
fishery statistics. Of particular interest in our region is the 
development of alternative assessment approaches in our coral reef 
fisheries, integrating this new life history information into these 
otherwise data-poor assessments, and using human dimensions research in 
these communities. Collectively, these contribute to the Western 
Pacific Fishery Management Council's Social, Economic, Ecological, and 
Management uncertainty (SEEM) analysis used in annual catch limit 
determinations. Aspects of the SEEM dimensions include the importance 
of the fishery, both socially and economically, consideration of the 
ecological importance of the stock or stock complex targeted by the 
fishery, and whether managers can effectively constrain catch to 
planned levels.
    We value the important partnerships we have formed with the States, 
territories, fishermen, and other interest groups in helping address 
these challenges. These partnerships are critical to developing 
successful management strategies. Together with our partners, we 
continue to explore alternative and innovative approaches that will 
produce the best available information to incorporate into management.
    It is also increasingly important that we better understand 
ecosystem and habitat factors, such as the effects of climate change, 
interannual and interdecadal climate shifts, ocean acidification, and 
other environmental regime shifts and natural disasters, and 
incorporate this information into our stock assessments and management 
decisions. Resilient ecosystems and habitats form the foundation for 
robust fisheries and fishing jobs. The Magnuson-Stevens Act currently 
provides flexibility for bringing ecosystem considerations into 
fisheries management. One example is the use of oceanographic 
information to identify overlaps between swordfish and loggerhead 
turtles in the North Pacific to provide advice on avoiding fishery 
interactions. Another is identifying the impact of ocean acidification 
on the vital coral reef ecosystems of this region.
                               conclusion
    Because of the Magnuson-Stevens Act, the United States has made 
great progress toward sustainably and responsibly managing U.S. 
fisheries to ensure that stocks are maintained at healthy levels, 
fishing is conducted in a way that minimizes impacts on the marine 
ecosystem, and fishing communities' needs are considered in management 
decisions. Fisheries harvested in the United States are scientifically 
monitored, regionally managed, and consistent with 10 National 
Standards for fishery conservation and management. But we did not get 
here overnight. Our Nation's journey toward sustainable fisheries has 
evolved over the course of 38 years.
    This progress has been made possible by the collaborative 
involvement of our U.S. commercial and recreational fishing fleets and 
their commitment to science-based management, improving gear-
technologies, and application of best stewardship practices. NOAA 
Fisheries has established strong partnerships with States, territories, 
tribes in the continental United States, fishery management councils, 
fishing industries, including recreational and non-commercial 
fisheries, and fishing and shoreline communities. By working together 
through the highly participatory process established in the Magnuson-
Stevens Act, we will continue to address management challenges in a 
changing environment.
    To understand where we are, it is important to reflect on where 
we've been. We have made great progress but our achievements have not 
come easily, nor will they be sustained without continued attention. 
This is a critical time in the history of Federal fisheries management, 
and we must move forward in a thoughtful and disciplined way to ensure 
our Nation's fisheries are able to meet the needs of both current and 
future generations.
    Thank you again for the opportunity to discuss Pacific Islands 
fisheries science in the context of the progress we have made under the 
Magnuson-Stevens Act. I am available to answer any questions you may 
have. Mahalo (thank you).

                                 ______
                                 

 Questions Submitted for the Record by Representative Hanabusa to Dr. 
 Samuel Pooley, Director of the NOAA Pacific Islands Fisheries Science 
                                 Center
    Question. During the hearing, you mentioned that ACLs for reef fish 
around Hawaii are currently being updated, and you mentioned that the 
updated figures will include the fish in the Northern Hawaiian Islands. 
How will data from the Northern Hawaiian Islands be incorporated into 
updated ACLs? Given that the Northern Hawaiian Islands cover a vast 
area with large fish populations, is it reasonable to expect that the 
inclusion of Northern Hawaiian Islands fish populations will lead to 
higher ACLs?

    Answer. The updated annual catch limits for reef fish around Hawaii 
do not rely on data from the Northwestern Hawaiian Islands, although 
earlier assessments of bottomfish did (bottomfish assessments now rely 
entirely on main Hawaiian Islands information). The Northwestern 
Hawaiian Islands have been closed to any commercial fishing since 2006. 
Thus, the Hawaii annual catch limits are based only on main Hawaiian 
Islands information: catch data from State of Hawaii commercial 
statistics on the main Hawaiian Islands fisheries and biomass data from 
NOAA's Pacific Reef Assessment and Monitoring Program (Pacific RAMP) 
surveys in the main Hawaiian Islands. The annual catch limits for reef 
fish around Hawaii were developed by the Western Pacific Fishery 
Management Council based on fishery dependent and bio-sampling data and 
reef fish survey information provided by Pacific Islands Fisheries 
Science Center.

    Question. Is the Pacific Island Fisheries Science Center (PIFSC) 
doing any work to provide the data and models necessary for effective 
ecosystem-based management? What tools have been developed so far and 
what tools are under development?

    Answer. The Pacific Islands Fisheries Science Center has been a 
leader in ecosystem modeling since the development of one of the first 
ecosystem models, Ecopath, by its lead ecosystem scientist Dr. Jeffrey 
J. Polovina in 1983. Dr. Polovina continues to lead the Ecosystem and 
Oceanography Division within the Pacific Islands Fisheries Science 
Center whose purpose is to explore such approaches, including leading 
the current integrated ecosystem assessment surveys in Kona, Hawaii. 
Recent ecosystem modeling developments within this division include 
research on fishery-induced and climate changes in the subtropical 
Pacific pelagic ecosystem size structure and analysis of ecosystem 
effects related to longline interactions with sea turtles (Turtle 
Watch) in addition to Kona ecosystem modeling.
    The Pacific Islands Fisheries Science Center Coral Reef Ecosystem 
Division has been deeply involved in developing ecosystem-based 
management approaches relevant to the Pacific's small scale and reef 
fisheries through collaboration with the U.S. Agency for International 
Development, the United Nations Food and Agricultural Organization, and 
the Asia-Pacific Fisheries Commission in the Coral Triangle Initiative 
in the Philippines, Indonesia and other southeast Asian countries. This 
work informs our approach to ecosystem fisheries management in the U.S. 
Pacific islands and the specific curriculum developed for these 
international clients may be ported to work with the State of Hawaii in 
the forthcoming year. We are also developing an Atlantis ecosystem 
model as a decision support tool for ecosystem-based management of near 
shore fisheries around Guam.

    Question. Over the years, your office has not fared well when 
competing for funding against other science centers. In some cases, 
PIFSC did not even initiate requests for funds. What steps will you 
take to ensure that PIFSC will make better use of funding opportunities 
such as cooperative research, stock assessments, Recreational Fisheries 
Information Network, and Saltonstall-Kennedy programs?

    Answer. Since the establishment of the Pacific Islands Fisheries 
Science Center in 2003, the fisheries portion of the Center's funding 
has increased from less than $4 million in 2005 to approximately $10 
million in 2013 and NOAA has been actively ensuring the use of funding 
opportunities. In addition, we benefit via collaboration and support 
from other programs and conservation efforts such as Marine National 
Monuments and NOAA's Coral Reef Conservation Program, to achieve 
multiple objectives.
    In NOAA Fisheries Cooperative Research funding initiatives, the 
Pacific Islands Fisheries Science Center has successfully competed for, 
and received, approximately $400K annually since 2010. Those funds have 
been used to develop an industry-based, cooperative fishery-independent 
survey for bottomfish stocks in Hawaii through the Pacific Islands 
Fisheries Group and other partners. This year we will also be able to 
conduct cooperative research in both Saipan and Guam. The Pacific 
Islands Fisheries Science Center has integrated its cooperative 
research with other NOAA Fisheries science initiatives, such as 
Advanced Sampling Technology initiatives that will contribute to stock 
assessment advancements in the Pacific islands.
    We are also involved in testing new approaches for estimating non-
commercial (recreational and subsistence) landings in Hawaii under NOAA 
Fisheries' Marine Recreational Information Program. In 2013, NOAA 
Fisheries added ``territorial science'' as a new priority under the 
Saltonstall-Kennedy grant program. Two projects are being recommended 
for funding under the territorial science initiative:

    <bullet> A grant to the Bishop Museum in Hawaii to collect 
            reproductive information for exploited reef fishes in the 
            Pacific Islands. Amount: $161,482.00

    <bullet> A grant to University of Guam for fishery biological 
            sampling in Guam and the Commonwealth of the Northern 
            Mariana Islands. Amount: $196,112

    NOAA Fisheries has also allocated $500K in FY 2014 to the Pacific 
Islands Fisheries Science Center (following $125K in FY 2013) in a 
Territorial Science Initiative that is focused on enhancing the 
information required for fishery stock assessments throughout this 
region. This initiative includes placement of permanent staff in 
American Samoa, Guam, and the Northern Mariana Islands to conduct new 
bio-sampling and stock assessment research in each jurisdiction as well 
as to enhance our Western Pacific Fishery Information Network 
(WPacFIN). Further, both NOAA ships currently stationed in Hawaii, the 
Hi'ialakai and the Oscar Elton Sette are conducting extensive research 
surveys in the Marianas archipelago this year.
    We believe that the Pacific Islands Fisheries Science Center 
competes well for internal funding within NOM Fisheries.

                                 ______
                                 

    The Chairman. Thank you very much, Dr. Pooley, for your 
testimony. And now I will recognize Ms. Dorothy Lowman, who is 
the Chair of the Pacific Fishery Management Council.

STATEMENT OF DOROTHY LOWMAN, CHAIR, PACIFIC FISHERY MANAGEMENT 
                            COUNCIL

    Ms. Lowman. Thank you, Chairman Hastings, Ranking Member 
DeFazio, and members of the committee. Thank you again for the 
opportunity to testify before you today regarding 
reauthorization of the Magnuson-Stevens Fisheries Conservation 
and Management Act. My name is Dorothy Lowman and I serve as 
the Chair of the Pacific Fishery Management Council. It is from 
our experiences of managing over 160 fish stocks off the West 
Coast that I offer the Pacific Council's perspective regarding 
refinement of this important legislation.
    The Pacific Council has not yet had an opportunity to 
review the discussion draft put forth by Chairman Hastings, but 
we will be doing so in just a few days at our March Council 
meeting. So my comments today are based on council discussions 
regarding priorities through our November Council meeting.
    First, I would like to be clear that the Pacific Council 
believes that the current MSA is a success and, in fact, has 
been a key driver of a number of Pacific Council successes, 
including ending overfishing of any and all stocks within 1 
year of detection; rebuilding seven depleted stocks, and being 
on track to rebuild eight long-lived stocks that remain 
depleted, three of which are projected to be rebuilt in the 
next year; implementing a successful catch share program for 
the trawl fishery that has been held up as a model for its 
ability to reduce by-catch and increase economic yield; and our 
recent developments of an ecosystem management plan.
    While we believe that large-scale changes in the MSA are 
not warranted, after 7 years of managing under the 2006 
reauthorized bill, we have identified a few refinements to 
enhance marine fishery management. I am going to highlight just 
a few of these, and refer you to our written testimony for the 
full list in greater detail.
    With respect to rebuilding, we ask for some clarification 
and focused flexibility. First, address the discontinuity 
associated with a 10-year rebuilding requirement. We agree with 
the National Academy of Sciences: a strict requirement to 
rebuild within 10 years may eliminate some management responses 
that could lead to greater social and economic benefits, while 
still assuring that stocks are rebuilt.
    Second, we have experienced situations where assessment 
uncertainty leads to results that vary in either direction, 
without changes in true status over time, yet currently can 
demand expensive revisions and rebuilding plans. Clarification 
is needed to provide a reasonable threshold for stock status 
changes before significant changes in management approaches are 
required.
    Third, the MSA requirement to rebuild as soon as possible, 
taking into account the needs of fishing communities has, 
unfortunately, been subject to court interpretation as nearly 
ignoring the needs of fishing communities until such time as 
they have demonstrated a disastrous state. But, as we know, the 
road to disaster starts long before a community or fishery 
arrives at that state. It may be possible that a solution is as 
simple as changing the word ``possible'' to ``practicable.'' 
However, at any rate, some clarity is needed to allow Councils 
to properly take into account important social and economic 
impacts, while reducing catches in a rational stock rebuilding 
plan.
    For some situations where improved science and subsequent 
stock assessments show that the stock was never overfished, 
continuation of rebuilding restrictions may not be necessary. 
However, the MSA does not explicitly allow for such a course of 
action, and so we would like to have some clarification on that 
point.
    Finally, a few words regarding better alignment of NEPA and 
MSA. It is not our desire to be exempt from the important 
environmental protections of NEPA. Rather, we are advocating 
for more effective reconciliation of the requirements of NEPA 
and MSA.
    The Councils, along with our partners at NOAA Fisheries 
have been working to find ways to front-load some of the 
required analyses as much as possible. But efficiencies do 
remain in the current process, requiring substantial additional 
work and process to satisfy duplicate requirements and 
mandates. This unnecessarily delays implementation of 
regulation, causes obsolescence of scientific information, and 
burdens management resources that could be used more 
efficiently. In some cases, a mismatch of MSA and NEPA 
timelines also results in alternatives being developed under 
NEPA after the Council has taken final action.
    In short, we believe the 2006 mandate to streamline NEPA 
and MSA has not yet been effectively addressed, and look 
forward to working with you to achieve this goal. It may be 
possible to craft revisions to the MSA to include explicit 
requirements that would result in essential MSA consistency 
with NEPA, and address current challenges without sacrificing 
the environmental protections of NEPA, and efficiently taking 
advantage of the public process provisions of MSA.
    Thank you again for the opportunity to provide testimony 
today.
    [The prepared statement of Ms. Lowman follows:]
  Prepared Statement of Dorothy Lowman, Chair of the Pacific Fishery 
                           Management Council
    Chairman Hastings, Ranking Member DeFazio, and members of the 
committee, thank you for the opportunity to testify before you today 
regarding the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA).
    My name is Dorothy Lowman and I serve as the Chair of the Pacific 
Fishery Management Council (Pacific Council). It is from our 
experiences of managing over 160 fish stocks off the States of 
Washington, Oregon, and California under the mandates of the MSA that I 
offer the Pacific Council's perspective regarding refinement of this 
important legislation.
    First I would like to be clear that the Pacific Council believes 
that the MSA as reauthorized in 1996 and again in 2006 has been a 
success. The Act has worked well to ensure a science-based management 
process that ensures long-term sustainable fisheries while preventing 
overfishing and mandating rebuilding of depleted stocks. As a result, 
the Pacific Council has ended overfishing of any and all stocks within 
1 year of detection, has rebuilt seven depleted stocks, and is in the 
process of successfully rebuilding eight long-lived stocks that remain 
depleted--three of which are projected to be rebuilt in the next year. 
We have implemented a successful groundfish trawl catch share program 
that has been held up as a model for programs in other regions for its 
ability to reduce bycatch and increase economic yield. We annually 
craft ocean salmon fisheries that accomplish stock-specific 
conservation goals for a multitude of individual salmon stocks, 
including many listed under the Endangered Species Act. We have created 
an ecosystem fishery management plan, which we are now in the process 
of implementing, along with protections for unmanaged forage fish. We 
are successfully participating in international fisheries organizations 
to protect highly migratory tuna-like species and the West Coast 
fisheries that rely on them. The current MSA has been a key driver of 
these successes. We believe large-scale changes to the MSA are not 
warranted, and any changes made to the Act should be carefully 
considered.
    That said, after 7 years of managing under the 2006 reauthorized 
bill, we believe that a few refinements would enhance marine fishery 
management in the United States and internationally. A number of the 
Pacific Council priorities for reauthorizations were echoed by others 
at the Management Our Nation's Fisheries 3 (MONF3) conference which was 
held in May of 2013. The Pacific Council was the primary organization 
responsible for planning the MONF3 conference. Findings from the 
conference can be found on our Web site, and the final report should be 
available within a few weeks. At subsequent Pacific Council meetings we 
have continued to discuss reauthorization of the MSA, and the 
priorities outlined in this testimony represent the results of our 
discussions through our last Pacific Council meeting in November. The 
Pacific Council has not yet had the opportunity to review the 
discussion draft bill put forth by Chairman Hastings but will do so at 
our March Council meeting and intends to provide the results of this 
review to the committee as soon as possible thereafter.
    The Pacific Council's priorities for MSA reauthorization are as 
follows. These represent notable priorities identified at this time, 
with the reservation for additional priorities and refinement of 
positions as the reauthorization process moves forward.
                        higher-priority matters
Revise rebuilding time requirements.

    <bullet> Address the discontinuity associated with the 10-year 
            rebuilding requirement.
    <bullet> Don't ``chase noise'' in rebuilding plans (in other words, 
            temper immediate reactions to changes in stock assessments 
            that may merely be statistical ``noise,'' rather than a 
            true signal of significant status change).
    <bullet> Address problems associated with ``rebuilding as soon as 
            possible'' in order to properly take into account the needs 
            of fishing communities.

    We agree with the National Academy of Science that a strict 
requirement to rebuild within 10 years may eliminate some management 
responses that could lead to greater social and economic benefits while 
still assuring that stocks are rebuilt. Focusing on rebuilding in a 
certain amount of time can result in overly restrictive fishery 
management that is illogically and unnecessarily harmful to fishermen 
and fishing communities; it is apparent that more flexibility is needed 
to optimize multiple goals. At the same time, care must be taken when 
providing focused flexibility to assure that we continue our recent 
successes in rebuilding the stocks upon which our fisheries and fishing 
communities depend.
    The current MSA requires that rebuilding must take place in as 
short a time as possible, with an maximum of 10 years if biologically 
possible. This ``10-year rule'' can grossly disrupt fisheries for 
little conservation gain. If a stock can rebuild in 9 years at a cost 
of closing all fisheries, this becomes a mandate. Paradoxically, the 
requirements for rebuilding a fish stock in worse condition, e.g. one 
that requires 11 or more years to rebuild with no fishing, provides for 
more than 11 years to rebuild (11 years plus the length of one 
generation of the species), with obviously less economic disruption. 
This is illogical and potentially disastrous for some fishing-dependent 
communities.
    In addition, uncertainty in stock assessments and rebuilding 
analyses for overfished stocks has created a situation where seemingly 
small changes to analytical results can lead to expensive revisions in 
rebuilding plans and unwarranted consequences to fisheries and fishing 
communities (``chasing noise''). This disruption is especially 
problematic when analytical results vary by small amounts due to 
assessment uncertainty, and vary both up and down without changes in 
true status over time. The current process needs to be revised such 
that a reasonable threshold exists for stock status changes before 
significant changes in management approaches are required.
    The MSA requirement to rebuild as soon as possible, taking into 
account the needs of the fishery communities, has been subject to court 
interpretation as nearly ignoring the needs of fishing communities 
until such time as they have demonstrated a disastrous state. Current 
administration of this requirement necessarily leads to large 
reductions in catch of directed fishery stocks that are being rebuilt, 
and can restrict mixed-stock fisheries when the rebuilding stock 
coexists with healthy stocks. It has been said that a solution may be 
as simple as changing the word ``possible'' to ``practical.'' At any 
rate, there is a need for threshold clarity so as to allow Councils to 
properly take into account important social and economic impacts to 
communities when reducing catches in a rational stock rebuilding plan. 
It is important to note the purpose that rebuilding programs are 
designed for is to increase stock sizes to provide for biological 
stability and the attendant future economic benefits to the same 
fishery-dependent communities negatively impacted (and may even be 
required to endure a disaster) by the rebuilding program.
Explore more flexibility for fishery impacts on data-poor species when 
        the current precautionary approach becomes the bottleneck for 
        healthy mixed-stock fisheries.
    One common management challenge is developing and implementing 
annual catch limits (ACLs) effectively when the requisite data are 
lacking, when no data collection program is in place, and/or when major 
natural fluctuations in stock abundance occur more rapidly than stock 
assessments can be updated. When less information about a stock is 
available, or the data are outdated, current requirements call for a 
Council to set a particularly low ACL compared to the theoretically 
maximum allowable catch, out of recognition of a higher level of 
scientific uncertainty. While this is a logical approach in some 
regards, there is concern it may be overly conservative in some 
situations. It can lead to severe economic consequences when a rarely 
caught stock about which little is known appears occasionally in a 
healthy mixed-stock fishery, and a new, highly buffered ACL for this 
rare stock suddenly requires a large reduction in the catch of healthy 
species; this situation essentially creates a bottleneck species that 
closes or substantially reduces an otherwise healthy fishery.
    There are times when the best available science is not sound enough 
for active fishery management decisionmaking; the current approach for 
data-poor species may occasionally fall into this situation. Further, 
the current approach may limit obtaining scientific information on 
stock performance under higher catch rates.
Better-align and streamline the National Environmental Policy Act 
        (NEPA) & MSA section 304(i).
    The Councils have a long history of advocating for more effective 
reconciliation of the requirements of NEPA and the MSA. We appreciate 
the opportunity to work with National Marine Fisheries Service in 
developing a recently completed policy directive that accurately 
describes our current roles and responsibilities in complying with NEPA 
process and requirements.
    However, inefficiencies remain in the current process, requiring 
substantial additional work and process to satisfy duplicative NEPA and 
MSA mandates. This unnecessarily delays implementation of regulations, 
causes obsolescence of scientific information, and burdens management 
resources that could be used more efficiently. In some cases, the 
mismatch of MSA and NEPA timelines also results in alternatives being 
developed under NEPA after final action has been taken by the Council.
    In short, we believe that the mandate to streamline NEPA and MSA 
processes that was included in Sec. 304(i) of the 2006 reauthorization 
of the MSA has not yet been effectively addressed.
    A defining characteristic of fishery management under the MSA is 
the mandated transparent and participatory process. Given the Council 
expertise that can be applied in the near future toward revising the 
MSA to include explicit requirements for a robust environmental impact 
analysis of a full range of reasonable alternatives, I personally 
believe it is possible to achieve essential compliance with the intent 
and purpose of NEPA. If this can be accomplished, making MSA consistent 
with NEPA in this manner could address current challenges without 
sacrificing any environmental protections of NEPA and efficiently 
taking full advantage of the public process provisions of MSA.
Include a carryover exception to allow ACLs to be exceeded in order to 
        carry over surplus and deficit harvest from one year to the 
        next, provided there is a finding from the Scientific and 
        Statistical Committee (SSC) that such a carryover provision 
        will have negligible biological impacts.
    As part of their business planning, fishermen in catch share 
programs need to know whether they may carry over surplus harvest from 
one year to the next; deficits are now routinely paid back the next 
year. In the past, there has not been a consistent policy application 
on this matter. If the SSC finds that carryover will not adversely 
affect a fish stock, then it should be explicitly allowed.
Stocks later determined never overfished should not be held to 
        rebuilding provisions.
    The data and scientific approaches used to determine stock status 
evolve and improve, and revisions to past stock statuses are common. 
The best available science used to declare a stock overfished may later 
be improved and show that the stock was never overfished. In these 
cases, continuing to manage the fishery under rebuilding plan 
restrictions may no longer be necessary. However, the MSA does not 
explicitly exempt stocks from rebuilding plans when it is later 
determined the stock was never overfished.
    For example, in 2000, a stock assessment indicated that widow 
rockfish on the West Coast were below the minimum stock size threshold 
(MSST) that triggers an overfished status designation. Accordingly, the 
stock was declared overfished and a rebuilding plan put in place. 
However, subsequent assessments in 2005 and 2007 estimated that the 
biomass had never dropped below the MSST, and thus the stock had never 
been overfished. Despite the best available science, uncertainty 
regarding MSA requirements and the assessment results caused the 
fishery to remain under a restrictive rebuilding plan until 2013. 
Continuing to manage widow rockfish under a rebuilding plan, even 
though the stock was never overfished, resulted in negative social and 
economic impacts to fishing communities and industry. It also 
represented a significant expenditure of Pacific Council resources to 
construct and maintain a rebuilding plan, and the new catch share 
program was unnecessarily complicated by the overfished declaration of 
widow rockfish and its subsequent rebuilding plan.
Provide flexibility in requirements and qualifications for observers.
    Current requirements and qualifications for National Marine 
Fisheries Service certified observers may be too restrictive regarding 
formal education and full independence provisions. There have been 
difficulties in providing a sufficient pool of observers.
                         lower-priority matters
    The Pacific Council has also identified the following lower-
priority areas that we ask you to take into consideration in drafting 
new legislation.

    <bullet> Designate one Commissioner seat on the Inter-American 
            Tropical Tuna Commission to represent the Pacific Council.
    <bullet> Provide flexibility to address rebuilding requirements 
            when environmental conditions may be a predominant factor 
            in a stock's decline.
    <bullet> Include a viable mixed-stock exception.
    <bullet> Replace the term ``overfished'' with ``depleted'' to 
            account for non-fishing causes of stock size below MSST.
    <bullet> Consider a national standard for habitat that can more 
            effectively minimize adverse impacts on essential fish 
            habitat.
    <bullet> Implement stricter imported seafood labeling requirements 
            in the U.S. market.
    <bullet> Enhance enforcement capabilities for international 
            fisheries, including at-sea and in-port monitoring and 
            enforcement, and providing assistance to developing 
            countries in their enforcement capacity.
    <bullet> Improve access to currently confidential harvest or 
            processing information for purposes of enhanced 
            socioeconomic analysis.
    <bullet> Amend MSA language to change ``vessels'' to ``vessel'' in 
            the illegal, unreported, and unregulated certification 
            section.
    <bullet> Make a consistent distinction between ``overfishing'' (a 
            measure of fishing rate) and ``overfished'' (a measure of 
            abundance).

    Thank you again for the opportunity to testify before this 
committee. We look forward to continuing to work with you during the 
reauthorization of the MSA to make what we believe to be one of the 
strongest and most effective pieces of legislation governing fishery 
management in the world even better.

                                 ______
                                 

 Questions Submitted for the Record for Dorothy Lowman, Chair, Pacific 
                       Fishery Management Council
          Questions Submitted by Republican Committee Members
    Question. You note that there is a duplicative aspect to the 
Magnuson and NEPA statutes and you note that the Magnuson Act already 
includes a ``mandated transparent and participatory process'' which is 
one of the key aspects of NEPA. Are there provisions within NEPA that 
are not also included in the Magnuson Act that the committee should 
consider putting in the Act to make Magnuson more consistent with NEPA?

    Answer. We thank the committee for recognizing that the mandate for 
NEPA streamlining and process efficiencies in the current MSA remains 
unfulfilled. However, in order to assure consistency with NEPA, we 
believe that there are other aspects of NEPA that should be explicitly 
recognized in the Act. In particular, we recommend including language 
specifically requiring a reasonable range of alternatives and thorough 
assessment of environmental impacts prior to final Council 
decisionmaking to help assure that process efficiencies are achieved 
while also maintaining robust compliance with the essence of NEPA. We 
understand the Council Coordination Committee (CCC) is preparing 
specific language suggestions that can accomplish this goal, and are 
happy to forward any forthcoming recommendation after the May 13-15, 
2014 CCC meeting.

    Question. You note that the Council recommends a change to the 
rebuilding provisions currently in the Act and note that one possible 
change could be to change the word ``possible'' to ``practicable''. Mr. 
Rees believes that change this would give Councils the ability to ``put 
off rebuilding indefinitely''. What would be your response to this 
claim?

    Answer. In suggesting that changing the requirement to rebuild as 
soon as practicable rather than the current ``as soon as possible'' 
language, it was not our intent that Councils be able to put off 
rebuilding indefinitely. In fact, Congress has used the term 
``practicable'' deliberately and effectively when they amended the Act 
in 1996 with respect to National Standard 9 and associated requirements 
for conservation and management measures to minimize bycatch and 
associated mortality to the maximum extent practicable. In the 
Congressional Record there is recognition that this term was chosen 
deliberately and requires an analysis of the costs associated with the 
action but does not allow Councils to ignore their responsibility 
relative to minimizing bycatch. Similarly, we believe that such a 
change would not allow Councils to ignore their responsibility to 
develop reasonable and effective rebuilding plans within the maximum 
time allowed in the Discussion Draft (tied to scientific advice on the 
mean generation time of the fish stock involved), but would allow the 
Council to exercise flexibility within that timeframe to account for 
the needs of communities. It may, however, be useful to include 
discussion in the Congressional Record as was done in 1996 to provide 
clarity with respect to congressional intent with the use of the word 
``practicable''.

    Question. The Discussion Draft includes language that would allow a 
Council to terminate a rebuilding plan if, after a new stock assessment 
is completed, it is determined that the stock was not overfished. Some 
have argued that this provision would give Councils unlimited authority 
to negate rebuilding plans whenever they want. This provision was 
included in the Discussion Draft specifically due to a situation in the 
Pacific Region where NOAA determined that a fishery was overfished, 
later determined that it had not really been overfished, but told the 
Council that the rebuilding plan had to remain in effect once it had 
been adopted. Is that correct? Do you view that provision as giving 
Councils unlimited authority to negate rebuilding plans?

    Answer. There was a case with widow rockfish in the Pacific Council 
area, whereby a new stock assessment showed a stock status below the 
overfished level and the Pacific Council developed a rebuilding plan 
that restricted fisheries so as to rebuild the stock to the maximum 
sustained yield biomass. During a subsequent stock assessment, the best 
available science was revised and showed that the widow rockfish stock 
had never fallen to the overfished level threshold. Based on 
discussions at the Pacific Council table that included policy and legal 
NOAA representatives, the Pacific Council continued with the rebuilding 
plan and associated fishery restrictions through the balance of the 
rebuilding plan, until they were officially rebuilt in 2012.
    The Discussion Draft language could be subject to different 
interpretations, and in our view does not specifically address what 
happens when a new stock assessment shows a stock was NEVER overfished. 
We recommend language be explicit in specifying that stocks later 
determined never depleted (overfished) should not be held to rebuilding 
provisions. The current draft could be read to say that you could 
suspend the rebuilding plan once the stock is not technically depleted 
even though it is not fully rebuilt. In these cases, the Pacific 
Council is in favor of continuing rebuilding plans until the stock 
reaches its maximum sustained yield biomass level, which is typically 
significantly higher than the depleted threshold.

    Question. There has been much discussion about how well the council 
process works including providing a transparent public process. Do you 
believe that process should also be used when restrictions to fisheries 
which are managed under fishery management plans are required as a 
result of the Endangered Species Act?

    Answer. We believe that involving the Council, with its transparent 
public process and advisory body expertise, when developing management 
responses to ESA-related issues leads to better decisionmaking. The 
Pacific Council is currently comfortable with the kind of ESA 
integration with MSA that has recently been occurring in the Pacific 
Council forum for Pacific salmon in terms of enhanced transparency of 
the scientific and policy basis for determining appropriate fishery 
restrictions. This process has included the Council making 
recommendations that the Secretary has taken seriously. However, it is 
not clear that this is currently the practice in other Councils.

    Question. You note that your Council has created an ecosystem 
fishery management plan and have already implemented protections for 
forage fish. Do you believe it is necessary to mandate that all 
Councils create ecosystem plans and protect forage fish?

    Answer. While we think that creating ecosystem plans should be 
encouraged and that forage fish are an important part of the ecosystem, 
the Pacific Council has not taken the position that it is necessary 
have a mandate in the Act requiring such action.

               Question Submitted by the Hon. Joe Garcia
    Question. We have heard a great deal about the importance of 
socioeconomic considerations in the reauthorization of this Act. 
Assessing the impacts of fisheries management decisions on fishermen 
and their communities requires the collection and analysis of very 
specific economic data--data that would be shielded by very strict 
confidentiality rules under this draft legislation. Would this limited 
access to data inhibit the Councils and others from evaluating economic 
impacts? Could these restrictions also hamper attempts to institute 
cooperative research and management programs?

    Answer. Under the interpretation of current confidentiality 
requirements of MSA, we are sometimes challenged in fully analyzing the 
impacts of management alternatives. Therefore, we do not wish to see 
further tightening of confidentiality rules but instead recommend 
improving access to currently confidential harvest or processing 
information for purposes of enhanced socioeconomic analysis. There are 
instances where the Pacific Council has struggled with balancing the 
needs of fishing communities with proper conservation of fish stocks, 
and assessing how much an additional increment of conservation affects 
community business activity cannot be determined because the necessary 
socioeconomic data is not available.
    Additionally, interpretation of current confidentiality 
requirements have also challenged the development of cooperative 
partnerships. On the West Coast, as part of the trawl groundfish catch 
share program, a number of voluntary industry partnerships have 
developed to collectively better manage the constraining species held 
in order to most effectively access healthy target stocks. Cooperative 
or risk pool members' and managers' ability to voluntarily share data 
among fishery participants in order to facilitate these co-management 
partnerships have been hindered at times by agency concerns that 
requests by fishermen to share their own data would violate 
confidentiality rules. For this reason, further tightening of 
confidentiality rules under MSA could inadvertently hamper important 
co-management arrangements.
              Question Submitted by Congresswoman Hanabusa
    Question. I understand that regional fishery management council 
budgets have fluctuated significantly since 2012. What is the current 
budgetary situation for the Councils and how do you see this affecting 
your operations?

    Answer: The current budget situation (FY 2014) for Regional Fishery 
Management Councils (RFMC) remains unclear, pending congressional 
approval of a spending plan submitted by the National Marine Fisheries 
Service (NMFS). On February 25, 2014 the Council Coordinating Committee 
requested NMFS reconsider its initial plan to reduce funding from what 
had been expected (see attached letter), but were informed on March 18, 
2014 that while calculation corrections would be made to allocations, 
the policy decision had been made to forward a spending plan to 
Congress that called for $1M less funding to the Regional Fishery 
Management Councils (RFMCs) than expected.
    From the Pacific Council perspective, we feel it is important to 
receive adequate funding to accomplish the important obligations under 
the MSA. The amount to be received under the NMFS proposed spending 
plan is inadequate for the kind of operational activity needed at the 
Pacific Council. We feel the FY 2012 level of funding--which was stable 
at the 2011 level is the minimally adequate level that should be 
allocated by the NMFS for FY 2014, given the circumstances at hand. We 
also note that the total funding provided to the NMFS in FY 2014 is 
greater than FY 2012.
    The effect of any funding shortage on Council operations will be 
determined after a final congressional decision is made and the Pacific 
Council's Budget Committee considers alternatives. As the MSA 
reauthorization process proceeds, a new way of providing the proper 
appropriation to RFMC should be considered.

                                 ______
                                 

              Regional Fishery Management Councils,
                          Coordination Committee,  
                                                 February 25, 2014.

Ms. Eileen Sobeck, Assistant Administrator,
National Marine Fisheries Service,
Silver Spring, MD 20910.

Re: FY 2014 Funding Allocation to Regional Fishery Management Councils

    Dear Ms. Sobeck,

    Thank you for the presentation of Mr. Paul Doremus February 19, 
2014 on the status of FY 2014 National Marine Fisheries Service (NMFS) 
budget and current thinking on the allocation to Regional Fishery 
Management Councils (RFMC) at this time. As we understand the current 
state of spending plan development at this time, key information is as 
follows in terms of spendable dollars.


------------------------------------------------------------------------
        Funding Category                FY 2012             FY 2014
------------------------------------------------------------------------
NMFS Total Budget...............  $895.0 M..........  $992.3 M ($917.3
                                                       absent the $75 M
                                                       Disaster Fund)
NMFS ORF Budget.................  $804.7 M..........  $812.6 M
RFMC Allocation (all PPAs)......  $ 28.2 M..........  $ 26.5 M
------------------------------------------------------------------------


    Preparatory to this meeting, the RFMC were under the impression 
that a reasonable allocation in terms of spendable dollars would be 
approximately at the FY 2012 level and that agency management and 
administration user-costs would not be charged to RFMC in FY 2014, 
contingent to an in-depth discussion of the relevant issues at this 
meeting that was to be preparatory to FY 2015 decisionmaking. There are 
several components and ramifications of the described approach to 
resolve agency management and administration user-cost charges that 
remain unclear at this point.
    The RFMC view the best barometer of congressional intent for an 
RFMC allocation of traditional line items to be the Regional Councils 
and Commissions line item, which was $31.8 M in FY 2012 and $32.0 M in 
FY 2014. Given this, the key partnership role the RFMC play in the NMFS 
core mission, and the status of the NMFS budget, the RFMC request that 
you reconsider the current state of spending planning to reflect an 
allocation of $28.2 M in spendable dollars, reflecting stability with 
the FY 2012 status of funding.

            On behalf of the eight RFMC,
                                              Rick Robbins,
                                                 2014 CCC Chairman.

                                 ______
                                 

    The Chairman. Thank you very much. And I look forward to 
getting some feedback from the Council, obviously, when you do 
meet. So thank you very much for your testimony.
    Next we will recognize Mr. Bob Rees, the North Coast 
Chapter President of the Association of Northwest Steelheaders.

     STATEMENT OF BOB REES, NORTH COAST CHAPTER PRESIDENT, 
             ASSOCIATION OF NORTHWEST STEELHEADERS

    Mr. Rees. Good morning, Chairman Hastings, Ranking Member 
DeFazio, members of the committee. Thank you for the 
opportunity to provide comments on the Magnuson-Stevens Act 
reauthorization. My name is Bob Rees, and I am a sixth-
generation Oregonian. I have been fishing Oregon's rivers and 
Pacific Oceans since 1978. In 1996 I started a fishing guide 
business, and considered myself fortunate enough to spend time 
with beginners and expert fishermen, catching salmon, 
steelhead, sturgeon, and bottomfish. My business and livelihood 
depend on healthy fish populations.
    I have been both the beneficiary of sound, science-based 
management practices, and the victim of poor management 
decisions. I can tell you now we are on the right path for 
recovery, and can't afford to turn back the clock on the 
progress we have already secured, thanks in large part to the 
Magnuson-Stevens Act.
    Today I am privileged to provide testimony on behalf of the 
Association of Northwest Steelheaders. Founded in 1960, the 
Steelheaders is one of the oldest and most cherished sport 
fishing organizations in the Pacific Northwest. The 
Steelheaders mission is anglers dedicated to enhancing and 
protecting fisheries and their habitats for today and for the 
future.
    Before sharing my concerns with the draft proposal, I would 
like to present some overarching thoughts on fishery 
management. The United States has one of the most advanced 
fisheries management programs in the world, because it is based 
on science, and includes strong, clear accountability measures 
to prevent overfishing of recreationally and commercially 
important stocks. Changes to the Magnuson-Stevens Act in 1996 
and 2006, including timeline targets to rebuild depleted fish 
populations and requirements to set science-based annual catch 
limits that prevent overfishing, are working to ensure we enjoy 
more sustainable fisheries.
    Ending overfishing and rebuilding fisheries is not easy. 
But West Coast fishermen and coastal stakeholders have made the 
hard choices to end overfishing and steer us toward a more 
sustainable future. Unfortunately, other regions of the country 
put off the hard choices in the 1980s and the 1990s, and face 
difficult challenges rebuilding important fish stocks. The 
proposal to reauthorize the Magnuson-Stevens Act that is under 
consideration today would take us back to the old days, where 
politics, not science, drove management decisions, and resulted 
in many of the overfishing problems that we are still trying to 
fix today.
    Some specific concerns with the proposal include the 
proposal would allow overfishing to continue on depleted 
populations for at least 5, and possibly up to 7 years. When 
you have an overfishing problem, the last thing you want to do 
is allow more overfishing on vulnerable stocks that will make 
recovery more difficult, costly, and delay the achievement of a 
rebuilt population.
    The proposal would allow a suite of new broad exemptions 
for establishing a rebuilding timeline target, and delay the 
ultimate goal of rebuilding depleted fish populations. And the 
proposal would exclude many forage fish from requirements to 
set science-based annual catch limits, establishing a dangerous 
precedent that will likely compromise these volatile, 
economically important coastal fisheries.
    Instead of weakening the Magnuson-Stevens Act, we should 
build on our record of achievement. The Pacific Fishery 
Management Council is moving forward with initiatives to 
improve management by incorporating more ecosystem factors into 
conservation decisions. Specifically, the Council is leading 
the way in protecting small prey fish, called forage fish, that 
support a healthy ecosystem, and advancing ecosystem plans that 
consider factors beyond single species management.
    Forage fish and the habitats that support them are critical 
to the health of all ocean species, especially our commercially 
harvested fish that fuel our coastal communities. The 
Steelheaders have been very actively involved in these changes, 
and are proud of the work we have done to get these important 
changes in place.
    The next reauthorization of Magnuson-Stevens Act should 
help further advance ecosystem-based fishery management by 
focusing on protecting habitats, avoiding non-target species, 
accounting for the important role of forage fish in the ocean 
food web, and requiring ecosystem-level fishery management 
plans. Unfortunately, the proposal under consideration does not 
take that step forward, but jeopardizes the progress we are 
currently seeing under Magnuson-Stevens.
    Our goal, as consumptive users, is to continue to utilize 
this valuable natural resource for future generations to come. 
The best way to do that is to manage our Nation's fisheries 
proactively and conservatively. We already know that we have 
the capability to easily overfish this resource.
    In the late 1980s and 1990s, as a Department of Fish and 
Wildlife employee, and a Federal fisheries observer in the 
Bering Sea, I witnessed firsthand the hardships our ports 
experienced and suffered, due to the over-exploitation of this 
resource. Our fragile coastal communities cannot afford to 
relive the overfishing problems we experienced during these 
times. We can't again downsize a fleet that already operates on 
a shoestring.
    Thank you very much for considering these comments.
    [The prepared statement of Mr. Rees follows:]
    Prepared Statement of Bob Rees, President, North Coast Chapter, 
                 Association of Northwest Steelheaders

    Chairman Hastings, Ranking Member DeFazio and members of the 
committee, thank you for the opportunity to provide comments on 
Magnuson-Stevens Act reauthorization.

    I am a sixth generation native Oregonian. I have been fishing 
Oregon's rivers and Pacific Ocean since 1978. In 1996, I started a 
fishing guide business and consider myself fortunate to spend time with 
beginners and expert fishermen catching salmon, steelhead and sturgeon 
and bottomfish. My business and livelihood depend on healthy fish 
populations and sensible, science-based management of fish and coastal 
waters is essential to me, my family, my clients, my colleagues and my 
community. I've been both the beneficiary of sound management practices 
and the victim of poor management decisions. I can tell you now; we are 
on the right path for recovery and can't afford to turn back the clock 
on the progress that we've already secured.
    Today, I am privileged to provide testimony on behalf of the 
Association of Northwest Steelheaders (ANWS). Founded in 1960, the 
Association of Northwest Steelheaders is one of the oldest and most-
cherished sportfishing organizations in the Pacific Northwest. ANWS 
currently has 1,600 active members and 12 chapters in Oregon and 
southwest Washington. The Steelheaders mission is ``anglers dedicated 
to enhancing and protecting fisheries and their habitats for today and 
the future,'' and our vision is ``responsible and enjoyable sport 
angling with good access to healthy, abundant and sustainable fisheries 
in the Northwest's healthy watersheds.''
    Steelheaders respectfully submit the following comments regarding 
the reauthorization of the Magnuson-Stevens Act. Before highlighting 
several concerns with the draft proposal that is the subject of today's 
hearing, I would like to present some overarching thoughts on fishery 
management:

      <bullet>  The United States has one of the most advanced 
fisheries management programs in the world because it is based on 
science and includes strong, clear accountability measures that will 
prevent overfishing of recreationally and commercially important 
stocks. The Magnuson-Stevens Act provides the solid foundation for our 
management system and our Nation's commitment to support the long-term 
health of our ocean ecosystem, coastal economies and communities.

      <bullet>  Changes to the Magnuson-Stevens Act in 1996 and 2006--
including timeline targets to rebuild depleted fish populations and 
recent requirements to set annual science-based catch limits that 
prevent overfishing--are working and are helping the United States 
achieve its reputation as a global leader. We are turning the corner to 
end overfishing and rebuild depleted fish populations in U.S. ocean 
waters.

      <bullet>  In large part due to these requirements and the hard 
work of fishery managers, fishermen, scientists and others, 34 depleted 
fish populations have been restored to healthy levels since 2000, 
including Pacific lingcod off the Pacific Coast.

      <bullet>  According to the NOAA Fisheries, the number of fish 
populations subject to overfishing has declined from 72 stocks in 2000 
to just 28 in December 2013. We credit the combination of sound 
management practices and a rebounding ocean environment.

      <bullet>  Ending overfishing and rebuilding fisheries is not 
easy, but West Coast fishermen and coastal stakeholders have already 
made the hard choices to end overfishing and steer us toward a more 
sustainable future. Unfortunately, other regions of the country like 
New England put off the hard choices in the 1980s and 1990s, and are 
still paying the price with significantly depleted fish stocks and a 
Federal disaster declaration. It is time for the rest of the country to 
follow the lead of the West Coast and embrace science-based management, 
end overfishing and move fisheries management forward. This step 
requires a firm commitment and patience. It means we need to make some 
difficult sacrifices in the short-term to conserve and rebuild stocks 
to realize the long-term benefits of healthier fish populations and 
coastal environments.

    The recently released discussion draft of the MSA reauthorization 
bill would take us back to the old days where politics, not science, 
drove management decisions and resulted in many of the overfishing 
problems that we are still trying to fix today.

      <bullet>  Some specific concerns with the discussion draft 
proposal include:

        --  The proposal would allow overfishing to continue on 
depleted populations for at least 5, and possibly up to 7 years. When 
you have an overfishing problem, the last thing you want to do is to 
allow more overfishing on vulnerable stocks that will make recovery 
more difficult, costly, and delay the achievement of a rebuilt 
population. We need to stick to the current law that requires managers 
to end overfishing ``immediately''.
        --  The proposal would allow a whole suite of new exemptions 
for establishing a rebuilding timeline target. These new exemptions are 
broad, are not in line with science and would allow managers to avoid 
rebuilding depleted fish populations. In addition, the proposal would 
allow managers to rebuild ``as soon as practicable'', instead of the 
current goal to rebuild ``as soon as possible.'' In practice, this 
means they could allow economic and political reasons to put off 
rebuilding indefinitely, denying coastal communities, businesses and 
stakeholders of the benefits that would come with fully rebuilt 
fisheries.
        --  The proposal would restrict the public's ability to access 
fisheries data through changes to the law's confidentiality rules, 
including data that is collected with taxpayer dollars.
        --  Finally, the proposal would undercut the ability of the 
public to assess and mitigate the impacts of fishery management 
decisions by exempting key provisions of the National Environmental 
Policy Act and the Endangered Species Act from applying to the MSA.

    Instead of weakening the Magnuson-Stevens Act, we believe we should 
use this opportunity to build on a record of achievement. In many ways, 
the Pacific Fishery Management Council provides a solid example of what 
direction we should be taking. For example, the Council is moving 
forward with initiatives meant to improve management by incorporating 
more ecosystem factors into management decisions. Specifically, the 
Council is leading the way in protecting small prey fish, called forage 
fish, that support a healthy ecosystem and advancing ecosystem plans 
that consider factors beyond single-species management. These forage 
fish, and the habitats that support them, are critical to the health of 
ALL ocean species, especially our commercially harvested fish that fuel 
our coastal communities. Proposed modifications to Annual Catch Limits 
that exclude forage fish, sets an extremely dangerous precedent that 
will likely severely compromise these volatile, economically important 
coastal fisheries. The Steelheaders have been very involved with these 
changes and are proud of the work we have done to get these important 
changes enacted.
    In summary, we believe the Magnuson-Stevens Act is working. Sure, 
there is more work that needs to be done. But, we need to roll up our 
sleeves and continue the hard work to better ground fishery management 
in science, prevent overfishing, and rebuild stocks. It is time to 
build upon the successes of the 1996 and 2006 reauthorizations and move 
forward with ecosystem-based fishery management. We need to protect 
habitats, avoid non-target species, account for the important role of 
forage fish in the ocean food web, and require ecosystem-level fishery 
management plans.
    Unfortunately, the proposal under consideration jeopardizes the 
progress we are currently seeing under the Magnuson-Stevens Act. Our 
goal, as consumptive users, is to continue to utilize this valuable 
natural resource for future generations to come. The best way to do 
that is to manage our Nation's fisheries proactively and 
conservatively; we already know we have the capability to easily 
overfish this resource. In the late 1980s and 1990s, as a department of 
fish and wildlife employee and Federal fisheries observer in the Bering 
Sea, I witnessed first-hand the hardships our ports and fishermen 
suffered due to over-exploitation of this resource. Our fragile coastal 
communities cannot afford to relive the overfishing problems we 
experienced during these times. We can't again downsize a fleet that 
already operates on a shoestring.

                                 ______
                                 

  Question Submitted for the Record by Chairman Hastings to Bob Rees, 
 President, North Coast Chapter, Association of Northwest Steelheaders

    Question. How, in your testimony, did you come up with the 
potential for allowing up to an additional 7 years of fishing on 
already declared ``overfished'' stocks of fish?

    Answer. Thank you for the opportunity to respond to the question 
about how the draft proposal could allow overfishing to continue once a 
rebuilding plan is needed. The Magnuson-Stevens Act requires an 
immediate end to overfishing, but there are numerous examples of stocks 
still subject to overfishing. The act gives Councils 2 years to prepare 
and implement a rebuilding plan to end overfishing. The proposal would 
allow rebuilding plans to be phased-in over an additional 3-year 
period, providing up to 5 years to begin fully implementing a 
rebuilding plan. Finally, the proposal extends the time period Councils 
may use interim measures that would reduce--rather than end--
overfishing from 1 year to 2. I am concerned that a Council will push 
to use these provisions to potentially delay ending overfishing for up 
to 7 years. In the past, when Councils have had the discretion to allow 
overfishing to continue in a rebuilding plan, many have used it and 
would likely do so again.

                                 ______
                                 

    The Chairman. Thank you very much for your testimony. And I 
will now recognize Mr. Peter Shelley, Vice President of the 
Conservation Law Foundation.

 STATEMENT OF PETER SHELLEY, VICE PRESIDENT, CONSERVATION LAW 
                           FOUNDATION

    Mr. Shelley. Thank you. Good morning, Chairman Hastings, 
Ranking Member DeFazio, and members of the Natural Resources 
Committee. My name is Peter Shelley. I am senior counsel at the 
Conservation Law Foundation in Boston. I am not here this 
morning to talk about the economic disaster that some New 
England cod fishermen face. Congress has provided 32.8 million 
public taxpayer dollars in disaster relief to these fishermen, 
and the New England delegation deserves great credit for the 
work they did getting that funding.
    I am here to challenge the notion that the Magnuson Act's 
rebuilding requirements, quota accountability provisions, or 
the science-based quotas are in any way to blame for the loss 
of the Nation's oldest fishery on Atlantic cod. If the 2006 
amendments had been in place in New England in the 1990s, that 
$32.8 million could have been appropriated elsewhere in this 
recent appropriation. Over-fishing--not the environment, not 
sun spots, not seals, not ocean temperatures--overfishing fully 
explains why there are no cod to catch any more in New England. 
New England's fishermen were allowed to catch all the cod, 
because short-term economic needs and flexibility with even the 
minimum management goals overrode long-term economic benefits 
and sustainabilities.
    The fisheries that are in trouble in New England are in 
trouble because rebuilding was improvidently delayed, and 
ineffectually pursued. The future was sacrificed to the 
present. Even today there is still a directed commercial and 
recreational fishery on Atlantic cod in New England. Existing 
law allows managers to adjust rebuilding times to account for 
environmental factors or biological circumstances. New stock 
assessments allow managers to reset the rebuilding clock. And 
rebuilding control rules allowed fisheries to continue, even if 
the rebuilding is not accomplished on schedule. The law allows 
rebuilding quotas that have no better than a 50 percent chance 
of accomplishing their purpose. And quotas for cod and other 
groundfish in New England are always set at the highest level 
and at the highest risk level that can be legally allowed.
    As a result, overfishing on cod has been persisting, even 
after the 2006 amendments have come into place, and we have the 
disaster that we have with cod fishermen. This committee must 
not advance legislation that would recreate the very factors 
that led to the cod disaster in New England in the first place. 
Magnuson has not destroyed the New England groundfish fleet.
    What the industry representatives don't tell you when they 
argue that the law should be weakened so that they can continue 
to overfish cod is that groundfish permit holders have doubled 
their gross revenues from $226 million to $550 million from 
1996 to 2011, in constant dollars. Since the Magnuson Act has 
been strengthened, gross vessel revenues for fish and shellfish 
landed in New England have doubled, from $779 million to over 
$1.4 billion in constant dollars.
    Most, if not all, of the issues being debated in the 
discussion draft are the subject of active debate in science 
circles, at the management councils, and at NMFS. The committee 
should let those processes play out.
    At the same time, the discussion draft fails to address the 
real oncoming fisheries tsunami, and that is the ecological 
shifts and instabilities associated with climate change, 
already documented in New England, with ocean temperature 
increases, dropping pH levels, major fluctuations in plankton 
blooms, and shifts in species abundance and productivity. More 
than 74 percent of the gross revenues in New England in 2010 
came from shell-forming animals like scallops and lobsters, 
that are likely to be affected by climate change.
    Congress needs to reach bipartisan agreement on measures 
that push fishery management councils and NOAA to develop more 
comprehensive and dynamic management approaches, based on 
ecosystem-based fisheries management, expanded habitat refuges 
and reference sites, protection of forage fish, and other 
approaches that have been strongly recommended by the 
scientific community in anticipation of these oncoming 
ecological shifts. The discussion draft's preoccupation with 
weakening Magnuson provisions that are working now, as Congress 
intended, is a distraction from the real needs of this Nation's 
fisheries and ocean resources.
    The future of our fishing communities and the health of our 
oceans relies on Congress taking a sober, bipartisan view of 
what is really at stake in the legislative choices it makes. 
The committee should approach Magnuson reauthorization based on 
hard fact, and a firm commitment to the best welfare of future 
generations of fishermen.
    Thank you for your consideration of my comments.
    [The prepared statement of Mr. Shelley follows:]
Prepared Statement of Peter Shelley, Esq., Vice President, Conservation 
                          Law Foundation, Inc.
    Chairman Hastings and members of the Committee on Natural 
Resources, thank you for your invitation to participate in today's 
hearing on the discussion draft developed by the committee, currently 
identified as H.R. 4742, Strengthening Fishing Communities and 
Increasing Flexibility in Fisheries Management Act (``Reauthorization 
Discussion Draft''), for purposes of considering potential 
reauthorization amendments to the Magnuson-Stevens Fishery Conservation 
and Management Act, 16 U.S.C. Sec. Sec. 1801 et seq.
    My name is Peter Shelley and I am a vice president and senior 
counsel with the Conservation Law Foundation, Inc. (CLF), on whose 
behalf I am testifying today. I have worked on a range of marine 
conservation issues during my professional career and have been in 
charge of fisheries management efforts at CLF since 1989. I represent 
CLF on the Marine Fish Conservation Network, based in Washington, DC, 
an umbrella network comprised of fishermen, conservationists, 
scientists and private citizens. I have also been an avid recreational 
freshwater and marine fisherman my entire life.
    My testimony today is based on my direct, personal experiences with 
fisheries management in New England over the past 25 years, 
particularly with the management of the iconic and historic groundfish 
fishery in New England. This fishery includes such economically and 
ecologically important fish as Atlantic cod, haddock, a number of 
flounder species, Acadian redfish, and others, a number of which have 
supported the New England fishery since the 1600s.
    Almost 40 years after Congress adopted the first comprehensive 
fishery management law to stop overfishing and produce optimum yield in 
the Nation's fisheries, this fishery and its dependent fishing 
communities continue to struggle with the economic and social 
instability produced by decades of chronic overfishing and 
mismanagement. The unfortunate and totally avoidable state of this 
historic fishery is reflected directly in the recent disaster funding 
that Congress directed toward New England in the FY 2014 Omnibus 
Appropriations.
    I will focus my testimony today on two aspects of the 
reauthorization discussion draft because of their potential direct and 
negative impacts on these troubled groundfish fisheries in New England: 
first, the proposed provisions to provide additional so-called 
``flexibility'' and delays in the management responses to overfished 
fish populations, and second, the proposed provisions to allow fishery 
management councils to ignore the catch advice of their respective 
science and statistical committees.\1\
---------------------------------------------------------------------------
    \1\ These measures are found in Sections 3 and 4 of the 
Reauthorization Discussion Draft. CLF is also very troubled by the 
Section 6 provisions related to the Endangered Species Act, the 
National Environmental Policy Act, the National Marine Sanctuaries Act, 
and the Antiquities Act and believes that Section 6 is fundamentally 
flawed and would be destructive Federal policy if enacted. We will 
provide separate comments on those measures as the reauthorization 
process evolves.
---------------------------------------------------------------------------
    From our perspective and the experience in New England, Chairman 
Hastings, the reauthorization discussion draft proposes re-opening the 
regulatory door to management approaches that have repeatedly failed in 
New England, that have put fisheries managers in impossible positions 
that overweighed short-term economic perspectives, and that have cost 
New England coastal communities jobs and economic opportunity. CLF 
strongly believes that it is important to New England's fishing future 
that Congress acts in ways that build on the success of the 2006 MSA 
reauthorization and avoid drastic revisions that would diminish the 
accountability and science-based management prescriptions that have 
finally started to produce healthier fish populations and more 
successful fishing businesses in New England.
    The Federal fisheries in New England that are currently still in 
trouble are not failing because the Magnuson-Stevens Act is too rigid, 
but rather because the law prior to 2006 was too flexible; the law 
failed to hold managers accountable for their results and allowed them 
to ignore science-based fishing limits. These were fundamental 
structural flaws in Magnuson-Stevens before 2006. I have studied many 
fisheries during my career, both in the United States and abroad. 
Without exception, the successful fisheries are founded on good 
science, accountability for results, healthy fish and shellfish 
populations, and an execution of long-term and sustainable economic 
strategies by fishery managers.
    Congress fixed those flaws in Magnuson-Stevens in 2006 and must 
continue its bipartisan support of the Magnuson-Stevens Act. In our 
view and notwithstanding the committee's best intentions, many of the 
provisions of the Reauthorization Discussion Draft re-introduce failed 
management approaches, approaches that have been documented in New 
England to hurt, not help, fishing communities and fishermen.\2\
---------------------------------------------------------------------------
    \2\ Among the factors that kept fish populations from rebuilding 
despite fishing rates being set at low levels identified in the NRC 
Report entitled Evaluating the Effectiveness of Fish Stock Rebuilding 
Plans in the United States, (NRC 2013) were: ``ineffective input 
controls [gear restrictions, closed areas and the like] and lack of 
accountability measures, difficulties of reducing fishing mortality of 
species caught as bycatch in other fisheries, or errors in the 
estimates of stock size that led to catch limits that were too high.'' 
Id. at 6. The 2006 Magnuson-Stevens Act amendments were designed to 
address many of those documented problems.
---------------------------------------------------------------------------
    At the same time, we believe strongly that there are some critical 
and time-sensitive changes to the Magnuson-Stevens Act that are 
appropriate for reauthorization debate that are not in the 
Reauthorization Discussion Draft and need to be. Among the strongest 
recommendations to come from the recent National Research Council 
report entitled Evaluating the Effectiveness of Fish Stock Rebuilding 
Plans in the United States were the recommendations to advance the 
application of ecosystem-based fisheries management (EBFM) principles 
to U.S. fisheries. EBFM principles are the bridge between the 
limitations and challenges of single-species management that the NRC 
report identifies and the dynamic and adaptive requirements of 
fisheries management in the modern era that the NRC report points to. 
While we would share the report's view that EBFM is ``still only 
conceptually defined,'' \3\ it is the direction that fisheries 
management science is headed and could supply robust management 
responses to many of the concerns raised in other testimony to this 
committee.
---------------------------------------------------------------------------
    \3\ NRC Report, supra, page 180.
---------------------------------------------------------------------------
    CLF believes that any reauthorization of the Magnuson-Stevens 
Reauthorization Act should recognize this growing body of science and 
include measures designed to force the consideration and implementation 
of ecosystem-based fisheries management approaches including, in 
particular, an expanded approach to spatial controls and habitat-based 
approaches to achieve healthy and diverse fish populations, special 
protection of forage fish populations, and continued progress in 
bycatch reduction. The importance of this focus is heightened by the 
ecological instability and changes that are already being observed and 
felt in New England from sea temperature rises, increased ocean 
acidification, and changes in plankton bloom timing and abundance.
    With that as introduction, I would now like to turn to a discussion 
of what I would call the three myths about New England groundfishermen 
that I sometimes hear circulating around Washington in discussions 
about fisheries and the Magnuson-Stevens Act.
The Three Myths About the New England Groundfishery
    New England's groundfish fishery has suffered ups and downs since 
the 1600s. It has been in sustained trouble since the mid-1980s and 
cod, haddock and yellowtail flounder were officially declared to be 
overfished in a management plan as long ago as 1990. Cod, coastal 
haddock, and yellowtail flounder are still overfished, 24 years later. 
This fact has costs hundreds if not thousands of fishing captains, crew 
and boat owners their livelihoods, at least to the extent they were 
solely dependent on those species. But the notion that the current 
provisions of the Magnuson-Stevens Act are somehow behind this problem 
is false.
    The first myth is that the rigidity of the Magnuson-Stevens Act has 
devastated New England's groundfish boats. There is a fisheries crisis 
in New England in the groundfish fishery but only with respect to a 
number of the once plentiful fish species in that fishery that have 
been wantonly and chronically overfished and mismanaged for decades 
under prior ``flexible'' management rules. The truth is that most of 
our fisheries are healthy and sustainable.
    From 1996 when the Sustainable Fisheries Act went into effect 
through 2011,\4\ gross boat revenues for all fish and shellfish landed 
in New England grew from $779 million to over $1.4 billion (2010 
dollars). Massachusetts' fishermen increased their gross revenues from 
$316 million to $531 million (2010 dollars). Groundfish permit holders 
in New England have increased their gross revenues from $226 million to 
$550 million, primarily by diversifying their catch to alternative, 
more abundant and better-managed fish species. There are also positive 
signs in the groundfish fishery for many stocks and a number of quotas 
increased last year. With continued rebuilding achieved by effectively 
lowering fishing mortality below levels recommended by the scientists, 
these groundfish stocks should recover and support new opportunities to 
grow and diversify fisheries in New England.
---------------------------------------------------------------------------
    \4\ These are the latest NMFS economic data to which CLF has 
access. We are currently updating those numbers to include 2012, which 
data are now available to CLF.
---------------------------------------------------------------------------
    These are some of the first promising economic signs seen in New 
England groundfishery in decades and they are the largely the result of 
the steps that Congress took in 2006 to force fisheries managers to 
prevent overfishing, to rebuild overfished stocks quickly, and to use 
science-based quota setting. Fishermen and fishing communities across 
New England paid a terrible price because those same actions were not 
taken earlier when the law allowed more ``flexibility'' in setting 
harvest levels. For many fishermen who face economic challenges, short-
term economic returns are almost always the most important objective. 
For a healthy fishery, a focus on short-term economic returns is almost 
always the wrong basis for fisheries management.
    The new provisions in the Magnuson-Stevens Act are beginning to 
work, and in many cases working well for many New England fishermen, 
particularly those fishermen who have decided for a variety of reasons 
to stop fishing on the depleted groundfish species and who now target 
more abundant and better-managed stocks. Increased ``flexibility'' to 
extend overfishing in Magnuson-Stevens Act is not necessary for these 
fishermen; indeed, it will put their successful fisheries at increased 
risk of future failure. There are few areas of human endeavor where the 
law of unintended consequences operates with such enthusiasm as 
fisheries management and CLF believes that many of the provisions of 
the Reauthorization Discussion Draft will have the exact opposite 
result of the one they are intended to achieve.
    This point of this testimony is not to suggest that individual 
groundfishermen have not suffered significant economic or social harms 
over the past several decades. As indicated above, the management 
failure to set catch levels on cod and haddock and other groundfish at 
appropriate levels in the 1990s virtually guaranteed that a number of 
the groundfish populations would fail to rebuild and, indeed, would 
likely plummet even further. Fishermen who did not anticipate this 
reality and stayed focused on harvesting some of the most heavily 
targeted species like cod and yellowtail flounder saw their 
opportunities disappear in the first decade of this century along with 
the fish. There is nothing that relaxing the Magnuson-Stevens Act might 
do to provide a different future for these fishermen; the fish simply 
aren't there. But if there is to be a future cod fishery, then the 
answer in New England--as it was in Atlantic Canada--is to close the 
fishery and protect the large spawning female cod in order to give this 
fish every chance possible, not to create a legislative loopholes to 
allow any more overfishing of a fully depleted stock.
    The second myth is that the problems with depleted stocks like 
Atlantic cod have nothing to do with fishing effort, or that fishing 
levels have nothing to do with stock abundance. According to this myth, 
fishermen in New England are in compliance with their catch limits and 
Atlantic cod are still depleted and not rebuilding so the fishermen are 
not to blame.
    The myth is false because it suggests the catch levels in New 
England have always been within their biological limits. It is true 
that the fishing industry is not to blame for these damaging catch 
limits because they don't set the fishing levels, although they have 
always pushed hard through the council system and through political 
channels for the highest levels the managers would give them. Even 
though the MSA was revised in 2006, New England's groundfish fishery 
did not institute hard catch limits until May 2010. Moreover, in the 
last 2 years, the groundfish fleet hasn't even caught most of the fish 
it was been authorized to catch because they can't find the fish 
anymore. Through the mid-2000s, though, the industry often caught more 
fish than the quota--sometimes even several multiples of the quota. 
Only the 2006 amendments to the Magnuson-Stevens Act forced the catch 
levels to be treated as hard limits, not aspirations. Aspirational 
limits were not kind to fishermen; they put many, many New England 
fishermen out of work.
    More importantly, based on the NMFS stock status reports, 
groundfish stocks continue to be overfished and experiencing 
overfishing to the current day.\5\ I will use the two stocks of 
Atlantic cod to illustrate this fact. Gulf of Maine Cod is reported as 
overfished in 15 out of the last 17 years \6\ and Georges Bank cod was 
overfished for 13 out of the last 17 years. Overfishing was happening 
with Gulf of Maine cod 13 out of the 14 years reported to Congress 
through 2013, and 12 out of 14 years with Georges Bank cod. Atlantic 
cod are depleted as a direct result of overfishing.
---------------------------------------------------------------------------
    \5\ 2013 Status of U.S. Fisheries (NMFS) Table A at 4-6 (http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2013/fourth/
Q4%202013%20Stock%20Status%20Tables.pdf).
    \6\ Moreover, the 2 years when Gulf of Maine cod were not 
considered to be overfished was the result of science error in the 
assessment; they were determined later to be overfished in fact both 
years.
---------------------------------------------------------------------------
    This illogic of this persistent overfishing of Atlantic cod--how 
can fishermen be fishing within their limits and still have overfishing 
occurring?--introduces the third myth, the myth that the Magnuson-
Stevens Act imposes rigid, unrealistic rebuilding schedules that 
arbitrarily require rebuilding to a fixed biomass by a fixed time. The 
truth is that while the law sets a 10-year time limit as the default 
maximum rebuilding period, that limit is hardly rigid and neither the 
managers nor the fish obey it.
    The current requirement is that overfished stocks of fish should be 
rebuilt in a time ``as short as possible,'' 16 U.S.C.A. 
Sec. 1854(e)(4), and, in any event, within 10 years of being declared 
to be overfished ``except where the biology of the stock of fish, other 
environmental conditions, or management measures under international 
agreement in which the United States participates dictate otherwise.'' 
16 U.S.C.A. Sec. 1854(e)(4)(ii). The language of the law already allows 
exemptions to that 10-year period if exemptions are justified by 
considerations that are independent of current fishing effort.
    Many of New England's groundfish have rebuilding plans that are 
based on terms exceeding 10 years. As noted above, Georges Bank cod has 
been formally determined to be overfished since 1990 and still has 12 
years left in their projected rebuilding program. If that timeline is 
not met for any possible number of reasons, the rebuilding framework 
will be extended based on a control rule adopted by NMFS and the New 
England Fishery Management Council. Numerous stocks of Federal managed 
fish have rebuilding requirements that exceed 10 years and, in some 
regions, we understand that the majority of a Council's stocks exceed 
the 10 years under existing law.
    Rebuilding catch limits that are prescribed for an overfished stock 
are hardly even prescriptive; they don't have to have produce any 
higher than a 50 percent probability of succeeding in accomplished the 
projected rebuilding within the stipulated time period. The current law 
allows the rebuilding probability for the stocks in the worst trouble, 
the stocks in a rebuilding program, to have the same odds as a coin 
toss. And if circumstances change during that rebuilding that are 
identified in the periodic stock assessments, that rebuilding framework 
itself can be and is revisited by managers.
    In New England, with only one or two exceptions that I can remember 
over the past two decades, managers have always opted to take the 
highest risk rebuilding strategy to protect short-term economic 
objectives, that is, the longest time allowed for rebuilding at the 
highest level of catch. These levels often end up being too high in 
retrospect, which is why fisherman can point to their compliance with 
fishing quotas in New England--as with the Atlantic cod example above--
while scientists continue to conclude after each new stock assessment 
that overfishing is still taking place. There was a built-in 50 percent 
chance that the levels would be too high to begin with, that 
overfishing would occur under that harvest cap in the first place. The 
current law already allows fishery managers to take risks with their 
fundamental inventories that private business managers would consider 
reckless.
Congress Got It Right: Successful Fisheries Require Accountability, 
        Science-Based Quotas, and Healthy Fish Populations.
    In 2006, Congress passed the Magnuson-Stevens Fishery Conservation 
and Reauthorization Act of 2006, Pub. L. 109-479, 120 Stat. 3575 (2007) 
with strong bipartisan support. Mindful of the situation in New England 
and in other troubled fisheries around the Nation and after receiving 
extensive testimony and material, Congress used this reauthorization to 
make some significant changes to the Magnuson-Stevens Act to fix 
critical structural problems in the law. Specifically, the 
reauthorization prohibited overfishing during the rebuilding period of 
a fish stock; it imposed accountability measures on the managers in the 
form of requiring annual catch limits; and it required accountability 
management measures if a fishery exceeded its annual catch limit. The 
2006 reauthorization also emphasized the importance of science-based 
fishery management plans in U.S. fisheries, requiring, for example, 
that all fishery management councils have a standing committee of 
science experts to advise the Council on setting fishery specifications 
and having the authority to set maximum harvest rates that a fishery 
could not exceed. These are reasonable and well-grounded requirements 
that are used by all successful fisheries in industrialized nations 
around the world.
    The 2006 reauthorization addressed an explicit congressional 
conclusion with respect to the Nation's fisheries that had come at a 
high price: the historic flexibility, discretion, and latitude 
associated with many--but not all--of fishery management plans being 
developed by the regional councils was doing harm to the Nation's 
interests by delaying the achievement of optimum yield on a continuing 
basis for the Nation's fisheries. In too many fisheries, overfishing 
had become a way of life; it had become institutionalized in the 
system. Nowhere were the economic, social, and ecological costs of this 
delay in stopping overfishing more apparent and more devastating than 
in New England's groundfish fishery. Those were important and necessary 
legislative changes. Nothing has changed to support departing from the 
current provisions of the law.
    While a set of 2006 amendments may seem like ancient history in 
Washington, DC in 2014, it is important to recognize that the positive 
productivity changes and economic benefits associated with these new 
management requirements are only now beginning to be observed around 
the country. The New England Council's first groundfish plan under the 
2006-reauthorized Magnuson-Stevens Act did not take effect until May 1, 
2010, less than 4 years ago. At the time the new provisions took 
effect, economic analysts indicated that the potential economic losses 
associated with this fishery management plan (known as Amendment 16) in 
the first year could be on the order of 15.2 percent, or $15 million, 
as a result of the scientific recommendation of cutting back groundfish 
landings by over 47,000 metric tons of fish. The new accountability and 
science-based quota setting provisions in New England did not, in fact, 
produce those dire predictions in New England's groundfish fleet.
    In fishing year 2010, when large quota cutbacks to stop overfishing 
and rebuild cod stocks were finally required, gross groundfish revenues 
stayed relatively flat with a decline of only $0.209 million or ^0.002 
percent, while the gross total revenues earned by those same groundfish 
boats (including the revenues from the other species they landed) grew 
$28.110 million, or a 10.6 percent increase over 2009 (2010 
dollars).\7\ In the 2011 fishing year, groundfish revenues increased 
$5.272 million, + 6.3 percent, over 2009 groundfish revenues and total 
gross revenues increased $58.554 million, a 22 percent increase over 
2009 revenues (2010 dollars). In the 2012 fishing year, when even 
further heavy groundfish quota cuts were required, total groundfish 
revenues declined $16.134 million from 2009 groundfish revenues but 
total revenues remained $28.750 million above 2009 levels (2010 
dollars).\8\
---------------------------------------------------------------------------
    \7\ The data in this paragraph is derived from the Murphy et al., 
2012 Final Report on the performance of the Northeast Multispecies 
(Groundfish) Fishery (May 2012-April 2013), Table A. It can be found 
online at http://www.nefmc.org/index.html.
    \8\ This analysis does not include any changes in the net revenues 
for groundfish boats during those years and there were some increased 
quota leasing costs. The analysis also does not explore the 
distributional aspects of those increased total gross revenues, i.e. 
whether the Council succeeded in fairly distributing this fleet's 
access to New England fish populations, either by boat size or by 
State. Much of that data, unfortunately, is not available to the 
public.
---------------------------------------------------------------------------
    Total gross revenues to groundfish boats in 2012 were roughly twice 
the average gross revenues to the groundfish fleet averaged over the 
2005-2007 fishing years (nominal dollars).\9\ The New England 
groundfish fleet has demonstrated on the water that it can accommodate 
full accountability to science-based quotas while growing the value of 
the fleet's landings through species diversification.
---------------------------------------------------------------------------
    \9\ This analysis was derived by comparing the revenues set forth 
in the report identified in fn. 7 with economic analysis from Amendment 
16 to the Northeast Multispecies (Groundfish) Fishery Management Plan, 
Table 255 on p. 691. Amendment 16 can be found online at http://
www.nefmc.org/nemulti/index.html.
---------------------------------------------------------------------------
    The New England groundfishery as well as the other New England 
fisheries are performing better as a result of implementation of the 
2006 amendments to the Magnuson-Stevens Act. Congress should stay the 
course with responsible rebuilding requirements and science-based quota 
setting to ensure economic opportunity for the region's fishermen.
    Thank you for inviting us to testify in this hearing and for 
considering our testimony.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Shelley. And now we 
will recognize Mr. Zeke Grader, Executive Director of the 
Pacific Coast Federation of Fishermen's Associations.
    You are recognized for 5 minutes.

  STATEMENT OF W.F. ``ZEKE'' GRADER, JR., EXECUTIVE DIRECTOR, 
      PACIFIC COAST FEDERATION OF FISHERMEN'S ASSOCIATIONS

    Mr. Grader. Thank you, Chairman Hastings and Mr. DeFazio. 
Thank you for the opportunity to testify here this morning. The 
Pacific Coast Federation of Fishermen's Associations represents 
working men and women in the West Coast commercial fishing 
fleet, and this will be our fourth reauthorization that we have 
participated in. And we have watched the Act as it has evolved 
since first passage in 1976.
    I should say, Chairman Hastings, that we have gone through 
the committee's draft, the ``Strengthening Fishing Communities 
and Increasing Flexibility in Fisheries Management Act.'' The 
first thing I would say is that you probably ought to change 
the name. It is too long. And I can tell you, from an 
organization, just trying to say it in testimony, it is too 
long. Come up with something shorter. But there are a number of 
provisions that we really want to commend the committee that we 
do like in your draft.
    First of all, I think it is long overdue that we recognize 
that not all depleted fish stocks are overfished. We have 
certainly seen that with coho on the West Coast, where in some 
cases we have had no fishing for 20 years. The stocks are 
depleted, but not because of fishing, but because of habitat 
degradation. And that needs to be recognized. And I think 
certainly in the future, as Mr. Shelley mentioned with climate 
change, we are probably going to be looking at more stocks that 
are going to be at risk, not because of fishing, but because of 
climate change, or even pollution. So I think changing the term 
is long overdue. That is not to say, however, that we would 
condone any overfishing.
    I also think your suggestion in the draft to look at 
alternatives to annual catch limits makes sense, not that 
annual catch limits are not a good thing, but they don't work 
for every fishery, particularly those where we don't use quota 
management.
    Two good examples are Pacific salmon, where, at least along 
the West Coast, we use quotas only sparingly. Yet, at the same 
time, we have protected against overfishing, and these are 
managed sustainably. Another example, of course--but it is a 
State-managed fishery--is our Dungeness crab, which are not 
managed by quota. But, in fact, we use a different form of 
management, but they are well managed and not overfished. So, I 
think looking at alternatives where appropriate to ACLs may be 
good, where the particular fishery does not lend itself to 
quota management.
    I also really want to applaud the committee draft in 
promoting electronic monitoring. We believe very much that 
monitoring of our catches has to take place. The problem is 
onboard monitors, particularly on small boats and small 
fisheries does really very little, other than make it so cost-
prohibitive for fishermen to operate, that we need to have some 
other alternative to that.
    And finally, on the referendum on catch shares, this is 
needed. But it is also needed on the West Coast. West Coast 
fishermen deserve a vote on the fisheries that they are to be 
managed under.
    We do, however, have some problems with the draft. And our 
biggest problem is in the attempt to address flexibility. 
Indeed, we think flexibility already exists in the Magnuson 
Act. But I think we really do need to stay the course on strict 
adherence to prohibiting overfishing, strict adherence to 
rebuilding plans, and strict adherence to good science.
    I just spent the last couple days in Half Moon Bay at the 
World Oceans Conference, and there was all kind of talk there 
about overfishing. We fishermen were not invited to speak, but 
we could have told them that in the United States we are making 
progress on eliminating overfishing. I would like to be able to 
go back to that conference 2 years from now and tell them we 
have eliminated overfishing in the United States. And I think 
we can do that by adhering to the current law.
    We also have a number of changes that we think need to be 
made in Magnuson that are not part of the draft bill, most 
specifically addressing community fishing associations, the 
need for Congress to do something. Because, to date, both the 
National Marine Fisheries Service and the Councils have been 
derelict in carrying out the charge by Congress in the 2006 
reauthorization to establish community fishing associations. 
And I would be glad to address that, or talk to the committee 
further about it.
    One final note. We have to finally start looking at how do 
we fund our fisheries. We have come up with some ideas in the 
past where there would be establishing a trust fund, say, 
funded by an ad valorem fee on all fish sold in the United 
States. There have been alternative proposals, such as looking 
at the Saltonstall-Kennedy Act. But we really do have to find 
the funds necessary to pay for the science and other needs we 
have for our fisheries. Otherwise, we are going to continue to 
be in crisis every 10 years we come back to see you on 
reauthorization. Thank you.
    [The prepared statement of Mr. Grader follows:]
 Prepared Statement of W.F. ``Zeke'' Grader, Jr., Executive Director, 
          Pacific Coast Federation of Fishermen's Associations
    Good morning Mr. Chairman and members of the Natural Resources 
Committee. My name is Zeke Grader and I am the Executive Director for 
the Pacific Coast Federation of Fishermen's Associations (PCFFA). I 
wish to thank the committee for its kind invitation to testify here 
today.
    By way of introduction, I grew up on California's north coast where 
my father was a fish processor and I worked in fish processing plants 
through law school and until I was hired by the PCFFA in 1976.
    PCFFA was incorporated the same year as the passage of the Fishery 
Conservation & Management Act; prior to that, a number of PCFFA's 14 
member organizations supported establishment of a ``200 mile fisheries 
act.'' That campaign, as you know, culminated in the passage and 
signing of H.R. 200 in 1976, creating a 200-mile fishery conservation 
zone and establishing the eight regional fishery management councils to 
develop management measures within these newly established Federal 
waters. PCFFA, thus, has considerable experience with the law and this 
upcoming reauthorization of the MSFCMA will be the fourth now that 
PCFFA and I have participated in.
    In addition to my position with PCFFA, I also serve as Executive 
Director for PCFFA's sister organization, the Institute for Fisheries 
Resources (IFR), a 501(c)(3) non-profit engaged in research, outreach 
and education on behalf of working men and women in the commercial 
fishing fleet. I should also add that I am the vice-chairman of the 
Golden Gate Salmon Association, a member of the executive committee of 
the Marine Fish Conservation Network and am currently working with the 
Pew Charitable Trusts, principally on funding issues related to our 
fisheries. My testimony here today, however, is on behalf of the PCFFA 
and no other organization.
    I have attached two PCFFA columns from the Fishermen's News, one 
from last year and one from this month, of our ideas on the upcoming 
reauthorization of the Magnuson-Stevens Act (MSA), including in the 
February some thoughts on the Natural Resource Committee's draft 
legislation, the ``Strengthening Fishing Communities and Increasing 
Flexibility in Fisheries Management Act''.
                              some context
    To provide the committee the rationale behind our position, it is 
useful to review PCFFA's involvement in the past three 
reauthorizations. In the 1980's reauthorization, PCFFA, based on its 
experience with salmon and the Pacific Fishery Management Council, 
worked to include fishery habitat language in the FCMA, where the 
impacts of habitat degradation on Pacific salmon stocks was being 
largely ignored by the Pacific Council. PCFFA also worked to get report 
language on the need for a commercial salmon fisherman representative 
on that Council. The most regulated fishery under the Pacific Council 
at that time, commercial salmon trollers were treated as poor 
stepchildren by the Pacific Council and National Marine Fisheries 
Service until passage of that first reauthorization.
    The Pacific Council and NMFS aggressively regulated the ocean 
salmon fishery from the beginning, heeding the FCMA's prohibition on 
overfishing. That was not the case with other fisheries, however, 
particularly mixed stock fisheries. By the 1990s it was becoming 
evident that some stocks were being overfished, such as some of the 
groundfish complex. In the 1995-96 reauthorization, PCFFA, as a 
commercial fishing member of the Marine Fish Conservation Network, a 
broad coalition of organizations working for sustainable fisheries, 
supported language aimed at ending overfishing. We recognized that 
overfishing was not in the best long-term economic interest of the 
fleet and had to be ended if we hoped to have robust fisheries again.
    In 2006, PCFFA supported further amendments to the Magnuson-Stevens 
Act--beyond the explicit language to end overfishing--requiring strict 
stock rebuilding plans and adherence by the Council's to the fishery 
science. Based on the past 2 years' status of U.S. fishing stocks 
reports, the 1996 and 2006 amendments to the MSA--on overfishing, stock 
rebuilding, and adherence to science--are working.
    We also recognized the problems with much of our fishery science; 
it sometimes did not cover the total range of a stock, in other 
instances the stock assessments were too infrequent and not accurately 
reflecting the condition of the current population, and sometimes those 
doing the stock assessments simply didn't know how to fish to be able 
to accurately assess fish stock abundance. The problem we saw, that 
still exists today, is not with the MSA, but that there never have been 
sufficient resources appropriated for the research and stock 
assessments needed to sustainably manage our fisheries.
    In recognition of the problem of funds for fishery science, PCFFA 
in its August 2003 the Fishermen's News column (http://www.pcffa.org/
fn-aug03.htm) called for establishment of a national fisheries trust 
fund, with its own financial support source(s) and outside of the 
annual congressional appropriations process, to pay for fishery 
science, as well as other fishery needs, including development of more 
selective fishing gear, disaster relief, even underwriting a catch 
insurance program. In the 2006 reauthorization, language by Senators 
Stevens and Boxer to establish a fishery trust fund was incorporated in 
the reauthorization bill. Identifying a financial source, or sources, 
to provide the support needed for the fund, however, was left until 
another day. And, it is establishing a stable and ample funding source 
for fishery science and other fishery needs is what is really needed 
now, not weakening the existing MSA.
some thoughts on the ``strengthening fishing communities and increasing 
               flexibility in fisheries management act''
    Given the history PCFFA has with the Magnuson-Stevens Act, we have 
the following recommendations regarding provisions of the draft 
``Strengthening Fishing Communities and Increasing Flexibility in 
Fisheries Management Act'':
    ``Flexibility,'' Overfishing, and Rebuilding Periods. PCFFA is not 
insensitive to the plight of fishermen in other parts of the Nation, 
particularly New England. We have felt the pain. Our members have gone 
through highly restricted seasons, when stocks were down--and through 
no fault of our own. In the early 1990s we were forced to seek disaster 
relief, as a result of the impacts of a multi-year drought on salmon 
stocks. In this century our salmon fisheries were all but closed for a 
2-year period in 2004-2005 because of Federal water policy impacts on 
salmon in the Klamath Basin. Our salmon fishery was totally closed in 
2008-2009 due to impacts from earlier State and Federal water 
operations in the Sacramento-San Joaquin Delta estuary that decimated 
juvenile salmon populations.
    The problem is, we don't see what will be gained by continuing to 
fish down stocks or put-off rebuilding--which is exactly what would 
happen under the ``flexibility'' that is being proposed by some fishing 
groups and incorporated in the draft bill. What is to be gained by 
overfishing for an additional 5 or 7 years? It simply puts off the day 
of reckoning, with the fleet trying to survive in the short term on 
depleted stocks when it could be thriving in the long term fishing on 
rebuilt stocks.
    In fact, the MSA already has a great deal of flexibility in how 
long those plans should be. As you know, the law's 10-year target for 
rebuilding can be exceeded due to the biology of the species, other 
environmental conditions or if the stock is managed under an 
international agreement. In addition, the Councils have amended a 
rebuilding plan when new scientific information indicates conditions 
have changed. The existing flexibility in the law is clear when you 
consider that more than half of the current rebuilding plans (23 of 43) 
are longer than 10 years.
    For example, the rebuilding time for ocean perch off the Pacific 
coast was recently extended for an additional 3 years based on a new 
stock assessment. Other stocks, like cowcod, have had their rebuilding 
times modified based on updated scientific information, and have 
rebuilding timelines that far exceed the 10-year limit--in the case of 
cowcod the rebuilding period is 67 years.
    There is significant flexibility in the MSA, and we need to use the 
Pacific as an example of how the existing flexibility can produce 
results in rebuilding and advance sustainable fisheries and coastal 
communities.
    The better answer it would seem would be to provide some form of 
interim financial help to the affected fleets, allowing stocks to 
rebuild, while working to improve our fishery science to know when to 
allow higher catch levels and/or to develop more selective fishing 
practices, where possible, to allow targeting on abundant species while 
avoiding those still undergoing rebuilding.
    We urge the committee, therefore, not to change the existing law 
regarding overfishing and stock rebuilding.
    National Environmental Policy Act (NEPA) Compliance. PCFFA 
recognizes that many of the regional councils would like to do away 
with the NEPA requirements for fishery management plans and amendments. 
NEPA, however, requires a full analysis of an agency action and for a 
range of options to be considered. These two provisions of NEPA are 
very important for our fishermen and fishing communities. Considering 
the Councils do not always act in the best interests of fish stocks, 
fishermen or fishing communities, we think it would be a very bad idea 
to do away with NEPA compliance and we strongly oppose any 
reauthorization language to weaken or do away with NEPA compliance by 
the regional councils.
    Delegating Endangered Species Act (ESA) Authority to the Regional 
Fishery Councils. PCFFA, probably more than any other commercial 
fishing organization in the Nation, has worked extensively with the 
ESA, since the first salmon runs were proposed for listing in 1985. The 
ESA has prevented the extinction of the unique Sacramento winter-run 
chinook salmon, and may have prevented the extinction of subpopulations 
of species of other salmon runs and certainly stopped the extirpation 
of salmon from numerous watersheds. The ESA works when it's given a 
chance, particularly where there is agency resolve and there are the 
resources necessary--personnel and funding--to do the job.
    Handing over authority for protecting and recovering ESA-listed 
fish to the regional councils is a bad idea. Trying to superimpose the 
MSA process over the needs of ESA-listed species would be disastrous. 
Moreover, the regional councils are already strapped under their 
existing workloads. The have neither the resources, nor the expertise, 
to carry-out ESA responsibility for protecting and recovering listed 
fish species. If Congress is concerned with the implementation of the 
ESA and its successes, than it should provide the responsible agencies 
the resources they need to carry out their charge and leave them alone 
thereafter.
    Changing the term from ``Overfished'' to ``Depleted.'' PCFFA, in 
its salmon experience, has long argued against the broad categorization 
of every depleted fish stock being defined as ``overfished.'' We 
support, therefore, the proposal in the draft to change the term. This 
would more accurately describe the condition of many salmon stocks, 
some of which have had no fishing on them in nearly two decades. Also 
considering the progress being made in ending overfishing, while 
looking at numerous threats now and in the future to fish stocks from 
non-fishing impacts, a better term than ``overfishing'' is needed to 
describe stocks that are depleted. This is not to say, however, that a 
change in terminology should be used to allow overfishing. A strict 
adherence to the existing law to stop and prevent overfishing remains 
essential.
    Referendums on New Catch Share Programs. PCFFA supports the draft's 
language to require a referendum on any new catch share program, but we 
cannot support an exemption from this requirement for the Pacific and 
North Pacific. The referendum requirement must apply to all the 
Nation's fisheries, not just those along the Atlantic seaboard and in 
the Gulf of Mexico. Fishing men and women on the West Coast also 
deserve a vote on their fisheries.
    Strengthening Fishing Communities. PCFFA was heartened by part of 
the title in the committee's draft reauthorization bill. We were 
disappointed, however, to find little of substance in the draft that 
will actually strengthen fishing communities. Based on our experience, 
the best way now to strengthen our Nation's fishing communities is to 
ensure they have access over the long term to rebuild abundant fish 
stocks and the financial resources available to carry out the science 
and other needs essential for sustainable fisheries.
             the changes needed to the magnuson-stevens act
    Investment in Fisheries. In the 2006 reauthorization language was 
adopted creating a national fishery trust fund. In this reauthorization 
Congress needs to now identify a financial source or sources for such a 
fund and spell out how the fund would be operated and the purposes for 
which monies from the fund may be used. Some years ago, PCFFA crafted a 
discussion draft for a national fishery trust fund, including a revenue 
source and uses for monies deposited into the fund. If it is useful, we 
will provide that to the committee for the purposes of starting the 
discussion. Moreover, the committee may want to revisit the legislation 
proposed in 2012 to use Saltonstall-Kennedy Act monies to support vital 
fisheries science.
    Protecting Fishing Communities. In the 2006 reauthorization, 
Congress provided in the Limited Access Privilege Program (LAPPs) 
provisions of the Act for the creation of community fishing 
associations (CFAs) to receive initial quota allocation and hold quota 
on behalf of a fishing community however that was defined. This 
language was extremely important, since NOAA/NMFS promoted individual 
fishing quotas (IFQs) and other forms of catch shares, to ensure 
fishing communities continued to have access to those fishery resources 
they traditionally relied on to support their fleets and economies. 
Moreover, CFAs are a means for avoiding ``stranded assets'' for fish 
processors--a common complaint when quota is issued to individual 
fishermen or boat owners--without the need for issuing quota to 
processors directly raising anti-trust concerns, among others. CFAs may 
prove important, as well, for protecting our fishing communities, if 
provisions in catch share fisheries, such as restricting quota 
ownership to U.S. citizens or limiting quota accumulation by a single 
entity, are struck down by current or future U.S. trade agreements, 
such as the Trans-Pacific Partnership now being negotiated.
    While NOAA/NMFS and many of the Council's continue to push IFQ or 
catch share management, nothing has been done since that last 
reauthorization to fully define what constitutes a CFA or their 
operation. As a result, we have community groups here on the West Coast 
that have formed or are forming what they believe would constitute a 
CFA, but are left in limbo due to NOAA/NMFS and Council action to put 
over work on CFA development. Indeed, the Pacific Council considers 
CFAs a ``trailing action'' in its implementation of its trawl 
groundfish IFQ scheme. That is outrageous. What they are in essence 
doing is circumventing Congress by issuing all of the quota to 
individuals leaving nothing for CFAs. Congress needs to set forth 
standards for CFAs and implement a moratorium on any new IFQ or catch 
share programs until such time as CFA language is fully developed in 
regulation and CFAs are formed to accept and hold quota.
    Ecosystem Services. PCFFA has argued since the first 
reauthorization of the FCMA for consideration of habitat impacts on 
fish abundance and the need for habitat protection. Our organization 
has also recognized predator-prey relationships and the importance of 
forage fish considerations in fish management when it initiated in 
California successful legislation to ban the harvest of krill (at the 
base of the ocean food chain) and the catch of white sharks (an apex 
predator in the ocean food chain). In the succeeding reauthorizations 
Congress has added language for the identification and protection of 
essential fish habitat and development of ecosystem-based fishery 
management plans. What we ask in this reauthorization round is that the 
discussion on ecosystem fishery management continue, including 
consideration of small pelagic fish that are an important food source 
for many of our Nation's major commercial and recreational fish stocks.
    Addressing Non-Fishing Impacts. Finally, given the actions taken by 
other agencies that can affect the health of fish stocks managed by a 
regional fishery council, the Councils need to do more than simply 
regulate fishermen, if we hope to successfully conserve many of our 
Nation's fish stocks. The regional councils cannot sit by quietly when 
some other agency acts in a way that damages the very fish stocks a 
regional fishery council is charged with managing. To that end, PCFFA 
believes it important that in this reauthorization round of the MSA, 
Congress charge the regional councils with an affirmative duty to 
notify, when they become aware of, any agency whose actions or planned 
actions will adversely affect the health of a fish stock that Council 
is charged with managing. Further, the regional councils should be 
given the duty to consult with another agency whose action is or may 
affect a fish stock or stocks and to recommend measures to either 
prevent damage to the fish or mitigate for any damage. Giving the 
regional councils this charge could help prevent non-fishing related 
damage to fish stocks in the future.
                               conclusion
    I'd be pleased to answer any questions you or committee members may 
have. Thank you again for this opportunity to testify.
                                 ______

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you very much, Mr. Grader, and thank 
all the witnesses for their testimony.
    As a programming note here, we are going to be coming up 
with votes here very shortly, so I am going to be very brief on 
what I say.
    But, Mr. Rees, I do want to ask you. In your testimony and 
your oral remarks you said that overfishing in the draft would 
be allowed for 5 to 7 years. Where, specifically, in the draft 
are you referring, or where do you get those figures?
    Mr. Rees. Well, I don't know if I could fully answer that 
question, Mr. Chairman. A lot of it has to do with just initial 
2 years before an assessment is done. Also, the flexibility 
that is being allowed in the draft, there is a minimum of a 5-
year lapse that can happen between a full assessment being done 
and whether there are any management actions taken.
    The Chairman. Well, I will just simply say we are trying to 
deal with facts here. And in your testimony, you said 5 to 7 
years. The draft does say, however, that there should be 
consideration taken for those that make a living from 
fisheries. But that is not a ``shall,'' it is ``may'' in the 
draft, meaning--when you are drafting a law, ``shall'' and 
``may'' are very, very big words. And this says ``may,'' but it 
does not suggest that there should be overfishing. I mean we 
want to base the reauthorization on the best facts we have. In 
your testimony you said 5 to 7 years. That is why I asked 
specifically wherein.
    So, if you want to go back and look at that again and 
respond in writing, we will very much accept that, if you would 
want to do that. But we are trying to get to a position where 
we can reauthorize it, based on the facts. You said 5 to 7 
years, and you couldn't tell me specifically. So I will give 
you an opportunity to write back to the committee and tell us 
exactly how that happens. OK?
    Mr. Rees. Yes, I appreciate that. Thank you, Mr. Chair.
    The Chairman. OK, good. I recognize Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. I recently, just this 
week, met with some trawlers from Oregon, Washington, and we 
were discussing the need that Mr. Grader mentioned to move 
beyond observers, get to electronic monitoring, and I am 
frustrated that we are not moving more quickly with that. And 
you mentioned that the bill encouraged it, but I saw in the 
bill that it said it encourages electronic monitoring, but it 
can't be used for enforcement. Do you----
    Mr. Grader. Yes, I----
    Mr. DeFazio. Doesn't that cause a concern? That----
    Mr. Grader. I understood that, too. The issue here--I 
didn't look so much at the enforcement as just providing the 
observer coverage. And right now, where we have with the small 
boat fleet, particularly the small trawlers, is that it is very 
expensive, because each boat is required to pay for its own 
observer, rather than sharing the observer cost among the 
fleet.
    So, if you are a vessel that, say, catches, 
hypothetically----
    Mr. DeFazio. Right. No, I get that. I understand the 
burden, the expense----
    Mr. Grader. Yes.
    Mr. DeFazio [continuing]. And they educated me more on the 
problems sometimes with the people provided by the contractors, 
you know, as observers. But my point is if we say let's move 
and mandate that we move ahead with electronic monitoring, but 
say it can't be used for enforcement, that doesn't seem to me 
that that is going to meet the objectives here.
    Mr. Grader. Yes, and we did not mean to--we really did not 
focus on the enforcement aspect, it was mostly just on the 
observers. And I would tend to agree. I think that perhaps use 
of that clause, ``except for enforcement,'' probably should be 
deleted and leave it up to the Councils to decide how----
    Mr. DeFazio. OK. Ms. Lowman, would you address that, too? 
Because this is a big concern for the Pacific region.
    Ms. Lowman. Sure. Thank you, Congressman DeFazio. You know, 
that doesn't work for us, to not have it be able to be used for 
enforcement. We are in the process of trying to make that tool 
available, be able to use EM when it meets to maintain our 
objective, 100 percent monitoring, but allow for some different 
tools to be used, like EM, to reach that.
    One of the alternatives to do it is actually a kind of an 
audit approach. This is the way it is done in Canada, where you 
are actually using the fishermen's logbook information to 
understand what the catch has been, but the camera is used to 
audit those. And so, kind of by definition, if you don't have 
law enforcement, then if the audit shows that it is not 
working, that there has been a violation, then that would 
preclude this way, which is probably one of the most cost-
effective ways to use EM from being used.
    Mr. DeFazio. OK, thank you. You also briefly mentioned in 
the beginning this morning that you are looking toward some 
success on some of the longer-lived stocks. Yet you also 
expressed concerns about the 10-year guideline--or 10-year 
mandate. Can you get into that a little bit more? Because you 
are calling for a little more flexibility there. It is an issue 
where some people's flexibility would kind of remove any 
rebuilding goals, and other people's would perhaps provide a 
little more leeway, but keeping the goal strong. Can you 
address that a little bit?
    Ms. Lowman. Well, you know, I think our Council has a 
history of trying to do this as soon as possible, you know? But 
you can come to a situation where, OK, the biology says it 
could be done in 9 years, but you would have a lot easier time 
and a lot less social and economic impacts if you were able to 
do it at 11. And so, it just seems like you should sort of 
balance those a little better.
    Mr. DeFazio. Right. And you don't think the current law 
allows that flexibility.
    Ms. Lowman. I think that there is some work to be done 
there, and I think we agree with the National Science Academy 
on that.
    Mr. DeFazio. OK, thanks. Anybody else have a comment on 
that issue, the idea of sort of the hard goal of 10 years 
versus how you build in some flexibility? Yes, sir?
    Mr. Shelley. In New England, which is the area that I know, 
having a hard goal as the basis for crafting the rebuilding 
program has been very important. And there may be circumstances 
with particular stocks or fisheries that would be unique.
    But to change the law so that all fisheries would be able 
to re-entertain those sorts of arguments would throw New 
England back to where it was in the early 1990s. And for our 
purposes, the stocks have a whole variety of rebuilding 
timeframes under the current statute. And we think that there 
has been more than adequate accommodation of economic--in fact, 
there has been over-accommodation, frankly, of some of the 
short-term economic and social goals.
    Mr. DeFazio. OK, thank you. Thank you. My time has expired.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And I want to thank 
all of our witnesses for being here today. I am a Member from 
Massachusetts, but I don't represent a district that has 
fishing as a part of the backbone of its economy. But I very 
much appreciate how much our fishing families are a cornerstone 
of our State's economic and cultural foundation, with the grit 
and determination so reflective of the New England spirit.
    And yesterday we did get word that NOAA will be allocating 
nearly $33 million in Federal aid for New England fishermen. 
This much-needed assistance will support the hard-working men 
and women and their local economies that were hard hit in the 
wake of a federally declared economic disaster. And we are 
grateful for that much-needed assistance.
    As I have attended these hearings, though, I know we all 
have similar goals for the Magnuson-Stevens reauthorization. We 
all want to implement a regulatory framework that results in 
healthy, sustainable fish stocks, vibrant fishing communities 
that can support our fishing families. And I know in 
Massachusetts there are a variety of views as to how best to 
proceed.
    I have serious concerns that the draft bill we are 
discussing today, however, overwhelmingly favors short-term 
economic management decisions over long-term economic and 
environmental sustainability. And from what you all are saying, 
I think we have different views, depending on what part of the 
country you come from. More success on the West Coast; the East 
Coast has greater challenges to overcome.
    So, in your opinion--and I would like to start with Mr. 
Shelley--what provisions should be included in any 
reauthorization so that we can best improve--and you may have 
different opinions--the sustainability and long-term optimum 
yield? And I would like to start with you. And if you could 
just come up with two or three that you think are key.
    Mr. Shelley. Thank you, Representative. I think the key 
thing that the reauthorization has to focus on is climate 
change, and the fact that it is going to disrupt virtually 
every fishery in the United States in the near term. And it is 
already showing up in New England. Long-term sustainability is 
going to require us to confront the fact that this is coming, 
that it will affect fisheries. Some of them will become more 
profitable, some will become less. There will be all sorts of 
changes. But the reauthorization could really benefit that 
critical debate by laying out some provisions that would 
advance ecosystem-based fisheries management, push the 
management system in the direction that the scientists are 
recommending. It needs to be pushed to make it more robust to 
withstand these ecological forces that are coming our way.
    Ms. Tsongas. Others, can others comment?
    Mr. Grader. If I can just comment quickly, Representative 
Tsongas, and I don't disagree at all with what Mr. Shelley 
said. But I think one of the things that is critical to us, and 
I think, actually, if you drill down and look at the problems 
in New England--I have many friends in the fishing fleet from 
there--is that a big part of our problem is we have never 
adequately provided for the science that we need. We have been 
trying to manage on science that is outdated at times. Other 
times it just isn't comprehensive enough, it doesn't look at 
the total range of a stock, not to mention the problem you have 
that people then choose to ignore the science.
    So, I think, really, we are going to have to figure out--
and, from your State, Senator Kerry, when he was in the Senate, 
and Senator Snowe, basically started to tackle that issue when 
they were looking at earmarking Saltonstall-Kennedy Act funds 
specifically for fishery research. We have to find a funding 
source that can be outside of the normal appropriations, and 
that is why we have suggested perhaps looking at a trust fund.
    But to come up with a separate funding source, and not just 
for the science, that could help underwrite such things as 
helping fishermen develop more selective gear. It could help 
with--say, even helping underwrite such things as catch 
insurance. And finally, looking at providing the money for 
disaster relief, because I watched and read the Gloucester 
papers and all the others in New England, and watched how long 
it took before that--and it was shaky, how long it took to get 
that disaster money to fishermen. If we had a fund that was 
there when we needed it, I think it would make a lot more 
sense.
    Ms. Tsongas. Comments from others?
    Mr. Rees. I might just add there are two important key 
components that may not have enough emphasis in the current 
Act.
    One is paying attention to critical forage species, which 
is really all forage fish. These are the species that provide 
the basic beginnings of the food web. And if we don't pay 
attention to those stocks, we risk jeopardizing many, many 
commercially and sport fishing important species.
    Also, the concept of ecosystem-based management, which is 
taking root, and ever so critical that we understand all the 
inner workings of ecosystem-based management is probably 
underemphasized in the current Act, and may need strengthening.
    The Chairman. The time of the gentlelady has expired.
    Ms. Tsongas. Thank you.
    The Chairman. I recognize the gentlelady from Hawaii, Ms. 
Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. My question is for Dr. 
Pooley.
    Aloha. I think we can all agree that the purpose of the 
science-based fishery management is to ensure that we make 
management decisions that provide sustainable fisheries and 
protect the vulnerable species, basically. If this is the goal, 
then management decisions should reflect the actual status of 
the fish stock, based on adequate data and accurate scientific 
models. Otherwise, I think we are forced to set catch levels 
based on what I would consider to be uninformative measures 
like past catch levels, which are also, I think, unrelated to 
the health of a fish stock.
    So, as far as I am aware, the Pacific Islands Fisheries 
Science Center has only produced two stock assessments for 
bottomfish in the region, in addition to collective work that 
is done in connection with the pelagic species, while nearly 
all of the 2,000 coral reef species under Federal management 
are categorized as data-poor.
    Given the importance--and I think everyone here has 
testified that science is the necessary underpinning of all of 
the information--why are so many stocks categorized as data-
poor, and what is being done to improve that situation?
    Dr. Pooley. Good morning, and aloha, Representative 
Hanabusa. It is good to see you again. You are factually 
absolutely correct. And the reason that fisheries in the 
Pacific Islands, including Hawaii, are data-poor ranges from a 
variety of reasons. And if we focus on Hawaii, it really 
relates to the complex relationship between commercial and non-
commercial fisheries.
    The State of Hawaii has a quite robust commercial fisheries 
data collection system that we utilize in our stock 
assessments, and used for the bottomfish assessments. But reef 
fish are caught not entirely by commercial fisheries at all. In 
fact, the fish auction no longer sells reef fish. That means 
that we have to rely on recreational surveys and other methods 
of trying to get a handle on that.
    The way that we have approached it--and we have worked with 
the Fishery Management Council staff closely on this, who have 
identified a number of innovative methods--is to try to bring 
in some of our coral reef diver surveys, as well as new life 
history information to come up with alternative assessment 
approaches.
    All of the species have ACLs and the reef fish ACLs are all 
being revised this year. And we need to give tremendous credit 
to the Fishery Management Council for the work that they have 
taken in initiating that. Our role has been primarily to 
provide the information by which the ACLs can be revised.
    Ms. Hanabusa. Now, let's follow up on that. The issue of 
the ACLs, of course, is what, as you probably know, most of our 
fishermen take great issue with. Now, when you say that they 
are being revised, what is the basis of that revision? In other 
words, what science, given the fact that we are data-poor on 
all of these species, basically, what science is being relied 
upon to justify the change in the ACLs, whichever way it may 
change, up or down?
    Dr. Pooley. Yes, and we don't know which way it will go, 
whether it is up or down. Basically, it is this approach of 
moving from measures that were based on previous catch, which I 
think we all felt was inadequate, but was the best that could 
be done at the time, to these alternative biomass measures that 
bring in multiple sources of information within our modeling 
framework that provides at least a proxy approach toward it.
    Our expectation is--although we can't guarantee it--is that 
these will not be binding on the existing fisheries, because of 
the breadth of the reef fisheries throughout the Hawaiian 
archipelago, and the closure of the Northwestern Hawaiian 
Islands to fishing.
    Ms. Hanabusa. So I don't understand what you just said. 
What do you mean by they will not be binding?
    Dr. Pooley. They won't be binding, because the biomass 
available for reef fisheries is very broad when you include the 
Northwestern Hawaiian Islands as part of your biomass 
estimates.
    The other thing is that fishing pressure, although 
substantial on reef fish, is very localized. And without the 
heavy levels of commercial exploitation that occur in some 
other parts of the world, it is less likely to lead to 
restrictions on fishing activities. That is really something 
that is yet to be determined, and it is something the Council 
will be discussing at its scientific and statistical committee 
next week and the Council meeting the following weeks in Guam 
and Saipan.
    Ms. Hanabusa. Thank you. I yield back.
    The Chairman. The time of the gentlelady has expired. The 
Chair recognizes the gentleman from the Northern Marianas, Mr. 
Sablan.
    Mr. Sablan. Yes, thank you very much, Mr. Chairman. And 
good morning. And it is good to hear that Dr. Pooley will be 
visiting in Northern Marianas and Guam very soon.
    What I have caught earlier in some of the statements is--
and I appreciate very much that the issue of climate change 
must be taken into consideration in the management of 
sustainable fishing for the future, because, from where I come 
from, climate change is not just making changes to the ocean, 
it is actually making changes to the land, the small land areas 
of where some of us live--where it is our home. Some of those 
signs we see very much, and I have always invited people who 
don't believe in the signs of climate change and global warming 
to come to my place of the world and I will show them the 
physical evidence of what it is doing.
    And while we discuss the fisheries, the reauthorization of 
the Magnuson-Stevens Fisheries Act, and we discussed 
sustainable fishing in terms of volumes and fish and how we 
sustain this, and it is a huge economic--it is important to the 
commerce and everything. But from where I come from, there are 
actually people who, when we are talking about fishing, they 
actually fish for what they eat, almost on a daily basis. So it 
is that small, but it is also that important to us. Fishing is 
a very important part and a critical source of food for many of 
us. And we are so much tied to the ocean.
    So, I am going to ask, and I am going to start with Dr. 
Pooley. Can you tell us how NOAA, sir, your new territorial 
science initiative, is providing support to assess the health 
of our fish stocks, particular to the Northern Mariana Islands? 
I know there has been very little in the past, and you have new 
initiatives. I wanted to see where we are headed with that.
    Dr. Pooley. Sure, I would be happy to. The territorial 
science initiative that began last fiscal year and is 
continuing this fiscal year has helped, along with marine 
national monument funding, for us to station permanent 
scientific staff in each of the three island areas, including 
Saipan. It has allowed us to develop a bio-sampling program 
that reaches around the islands to provide new life history 
information on reef fish, which are the most important, and it 
will provide a way to integrate improved fishery statistics 
systems into the assessment methods that we use.
    We are also using some of this funding to do what we call 
human dimensions work, or sociological work in each area, where 
our staff work with anthropologists and archaeologists in the 
Marianas to look at the cultural and historic social role of 
fisheries in the region. And this information is used by the 
Fishery Management Council in adjusting its annual catch 
limits.
    Mr. Sablan. With all due respect, Dr. Pooley, you don't 
need to get scientists to do that. You can come sit down, and I 
will tell you how much fish I eat a week. And I am not a 
fisherman, so----
    Dr. Pooley. I appreciate that. Next time I'm in Saipan, I 
will visit.
    Mr. Sablan. But, you know, again, I have taken a one-on-one 
on the Magnuson, and you know, this is an important issue, very 
much, and achieving the balance, striking the balance between 
what is sustainable--and, of course, we have the commercial 
side of the Magnuson. NOAA is under Commerce.
    But one thing also that affects us in the territories, in 
the Northern Marianas--and the distinguished lady from Guam is 
not here, she will tell you--is illegal fishing. And because we 
have the U.S. Coast Guard that thwarts off--keeps an eye out 
against pirates that fish illegally, but then you have a Coast 
Guard that takes care of the distance that is just about the 
size of the entire United States. And when you have one small 
boat and a smaller boat looking over all of that area, it is 
very hard to catch illegal fishing.
    And not just--you know, it takes fish that we don't account 
for, but it also takes the value of some of the fish. And, from 
where I come from, I think the smallest in--NOAA reported that 
fish value is only at $581,000 in 2012, but I am sure there is 
much more, it is just that we haven't reported.
    And my time is up, Mr. Chairman.
    The Chairman. I just want to advise Members that we are 
very close to having votes here. And I see two Members that 
came in, and I want to give them the opportunity.
    Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Thank you very much, Mr. Chair. I know that 
Mr. DeFazio asked a little bit earlier about the observer cost 
issue. I wanted to, in addition to that, ask about the loan 
refinance legislation that Congresswoman Herrera Beutler and I 
and several members of this committee are supporting.
    We know that we have work to do on the Magnuson-Stevens 
Act. But as we do that, I wonder if any of the witnesses could 
comment on the importance of also addressing issues like that 
loan refinance challenge we face with the Pacific groundfish 
fleet, especially in light of these additional observer costs 
that are being foisted on the industry.
    Mr. Grader. Well, if I can, Mr. Huffman, I think that 
legislation is going to be important. Our big concern with the 
whole way that the Pacific Council has gone about its 
rationalization is it appears that it is putting the squeeze on 
the small boat operators. Any type of assistance we can have so 
that they are not squeezed out of the fishery and we have even 
more consolidation of the fleet, I think is a good thing.
    And the observer coverage is one issue, and the idea of 
lengthening out that loan repayment program, so it is not such 
a financial burden on the small operators would be helpful. So 
I think the two of them would help a lot, and ensure that our 
groundfish fishery is a community-based fishery, and not just a 
few large boats from a super trawl port.
    Mr. Huffman. Thank you, Mr. Grader. Would any of the other 
witnesses care to comment?
    Ms. Lowman. Thanks. I just wanted to emphasize the Council 
is really interested and really supportive of getting that 
refinancing done as soon as possible.
    You know, I sort of view some of the costs in the fleet as 
sort of three legs. One is the loan, you know, which they have 
already paid over $20 million in interest, yet they have barely 
touched the capital. And, you know, like anything, should more 
reflect today's interest rates, et cetera. The other piece is 
that cost recovery for this catch share program that has some 
real potential to provide some great benefits to the fleet, but 
we do need to also realize that, as we are building up to all 
those benefits, we have these costs coming online fairly 
rapidly.
    So, a 3 percent cost recovery fee just started this year, 
as well as an ever-increasing amount of the cost of the 
observers to the fleet. So, in my mind, it is extremely 
important to find the fastest way to do this refinance.
    Mr. Huffman. Thank you. Anyone else?
    [No response.]
    Mr. Huffman. Well, I want to thank the witnesses. Thank 
you, Mr. Chair. I will yield the balance of my time.
    The Chairman. I am sorry, thank you, Mr. Huffman. I 
recognize Mr. Garcia from Florida for 5 minutes, and he will be 
our last Member, because votes are imminent.
    Mr. Garcia. Thank you, Mr. Chairman. I won't take----
    The Chairman. Wait, wait.
    Mr. DeFazio. Mr. Chairman, the first vote will take 20 
minutes, and I do have a quick second round, if I might be 
allowed.
    The Chairman. We picked up some time with Mr. Huffman, we 
will try to work that in. Mr. Garcia?
    Mr. Garcia. Very good. I won't be too long, Mr. Chairman. 
My question is for Ms. Lowman. But, of course, if others want 
to comment, that is alright. We have heard a great deal about 
the importance of the social and economic considerations in 
reauthorizing this Act. Assessing the impacts to fisheries 
management, decisions on fishermen and their communities, and 
the collection of very specific analysis of economic data that 
would be shielded by very strict confidentiality rules under 
the draft legislation.
    So, my question is, would limited access of this data 
inhibit the Councils and others from evaluating the economic 
impacts, one; and could these restrictions also hamper the 
attempts to institute cooperative research and management 
programs?
    Ms. Lowman. Thank you for the question. We sometimes 
struggle to be able to fully demonstrate the economic and 
social impacts of different issues. And actually, in our 
written testimony, we identify this as one way that we actually 
think maybe a little greater access is important, rather than 
less access. You know, information is power, and I actually 
think it helps fishermen to have that data available.
    Mr. Garcia. Thank you.
    Mr. Shelley. Thank you, Congressman. That is a really 
important question. We are tremendously frustrated, as 
interested members of the public, in getting access to social 
economic science data, even the data that is generated with 
public funding. Everything is protected.
    And so, when small ports in Massachusetts say they are 
being crushed, relative to the larger ports, there is no way we 
can actually understand what is going on with those ports, 
because the data won't be released to us, because it might 
reveal some confidential business information in a small port. 
We really need to get both better data and better access to 
data, and I think we would make better policy decisions to the 
degree we did that.
    Mr. Garcia. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    The Chairman. I thank the gentleman from Florida, and I 
recognize the Ranking Member, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. And I think this 
would be probably both to Ms. Lowman and Mr. Grader. There is a 
provision in the bill that says fisheries data--and perhaps the 
gentleman who just spoke addressed this in a different way--but 
from being used in coastal and marine spatial planning, meaning 
this data could not be used when we are having discussions of, 
in particular right now, wind farms off Oregon and elsewhere. 
And I have had my fishermen express tremendous concern about 
their lack of meaningful input dealing with the Bureau of Ocean 
Energy Management as it relates to this. And it seems to me 
that this is an unnecessary prohibition, particularly if we 
want to try and put these things in places that aren't prime 
fishing grounds.
    And it is not secret, where people fish any more. You know, 
I mean, everybody knows where you fish. And it is not like the 
old days, where you have your place to go, and you went over 
the horizon, and no one knew you were there. Could anybody 
address that?
    Ms. Lowman. Thank you, Representative DeFazio. I think I 
sort of mentioned it in my last one, information is power. And 
we get fishermen coming to the Council, pleading for us to 
engage more and to be able to share that kind of information 
that we have collected across fisheries and different places, 
and have access to. So I think it is important to be able to 
use that information in those discussions with other users.
    Mr. DeFazio. Mr. Grader?
    Mr. Grader. Yes. I think it is also important to have that 
information. In fact, when we were developing California's 
network of protected areas, the process was problematic. But I 
think one of the better aspects of it was the fact that we did 
try and get good economic data from the fleet, so we knew just 
what type of impact those protected areas would have, and try 
to avoid those as much as possible. And that is where there 
would be serious economic displacement.
    Mr. DeFazio. Great. Ms. Lowman, on a point you raised--and 
you know, I have been focused a lot more on transportation over 
the last few years when I took over ranking. And one thing we 
have done in California is something called CEPA. And we have 
given them, actually, authority under Federal law for highway 
projects--strangely enough for transit projects, but highway 
projects--to use CEPA and not have to do CEPA and NEPA because 
it is generally regarded that CEPA is probably even more 
rigorous than NEPA.
    You are raising the issue of MSA pretty much satisfying 
NEPA, but we really haven't aligned them yet. Do you think 
there is a way we could basically develop something that most 
people would agree is sufficient to meet NEPA requirements as 
some kind of--you know, a little bit different approach to the 
MSA work by the Council so we could have one process, but we 
are accomplishing both goals at the same time?
    Ms. Lowman. That is really what we are looking for. We are 
not trying to get out of it, but I think that we would need to 
bring things in to MSA to be sure that we did have that robust 
environmental analysis, the full range of reasonable 
alternatives. But that is the kind of the goal, get it under 
the same timeline.
    Mr. DeFazio. OK. Well, I would welcome any suggestions you 
have on that.
    You have a suggestion on that, sir? Yes?
    Mr. Shelley. Yes. Thank you, Representative. The issue for 
us is that the Council system is connected to the development 
and achievement of optimum yield in fisheries. It is primarily 
focused on economic development, which it should be.
    NEPA serves a much broader set of national interests in the 
ocean zone. And the Federal agency's unique and non-delegated 
role under NEPA is to make sure that the fishery-driven 
decisionmaking that is happening through the Magnuson Act is 
understood in a broader context of environmental impacts.
    And so, while we agree with the 2006 amendments, where 
there are a lot of ways that these roles could be integrated 
better, the agency hasn't really moved that 2006 push from 
Congress to do so, and we would hope that they will in the 
future. We would keep the functions of those two statutes 
separate.
    Mr. DeFazio. Well, again, I am saying we already have an 
example where we have delegated because we felt the State laws 
exceeded. And it has been very successful, no complaints. And I 
am just thinking there is some way we could meet both goals at 
once without parallel processes with different timelines. 
Because, as I understand it, sometimes the Council is done with 
its decisionmaking, and you are still in the NEPA process, 
which is supposed to inform the decisionmaking.
    So, NEPA is supposed to inform decisionmakers, it is not 
just supposed to be a process. Anyway, I am open to any ideas 
anybody has about how we can meet this goal.
    But thank you, Mr. Chairman.
    Mr. Grader. I just wanted to, if I could, just follow up on 
what Mr. DeFazio said. I think, from our standpoint, from 
representing commercial fishermen, we are very wary of any 
attempt to try and change the NEPA process. It has been very 
important to us for the reasons that Mr. Shelley said, as well 
as to ensure that we have thorough analysis and have a good 
range of options presented.
    The other thing I should say is that ESA provisions in the 
draft are problematic to us. We have probably had the most 
experience of any fishing group in the Nation, dealing with the 
ESA. And it works when there is funding for it and support for 
it. But I don't think that the Councils really are set up, nor 
do they have the staff to be able to handle ESA issues. And I 
think, for that reason, ESA issues need to be kept where they 
are.
    The Chairman. The time of the gentleman has expired. The 
votes have been called now. But Mr. Lowenthal, I know you were 
here earlier. Did you have a burning question? All right, good. 
Thank you very much.
    I want to thank all of the panelists for their testimony 
today. As happens many times, something comes up and there may 
be a follow-up question to each of you. I would hope that, if 
that is the case, you would respond back to the committee in a 
very timely manner. Our intention is to take up the 
reauthorization of Magnuson-Stevens this spring, and we hope we 
are successful, because the law has expired.
    So, if there is no further business to come before the 
committee, the committee stands adjourned.

    [Whereupon, at 10:36 a.m., the committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Letter Submitted for the Record by Members of the House National Marine 
                            Sanctuary Caucus
                     Congress of the United States,
                                            Washington, DC,
                                                      May 28, 2014.

Hon. Doc Hastings, Chairman,
Hon. Peter DeFazio, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Hastings and Ranking Member DeFazio:

    As members of the House National Marine Sanctuary Caucus, we write 
to express our concern regarding the language in the Magnuson-Stevens 
Act (MSA) reauthorization discussion draft that would preempt key 
marine Sanctuary management authorities currently granted under the 
National Marine Sanctuaries Act (NMSA).
    As you are aware, the National Marine Sanctuary System consists of 
14 sites with unique cultural and natural resources throughout the 
Nation. These underwater treasures serve as a source of national pride 
in addition to providing numerous economic and recreational 
opportunities for surrounding communities.
    While the primary mandate of the NMSA is marine resource 
protection, the Act allows for many compatible uses including 
recreational and commercial fishing, boating, diving, and whale 
watching. A determination of what is compatible is facilitated through 
a transparent, stakeholder-driven process. The NMSA ensures that 
sanctuary managers incorporate diverse community perspectives into 
policy via public comment and Sanctuary Advisory Councils. These 
Councils are composed of local representatives from industry, advocacy, 
and the public who use or value the resources of the Sanctuary. As 
such, the Sanctuary management system represents a comprehensive and 
balanced approach to decisionmaking.
    We share an interest in promoting economically and ecologically 
sustainable fishing practices. A thriving fishing community both 
benefits local economies and encourages active stewardship of the 
resource. Marine Sanctuaries support healthy fisheries within the 
majority of their boundaries in a manner consistent with Magnuson-
Stevens Act objectives. We believe the proposed preemption of the NMSA 
management system by Magnuson-Stevens Act reauthorization would, in 
practice, limit the ability of managers to make decisions that fully 
reflect the many uses of the Sanctuary by the local community.
    As you move forward with the reauthorization process, we ask that 
you work closely with stakeholders to better preserve the current 
inclusive nature of sanctuary management.

            Sincerely,

                                    Lois Capps, California,
                                  James P. Moran, Virginia,
                             Alan S. Lowenthal, California,
                                      Sam Farr, California,
                         William R. Keating, Massachusetts,
                     Eni F.H. Faleomavaega, American Samoa,
                               Henry A. Waxman, California,

                                               Members of Congress.

                                 ______
                                 

 Letter Submitted for the Record by Senators Reed and Whitehouse, and 
 Representatives Langevin and Cicilline from the State of Rhode Island
                     Congress of the United States,
                                            Washington, DC,
                                                     April 1, 2014.
Hon. Doc Hastings, Chairman,
Hon. Peter DeFazio, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. Mark Begich, Chairman,
Hon. Marco Rubio, Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC 20510.

    Dear Chairmen Begich and Hastings, and Ranking Members Rubio and 
DeFazio:

    As you move forward reauthorizing the Magnuson-Stevens Fisheries 
Conservation and Management Act (MSA), we ask that you keep the 
priorities of the Rhode Island fishing industry and our coastal 
communities in mind. Rhode Island's fishing industry supports our 
coastal economy and is part of our heritage. Preserving this industry 
and the stocks it relies on is of utmost importance to us as we 
represent the Ocean State.
    On February 14, 2014, we held a listening session on the 
reauthorization of the MSA. We have outlined below several priorities 
we heard and hope you take the views expressed by our stakeholders into 
consideration as the reauthorization is discussed.
    1. Seats on the Mid-Atlantic Fisheries Management Council (MAFMC) 
for Rhode Island. This has been a long-standing priority for the State. 
Indeed, the 2006 MSA reauthorization authorized a report that examined 
adding Rhode Island to the MAFMC. There are compelling reasons and 
precedent for Rhode Island to have membership on this Council, as well 
as the New England Fishery Management Council (NEFMC). While the State 
continues to have significant participation in NEFMC-managed fisheries, 
approximately 63 percent of commercial landings in Rhode Island now 
come from species managed by the MAFMC, including squid, summer 
flounder, scup, black sea bass, butterfish, and mackerel. Many of the 
State's recreational fisheries, like summer flounder, scup, black sea 
bass, and blue fish, are also managed by the MAFMC. Having 
representation on more than one fishery management council is not 
without precedent. Florida and North Carolina, for example, have been 
granted voting representation via statute on the two regional fishery 
management councils from which their fishermen derive significant 
landings. It is worth noting that between 2007 and 2010 Rhode Island's 
landings of MAFMC-managed stocks were approximately six times those of 
North Carolina, which was granted voting representation on the MAFMC in 
1996.
    In order to ensure that Rhode Island's interests are adequately 
represented in the management of the fisheries our industry relies on, 
the State should have full representation on the MAFMC. A ``liaison'' 
from the NEFMC will not ensure that Rhode Island can fully participate 
in council decisions. Therefore, we urge you to include the Rhode 
Island Fishermen's Fairness Act (S. 713 and H.R. 1504) in the MSA 
Reauthorization, ensuring Rhode Island two voting seats on the MAFMC.
    2. Cooperative and Collaborative Fisheries Research. Rhode Island 
recreational and commercial fishermen are eager to play a more active 
role prioritizing fisheries research objectives and participating in 
data collection that informs stock assessments and management 
strategies. The demands on State and Federal fisheries agencies to 
conduct surveys, monitor fishing activity, record environmental 
variables, and analyze data are more than their resources can match. To 
improve the quality of the ``best available science,'' reduce 
scientific uncertainty in stock assessments, and hopefully improve 
optimum sustainable yield and annual catch limits, the National Marine 
Fisheries Service (NMFS) must see the fishing industry as a partner 
that can leverage resources and expertise to conduct research and 
collect data. Fishermen should have the opportunity to collaboratively 
identify research needs and priorities, assist in conducting research 
and collecting data cost-effectively, and share on-the-water 
observations and historical knowledge to add context for data analysis 
and informing assumptions being made in stock assessment models.
    Expanding the use of research set-aside programs (RSAs), like the 
Monkfish RSA, and maintaining the Saltonstall-Kennedy Grant program are 
two ways to support cooperative research. However, it is also important 
to make sure these resources are used effectively. Rhode Island 
fishermen believe they should have a greater role determining how these 
resources, including those of the NMFS Northeast Fisheries Science 
Center Northeast Cooperative Research Program, are directed. This would 
include access to the information the research generates, and 
communication on how results are used. As a step toward addressing this 
issue, the Northeast Cooperative Research Program could be required to 
establish an oversight committee of industry representatives who would 
be involved in setting research priorities and evaluating outcomes on 
an annual basis. The current process of coordinating with the Councils 
does not sufficiently address concerns of those who depend on the 
results of this research. In addition, data generated from the research 
should be made available to the public within the parameters of 
confidentiality. To Rhode Island fishermen, this is essential. If NMFS 
is the only entity with access to all the data it collects and 
generates through cooperative research, it has a monopoly on analysis. 
Making all data collected as part of cooperative research available 
would build trust by allowing for additional or comparative analyses.
    3. Flexibility in rebuilding timelines. The MSA has successfully 
reduced overfishing and rebuilt some stocks. In general, fishermen who 
attended our listening session did not express a desire to turn away 
from the law's provisions related to annual catch limits or promoting 
accountability. Many indicated that catch limits have reduced discards 
and created certainty in markets that benefit their businesses. 
However, some fishermen would like to increase flexibility in 
rebuilding timelines or catch limits under certain conditions, 
including for short-lived species, while being careful not to return to 
the boom-bust model of fishing that benefits no one.
    The committee should consider addressing flexibility in certain 
situations without overhauling current law or providing blanket 
exemptions. For example, flexibility could he linked to demonstrated 
progress made rebuilding a stock. Many stakeholders have also noted 
that the terms ``overfished'' and ``overfishing'' do not capture the 
reality of what is happening to fish stocks and the many variables, 
including climate change and changing ecosystem dynamics, which can 
contribute to stock status. Updating these terms may be necessary at 
this time.
    4. Climate Change. Climate change makes fisheries science 
increasingly uncertain and complex. Fishermen recognize that climate 
change, and the associated increase in water temperature and 
acidification, affects their bottom line. They see great need for all 
those involved in fisheries management to be better informed about how 
climate change affects fisheries at a regional scale so that timely 
response measures can be developed and economic opportunities realized. 
Lobster in Southern New England, for example, are moving out of State 
waters into colder Federal waters offshore. States manage the lobster 
fishery through the Atlantic States Marine Fisheries Commission in 
coordination with the National Oceanic and Atmospheric Administration 
(NOAA), yet NOAA does not share in the cost of existing lobster 
surveys, nor has it recognized the need to update survey methods in 
Federal waters. NOAA should invest in the surveys that can help 
evaluate how the changing ocean conditions affect the dynamics of 
lobster and other stocks.
    5. Transiting between Block Island and the Rhode Island mainland. 
There is a narrow 2-mile band of Federal waters between State waters 
off Block Island and the mainland. State-licensed commercial and 
recreational fishermen fishing legally in State waters surrounding 
Block Island are subject to uncertainty, and legal risk, as they 
transit through Federal waters back to the mainland. Indeed, these 
fishermen could be found in violation if they are stopped while in 
Federal waters with fish on board that they are not allowed to possess 
pursuant to Federal law, even though they were legally caught and are 
allowed to possess the fish in State waters. Although the Rhode Island 
Department of Environmental Management is not aware of any enforcement 
action occurring against vessels making this trip, it would provide 
fishermen peace of mind to know that they would not be in any legal 
jeopardy. An exemption currently exists for fishermen transiting 
between Block Island and the mainland with striped bass. To provide 
greater certainty, a broader exemption or other measures should be 
considered.
    6. Differences between Commercial and Recreational Fishing Sector. 
The Marine Fisheries Advisory Committee's Recreational Fisheries 
Working Group (RFWG) has prepared recommendations for updating the MSA. 
The paper highlights the difficulty in managing recreational fisheries 
when there is a lack of recognition about how differently they function 
from commercial fisheries. As noted in those comments, ``[c]harter for 
hire captains are operating in commerce like commercial fishermen, but 
are handicapped by a derby fishery that does not allow them to fish 
when they have customers available. It is important that the charter 
for hire and recreational sectors both are able to maximize full 
economic benefit for their respective sides of the fishery.'' We hope 
that recreational interests can be adequately addressed in the 
reauthorization.
    7. Short-lived specks and bycatch. More adaptive management of 
short-lived species, like butterfish, is particularly important to 
Rhode Island. The variability in these short-lived species can defy 
typical surveys and stock assessments, leaving them hopelessly out-of-
date. The absence of up-to-date data can result in more cautious 
management controls, and short-lived species can become ``choke 
stocks'' for other targeted species when their population growth is not 
reflected or predicted in models. Our fishermen have reported this 
experience with respect to butterfish, which can be a ``choke stock'' 
for squid. The committee should consider requiring NMFS to adopt a 
pilot program for short-lived species that would more quickly 
incorporate valid on-the water observations into management measures. 
As part of this effort, there should be a concerted investment in 
reducing bycatch of short-lived species through gear innovation or 
other management measures.
    Due to the high mortality and waste associated with discards, 
measures should also be considered that will reduce or eliminate 
discarding. While this may be difficult to balance with other controls, 
like catch limits, the committee should encourage innovative management 
approaches to address this issue. One possibility discussed at the 
meeting is the adoption of trawl limits, supported by modern 
geolocation technology.
    8. MSA interaction with other laws. Stakeholders have also 
expressed concern with attempts to have the MSA take precedence over 
other Federal laws like the National Environmental Protection Act, 
National Marine Sanctuaries Act, the Antiquities Act of 1906, and the 
Endangered Species Act. These statues also have an important role to 
play managing natural resources and we would not support these kinds of 
provisions.
    We hope any reauthorization of the MSA can address these priorities 
and we look forward to working with you on these and other ideas and 
concerns that may arise during this process.

            Sincerely,
                                                 Jack Reed,
                                        Sheldon Whitehouse,
                                            United States Senators.

                                         James R. Langevin,
                                        David N. Cicilline,
                                               Members of Congress.

                                 ______
                                 

  Prepared Statement of Troy C.D. Frady, Owner/Operator, Distraction 
                                Charters
    Chairman Hastings, Ranking Member DeFazio, and members of the 
committee, I wanted to offer my thoughts on the legislative hearing on 
the ``Strengthening Fisheries Communities and Increasing Flexibility in 
Fisheries Management Act'' draft as it relates to the reauthorization 
of the Magnuson-Stevens Fishery Conservation and Management Act, or 
MSA.
    My name is Troy Frady and I am a full time charter boat owner and 
operator, from Orange Beach, Alabama. I use light tackle gear that 
allows my customers to feel the bite while providing a lot of rod 
bending action. I am a family fishing specialist that places emphasis 
on education and conservation on all of my trips. My business 
trademarks include: ``Experience fishing,'' ``Keep the best and release 
the rest'' and ``Why kill it, if you're not going to grill it.'' 
Currently, I am the co-chair of the Data Collection Advisory Panel and 
a member of the Red Snapper Advisory Panel of the Gulf of Mexico 
Fishery Management Council (GMFMC). I am also serving a 2-year 
appointment on the Recreational Fisheries Working Group (RFWG) of the 
Marine Fisheries Advisory Committee (MAFAC). I am a steering committee 
member of the Marine Recreational Education Program (MREP), which is 
tasked with educating anglers on fishery management and science issues. 
Finally, I am a member of the board of directors of the Orange Beach 
Fishing Association and a member the Professional Outdoor Media 
Association (POMA).
    After almost two decades in the corporate world of banking and 
transportation management, I returned to the Alabama Gulf Coast to take 
care of my elderly, sick parents. Upon my father's passing in 2002, I 
hung up my coat, removed my tie and decided to fulfill a lifelong dream 
of becoming self employed as a charter fishing guide. I figured I could 
make a living on the water because I knew how to catch fish, as I grew 
up fishing near Galveston, Texas, along the Alabama Gulf Coast and in 
Destin, Florida. I purchased a 1962 model Hatteras 41-foot convertible, 
restored it, and went into the charter fishing business in July 2002.
    When I began chartering, I was shocked to find that the once 
abundant reef fish populations that I was used to seeing in the '70s 
and '80s were severely overfished and in some cases, almost completely 
gone. I found it extremely hard to catch legal reef fish for my 
customers in areas that were once pristine.
    When I started my business, I noticed that all of the other charter 
boats had huge coolers on their decks because the larger the cooler, 
the more fish there were for the customers. As innocent as it may 
sound, there was a competition to fill the cooler every day. A full 
cooler was an indicator that a captain had done his job and satisfied 
their customers' needs. I also learned that if you published a picture 
of a large catch hanging on nails, your customers expected to catch 
that size and amount of fish. It was after these realizations that I 
changed my marketing strategy and began photographing customers holding 
mostly live fish and used them on my Web site. By doing so, I began 
attracting customers that were more interested in the fishing 
experience overall, which meant a great day spent on the water with 
friends and family catching fish. Some captains thought I had gone 
insane. Many did not understand how I could fish all day and come to 
the dock with only a couple of fish for dinner. They had no idea that I 
was asking my customers to tell me what they expected to get out of the 
day's fishing trip. To my amazement, many of my customers simply wanted 
to experience fishing or keep a few for dinner.
    Just when I got my business growing and was trying to separate 
myself from the competition, the Gulf Coast experienced two hurricanes 
within a year of each other. These storms wiped out 90 percent of my 
lesser known artificial reefs off the Alabama coastline preferred by 
fishing captains. Other captains were saying that they too had lost 
most of their private reefs. The only reefs that survived the storms 
were the larger ones that were mostly public knowledge. Some of the 
newer private reefs survived and some were found a few seasons later. 
The reported 40-knot undersea current not only toppled and destroyed 
the reefs, but it washed away most all of our reef fish, like red 
snapper, out of our fishing area to other parts of the Gulf. Needless 
to say, 2006 was the toughest year I had ever seen. However, I soon 
realized that the two hurricanes actually leveled the playing field 
among the competitive captains. Nobody was bringing in red snapper to 
the dock like they used too because there were only a few fish to 
catch. If and when the fish did come back, there were not nearly as 
many reefs as there once were to attract the fish.
    In 2008, when the bag limit was reduced to two red snapper per 
person, we really started to notice a change and the positive effects 
that MSA was having on the fishery. We began to see red snapper growing 
at a rate of about 2 inches per year. With the decrease in bag limit, I 
soon noticed many other captains followed my lead and began reducing 
the size of their coolers because it was obvious that filling the 
cooler was not an option anymore.
    However, selling a fishing trip was tough in 2008 and 2009 because 
the economy failed and all of those corporations, who used to spend 
money entertaining their clients by taking them fishing, were no longer 
booking trips. I often hear that it was the MSA that caused economic 
hardship in the region, but I believe the recession had the biggest 
impact on our fishing industry. We saw a difference when the economy 
picked up, there were more fish in the water thanks to the requirements 
of the MSA,
    Since that time, the Gulf of Mexico red snapper fishery has made 
historical progress in its rebuilding. Unfortunately, what most people 
don't realize is what we are witnessing is 3 strong year classes moving 
through the fishery. 2011, 2012 and 2013 were banner years for red 
snapper, but we are not out of the woods yet. We are seeing a localized 
depletion of the stock each year close to shore and it's getting worse. 
There are quite a few 2- and 3-pound red snapper near the shore, but 
nobody wants to keep them. Everyone keeps fishing and tossing the 
little ones back in hopes of catching something larger. That's because 
with the bag limit at two fish, everyone wants the big fish. Back 
before MSA was reauthorized, anglers were happy to catch four red 
snapper at 3 pounds each. Now everyone wants two 10-pound fish or 
larger.
    Even though the red snapper fishery in the Gulf of Mexico is 
rebuilding and fishing is somewhat getting better, now is not the time 
to change course. Being a former corporate guy myself, I understand why 
these captains and the communities are feeling frustrated. In order to 
stay in business, you must have growth and profits--not unlike our 
fisheries. We need diversity in our fisheries just as a tackle shop 
needs a variety of rods and reels. We need to leave fish in the water 
as a buffer against catastrophic events like the BP disaster, just as a 
business needs reserves to weather tough economic times. The draft bill 
would water down the MSA by adding more flexibility without adding any 
accountability. This may seem like a good short time idea for the 
industry, but it is a poor decision for the long-term health of the 
fishery and the coastal communities and businesses that depend on a 
sustainable resource. We need to ensure we continue the progress that 
is being made and protect the conservation provisions of the MSA. Based 
on my 12 years experience in the fishing industry as a Charter Boat 
Captain and Gulf Resident, I offer the following suggestions and 
solutions on how to improve fisheries management.
Annual Catch Limits
    When Councils were required to adhere to the scientific advice of 
the Science and Statistical Committee, it actually helped restore our 
fisheries to what they are today. However, the discussion draft 
proposed by Chairman Hastings would seek to roll back this progress by 
providing Councils with the opportunity to marginalize the scientific 
advice and simply not set Annual Catch Limits (ACLs) based on several 
exemptions. Without science-based rules and a commitment to managing 
our Nation's fisheries sustainably, short-term gain can undermine long-
term sustainability. This shortsightedness caused the very problems we 
are now trying to fix. Rolling back these provisions would impede our 
progress as we move toward the economic and social benefits of having a 
fully restored fishery.
    There is no doubt that by requiring strict ACLs, some fishermen and 
communities have experienced economic hardship. In the past 7 years 
however, the stock has been rebuilding, Captains have changed tactics 
with many adopting my business model, and they are still in business 
and some are even thriving.
    When it comes to adhering to science-based ACLs or using the best 
available science, I believe we can do much better by having increased 
funding for more frequent stock assessments. Furthermore, by investing 
in cooperative research, fishermen and scientists can continue to work 
together to provide managers with the best information. One suggestion 
to improve the process of setting catch limits would be to fund and 
incorporate real time data derived from electronic monitoring of the 
recreational fishery.
Flexibility in Rebuilding the Fishery Timelines
    There is much controversy over giving more flexibility to the 
Councils when it comes to rebuilding requirements. If the Gulf Council 
approached rebuilding the way they approached ACLs, we would never have 
made the progress that we are seeing on the water. It's amazing to me 
to see the Gulf Council has all the flexibility they want when it comes 
to allowing anglers to go over the ACL each year on red snapper. The 
recreational sector has exceeded their quota 5 of the past 6 years with 
the one exception being the summer of the Deepwater Horizon disaster. 
However, the Council continues to allow overages and has taken little 
if any steps to improve accountability in the recreational sector 
despite the pleas of fishermen. If the Councils were allowed to be more 
flexible when rebuilding a stock, nothing would change.
    The requirement to end overfishing immediately, to some degree, has 
hurt our coastal fishing communities' economies but not for the reasons 
you may think. Our economy failed in mid to late 2008, which was the 
same year the bag limits were reduced. Corporations stopped spending 
money entertaining and families stopped discretionary spending by not 
taking vacations while they rode out hard times. In the charter fishing 
industry, we changed from taking corporations and individuals wanting 
to fill their cooler, to taking mostly tourists and families fishing. 
The failed economy actually did me a favor, in that it allowed me to 
drill down and get focused on the tourism market that has grown each 
year. Even though charters that focused on mostly corporate trips lost 
their core business, they were like every other company in America who 
had to tighten their belts and redefine who their customers were.
    However, if we hadn't overfished in the first place, we wouldn't 
need rebuilding plans or the need to set low ACLs. Currently, Councils 
are able to set rebuilding timelines over the 10-year requirement if 
the stock is unable to rebuild in that time due to international 
treaties, environmental conditions, or the biology of the stock doesn't 
allow for it. As of the end of 2013, four species in the Gulf of Mexico 
are under rebuilding plans and over 90 stocks are of unknown or 
undefined population status.\1\ The rebuilding plan for red snapper is 
not scheduled to be completed until 2032 because of past fishing 
pressure and the long lifespan of the species. According to SEDAR 31, 
even if there was no fishing allowed at all, red snapper would still 
take 12 years to rebuild. However, while anglers are seeing a lot of 
red snapper out on the water, what we really have is an abundance of 5-
, 8- and 9-year-old with no older or younger fish. I understand that 
some stocks may warrant shorter rebuilding times based on the life 
cycle of the fish, but nobody logically believes that the red snapper 
fishery, where the fish live for five decades can be restored and 
become sustainable in just 6 short years.
---------------------------------------------------------------------------
    \1\ http://www.nrdc.org/oceans/files/rebuilding-fisheries-gulf.pdf, 
http://www.nmfs.noaa.gov/sfa/statusoffisheries/2013/fourth/
Q4%202013%20Stock%20Status%20Tables.pdf.
---------------------------------------------------------------------------
    While I would agree that some of the hard 10-year rebuilding 
timelines that were put in place to rebuild a particular fishery can 
seem restrictive and cause short-term economic challenges to the 
community, the rebuilding timelines set out in MSA are working and will 
ensure long-term success of our Nation's fisheries. By requiring 
Councils to keep some kind of hard number in the form of years, we are 
far better off than allowing a particular fishery to hang in limbo 
while rebuilding stretches out for years denying communities the 
economic benefits of a rebuilt stock.
    The draft bill would allow overfishing to continue for at least 3 
years if not more. By allowing a fishery to continue to undergo 
overfishing, it reminds me of the banking industry where we had someone 
who failed to pay their note which likely was going to result in a 
charge off. We always said, ``It doesn't make sense to put good money 
after bad money.'' This means if you recognize you have a loss, it's 
best to deal with it now because a loser today will be a loser 
tomorrow.
Economic Impacts of MSA
    Many charter boat operators, bait and tackle stores, marine 
industry partners, lodging companies, and restaurants all say that the 
recent series of short red snapper seasons have hurt our coastal 
economies. In my opinion, the economy failing in late 2008 and 
continuing for almost 3 years, had more of an impact on fishing than 
the supposed ``lack of flexibility'' in fisheries management did.
    According to a recent article in the Biloxi Sun Herald, the 
National Marine Manufacturers Association reported a 10 percent 
increase in new powerboat sales in 2012, 5 percent increase in 2013, 
and is predicting a 5-7 percent spike this coming year. Even with the 
restricted seasons of red snapper, sales are up because the fishery is 
rebuilding and there are big fish to catch. There are fish in the water 
due to the success of the rebuilding plan. In order for all coastal 
communities and businesses to continue to grow their businesses and 
make a profit, they must have abundant marine resources. There is 
flexibility in the current law and instead of allowing loopholes for 
establishing rebuilding requirements or eliminating ACLs, there should 
be more accountability.
Electronic Reporting/Accountability
    Section 8 of the discussion draft requires the Councils to work 
with the fishing industry and to develop regulations on the use of 
electronic monitoring and reporting. We all know that we must have the 
best tools to gather real time catch and effort data in order to have 
the best science. In the Gulf of Mexico for example, the approximate 
1,300 federally permitted charter boats prior to MSA being reauthorized 
in 2007, harvested as much as 60 percent of all recreationally caught 
red snapper. Since NOAA knows who these Federal permit holders are, 
this would be the easiest group of fishermen to control by requiring 
mandatory Vessel Monitoring Systems (VMS) be installed on their boats 
to capture real time catch and effort data.
    At recent Gulf Council outreach meetings held along the Gulf Coast, 
recreational anglers were asking to become accountable so they could do 
their part. By ensuring that charter boats are more accountable for the 
amount of fish they are harvesting, the Council would be taking steps 
to ensuring that the recreational sector could better stay within their 
ACL.
Regional Fishery Management Councils Makeup
    Even though the language in MSA has expired, I feel it is important 
to have balance on the Regional Fishery Management Councils. I would 
urge you to add the requirement to Section 302(b)(2)(d)(i) that 
requires governors from States who participate in the Council process 
to include at least one nominee each from the commercial, recreational, 
and charter fishing sectors and one other individual who is 
knowledgeable regarding conservation and management of our marine 
resources. This requirement should be added and made permanent.
Conflict of Interest between State and Federal Management
    Because fishing licenses are sold by coastal States to generate 
much needed revenue and the marine industry generates sales tax from 
saltwater fishing, it is important that MSA include language that 
requires State directors to abstain from voting on all allocation 
issues between Commercial, Recreational and Charter for Hire sectors.
Extending the 3-Mile Boundary Line to 9 Miles
    Section 10(f) of the discussion draft would extend State boundaries 
to 9 miles in all Gulf States for the purpose of managing red snapper.
    As I mentioned earlier, fish stocks close to shore are seeing 
localized depletion and we have to go farther offshore to catch quality 
fish. Even if we extended State boundaries to 9 miles and built 
artificial reefs to attract and hold fish, they too would be fished out 
sooner with the amount of fishing pressure in these areas. Currently, 
the larger 7 to 10-pound fish within the proposed 9-mile territory are 
mostly harvested by the second week of red snapper season each year. 
Because anglers want to catch larger fish, there will be temptation to 
go beyond the State boundary into the Exclusive Economic Zone (EEZ) 
where fishing pressure may be less but could lead to enforcement 
issues. If all Gulf States had 9 miles of State territorial waters, 
States would be encouraged to ignore the laws of our Nation and go 
noncompliant with Federal regulations causing even shorter Federal 
seasons for federally permitted charter boats and undue hardships on 
charter fishing families and further reduce non-boat owning Americans 
access to the fishery.
    In my professional opinion, since only Texas and the Gulf side of 
Florida have 9 miles of State waters, it makes sense (for the purposes 
of fishery management only), to revert their waters to be the same as 
every other coastal State in the union, which is 3 nautical miles. Why 
should Texas and Florida's anglers get preferential treatment and cause 
economic hardships on other Gulf Coast fishing communities because of 
the user conflict they create each year by going inconsistent with 
Federal fishing laws? Since National Standard 4 prohibits 
discrimination between residents of different States, I believe it is 
imperative that we make all coastal States natural resources 
boundaries, for the purpose of fisheries management only, equal. 
Florida and Texas set their red snapper seasons outside of the Federal 
seasons, which results in their private recreational anglers being able 
to fish when the other three Gulf States are unable to access the 
fishery. Their inconsistencies with Federal law and keeping seasons 
open longer than Federal seasons cause the rest of us to have fewer 
days to fish because their overages are taken off the top of the ACL 
for the next year. Furthermore, their overages of almost 4 million 
pounds per year are not being remanded as the Gulf Council has yet to 
put in any form of payback provision.
    Another reason to make all State waters only extend to 3 miles is 
that National Standard 3 requires that individual fish stocks shall be 
managed as a single unit throughout its range. By making all Gulf 
States boundaries consistent, this would make all States equal, none of 
the National Standards would be violated, and enforcement could be 
consistent. I believe these standards were put in place to protect us, 
so why are we allowing a Texas and Florida to violate them while 
causing economic hardship to the rest of the Nation's fishermen. To 
further complicate matters, the State of Louisiana who has a 3-mile 
boundary, has opened their red snapper season to an 88 weekend day 
weekends only format to private recreational angling.
    Because federally permitted charter boats must adhere to the 
stricter of the regulations because of Gulf Council Amendment 30b, 
Texas, Florida, and now Louisiana are causing an unnecessary economic 
hardship on other States fishing communities. If 30b was rescinded and 
the charter for hire sector was allowed to harvest red snapper in State 
waters outside of the Federal season, they would ultimately decimate 
the reef fish populations in those areas within a short period of time 
and create another violation of National Standard 8's conservation 
measures. Once those fish close to shore were harvested each year, we 
would see anglers venturing into Federal waters in search of fish, 
which would hurt the rebuilding of the fishery and causing an 
enforcement nightmare.
Charter for Hire Industry Designation
    Finally, we must amend section 407(c) that requires a referendum of 
a vote from recreational participants who held a permit during the time 
period of 1993 to 1996. This does not accurately reflect our current 
make up of the charter fishing industry. Section 407(d) needs to be 
amended so that separate ACLs can be established for both private 
recreational fisherman and the charter for hire fishermen. This way, 
when one sector is approaching their ACL, the other sector can continue 
fishing until their quota is met. Currently, recreational anglers are 
exceeding their ACL on red snapper in the Gulf by almost 4 million 
pounds per year. Through separate allocations, one sector would not get 
punished by the other sector's overages. The charter/for hire industry 
wants to become accountable and do their part to help rebuild our 
Nation's fisheries while maximizing non-boat owning America's angling 
opportunities. If you move State boundaries out to 9 miles, to 120 
fathoms or out to 200 nm, fishing communities would suffer while Gulf 
States argue over their individual allocations.
    With that respect, I request that language be added to MSA that 
recognizes, allocates, strengthens and protects the federally permitted 
charter for hire industry by requiring us to become accountable and 
adhere to an allocation based on historical landings. This way, we can 
stay within our ACL and not lose days to fish because of another user 
groups overages. By doing so, will ensure the non-boat owning public 
have equal access to America's public trust resources.
    In sum, growing up fishing on the Gulf Coast, I was fortunate to 
experience plentiful reef fisheries and pristine reefs. But two decades 
later, that fishing experience I knew was gone because of rampant 
overfishing and poor management of our fisheries resources. However 
today, with the reauthorizations of MSA in 1996 and 2006, we have begun 
to experience a turnaround in our fisheries. MSA's foundations of 
science-based catch limits, commitment to ending overfishing, and the 
incorporation of co-operative research have led to stocks like red 
snapper rebuilding at a rate faster than we expected. This success, 
however, does not mean our fight to recovery is over. Congress has the 
opportunity to build on the progress we have made in the last 20 years. 
While I understand the frustrations of communities who have experienced 
some economic consequences and that the 10-year timeline seems 
restrictive in some fisheries, the short-term gain that would result 
from the Hasting's draft should not outweigh the long-term 
sustainability of our Nation's fisheries.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
